A P P E N DI X

A P P E N DI X B
B- 1
C a s e: 2 0- 2 2 6 2

D o c u m e nt: 1 8

Fil e d: 0 7/ 1 5/ 2 0 2 0

P a g e s: 1

U NI T E D S T A T E S C O U R T O F A P P E A L S F O R T H E S E V E N T H CI R C UI T

E v er ett M c Ki nl e y Dir k s e n U nit e d St at e s C o urt h o u s e
R o o m 2 7 2 2 - 2 1 9 S. D e ar b or n Str e et
C hi c a g o, Illi n oi s 6 0 6 0 4

Offi c e of t h e Cl er k
P h o n e: ( 3 1 2) 4 3 5- 5 8 5 0
w w w. c a 7. u s c o urt s. g o v

O R DE R
J ul y 1 5, 2 0 2 0
B ef or e
DI A N E P. W O O D, Circ uit J u d ge
MI C H A E L B. B R E N N A N, Circ uit J u d ge
A M Y J. S T. E V E, Circ uit J u d ge
D A L E H A R T K E M E Y E R,
Pl ai ntiff - A p p ell a nt
and
N o. 2 0- 2 2 6 2

F A T H E R M A R K O' K E E F E,
I nt er v e ni n g Pl ai ntiff - A p p ell a nt
v.
WI L LI A M P. B A R R, Att o r n e y G e n er al of t h e U nit e d St at e s, et al.,
D ef e n d a nt s - A p p ell e e s

Ori gi n ati n g C a s e I nf or m ati o n:
Di stri ct C o urt N o: 2: 2 0- c v- 0 0 3 3 6-J M S- D L P
S o ut h er n Di stri ct of I n di a n a, T err e H a ut e Di vi si o n
Di stri ct J u d g e J a n e M a g n u s- Sti n s o n

T h e f oll o wi n g ar e b ef or e t h e c o urt:
1.

M O TI O N T O S T A Y E X E C U TI O N S P E N DI N G A P P E A L , fil e d b y c o u n s el
f or t h e a p p ell a nt s o n J ul y 1 4, 2 0 2 0.

2.

O P P O SI TI O N T O M O TI O N T O S T A Y E X E C U TI O N S P E N DI N G A P P E A L ,
fil e d b y c o u n s el f or t h e a p p ell e e s o n J ul y 1 5, 2 0 2 0.

3.

A P P E L L A N T S’ R E P L Y I N S U P P O R T O F M O TI O N T O S T A Y E X E C U TI O N S
P E N DI N G A P P E A L , fil e d b y c o u n s el f or t h e a p p ell a nt s o n J ul y 1 5, 2 0 2 0.

I T I S O R D E R E D t h at t h e M oti o n t o st a y t h e e x e c uti o n s i s D E NI E D .

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

A P P E N DI X C
C- 1
D o c u m e nt 8 4 Fil e d 0 7/ 1 4/ 2 0

P a g e 1 of 8 P a g eI D #: 8 9 2

U NI T E D S T A T E S DI S T RI C T C O U R T
S O U T H E R N DI S T RI C T O F I N DI A N A
T E R R E H A U T E DI VI SI O N
D A L E H A R T K E M E Y E R,

)
)
)
)
)
)
)
)
)
)
)
)
)
)

Pl ai ntiff,
v.
WI L LI A M P. B A R R, et al.
D ef e n d a nts.
F A T H E R M A R K O K E E F E,
I nt er v e n or Pl ai ntiff.
O r d e r D e n yi n g

N o. 2: 2 0 -c v -0 0 3 3 6 -J M S-D L P

Moti o n f o r P r eli mi n a r y I nj u n cti o n

Pl ai ntiff D al e H art k e m e y er fil e d t his ci vil ri g hts a cti o n c h all e n gi n g t h e d ef e n d a nts '
s c h e d uli n g of

W esl e y P ur k e y 's e x e c uti o n f or J ul y 1 5, 2 0 2 0 d uri n g t h e C O VI D -1 9 p a n d e mi c .

Mr. H art k e m e y er, w h o is Mr. P ur k e y's mi nist er of r e c or d, all e g es t h at t h e s c h e d ul e d e x e c uti o n
vi ol at es t h e R eli gi o us Fr e e d o m a n d R est or ati o n A ct of 1 9 9 3 ( " R F R A " ) a n d t h e A d mi nistr ati v e
Pr o c e d ur e A ct ( " t h e A P A") as it pl a c es hi m at s eri o us p ers o n al ris k d u e t o p ot e nti al e x p os ur e t o
t h e c or o n a vir us.
I nt er v e n or- pl ai ntiff F at h er M ar k O 'K e ef e c h all e n g es t h e d ef e n d a nts ' s c h e d uli n g of D usti n
L e e H o n k e n 's e x e c uti o n f or J ul y 1 7, 2 0 2 0. Fr. O'K e ef e, w h o is Mr.

H o n k e n's mi nist er of r e c or d ,

li k e wis e all e g es t h at t h e s c h e d ul e d e x e c uti o n vi ol at es R F R A a n d t h e A P A, a g ai n citi n g t h e
c oi n ci d e n c e of t h e e x e c uti o n a n d t h e C O VI D - 1 9 p a n d e mi c.
I.

B ac k gr o u n d

A f e d er al j ur y f o u n d Mr. P ur k e y g uilt y i n 2 0 0 3 of i nt erst at e ki d n a p pi n g, r a p e, a n d m ur d er,
a n d h e w as s e nt e n c e d t o d e at h. U nit e d St at es v. P ur k e y , 4 2 8 F. 3 d 7 3 8, 7 4 4 ( 8t h Cir. 2 0 0 5).
1

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

C- 2
D o c u m e nt 8 4 Fil e d 0 7/ 1 4/ 2 0

P a g e 2 of 8 P a g eI D #: 8 9 3

A f e d er al j ur y f o u n d Mr. H o n k e n g uilt y i n 2 0 0 4 of wit n ess t a m p eri n g, s oli citi n g t h e m ur d er
of a wit n ess, dr u g c o ns pir a c y m ur d er, a n d C o nti n ui n g Cri mi n al E nt er pris e ( C C E) m ur d er, a n d h e
w as s e n t e n c e d t o d e at h. U nit e d St at es v. H o n k e n , 5 4 1 F. 3 d 1 1 4 6, 1 1 4 8 – 4 9 ( 8t h Cir. 2 0 0 8).
O n J ul y 2 5, 2 0 1 9, at t h e dir e cti o n of d ef e n d a nt Att or n e y G e n er al
D e p art m e nt of J usti c e s et e x e c uti o n d at es f or fi v e f e d er al i n m at es, i n cl u di n g
Mr.

Willi a m B arr, t h e
Mr.

P ur k e y a n d

H o n k e n. T h os e e x e c uti o ns w er e st a y e d i n N o v e m b er 2 0 1 9 b y a pr eli mi n ar y i nj u n cti o n i n t h e

U nit e d St at es Distri ct C o urt f or t h e Distri ct of C ol u m bi a. I n r e M att er of F e d er al B ur e a u of
Pris o ns' E x e c uti o n Pr ot o c ol C as es , 2 0 1 9 W L 6 6 9 1 8 1 4, at * 8 ( D. D. C. N o v. 2 0, 2 0 1 9). O n A pril 7,
2 0 2 0, t h e Distri ct of C ol u m bi a Cir c uit C o urt of A p p e als v a c at e d t h e pr eli mi n ar y i nj u n cti o n. I n r e
M att er of F e d er al B ur e a u of Pris o ns ' E x e c uti o n Pr ot o c ol C as es , 9 5 5 F. 3 d 1 0 6, 1 1 3 ( D. C. Cir.
2 0 2 0), r e h'g d e ni e d , 9 5 5 F. 3 d 1 0 6 ( M a y 1 5, 2 0 2 0), c ert. d e ni e d , B o ur g e ois v. B arr , 2 0 2 0

WL

3 4 9 2 7 6 3 ( M e m. O p.) (J u n e 2 9, 2 0 2 0).
M e a n w hil e, t h e n o v el c or o n a vir us ( " C O VI D - 1 9 ") h as b e e n s pr e a di n g i n t h e U nit e d St at es
si n c e e arl y 2 0 2 0 . As of 1 2: 1 5 p. m. o n J ul y 1 2, 2 0 2 0, t h er e w er e 3, 2 3 6, 1 3 0 r e p ort e d c as es i n t h e
U nit e d St at es , i n cl u di n g 3 9 4, 2 2 4 c as es i n t h e p ast w e e k . C e nt ers f or Dis e as e C o ntr ol a n d
Pr e v e nti o n, C o vi d

D at a Tr a c k er, htt ps:// w w w. c d c. g o v/ c o vi d -d at a -tr a c k er/ # c as es (l ast visit e d

J ul y 1 2, 2 0 2 0). 1 3 4, 5 7 2 p e o pl e h a v e di e d fr o m t h e vir us i n t h e U nit e d St at es. I d. I n I n di a n a, t h er e
h a v e b e e n 5 1, 6 1 2 c o nfir m e d c as es, a n d 2, 5 6 7 p e o pl e h a v e di e d. I n di a n a C O VI D -1 9 D as h b o ar d,
htt ps:// w w w. c or o n a vir us.i n. g o v/ 2 3 9 3. ht m (l ast visit e d J ul y 1 2, 2 0 2 0).
O n J u n e 1 5, 2 0 2 0, wit h t h e B ur e a u of Pris o ns ( "B O P " ) ess e nti all y l o c k e d d o w n d u e t o t h e
C O VI D -1 9 p a n d e mi c, t h e D e p art m e nt of J usti c e a n n o u n c e d f o ur e x e c uti o n d at es, i n cl u di n g
Mr.

P ur k e y's o n J ul y 1 5, 2 0 2 0, a n d Mr. H o n k e n's o n J ul y 1 7, 2 0 2 0. S e e Pr ess R el e as e, D e p 't of

J usti c e, " E x e c uti o ns S c h e d ul e d f or F o ur F e d er al I n m at es C o n vi ct e d of M ur d eri n g C hil dr e n " (J u n e

2

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

C- 3
D o c u m e nt 8 4 Fil e d 0 7/ 1 4/ 2 0

P a g e 3 of 8 P a g eI D #: 8 9 4

1 5, 2 0 2 0), htt ps:// w w w.j usti c e . g o v/ o p a/ pr/ e x e c uti o ns-s c h e d ul e d-f o ur-f e d er al-i n m at es-c o n vi ct e d m ur d eri n g- c hil dr e n.
O n J ul y 1 1, 2 0 2 0, f o ur d a ys b ef or e Mr. P ur k e y's s c h e d ul e d e x e c uti o n a n d si x d a ys b ef or e
Mr.

H o n k e n's, a st aff m e m b er at F C C T err e H a ut e t est e d p ositi v e f or C O VI D-1 9 aft er visiti n g wit h

i n di vi d u als w h o als o t est e d p ositi v e. D kt. 7 7-1 at ¶ ¶ 4 − 5 ( Ri c k Wi nt er D e cl ar ati o n J ul y 1 2, 2 0 2 0).
T his offi c er l eft w or k o n J ul y 8 t o s elf- q u ar a nti n e. I d. at ¶ 4. B et w e e n his e x p os ur e a n d his
d e p art ur e, h e ( 1) " att e n d e d t h e l a w e nf or c e m e nt

m e eti n g wit h o utsi d e l a w e nf or c e m e nt i n

pr e p ar ati o n f or t h e s c h e d ul e d e x e c uti o ns " ; ( 2) " att e n d e d a m e eti n g r e g ar di n g t h e h a n dli n g of
d e m o nstr at ors at t h e s c h e d ul e d e x e c uti o ns " ; a n d ( 3) "att e n d e d t o a n iss u e at t h e S C U, " w h er e
Mr.

P ur k e y a n d Mr. H o n k e n ar e pr es e ntl y h el d. I d. at ¶ 6. H e " di d n ot w e ar a m as k at all ti m es

d uri n g t his p eri o d . " I d. at ¶ 7. W hil e t his st aff m e m b er di d n ot c o m e i nt o c o nt a ct wit h a n y m e m b ers
of t h e e x e c uti o n pr ot o c ol t e a m, t h e B O P h as n ot y et c o m pl et e d c o nt a ct tr a ci n g pr ot o c ols. I d. at ¶ 9.
A n d, d es pit e t his p ositi v e t est, t h e B O P h as n ot c h a n g e d its pl a n t o f or e g o t esti n g t h e e x e c uti o n
pr ot o c ol t e a m. D kt. 3 3-1 at ¶ 7 ( Ri c k

Wi nt er D e cl ar ati o n J ul y 6, 2 0 2 0) ( "B O P h as n o pl a ns t o

c o n d u ct C O VI D t esti n g o n i n di vi d u als i n v ol v e d i n t h e e x e c uti o n i n a d v a n c e of t h e e x e c uti o n. " );
d kt. 7 7- 1 ( " B O P will c o nti n u e t o p erf or m t h e

miti g ati o n

m e as ur es i d e ntifi e d i n

m y pri or

d e cl ar ati o n d at e d J ul y 6. " ).
II.

St a n d a r d f o r P r eli mi n a r y I nj u n cti o n

I n d e ci di n g w h et h er t o st a y a n e x e c uti o n, t h e C o urt m ust c o nsi d er: " ( 1) w h et h er t h e st a y
a p pli c a nt h as m a d e a str o n g s h o wi n g t h at h e is li k el y t o s u c c e e d o n t h e m erits; ( 2) w h et h er t h e
a p pli c a nt will b e irr e p ar a bl y i nj ur e d a bs e nt a st a y; ( 3) w h et h er iss u a n c e of t h e st a y will
s u bst a nti all y i nj ur e t h e ot h er p arti es i nt er est e d i n t h e pr o c e e di n g; a n d ( 4) w h er e t h e p u bli c i nt er est
li es." N k e n v. H ol d er , 5 5 6 U. S. 4 1 8, 4 3 4 ( 2 0 0 9). " T h e first t w o f a ct ors . . . ar e t h e m ost criti c al. " I d.

3

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

C- 4
D o c u m e nt 8 4 Fil e d 0 7/ 1 4/ 2 0

III.
A.

P a g e 4 of 8 P a g eI D #: 8 9 5

Dis c ussi o n

T h e Pl ai ntiffs H a v e N ot S h o w n M o r e t h a n a N e gli gi bl e Li k eli h o o d of S u c c ess
o n T h ei r R F R A Cl ai ms.

As t h e st at ut e its elf e x pl ai ns, C o n gr ess e n a ct e d R F R A " t o r est or e t h e c o m p elli n g i nt er est
t est as s et f ort h i n S h er b ert v. V er n er , 3 7 4 U. S. 3 9 8 ( 1 9 6 3) a n d Wis c o nsi n v. Y o d er , 4 0 6 U. S. 2 0 5
( 1 9 7 2) a n d t o g u ar a nt e e its a p pli c ati o n i n all c as es w h er e fr e e e x er cis e of r eli gi o n is s u bst a nti all y
b ur d e n e d. " 4 2 U. S. C. § 2 0 0 0 b b( b)( 1). C o urts e v al u at e R F R A cl ai ms usi n g a f o ur -p art t est.
T h e pl ai ntiff

m ust s h o w t h at a c h all e n g e d g o v er n m e nt a cti o n ( 1) s u bst a nti all y b ur d e ns

( 2) t h e pl ai ntiff 's si n c er el y h el d r eli gi o us b eli ef. B ur w ell v. H o b b y L o b b y St or es, I n c. , 5 7 3 U. S.
6 8 2, 6 9 1 − 9 2 ( 2 0 1 4). If t h e pl ai ntiff m a k es t h e r e q uir e d s h o wi n gs, t h e n t h e d ef e n d a nt m ust s h o w
t h at t he g o v er n m e nt a cti o n ( 3) is n e c essit at e d b y a c o m p elli n g g o v er n m e nt al i nt er est a n d
( 4) c o nstit ut es t h e l e ast r estri cti v e m e a ns t o s atisf y t h at i nt er est. I d.
T h e d ef e n d a nts d o n ot dis p ut e f or p ur p os es of t his m oti o n t h at Mr. H art k e m e y er 's a n d
Fr. O'K e ef e 's si n c er el y h el d r eli gi o us b eli efs r e q uir e t h e m t o att e n d t o t h e s pirit u al n e e ds of
Mr. P ur k e y a n d

Mr. H o n k e n, r es p e cti v el y, as t h es e m e n f a c e e x e c uti o n. T h e

d ef e n d a nts d o,

h o w e v er, ar g u e t h at t h e g o v er n m e nt h as i m p os e d n o s u bst a nti al b ur d e n o n t h e pl ai ntiff s' fr e e
e x er cis e of t h os e b eli efs b e c a us e t h e pl ai ntiffs ar e " n ot t h e ms el v es t h e s u bj e ct of g o v er n m e nt
r e g ul ati o n. " D kt. 3 3 at 1 1 ; i d. at 1 3 ( " [ T]h e o nl y i m p e di m e nt R e v. H art k e m e y er i d e ntifi es—t h e
gl o b al p a n d e mi c —is n ot o n e of t h e G o v er n m e nt' s m a ki n g. " ).
T o s h o w a g o v er n m e nt -cr e at e d s u bst a nti al b ur d e n, a pl ai ntiff

m ust i d e ntif y s o m e

g o v er n m e nt a cti o n wit h a "t e n d e n c y t o c o er c e i n di vi d u als i nt o a cti n g c o ntr ar y t o t h eir r eli gi o us
b eli efs. " L y n g v. N w. I n di a n C e m et er y Pr ot e cti v e Ass' n , 4 8 5 U. S. 4 3 9, 4 5 0 ( 1 9 8 8). Th e m er e
s c h e d uli n g of a n e x e c uti o n i m p os es n o o bli g ati o n or r estri cti o n o n t h e r eli gi o us a d vis or w h o m t h e
c o n d e m n e d pris o n er h as s el e ct e d t o att e n d. A n d t h e pl ai ntiffs' cl ai ms as st at e d i n t h eir c o m pl ai nt
4

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

r est e ntir el y o n t h e s etti n g of Mr.

C- 5
D o c u m e nt 8 4 Fil e d 0 7/ 1 4/ 2 0

P ur k e y's a n d Mr.

P a g e 5 of 8 P a g eI D #: 8 9 6

H o n k e n's e x e c uti o n d at es d uri n g t h e p a n d e mi c .

A c c or di n gl y, t h e pl ai ntiffs h a v e n ot s h o w n m or e t h a n a n e gli gi bl e li k eli h o o d of d e m o nstr ati n g a
s u bst a nti al b ur d e n o n t h eir r eli gi o us b eli efs, as r e q uir e d t o pr e v ail o n t h eir R F R A cl ai ms.
T h e C o urt n ot es t h at t h e pl ai ntiffs, i n liti g ati n g t h e ir m oti o ns f or pr eli mi n ar y i nj u n cti o n,
h a v e i n cr e asi n gl y f o c us e d o n t h e b ur d e ns i m p os e d o n t h e m as a r es ul t of all e g e d i n a d e q u a ci es of
pr ot e cti v e m e as ur es u n d er t h e r e g ul ati o ns a n d pr ot o c ols g o v er ni n g t h eir b e h a vi or — a n d r e q uiri n g
v ari o us i nt er a cti o ns wit h pris o n st aff — d ur i n g t h e ex e c uti o n pr o c ess. S e e , e. g. , d kt. 8 2 at 4 ( " T h e
G o v er n m e nt’s f ail ur es t o e ns ur e c o m pli a n c e wit h its o nl y li mit e d C O VI D -1 9 pr ot o c ols ar e a n
e q u al c a us e f or c o n c er n. ") 1 . B ut t h e pl ai ntiffs' c o m pl ai nts all e g e o nl y t h at t h e s c h e d uli n g of
e x e c uti o ns vi ol at e d

R F R A a n d t he

A P A. T h e y ar e n ot s e e ki n g a n i nj u n cti o n r e q uiri n g

d ef e n d a nts t o pr o vi d e a n y a d diti o n al pr ot e cti v e

m e a s ur es f or pl ai ntiffs' p ers o n al s af et y.

I n d e e d, t h e o nl y r eli ef t h e y s e e k is p ost p o n e m e nt of Mr. P ur k e y 's a n d Mr.

H o n k e n's e x e c uti o ns

u ntil a tr e at m e nt or v a c ci n e f or C O VI D - 1 9 is wi d el y a v ail a bl e. Gi v e n r e c e nt d e v el o p m e nts, s e e
P et ers o n v. B arr , --- F. 3 d ----, ----, 2 0 2 0 W L 3 9 5 5 9 5 1, at * 2 ( 7t h Cir. 2 0 2 0) ( "[ I]f t h e B O P
o bs er v es t h e mi ni m al r e q uir e m e nts i n t h e r e g ul ati o n . . . t h e n it h as t h e u n c o nstr ai n e d dis cr eti o n
t o c h o os e a d at e f or t h e e x e c uti o n. "); B arr v. L e e , 5 9 1 U. S. ---, ---, N o. 2 0 A 8 (J ul y 1 4, 2 0 2 0) ( p er
c uri a m), t h e li k eli h o o d of s u c c ess o n t his r e m e d y s e e ms v a nis hi n gl y s m all. If t h e pl ai ntiffs wis h t o
liti g at e s o m e ot h er cl ai m , or s e e k diff er e nt r eli ef, t h e y m ust first a m e n d t h eir c o m pl ai nts.
B.

T h e Pl ai n tiffs H a v e N ot S h o w n M o r e t h a n a N e gli gi bl e Li k eli h o o d of S u c c ess
o n T h ei r A P A Cl ai ms.

" T h e A P A 'sets f ort h t h e pr o c e d ur es b y w hi c h f e d er al a g e n ci es ar e a c c o u nt a bl e t o t h e p u bli c
a n d t h eir a cti o ns s u bj e ct t o r e vi e w b y t h e c o urts.' " D e p 't of H o m el a n d S e c. v. R e g e nts of t h e U ni v.

1

T h e C o urt is mi n df ul t h at pl ai ntiffs w er e n ot a d vis e d b y t h e d ef e n d a nts as t o t h e C O VI D - 1 9
pr e c a uti o n ar y m e as ur es f or s pirit u al a d vis ors u ntil aft er t h e i niti al c o m pl ai nt w as fil e d .
5

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

C- 6
D o c u m e nt 8 4 Fil e d 0 7/ 1 4/ 2 0

P a g e 6 of 8 P a g eI D #: 8 9 7

of C alif or ni a , 1 4 0 S. Ct. 1 8 9 1, 1 9 0 5 ( 2 0 2 0) ( q u oti n g Fr a n kli n v. M ass a c h us etts , 5 0 5 U. S. 7 8 8, 7 9 6
( 1 9 9 2)). "A p ers o n s uff eri n g l e g al wr o n g b e c a us e of a g e n c y a cti o n, or a d v ers el y aff e ct e d or
a g gri e v e d b y a g e n c y a cti o n wit hi n t h e m e a ni n g of a r el e v a nt st at ut e, is e ntitl e d t o j u di ci al r e vi e w
t h er e of." 5 U. S. C. § 7 0 2.
W h e n a n a g e n c y a cti o n is s u bj e ct t o r e vi e w, a distri ct c o urt m a y " h ol d [it] u nl a wf ul a n d s et
[it] asi d e" f or a n u m b er of r e as o ns. 5 U. S. C. § 7 06( 2). T h e pl ai ntiffs as k t h e C o urt t o h ol d u nl a wf ul
a n d s et asi d e t h e g o v er n m e nt' s s c h e d uli n g of Mr. P ur k e y 's e x e c uti o n o n J ul y 1 5, 2 0 2 0, a n d
Mr.

H o n k e n's o n J ul y 1 7, 2 0 2 0, as ar bitr ar y a n d c a pri ci o us i n vi ol ati o n of 5 U. S. C. § 7 0 6( 2)( A).
T h e S e v e nt h Cir c uit r e c e ntl y h el d t h at, asi d e fr o m s p e cifi c r e g ul ati o ns u p o n w hi c h t h e

pl ai ntiffs d o n ot r el y, t h e B O P h as " u n c o nstr ai n e d dis cr eti o n " t o s et a n e x e c uti o n d at e. P et ers o n ,
--- F. 3 d at ----, 2 0 2 0 W L 3 9 5 5 9 5 1, at * 2. T h e pl ai ntiffs t h er ef or e h a v e n o m or e t h a n a n e gli gi bl e
c h a n c e of s u c c ess i n s h o wi n g t h at t h e d ef e n d a nts vi ol at e d t h e A P A i n c h o osi n g Mr.
Mr.

P ur k e y's a n d

H o n k e n's e x e c uti o n d at es.
C.

R e m ai ni n g P r eli mi n a r y I nj u n cti o n F a ct o rs

Gi v e n t h e pl ai ntiffs' sli m c h a n c es of s u c c ess, t h e C o urt n e e d n ot a d dr ess t h e ot h er f a ct ors
f or gr a ntin g a n i nj u n cti o n. S e e G E F T O ut d o ors, L L C v. Cit y of W estfi el d , 9 2 2 F. 3 d 3 5 7, 3 6 4
( 7t h Cir. 2 0 1 9) (li k eli h o o d of s u c c ess is a "t hr es h ol d r e q uir e m e nt[], " a n d a c o urt m ust d e n y t h e
pr eli mi n ar y i nj u n cti o n if t h e pl ai ntiff f ails t o s atisf y it).

IV.

C o n cl usi o n

Mr. H art k e m e y er's m oti o n f or pr eli mi n ar y i nj u n cti o n, d kt. [ 6], a n d Fr. O' K e ef e 's m oti o n f or
pr eli mi n ar y i nj u n cti o n, d kt. [ 6 0], ar e d e ni e d .
I T I S S O O R D E R E D.
D at e: 7/ 1 4/ 2 0 2 0

6

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

C- 7
D o c u m e nt 8 4 Fil e d 0 7/ 1 4/ 2 0

Distri b uti o n:
Mi c h ell e B e hr e ns
R OPES & G R A Y LLP
mi c h ell e. b e hr e ns @r o p es gr a y. c o m
M ari a G. C al v et
R OPES & G R A Y LLP
m ari a. c al v et @r o p es gr a y. c o m
A bi g ail A. Cl a p p
G R E E N B E R G T R A U RI G L L P
cl a p p a @ gtl a w. c o m
J o h n T. D e y
R OPES & G R A Y LLP
j o h n. d e y @r o p es gr a y. c o m
D a vi d C. F at hi
N A TI O N A L P RI S O N P R OJ E C T O F T H E A C L U
df at hi @ n p p -a cl u. or g
A m y Fl y
A m eri c a n Ci vil Li b erti es U ni o n
afl y @ a cl u. or g
K yl e R. Fr e e n y
Gr e e n b er g Tr a uri p, L L P
2 1 0 1 L Str e et, N. W.
W as hi n gt o n, D C 2 0 0 2 7
D o u gl as H all w ar d -Dri e m ei er
R OPES & G R A Y LLP
d o u gl as. h all w ar d -dri e m ei er @r o p es gr a y. c o m
Mi c h a el M. Kr a us
Gr e e n b er g Tr a uri g, L L P
9 0 S o ut h S e v e nt h Str e et
S uit e 3 5 0 0
Mi n n e a p olis, M N 5 5 4 0 2
H o w ar d B a k er K urr us
H. B a k er K urr us, P L L C
b k urr us @ a ol. c o m
7

P a g e 7 of 8 P a g eI D #: 8 9 8

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

C- 8
D o c u m e nt 8 4 Fil e d 0 7/ 1 4/ 2 0

D a ni el M a c h
A M E RI C A N CI VI L LI B E R TI E S U NI O N
d m a c h @ a cl u. or g
C ass a n dr a St u b bs
A M E RI C A N CI VI L LI B E R TI E S U NI O N
cst u b bs @ a cl u. or g
H e at h er L. W e a v er
A M E RI C A N CI VI L LI B E R TI E S U NI O N
h w e a v er @ a cl u. or g
J e n nif er W e d e ki n d
A m eri c a n Ci vil Li b erti es U ni o n F o u n d ati o n
j w e d e ki n d @ a cl u. or g
S h el es e M. W o o ds
U NI T E D S T A T E S A T T O R N E Y 'S O F FI C E (I n di a n a p olis)
s h el es e. w o o ds @ us d oj. g o v

8

P a g e 8 of 8 P a g eI D #: 8 9 9

A P P E N DI X D
D- 1
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 9 0

Fil e d 0 7/ 1 4/ 2 0

P a g e 1 of 3 P a g eI D #: 9 7 9

U NI T E D S T A T E S DI S T RI C T C O U R T
S O U T H E R N DI S T RI C T O F I N DI A N A
T E R R E H A U T E DI VI SI O N
D A L E H A R T K E M E Y E R,
Pl ai ntiff,
v.
WI L LI A M P. B A R R, et al.
D ef e n d a nts.
F A T H E R M A R K O K E E F E,
I nt er v e n or Pl ai ntiff.

)
)
)
)
)
)
)
)
)
)
)
)
)
)

N o. 2: 2 0 -c v -0 0 3 3 6 -J M S-D L P

O r d e r D e n yi n g M oti o n t o St a y P e n di n g A p p e al
O n J ul y 1 4, 2 0 2 0, t h e C o urt d e ni e d pl ai ntiff D al e H art k e m e y er's a n d pl ai ntiff F at h er M ar k
O' K e ef e's r es p e cti v e m oti o ns f or pr eli mi n ar y i nj u n cti o n. D kt . 8 4. N o w, th e pl ai ntiffs h a v e fil e d a
n oti c e of a p p e al a n d m oti o n t o st a y p e n di n g a p p e al. D kts. 8 5, 8 9.
T h e m oti o n t o st a y p e n di n g a p p e al s u m m ari z es t h e ar g u m e nts r ais e d i n t h e pl ai ntiffs'
bri efi n g of t h eir m oti o ns f or pr eli mi n ar y i nj u n cti o n. F or t h e r e as o ns st at e d i n t h e C o urt's or d er
d e n yi n g pr eli mi n ar y i nj u n cti o n, d kt. 8 4, t h e m oti o n t o st a y p e n di n g a p p e al, d kt. [ 8 9], is d e ni e d .
I T I S S O O R D E R E D.
DDate:
at e: 7/
1 4/ 2 0 2 0
7/14/2020

Distri b uti o n:
Mi c h ell e B e hr e ns
R OPES & G R A Y LLP
mi c h ell e. b e hr e ns @r o p es gr a y. c o m

D- 2
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 9 0

M ari a G. C al v et
R OPES & G R A Y LLP
m ari a. c al v et @r o p es gr a y. c o m
A bi g ail A. Cl a p p
G R E E N B E R G T R A U RI G L L P
cl a p p a @ gtl a w. c o m
J o h n T. D e y
R OPES & G R A Y LLP
j o h n. d e y @r o p es gr a y. c o m
D a vi d C. F at hi
N A TI O N A L P RI S O N P R OJ E C T O F T H E A C L U
df at hi @ n p p -a cl u. or g
A m y Fl y
A m eri c a n Ci vil Li b erti es U ni o n
afl y @ a cl u. or g
K yl e R. Fr e e n y
Gr e e n b er g Tr a uri p, L L P
fr e e n y k @ gtl a w. c o m
D o u gl as H all w ar d -Dri e m ei er
R OPES & G R A Y LLP
d o u gl as. h all w ar d -dri e m ei er @r o p es gr a y. c o m
Mi c h a el M. Kr a uss
Gr e e n b er g Tr a uri g, L L P
kr a uss m @ gtl a w. c o m
H o w ar d B a k er K urr us
H. B a k er K urr us, P L L C
b k urr us @ a ol. c o m
D a ni el M a c h
A M E RI C A N CI VI L LI B E R TI E S U NI O N
d m a c h @ a cl u. or g
C ass a n dr a St u b bs
A M E RI C A N CI VI L LI B E R TI E S U NI O N
cst u b bs @ a cl u. or g
H e at h er L. W e a v er
A M E RI C A N CI VI L LI B E R TI E S U NI O N

Fil e d 0 7/ 1 4/ 2 0

P a g e 2 of 3 P a g eI D #: 9 8 0

D- 3

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 9 0

Fil e d 0 7/ 1 4/ 2 0

h w e a v er @ a cl u. or g
J e n nif er W e d e ki n d
A m eri c a n Ci vil Li b erti es U ni o n F o u n d ati o n
j w e d e ki n d @ a cl u. or g
S h el es e M. W o o ds
U NI T E D S T A T E S A T T O R N E Y' S O F FI C E (I n di a n a p olis)
s h el es e. w o o ds @ us d oj. g o v

P a g e 3 of 3 P a g eI D #: 9 8 1

A P P E N DI X E
E- 1

P a g e 4815

TI T L E 4 2 — T H E P U B LI C

( b) P u r p o s e s
T h e p u r p o s e s of t hi s c h a p t e r a r e —
( 1) t o r e s t o r e t h e c o m p elli n g i n t e r e s t t e s t a s
s e t f o r t h i n S h e r b e r t v. V e r n e r, 3 7 4 U. S. 3 9 8
( 1 9 6 3) a n d Wi s c o n si n v. Y o d e r, 4 0 6 U. S. 2 0 5
( 1 9 7 2) a n d t o g u a r a n t e e i t s a p pli c a ti o n i n all
c a s e s w h e r e f r e e e x e r ci s e of r eli gi o n i s s u bs t a n ti all y b u r d e n e d; a n d
( 2) t o p r o vi d e a cl ai m o r d ef e n s e t o p e r s o n s
w h o s e r eli gi o u s e x e r ci s e i s s u b s t a n ti all y b u rd e n e d b y g o v e r n m e n t.
( P u b. L. 1 0 3 – 1 4 1, § 2, N o v. 1 6, 1 9 9 3, 1 0 7 S t a t. 1 4 8 8.)
R EFE RE NCES I N T E XT
T hi s c h a p t e r, r ef e r r e d t o i n s u b s e c. ( b), w a s i n t h e
o ri gi n al ‘‘ t hi s A c t’’, m e a ni n g P u b. L. 1 0 3 – 1 4 1, N o v. 1 6,
1 9 9 3, 1 0 7 S t a t. 1 4 8 8, w hi c h i s cl a s sifi e d p ri n ci p all y t o
t hi s c h a p t e r. F o r c o m pl e t e cl a s sifi c a ti o n of t hi s A c t t o
t h e C o d e, s e e S h o r t Ti tl e n o t e b el o w a n d T a bl e s.
C O N S TI T U TI O N A LI T Y
F o r c o n s ti t u ti o n ali t y of s e c ti o n 2 of P u b. L. 1 0 3 – 1 4 1,
s e e C o n g r e s si o n al R e s e a r c h S e r vi c e, T h e C o n s ti t u ti o n
of t h e U ni t e d S t a t e s of A m e ri c a: A n al y si s a n d I n t e r p r et a ti o n, A p p e n di x 1, A c t s of C o n g r e s s H el d U n c o n s ti t uti o n al i n W h ol e o r i n P a r t b y t h e S u p r e m e C o u r t of t h e
U ni t e d S t a t e s.
S HO RT T ITLE
P u b. L. 1 0 3 – 1 4 1, § 1, N o v. 1 6, 1 9 9 3, 1 0 7 S t a t. 1 4 8 8, p r ovi d e d t h a t: ‘‘ T hi s A c t [ e n a c ti n g t hi s c h a p t e r a n d
a m e n di n g s e c ti o n 1 9 8 8 of t hi s ti tl e a n d s e c ti o n 5 0 4 of
Ti tl e 5, G o v e r n m e n t O r g a ni z a ti o n a n d E m pl o y e e s] m a y
b e ci t e d a s t h e ‘ R eli gi o u s F r e e d o m R e s t o r a ti o n A c t of
1 9 9 3’.’’
E X . O R D . N O . 1 3 7 9 8. P R O M O T I N G F R E E S P E E C H A N D
R E LI GI O U S L I B E R T Y
E x. O r d. N o. 1 3 7 9 8, M a y 4, 2 0 1 7, 8 2 F. R. 2 1 6 7 5, p r o vi d e d:
B y t h e a u t h o ri t y v e s t e d i n m e a s P r e si d e n t b y t h e
C o n s ti t u ti o n a n d t h e l a w s of t h e U ni t e d S t a t e s of
A m e ri c a, i n o r d e r t o g ui d e t h e e x e c u ti v e b r a n c h i n f o rm ul a ti n g a n d i m pl e m e n ti n g p oli ci e s wi t h i m pli c a ti o n s
f o r t h e r eli gi o u s li b e r t y of p e r s o n s a n d o r g a ni z a ti o n s i n
A m e ri c a, a n d t o f u r t h e r c o m pli a n c e wi t h t h e C o n s ti t uti o n a n d wi t h a p pli c a bl e s t a t u t e s a n d P r e si d e n ti al Dir e c ti v e s, i t i s h e r e b y o r d e r e d a s f oll o w s:
S E C T I O N 1. P oli c y . I t s h all b e t h e p oli c y of t h e e x e c uti v e b r a n c h t o vi g o r o u sl y e nf o r c e F e d e r al l a w’ s r o b u s t
p r o t e c ti o n s f o r r eli gi o u s f r e e d o m. T h e F o u n d e r s e n visi o n e d a N a ti o n i n w hi c h r eli gi o u s v oi c e s a n d vi e w s
w e r e i n t e g r al t o a vi b r a n t p u bli c s q u a r e, a n d i n w hi c h
r eli gi o u s p e o pl e a n d i n s ti t u ti o n s w e r e f r e e t o p r a c ti c e
t h ei r f ai t h wi t h o u t f e a r of di s c ri mi n a ti o n o r r e t ali a ti o n
b y t h e F e d e r al G o v e r n m e n t. F o r t h a t r e a s o n, t h e
U ni t e d S t a t e s C o n s ti t u ti o n e n s h ri n e s a n d p r o t e c t s t h e
f u n d a m e n t al ri g h t t o r eli gi o u s li b e r t y a s A m e ri c a n s’
fi r s t f r e e d o m. F e d e r al l a w p r o t e c t s t h e f r e e d o m of
A m e ri c a n s a n d t h ei r o r g a ni z a ti o n s t o e x e r ci s e r eli gi o n
a n d p a r ti ci p a t e f ull y i n ci vi c lif e wi t h o u t u n d u e i n t e rf e r e n c e b y t h e F e d e r al G o v e r n m e n t. T h e e x e c u ti v e
b r a n c h will h o n o r a n d e nf o r c e t h o s e p r o t e c ti o n s.
S E C . 2. R e s p e cti n g R eli gi o u s a n d P oliti c al S p e e c h . All e xe c u ti v e d e p a r t m e n t s a n d a g e n ci e s ( a g e n ci e s) s h all, t o
t h e g r e a t e s t e x t e n t p r a c ti c a bl e a n d t o t h e e x t e n t p e rmi t t e d b y l a w, r e s p e c t a n d p r o t e c t t h e f r e e d o m of p e rs o n s a n d o r g a ni z a ti o n s t o e n g a g e i n r eli gi o u s a n d p oli ti c al s p e e c h. I n p a r ti c ul a r, t h e S e c r e t a r y of t h e T r e a su r y s h all e n s u r e, t o t h e e x t e n t p e r mi t t e d b y l a w, t h a t
t h e D e p a r t m e n t of t h e T r e a s u r y d o e s n o t t a k e a n y a dv e r s e a c ti o n a g ai n s t a n y i n di vi d u al, h o u s e of w o r s hi p,
o r o t h e r r eli gi o u s o r g a ni z a ti o n o n t h e b a si s t h a t s u c h
i n di vi d u al o r o r g a ni z a ti o n s p e a k s o r h a s s p o k e n a b o u t
m o r al o r p oli ti c al i s s u e s f r o m a r eli gi o u s p e r s p e c ti v e,
w h e r e s p e e c h of si mil a r c h a r a c t e r h a s, c o n si s t e n t wi t h
l a w, n o t o r di n a ril y b e e n t r e a t e d a s p a r ti ci p a ti o n o r

H E A L T H

A N D

W E L F A R E

§ 2 0 0 0 b b– 2

i n t e r v e n ti o n i n a p oli ti c al c a m p ai g n o n b e h alf of ( o r i n
o p p o si ti o n t o) a c a n di d a t e f o r p u bli c offi c e b y t h e D ep a r t m e n t of t h e T r e a s u r y. A s u s e d i n t hi s s e c ti o n, t h e
t e r m ‘‘ a d v e r s e a c ti o n’’ m e a n s t h e i m p o si ti o n of a n y t a x
o r t a x p e n al t y; t h e d el a y o r d e ni al of t a x- e x e m p t
s t a t u s; t h e di s all o w a n c e of t a x d e d u c ti o n s f o r c o n t ri b uti o n s m a d e t o e n ti ti e s e x e m p t e d f r o m t a x a ti o n u n d e r
s e c ti o n 5 0 1( c)( 3) of ti tl e 2 6, U ni t e d S t a t e s C o d e; o r a n y
o t h e r a c ti o n t h a t m a k e s u n a v ail a bl e o r d e ni e s a n y t a x
d e d u c ti o n, e x e m p ti o n, c r e di t, o r b e n efi t.
S E C . 3. C o n s ci e n c e P r ot e cti o n s wit h R e s p e ct t o P r e v e nti v e- C a r e M a n d at e . T h e S e c r e t a r y of t h e T r e a s u r y, t h e
S e c r e t a r y of L a b o r, a n d t h e S e c r e t a r y of H e al t h a n d
H u m a n S e r vi c e s s h all c o n si d e r i s s ui n g a m e n d e d r e g ul ati o n s, c o n si s t e n t wi t h a p pli c a bl e l a w, t o a d d r e s s c o ns ci e n c e- b a s e d o bj e c ti o n s t o t h e p r e v e n ti v e- c a r e m a nd a t e p r o m ul g a t e d u n d e r s e c ti o n 3 0 0 g g – 1 3( a)( 4) of ti tl e
4 2, U ni t e d S t a t e s C o d e.
S E C . 4. R eli gi o u s Li b e rt y G ui d a n c e . I n o r d e r t o g ui d e all
a g e n ci e s i n c o m pl yi n g wi t h r el e v a n t F e d e r al l a w, t h e
A t t o r n e y G e n e r al s h all, a s a p p r o p ri a t e, i s s u e g ui d a n c e
i n t e r p r e ti n g r eli gi o u s li b e r t y p r o t e c ti o n s i n F e d e r al
l a w.
S E C . 5. S e v e r a bilit y . If a n y p r o vi si o n of t hi s o r d e r, o r
t h e a p pli c a ti o n of a n y p r o vi si o n t o a n y i n di vi d u al o r
ci r c u m s t a n c e, i s h el d t o b e i n v ali d, t h e r e m ai n d e r of
t hi s o r d e r a n d t h e a p pli c a ti o n of i t s o t h e r p r o vi si o n s t o
a n y o t h e r i n di vi d u al s o r ci r c u m s t a n c e s s h all n o t b e aff e c t e d t h e r e b y.
S E C . 6. G e n e r al P r o vi si o n s . ( a) N o t hi n g i n t hi s o r d e r
s h all b e c o n s t r u e d t o i m p ai r o r o t h e r wi s e aff e c t:
(i) t h e a u t h o ri t y g r a n t e d b y l a w t o a n e x e c u ti v e d ep a r t m e n t o r a g e n c y, o r t h e h e a d t h e r e of; o r
(ii) t h e f u n c ti o n s of t h e Di r e c t o r of t h e Offi c e of M a na g e m e n t a n d B u d g e t r el a ti n g t o b u d g e t a r y, a d mi ni s t r ati v e, o r l e gi sl a ti v e p r o p o s al s.
( b) T hi s o r d e r s h all b e i m pl e m e n t e d c o n si s t e n t wi t h
a p pli c a bl e l a w a n d s u bj e c t t o t h e a v ail a bili t y of a p p r op ri a ti o n s.
( c) T hi s o r d e r i s n o t i n t e n d e d t o, a n d d o e s n o t, c r e a t e
a n y ri g h t o r b e n efi t, s u b s t a n ti v e o r p r o c e d u r al, e nf o r c ea bl e a t l a w o r i n e q ui t y b y a n y p a r t y a g ai n s t t h e
U ni t e d S t a t e s, i t s d e p a r t m e n t s, a g e n ci e s, o r e n ti ti e s,
i t s offi c e r s, e m pl o y e e s, o r a g e n t s, o r a n y o t h e r p e r s o n.
D O N A L D J. T R U M P .

§ 2 0 0 0 b b – 1. F r e e e x e r ci s e of r eli gi o n p r o t e c t e d
( a) I n g e n e r al
G o v e r n m e n t s h all n o t s u b s t a n ti all y b u r d e n a
p e r s o n’ s e x e r ci s e of r eli gi o n e v e n if t h e b u r d e n
r e s ul t s f r o m a r ul e of g e n e r al a p pli c a bili t y, e xc e p t a s p r o vi d e d i n s u b s e c ti o n ( b).
( b) E x c e p ti o n
G o v e r n m e n t m a y s u b s t a n ti all y b u r d e n a p e rs o n’ s e x e r ci s e of r eli gi o n o nl y if i t d e m o n s t r a t e s
t h a t a p pli c a ti o n of t h e b u r d e n t o t h e p e r s o n —
( 1) i s i n f u r t h e r a n c e of a c o m p elli n g g o v e r nm e n t al i n t e r e s t; a n d
( 2) i s t h e l e a s t r e s t ri c ti v e m e a n s of f u r t h e ri n g t h a t c o m p elli n g g o v e r n m e n t al i n t e r e s t.
( c) J u di ci al r eli ef
A p e r s o n w h o s e r eli gi o u s e x e r ci s e h a s b e e n
b u r d e n e d i n vi ol a ti o n of t hi s s e c ti o n m a y a s s e r t
t h a t vi ol a ti o n a s a cl ai m o r d ef e n s e i n a j u di ci al
p r o c e e di n g a n d o b t ai n a p p r o p ri a t e r eli ef a g ai n s t
a g o v e r n m e n t. S t a n di n g t o a s s e r t a cl ai m o r d ef e n s e u n d e r t hi s s e c ti o n s h all b e g o v e r n e d b y t h e
g e n e r al r ul e s of s t a n di n g u n d e r a r ti cl e I I I of t h e
C o n s ti t u ti o n.
( P u b. L. 1 0 3 – 1 4 1, § 3, N o v. 1 6, 1 9 9 3, 1 0 7 S t a t. 1 4 8 8.)
§ 2 0 0 0 b b – 2. D efi ni ti o n s
A s u s e d i n t hi s c h a p t e r —

E- 2

§ 2 0 0 0 b b– 3

TI T L E 4 2 — T H E P U B LI C

( 1) t h e t e r m ‘‘ g o v e r n m e n t’’ i n cl u d e s a
b r a n c h, d e p a r t m e n t, a g e n c y, i n s t r u m e n t ali t y,
a n d offi ci al ( o r o t h e r p e r s o n a c ti n g u n d e r c ol o r
of l a w) of t h e U ni t e d S t a t e s, o r of a c o v e r e d
e n ti t y;
( 2) t h e t e r m ‘‘ c o v e r e d e n ti t y’’ m e a n s t h e Di st ri c t of C ol u m bi a, t h e C o m m o n w e al t h of P u e rt o Ri c o, a n d e a c h t e r ri t o r y a n d p o s s e s si o n of
t h e U ni t e d S t a t e s;
( 3) t h e t e r m ‘‘ d e m o n s t r a t e s’’ m e a n s m e e t s
t h e b u r d e n s of g oi n g f o r w a r d wi t h t h e e vi d e n c e
a n d of p e r s u a si o n; a n d
( 4) t h e t e r m ‘‘ e x e r ci s e of r eli gi o n’’ m e a n s r eli gi o u s e x e r ci s e, a s d efi n e d i n s e c ti o n 2 0 0 0 c c – 5
of t hi s ti tl e.
( P u b. L. 1 0 3 – 1 4 1, § 5, N o v. 1 6, 1 9 9 3, 1 0 7 S t a t. 1 4 8 9;
P u b. L. 1 0 6 – 2 7 4, § 7( a), S e p t. 2 2, 2 0 0 0, 1 1 4 S t a t.
8 0 6.)
R EFE RE NCES I N T E XT
T hi s c h a p t e r, r ef e r r e d t o i n t e x t, w a s i n t h e o ri gi n al
‘‘ t hi s A c t’’, m e a ni n g P u b. L. 1 0 3 – 1 4 1, N o v. 1 6, 1 9 9 3, 1 0 7
S t a t. 1 4 8 8, w hi c h i s cl a s sifi e d p ri n ci p all y t o t hi s c h a pt e r. F o r c o m pl e t e cl a s sifi c a ti o n of t hi s A c t t o t h e C o d e,
s e e S h o r t Ti tl e n o t e s e t o u t u n d e r s e c ti o n 2 0 0 0 b b of t hi s
ti tl e a n d T a bl e s.
A ME N D ME NTS
2 0 0 0 — P a r. ( 1). P u b. L. 1 0 6 – 2 7 4, § 7( a)( 1), s u b s ti t u t e d ‘‘ o r
of a c o v e r e d e n ti t y’’ f o r ‘‘ a S t a t e, o r a s u b di vi si o n of a
S t a t e’’.
P a r. ( 2). P u b. L. 1 0 6 – 2 7 4, § 7( a)( 2), s u b s ti t u t e d ‘‘ t e r m
‘ c o v e r e d e n ti t y’ m e a n s’’ f o r ‘‘ t e r m ‘ S t a t e’ i n cl u d e s’’.
P a r. ( 4). P u b. L. 1 0 6 – 2 7 4, § 7( a)( 3), s u b s ti t u t e d ‘‘ r eligi o u s e x e r ci s e, a s d efi n e d i n s e c ti o n 2 0 0 0 c c – 5 of t hi s
ti tl e’’ f o r ‘‘ t h e e x e r ci s e of r eli gi o n u n d e r t h e Fi r s t
A m e n d m e n t t o t h e C o n s ti t u ti o n’’.

§ 2 0 0 0 b b – 3. A p pli c a bili t y
( a) I n g e n e r al
T hi s c h a p t e r a p pli e s t o all F e d e r al l a w, a n d
t h e i m pl e m e n t a ti o n of t h a t l a w, w h e t h e r s t a t ut o r y o r o t h e r wi s e, a n d w h e t h e r a d o p t e d b ef o r e o r
af t e r N o v e m b e r 1 6, 1 9 9 3.
( b) R ul e of c o n s t r u c ti o n
F e d e r al s t a t u t o r y l a w a d o p t e d af t e r N o v e m b e r
1 6, 1 9 9 3, i s s u bj e c t t o t hi s c h a p t e r u nl e s s s u c h
l a w e x pli ci tl y e x cl u d e s s u c h a p pli c a ti o n b y r efe r e n c e t o t hi s c h a p t e r.
( c) R eli gi o u s b eli ef u n aff e c t e d
N o t hi n g i n t hi s c h a p t e r s h all b e c o n s t r u e d t o
a u t h o ri z e a n y g o v e r n m e n t t o b u r d e n a n y r eligi o u s b eli ef.
( P u b. L. 1 0 3 – 1 4 1, § 6, N o v. 1 6, 1 9 9 3, 1 0 7 S t a t. 1 4 8 9;
P u b. L. 1 0 6 – 2 7 4, § 7( b), S e p t. 2 2, 2 0 0 0, 1 1 4 S t a t.
8 0 6.)
R EFE RE NCES I N T E XT
T hi s c h a p t e r, r ef e r r e d t o i n t e x t, w a s i n t h e o ri gi n al
‘‘ t hi s A c t’’, m e a ni n g P u b. L. 1 0 3 – 1 4 1, N o v. 1 6, 1 9 9 3, 1 0 7
S t a t. 1 4 8 8, w hi c h i s cl a s sifi e d p ri n ci p all y t o t hi s c h a pt e r. F o r c o m pl e t e cl a s sifi c a ti o n of t hi s A c t t o t h e C o d e,
s e e S h o r t Ti tl e n o t e s e t o u t u n d e r s e c ti o n 2 0 0 0 b b of t hi s
ti tl e a n d T a bl e s.
A ME N D ME NTS
2 0 0 0 — S u b s e c. ( a). P u b.
S t a t e’’ af t e r ‘‘ F e d e r al’’.

L. 1 0 6 – 2 7 4 s t r u c k

o u t ‘‘ a n d

§ 2 0 0 0 b b – 4. E s t a bli s h m e n t cl a u s e u n aff e c t e d
N o t hi n g i n t hi s c h a p t e r s h all b e c o n s t r u e d t o
aff e c t, i n t e r p r e t, o r i n a n y w a y a d d r e s s t h a t p o r-

H E A L T H

A N D

W E L F A R E

P a g e 4816

ti o n of t h e Fi r s t A m e n d m e n t p r o hi bi ti n g l a w s
r e s p e c ti n g t h e e s t a bli s h m e n t of r eli gi o n ( r ef e r r e d t o i n t hi s s e c ti o n a s t h e ‘‘ E s t a bli s h m e n t
Cl a u s e’’). G r a n ti n g g o v e r n m e n t f u n di n g, b e n efi t s, o r e x e m p ti o n s, t o t h e e x t e n t p e r mi s si bl e
u n d e r t h e E s t a bli s h m e n t Cl a u s e, s h all n o t c o ns ti t u t e a vi ol a ti o n of t hi s c h a p t e r. A s u s e d i n
t hi s s e c ti o n, t h e t e r m ‘‘ g r a n ti n g’’, u s e d wi t h r es p e c t t o g o v e r n m e n t f u n di n g, b e n efi t s, o r e xe m p ti o n s, d o e s n o t i n cl u d e t h e d e ni al of g o v e r nm e n t f u n di n g, b e n efi t s, o r e x e m p ti o n s.
( P u b. L. 1 0 3 – 1 4 1, § 7, N o v. 1 6, 1 9 9 3, 1 0 7 S t a t. 1 4 8 9.)
R EFE RE NCES I N T E XT
T hi s c h a p t e r, r ef e r r e d t o i n t e x t, w a s i n t h e o ri gi n al
‘‘ t hi s A c t’’, m e a ni n g P u b. L. 1 0 3 – 1 4 1, N o v. 1 6, 1 9 9 3, 1 0 7
S t a t. 1 4 8 8, w hi c h i s cl a s sifi e d p ri n ci p all y t o t hi s c h a pt e r. F o r c o m pl e t e cl a s sifi c a ti o n of t hi s A c t t o t h e C o d e,
s e e S h o r t Ti tl e n o t e s e t o u t u n d e r s e c ti o n 2 0 0 0 b b of t hi s
ti tl e a n d T a bl e s.

C H A P T E R 2 1 C — P R O T E C TI O N O F R E LI GI O U S
E X E R C I S E I N L A N D U S E A N D B Y I N S T I T UTI O N A LI Z E D P E R S O N S
S e c.

2 0 0 0 c c.
2 0 0 0 c c – 1.
2 0 0 0 c c – 2.
2 0 0 0 c c – 3.
2 0 0 0 c c – 4.
2 0 0 0 c c – 5.

P r o t e c ti o n of l a n d u s e a s r eli gi o u s e x e rci s e.
P r o t e c ti o n of r eli gi o u s e x e r ci s e of i n s tit u ti o n ali z e d p e r s o n s.
J u di ci al r eli ef.
R ul e s of c o n s t r u c ti o n.
E s t a bli s h m e n t Cl a u s e u n aff e c t e d.
D efi ni ti o n s.

§ 2 0 0 0 c c. P r o t e c ti o n of l a n d u s e a s r eli gi o u s e x e rci s e
( a) S u b s t a n ti al b u r d e n s
( 1) G e n e r al r ul e
N o g o v e r n m e n t s h all i m p o s e o r i m pl e m e n t a
l a n d u s e r e g ul a ti o n i n a m a n n e r t h a t i m p o s e s
a s u b s t a n ti al b u r d e n o n t h e r eli gi o u s e x e r ci s e
of a p e r s o n, i n cl u di n g a r eli gi o u s a s s e m bl y o r
i n s ti t u ti o n,
u nl e s s t h e
g o v er n m e nt
d e mo n s t r a t e s t h a t i m p o si ti o n of t h e b u r d e n o n
t h a t p e r s o n, a s s e m bl y, o r i n s ti t u ti o n —
( A) i s i n f u r t h e r a n c e of a c o m p elli n g g o ve r n m e n t al i n t e r e s t; a n d
( B) i s t h e l e a s t r e s t ri c ti v e m e a n s of f u rt h e ri n g t h a t c o m p elli n g g o v e r n m e n t al i n t e re s t.
( 2) S c o p e of a p pli c a ti o n
T hi s s u b s e c ti o n a p pli e s i n a n y c a s e i n
w hi c h —
( A) t h e s u b s t a n ti al b u r d e n i s i m p o s e d i n a
p r o g r a m o r a c ti vi t y t h a t r e c ei v e s F e d e r al fin a n ci al a s si s t a n c e, e v e n if t h e b u r d e n r e s ul t s
f r o m a r ul e of g e n e r al a p pli c a bili t y;
( B) t h e s u b s t a n ti al b u r d e n aff e c t s, o r r em o v al of t h a t s u b s t a n ti al b u r d e n w o ul d aff e c t, c o m m e r c e wi t h f o r ei g n n a ti o n s, a m o n g
t h e s e v e r al S t a t e s, o r wi t h I n di a n t ri b e s,
e v e n if t h e b u r d e n r e s ul t s f r o m a r ul e of g e ne r al a p pli c a bili t y; o r
( C) t h e s u b s t a n ti al b u r d e n i s i m p o s e d i n
t h e i m pl e m e n t a ti o n of a l a n d u s e r e g ul a ti o n
o r s y s t e m of l a n d u s e r e g ul a ti o n s, u n d e r
w hi c h a g o v e r n m e n t m a k e s, o r h a s i n pl a c e
f o r m al o r i nf o r m al p r o c e d u r e s o r p r a c ti c e s
t h a t p e r mi t t h e g o v e r n m e n t t o m a k e, i n divi d u ali z e d a s s e s s m e n t s of t h e p r o p o s e d u s e s
f o r t h e p r o p e r t y i n v ol v e d.

A P P E N DI X F
F- 1

D e p art m e nt of J u sti c e

§ 2 6. 4

( 3) T h e s e n t e n c e s h all b e e x e c u t e d o n
a d a t e a n d a t a pl a c e d e si g n a t e d b y t h e
Di r e c t o r of t h e F e d e r al B u r e a u of P ri so n s; a n d
( 4) T h e p ri s o n e r u n d e r s e n t e n c e of
d e a t h s h all b e c o m mi t t e d t o t h e c u st o d y of t h e A t t o r n e y G e n e r al o r hi s a ut h o ri z e d r e p r e s e n t a ti v e f o r a p p r o p ri a t e
d e t e n ti o n p e n di n g e x e c u ti o n of t h e s e nt e n c e.
( b) T h e a t t o r n e y f o r t h e g o v e r n m e n t
s h all a p p e n d t o t h e p r o p o s e d J u d g m e n t
a n d O r d e r a R e t u r n b y w hi c h t h e d e si g n a t e d U ni t e d S t a t e s M a r s h al m a y i nf o r m t h e c o u r t t h a t t h e s e n t e n c e of
d e a t h h a s b e e n e x e c u t e d.

S p a s c h al o n D S K J M 0 X 7 X 2 P R O D wit h C F R

§ 2 6. 3
D a t e, ti m e, pl a c e, a n d
e x e c u ti o n.

m e t h o d of

( a) E x c e p t t o t h e e x t e n t a c o u r t o rd e r s o t h e r wi s e, a s e n t e n c e of d e a t h
s h all b e e x e c u t e d:
( 1) O n a d a t e a n d a t a ti m e d e si g n a t e d b y t h e Di r e c t o r of t h e F e d e r al
B u r e a u of P ri s o n s, w hi c h d a t e s h all b e
n o s o o n er t h a n 60 d a ys fr o m t h e e ntr y
of t h e j u d g m e n t of d e a t h. If t h e d a t e
d e si g n a t e d f o r e x e c u ti o n p a s s e s b y r e as o n of a s t a y of e x e c u ti o n, t h e n a n e w
d a t e s h all b e d e si g n a t e d p r o m p tl y b y
t h e Di r e c t o r of t h e F e d e r al B u r e a u of
P ri s o n s w h e n t h e s t a y i s lif t e d;
( 2) A t a f e d e r al p e n al o r c o r r e c ti o n al
i n s ti t u ti o n d e si g n a t e d b y t h e Di r e c t o r
of t h e F e d e r al B u r e a u of P ri s o n s;
( 3) B y a U ni t e d S t a t e s M a r s h al d e si g n a t e d b y t h e Di r e c t o r of t h e U ni t e d
S t a t e s M a r s h al s S e r vi c e, a s si s t e d b y
a d di ti o n al p e r s o n n el s el e c t e d b y t h e
M a r s h al a n d t h e W a r d e n of t h e d e si g n a t e d i n s ti t u ti o n a n d a c ti n g a t t h e
di r e c ti o n of t h e M a r s h al; a n d
( 4) B y i n t r a v e n o u s i nj e c ti o n of a l et h al s u b s t a n c e o r s u b s t a n c e s i n a q u a nti t y s uffi ci e n t t o c a u s e d e a t h, s u c h s u bs t a n c e o r s u b s t a n c e s t o b e d e t e r mi n e d
b y t h e Di r e c t o r of t h e F e d e r al B u r e a u
of P ri s o n s a n d t o b e a d mi ni s t e r e d b y
q u alifi e d p e r s o n n el s el e c t e d b y t h e
W a r d e n a n d a c ti n g a t t h e di r e c ti o n of
t h e M a r s h al.
( b) U nl e s s t h e P r e si d e n t i n t e r p o s e s,
t h e U ni t e d S t a t e s M a r s h al s h all n o t
s t a y e x e c u ti o n of t h e s e n t e n c e o n t h e
b a si s t h a t t h e p ri s o n e r h a s fil e d a p e titi o n f o r e x e c u ti v e cl e m e n c y.

§ 2 6. 4
O t h e r e x e c u ti o n p r o c e d u r e s.
E x c e pt t o t h e e xt e nt a c o urt or d ers
o t h e r wi s e:
( a) T h e W a r d e n of t h e d e si g n a t e d i ns ti t u ti o n s h all n o tif y t h e p ri s o n e r
u n d e r s e n t e n c e of d e a t h of t h e d a t e d e si g n a t e d f o r e x e c u ti o n a t l e a s t 2 0 d a y s
i n a d v a n c e, e x c e p t w h e n t h e d a t e f oll o w s a p o s t p o n e m e n t of f e w e r t h a n 2 0
d a y s of a p r e vi o u sl y s c h e d ul e d a n d n oti c e d d a t e of e x e c u ti o n, i n w hi c h c a s e
t h e W a r d e n s h all n o tif y t h e p ri s o n e r a s
s o o n a s p o s si bl e.
( b) B e gi n ni n g s e v e n d a y s b ef o r e t h e
d e si g n a t e d d a t e of e x e c u ti o n, t h e p ri so n e r s h all h a v e a c c e s s o nl y t o hi s s pi ri t u al a d vi s e r s ( n o t t o e x c e e d t w o), hi s
d ef e n s e a t t o r n e y s, m e m b e r s of hi s f a mil y, a n d t h e offi c e r s a n d e m pl o y e e s of
t h e i n s ti t u ti o n. U p o n a p p r o v al of t h e
Di r e c t o r of t h e F e d e r al B u r e a u of P ri so n s, t h e W a r d e n m a y g r a n t a c c e s s t o
s u c h o t h e r p r o p e r p e r s o n s a s t h e p ri so n e r m a y r e q u e s t.
( c) I n a d di ti o n t o t h e M a r s h al a n d
W a r d e n, t h e f oll o wi n g p e r s o n s s h all b e
p r e s e n t a t t h e e x e c u ti o n:
( 1) N e c e s s a r y p e r s o n n el s el e c t e d b y
t h e M a r s h al a n d W a r d e n;
( 2) T h o s e a t t o r n e y s of t h e D e p a r tm e n t of J u s ti c e w h o m t h e D e p u t y A tt o r n e y G e n e r al d e t e r mi n e s a r e n e ce s s a r y;
( 3) N o t m o r e t h a n t h e f oll o wi n g n u mb e r s of p e r s o n s el e c t e d b y t h e p ri s o n e r:
(i) O n e s pi ri t u al a d vi s e r;
(ii) T w o d ef e n s e a t t o r n e y s; a n d
(iii) T h r e e a d ul t f ri e n d s o r r el a ti v e s;
and
( 4) N o t m o r e t h a n t h e f oll o wi n g n u mb e r s of p e r s o n s s el e c t e d b y t h e W a r d e n:
(i) Ei g h t ci ti z e n s; a n d
(ii) T e n r e p r e s e n t a ti v e s of t h e p r e s s.
( d) N o o t h e r p e r s o n s h all b e p r e s e n t
a t t h e e x e c u ti o n, u nl e s s l e a v e f o r s u c h
p e r s o n’ s p r e s e n c e i s g r a n t e d b y t h e Dir e c t o r of t h e F e d e r al B u r e a u of P ri so n s. N o p e r s o n y o u n g e r t h a n 1 8 y e a r s of
a g e s h all wi t n e s s t h e e x e c u ti o n.
( e) T h e W a r d e n s h o ul d n o tif y t h o s e
i n di vi d u al s d e s c ri b e d i n p a r a g r a p h ( c)
of t hi s s e c ti o n a s s o o n a s p r a c ti c a bl e
b ef o r e t h e d e si g n a t e d ti m e of e x e c uti o n.
(f) N o p h o t o g r a p hi c o r o t h e r vi s u al o r
a u di o r e c o r di n g of t h e e x e c u ti o n s h all
b e p e r mi t t e d.
( g) Af t e r t h e e x e c u ti o n h a s b e e n c a rri e d o u t, q u alifi e d p e r s o n n el s el e c t e d

489

V er D at e S e p < 1 1 > 2 0 1 4

0 8: 4 0 S e p 2 7, 2 0 1 9

J kt 2 4 7 1 1 4

P O 00000

Fr m 0 0 4 9 9

F mt 8 0 1 0

Sf mt 8 0 1 0

Y:\ S G M L\ 2 4 7 1 1 4. X X X

247114

F- 2

§ 2 6. 5

2 8 C F R C h. I ( 7 – 1 – 1 9 E diti o n)

b y t h e W a r d e n s h all c o n d u c t a n e x a mi n a ti o n of t h e b o d y of t h e p ri s o n e r t o
d e t e r mi n e t h a t d e a t h h a s o c c u r r e d a n d
s h all i nf o r m t h e M a r s h al a n d W a r d e n
of hi s d e t e r mi n a ti o n. U p o n n o tifi c a ti o n
of p ri s o n e r’ s d e a t h, t h e M a r s h al s h all
c o m pl e t e a n d si g n t h e R e t u r n d e s c ri b e d
i n § 2 6. 2( b) o r a n y si mil a r d o c u m e n t a n d
s h all fil e s u c h d o c u m e n t wi t h t h e s e nt e n ci n g c o u r t.
( h) T h e r e m ai n s of t h e p ri s o n e r s h all
b e di s p o s e d of a c c o r di n g t o p r o c e d u r e s
e s t a bli s h e d b y t h e Di r e c t o r of t h e F e de r al B u r e a u of P ri s o n s.
§ 2 6. 5 A t t e n d a n c e a t o r p a r ti ci p a ti o n
i n e x e c u ti o n s b y D e p a r t m e n t of J u sti c e p e r s o n n el.
N o offi c e r o r e m pl o y e e of t h e D e p a r tm e n t of J u s ti c e s h all b e r e q ui r e d t o b e
i n a t t e n d a n c e a t o r t o p a r ti ci p a t e i n
a n y e x e c u ti o n if s u c h a t t e n d a n c e o r
p a r ti ci p a ti o n i s c o n t r a r y t o t h e m o r al
o r r eli gi o u s c o n vi c ti o n s of t h e offi c e r
o r e m pl o y e e, o r if t h e e m pl o y e e i s a
m e di c al p r of e s si o n al
w h o c o n si d e r s
s u c h p a r ti ci p a ti o n o r a t t e n d a n c e c o nt r a r y t o m e di c al e t hi c s. F o r p u r p o s e s
of t hi s s e c ti o n, t h e t e r m ‘‘ p a r ti ci p ati o n’’ i n cl u d e s p e r s o n al p r e p a r a ti o n of
t h e c o n d e m n e d i n di vi d u al a n d t h e a pp a r a t u s u s e d f o r e x e c u ti o n a n d s u p e rvi si o n of t h e a c ti vi ti e s of o t h e r p e rs o n n el i n c a r r yi n g o u t s u c h a c ti vi ti e s.

S u b p art B — C ertifi c ati o n Pr o c e s s
f or St at e C a pit al C o u n s el S y st e m s

S p a s c h al o n D S K J M 0 X 7 X 2 P R O D wit h C F R

S O U R C E : 7 8 F R 5 8 1 8 3, S e p t. 2 3, 2 0 1 3, u nl e s s
o t h e r wi s e n o t e d.

§ 2 6. 2 0 P u r p o s e.
S e c ti o n s 2 2 6 1( b)( 1) a n d 2 2 6 5( a) of ti tl e
2 8 of t h e U ni t e d S t a t e s C o d e r e q ui r e
t h e A t t o r n e y G e n e r al t o c e r tif y w h e t he r a S t a t e h a s a m e c h a ni s m f o r p r ovi di n g l e g al r e p r e s e n t a ti o n t o i n di g e n t
p ri s o n e r s i n S t a t e p o s t c o n vi c ti o n p r oc e e di n g s i n c a pi t al c a s e s t h a t s a ti sfi e s
t h e r e q ui r e m e n t s of c h a p t e r 1 5 4 of ti tl e
2 8. If t h e A t t o r n e y G e n e r al c e r tifi e s
t h a t a S t a t e h a s e s t a bli s h e d s u c h a
m e c h a ni s m, s e c ti o n s 2 2 6 2, 2 2 6 3, 2 2 6 4,
a n d 2 2 6 6 of c h a p t e r 1 5 4 of ti tl e 2 8 a p pl y
i n r el a ti o n t o F e d e r al h a b e a s c o r p u s r evi e w of S t a t e c a pi t al c a s e s i n w hi c h
c o u n s el w a s a p p oi n t e d p u r s u a n t t o t h a t
m e c h a ni s m. T h e s e s e c ti o n s will al s o
a p pl y i n F e d e r al h a b e a s c o r p u s r e vi e w

of c a pi t al c a s e s f r o m a S t a t e wi t h a
m e c h a ni s m c e r tifi e d b y t h e A t t o r n e y
G e n e r al i n w hi c h p e ti ti o n e r v ali dl y
w ai v e d c o u n s el, p e ti ti o n e r r e t ai n e d
c o u n s el, o r p e ti ti o n e r w a s f o u n d n o t t o
b e i n di g e n t, a s p r o vi d e d i n s e c ti o n
2 2 6 1( b) of ti tl e 2 8. S u b s e c ti o n ( b) of 2 8
U. S. C. 2 2 6 5 di r e c t s t h e A t t o r n e y G e ne r al t o p r o m ul g a t e r e g ul a ti o n s t o i mpl e m e n t t h e c e r tifi c a ti o n p r o c e d u r e
u n d e r s u b s e c ti o n ( a) of t h a t s e c ti o n.
§ 2 6. 2 1
D efi ni ti o n s.
F o r p u r p o s e s of t hi s p a r t, t h e t e r m —
A p p oi nt m e nt m e a n s p r o vi si o n of c o u ns el i n a
m a n n e r t h a t i s r e a s o n a bl y
ti m el y i n li g h t of t h e ti m e li mi t a ti o n s
f or
s e e ki n g
St at e
and
F e d e r al
p o s t c o n vi c ti o n r e vi e w a n d t h e ti m e r eq ui r e d f o r d e v el o pi n g a n d p r e s e n ti n g
cl ai m s i n t h e
p o s t c o n vi c ti o n
p r oc e e di n g s.
A p p r o p ri at e St at e offi ci al m e a n s t h e
S t a t e a t t o r n e y g e n e r al, e x c e p t t h a t, i n
a S t a t e i n w hi c h t h e S t a t e a t t o r n e y
g e n e r al d o e s n o t h a v e r e s p o n si bili t y f o r
F e d e r al h a b e a s c o r p u s li ti g a ti o n, i t
m e a n s t h e c hi ef e x e c u ti v e of t h e S t a t e.
I n di g e nt
p ri s o n e r s
m e a ns
p ers o ns
w h o s e n e t fi n a n ci al r e s o u r c e s a n d i nc o m e a r e i n s uffi ci e n t t o o b t ai n q u alifi e d c o u n s el.
St at e p o st c o n vi cti o n p r o c e e di n g s m e a n s
c oll a t e r al p r o c e e di n g s i n S t a t e c o u r t,
r e g a r dl e s s of w h e t h e r t h e S t a t e c o nd u c t s s u c h p r o c e e di n g s af t e r o r c o n c u rr e n tl y wi t h di r e c t S t a t e r e vi e w.
§ 2 6. 2 2
R e q ui r e m e n t s.
T h e A t t o r n e y G e n e r al will c e r tif y
t h a t a S t a t e m e e t s t h e r e q ui r e m e n t s
f o r c e r tifi c a ti o n u n d e r 2 8 U. S. C. 2 2 6 1
a n d 2 2 6 5 if t h e A t t o r n e y G e n e r al d e t e rmi n e s t h a t t h e S t a t e h a s e s t a bli s h e d a
m e c h a ni s m f o r t h e a p p oi n t m e n t of
c o u n s el f o r i n di g e n t p ri s o n e r s u n d e r
s e nt e n c e
of
d e at h
in
St at e
p o s t c o n vi c ti o n p r o c e e di n g s t h a t s a ti sfi e s t h e f oll o wi n g s t a n d a r d s:
( a) A s p r o vi d e d i n 2 8 U. S. C. 2 2 6 1( c)
a n d ( d), t h e m e c h a ni s m m u s t off e r t o
all s u c h p ri s o n e r s p o s t c o n vi c ti o n c o u ns el, w h o m a y n o t b e c o u n s el w h o p r evi o u sl y r e p r e s e n t e d t h e p ri s o n e r a t
t ri al u nl e s s t h e p ri s o n e r a n d c o u n s el
e x p r e s sl y r e q u e s t e d c o n ti n u e d r e pr e s e n t a ti o n, a n d t h e m e c h a ni s m m u s t
p r o vi d e f o r t h e e n t r y of a n o r d e r b y a
c o u r t of r e c o r d —

490

V er D at e S e p < 1 1 > 2 0 1 4

0 8: 4 0 S e p 2 7, 2 0 1 9

J kt 2 4 7 1 1 4

P O 00000

Fr m 0 0 5 0 0

F mt 8 0 1 0

Sf mt 8 0 1 0

Y:\ S G M L\ 2 4 7 1 1 4. X X X

247114

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

A P P E N DI X G
G- 1
D o c u m e nt 6- 2 Fil e d 0 7/ 0 2/ 2 0

P a g e 2 of 1 0 P a g eI D #: 6 8

I N T H E U NI T E D S T A T E S DI S T RI C T C O U R T
F O R T H E S O U T H E R N DI S T RI C T O F I N DI A N A
T E R R E H A U T E DI VI SI O N
)
)
)
Pl ai ntiff,
)
)
v.
)
)
WI L LI A M P. B A R R, i n his offi ci al
)
c a p a cit y as t h e Att or n e y G e n er al of t h e
)
U nit e d St at es; MI C H A E L C A R V AJ A L, i n )
his offi ci al c a p a cit y as t h e Dir e ct or o f t h e )
F e d er al B ur e a u of Pris o ns; a n d T.J.
)
W A T S O N, i n his offi ci al c a p a cit y as
)
C o m pl e x W ar d e n f or T err e H a ut e F e d er al
)
C orr e cti o n al C o m pl e x,
)
)
D ef e n d a nts.
)
)
D A L E H A R T K E M E Y E R ( A K A S EI G E N)

C a s e N o. _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _

D E C L A R A TI O N O F D A L E ( S EI G E N) H A R T K E M E Y E R
I, D al e H art k e m e y er (a k a S ei g e n) , p urs u a nt t o 2 8 U. S. C. § 1 7 4 6, d e cl ar e as f oll o ws:
1.

I a m t h e Pl ai ntiff i n t h e a b o v e-c a pti o n e d c as e.

2.

I a m a Z e n B u d d hist pri est. I b e g a n m y pr a cti c e of Z e n B u d d his m i n 1 9 7 8 w hil e i n E ur o p e .

I r e c ei v e d l a y pr e c e pts i n 1 9 8 1: I n B u d d his m, t h e c er em o n y c all e d “ R e c ei vi n g t h e Pr e c e pts ” s er v es
as a l a y p ers o n’s first offi ci al d e cl ar ati o n of his i nt e nt t o b e c o m e a B u d d hist. D uri n g t his c er e m o n y,
t h e l a y p ers o n p u bli cl y a c k n o wl e d g es t h at h e will li v e a c c or di n g t o t h e si xt e e n pr e c e pts of
M a h a y a n a B u d d his m , w hi c h ar e et hi c al g ui d eli n es f or b e h a vi or si mil ar t o t h e T e n C o m m a n d m e nts
i n th e J u d e o -C hristi a n tr a diti o n . A ft er f urt h er st u d yi n g t h e Z e n B u d d hist t e a c hi n gs a n d att e n di n g
v ari o us r eli gi o us r etr e ats, I w as t h e n or d ai n e d as a m o n k i n 1 9 8 3 i n Fr a n c e i n t h e li n e a g e of Z e n

1

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

G- 2
D o c u m e nt 6- 2 Fil e d 0 7/ 0 2/ 2 0

P a g e 3 of 1 0 P a g eI D #: 6 9

m ast er T ais e n D es hi m ar u . I n c o n n e cti o n wit h m y or di n ati o n as a B u d d hist pri est, I t o o k o n t h e
r eli gi o us n a m e of “ S ei g e n, ” w hi c h m e a ns “ S a cr e d S o ur c e. ”
3.

Si n c e 2 0 0 8, I h a v e b e e n ass o ci at e d wit h t h e S a ns hi n Z e n C o m m u nit y u n d er R e v er e n d

S h o h a k u O k u m ur a i n Bl o o mi n gt o n, I n di a n a, p arti ci p ati n g i n n e ar -d ail y Z e n pr a cti c e at t h e t e m pl e
as w ell as i n r etr e ats a n d s ess hi n (i nt e nsi v e sil e nt r etr e ats), a n d assisti n g R e v. O k u m ur a wit h
tr a nsl ati o ns i nt o E n glis h of J a p a n es e S ot o Z e n t e a c hi n gs. All of t h es e a cti viti es h a v e c o m e t o a h alt
d uri n g t h e C O VI D -1 9 p a n d e mi c , wit h t h e e x c e pti o n of assisti n g wit h tr a nsl ati o ns w hi c h I a m
w or ki n g o n r e m ot el y fr o m h o m e.
4.

I n a d diti o n t o m y r e g ul ar Z e n pr a cti c e, as a B u d d hist pri est, I h a v e h el p e d or g a ni z e a n d

dir e ct r etr e ats at t h e S a ns hi n Z e n C o m m u nit y , parti ci p at e d i n c o m mitt e e m e eti n gs, a n d d eli v er e d
D h ar m a t al ks , w hi c h ar e t h e e q ui v al e nt of a s er m o n i n ot h er f ait h tr a diti o ns. I als o h a v e b e e n
r eli gi o usl y c all e d t o pr o vi d e s pirit u al c o u ns eli n g t o pris o n ers. T h e M a h a y a n a B u d d hist pr e c e pts,
w hi c h w e t a k e as l a y or or d ai n e d Z e n B u d d hists, t e a c h us t h at a b o d his att v a ( o n e f oll o wi n g t h e
B u d d h a w h o as pir es t o h el p li b er at e all s uff eri n g b ei n gs) n e e d s t o visit a p ers o n w h o is i n distr ess
or tr o u bl e (si c k , i nj ur e d, et c.) a n d pr o vi d e t h at p ers o n w h at e v er h el p, r eli ef, or c o ns ol ati o n h e c a n .
T h es e pr e c e pts ar e b as e d o n t h e c or e

B u d d hist c o m mit m e nt t o c o m p assi o n.

I b eli e v e

w h ol e h e art e dl y i n t his r eli gi o us m a n d at e a n d, as a B u d d hist pri est, I b eli e v e t h at I h a v e a r eli gi o us
o bli g ati o n t o s h o w c o m p assi o n f or i n c ar c er at e d i n di vi d u als, i n p arti c ul ar. T h e y ar e t o o oft e n d e ni e d
B u d d h a’s i m m e ns e c o m p assi o n, his gr e at wis h f or t h e w ell -b ei n g of all his c hil dr e n, w h o i n cl u d e
all b ei n gs.
5.

W hil e li vi n g i n Mi c hi g a n fr om 2 0 0 0 t hr o u g h 2 0 0 8, I u n d ert o o k B u d d hist pris o n mi nistr y

w or k o n v ari o us o c c asi o ns . F or e x a m pl e, o n s e v er al o c c asi o ns, I pr o vi d e d i nstr u cti o n o n Z e n
sitti n g pr a cti c e t o a gr o u p of t e e n a g ers at t h e N o k o mis C h all e n g e C e nt er, a y o ut h d et e nti o n c e nt er

2

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

t h at was l o c at e d i n Pr u d e n vill e,

G- 3
D o c u m e nt 6- 2 Fil e d 0 7/ 0 2/ 2 0

P a g e 4 of 1 0 P a g eI D #: 7 0

Mi c hi g a n , b ut h as si n c e cl os e d . I als o visit e d t h e St a n dis h

M a xi m u m C orr e cti o n al F a cilit y b ef or e it cl os e d its d o ors t o dis c uss B u d d hist t e a c hi n gs a n d
pr o vi d e m e dit ati o n i nstr u cti o n t o s e v er al pris o n er s w h o r e q u est e d g ui d a n c e fr o m a B u d d hist pri est .
6.

C urr e ntl y, I a m i n v ol v e d i n p ast or al l ett er c orr es p o n d e n c e wit h s e v er al B u d d hist pris o n ers

i n I n di a n a as w ell as a n ot h er B u d d hist pris o n er i n C alif or ni a.
7.

M y p ast or al r el ati o ns hi p wit h W esl e y P ur k e y b e g a n i n J a n u ar y 2 0 0 9. Mr. P ur k e y ’s t h e n-

s pirit u al a d vis or m o v e d t o Ar k a ns as i n D e c e m b er 2 0 0 8 a n d as k e d if I w o ul d b e willi n g t o t a k e
o v er his r ol e as Mr. P ur k e y’s pri est . I a gr e e d a n d h a d m y first visit wit h Mr. P ur k e y at U S P T err e
H a ut e t h e f oll o wi n g m o nt h.
8.

T h e pris o n is a b o ut 6 0 mil es fr o m m y h o m e a n d t a k es m e a n h o ur a n d a h alf t o dri v e t h er e.

Si n c e J a n u ar y 2 0 0 9 , I h a v e h a d m o nt hl y visits wit h Mr. P ur k e y t o pr o vi d e s pirit u al g ui d a n c e a n d
c o u ns eli n g c o nsist e nt wit h t h e Z e n B u d d hist f ait h. Q uit e oft e n, Mr. P u r k e y br o u g ht r eli gi o us iss u es
a n d q u esti o ns r ais e d i n B u d d hist j o ur n als t o o ur visits f or us t o dis c uss.
9.

I n 2 0 1 3, Mr. P ur k e y offi ci all y d esi g n at e d m e as his Mi nist er of R e c or d ( M O R). Att a c h e d

h er et o as E x hi bit 1 is a tr u e a n d c orr e ct c o p y of m y e m ail c orr es p o n d e n c e wit h pris o n offi ci als i n
w hi c h t h e y i n di c at e t h at Mr. P ur k e y d esi g n at e d m e his M O R .
1 0.

M y l ast visit wit h Mr. P ur k e y w as i n F e br u ar y of 2 0 2 0 . T h e n e xt m o nt h, I l e ar n e d t h at m y

visit s c h e d ul e d f or M ar c h 2 1, 2 0 2 0 , w as s us p e n de d d u e t o t h e t hr e at p os e d b y t h e C O VI D -1 9
p a n d e mi c . O n M a y 2 6, 2 0 2 0, I r e c ei v e d a n e m ail fr o m t h e R eli gi o us S er vi c es Assist a nt at B O P,
i n di c ati n g t h at “t h e F e d er al B ur e a u of Pris o ns h as iss u e d a ‘ S h elt er i n Pl a c e’ or d er t h at will r e m ai n
i n eff ect t hr o u g h o ut J u n e 3 0, 2 0 2 0, at w hi c h ti m e it will b e r e -e v al u at e d. ” T h e l ett er st at e d t h at t h e
“ u n pr e c e d e nt e d w orl d -wi d e p u bli c h e alt h e m er g e n c y ” w as t h e i m p et us f or t h e “ S h elt er i n Pl a c e ”
or d er. Att a c h e d as E x hi bit 2 is a tr u e a n d c orr e ct c o p y of t h e l ett er. Aft er Mr. P ur k e y r e c ei v e d a n

3

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

e x e c uti o n

d at e, B O P s c h e d ul e d

G- 4
D o c u m e nt 6- 2 Fil e d 0 7/ 0 2/ 2 0

a n M O R visit

b et w e e n

Mr.

P a g e 5 of 1 0 P a g eI D #: 7 1

P ur k e y a n d m e f or

J ul y

3,

2 0 2 0. H o w e v er, o n J u n e 2 6, I i nf or m e d t h e B O P t h at I w as u n a bl e t o att e n d. It w as m y
u n d erst a n di n g t h at Mr. P ur k e y di d n ot w a nt visit ors at t h at ti m e. Pl us, I w as alr e a d y v er y c o n c er n e d
a b o ut visiti n g t h e pris o n d u e t o t h e C O VI D -1 9 p a n d e mi c. M y c o n c er ns o nl y i nt e nsifi e d wit h t h e
n e ws i n t h e p ast w e e k of s ur g es i n i nf e cti o ns a cr oss t h e c o u ntr y. As dis c uss e d f urt h er b el o w, m y
a g e a n d c ert ai n m e di c al c o n di ti o ns p ut m e at hi g h ris k f or i nf e cti o n a n d s eri o us ill n ess or d e at h
s h o ul d I b e c o m e i nf e ct e d.
1 1.

Alt h o u g h it w o ul d b e i n a p pr o pri at e , as Mr. P ur k e y’s pri est, f or m e t o r e v e al t h e s p e cifi c

c o nt e nt of o ur s pirit u al -c o u ns eli n g visits, I c a n att est t h at Mr. P ur k e y h as d e m o nstr at e d t o m e o v er
t h e y e ars t h at h e is a d e v ot e d B u d d hist a n d si n c er el y b eli e v es i n t h e f ait h.
1 2.

As Mr. P ur k e y’s pri est, h e is u n d er m y s pirit u al c ar e . I a m b o u n d b y m y r eli gi o us d ut y t o

b e pr es e nt at his e x e c uti o n , w h er e— o n t h e t hr es h ol d of d e at h, a n d at his ulti m at e m o m e nt of
crisis — h e will s uff er t h e m ost dir e d istr ess.
1 3.

I n t h e B u d d hist f ait h, d e at h is a tr a nsiti o n, a cr ossi n g o v er, t o w h at is aft er lif e; it is a

li b er ati o n fr o m t h e li mit ati o ns a n d s uff eri n gs i n h er e nt i n o ur c o n diti o n as s e p ar at e h u m a n b ei n gs.
H o w e v er, i n or d er f or t his li b er ati o n pr o c ess t o b e s u c c essf ul a n d p e a c e f ul, t h e pr es e n c e of a n
or d ai n e d B u d d hist pri est w h o m Mr. P ur k e y k n o ws w ell a n d tr usts is i n dis p e ns a bl e. I n t h e a bs e n ce
of a pri est at t his cr u ci al m o m e nt, c arr yi n g o ut t h e p ast or al f u n cti o n b y assisti n g a n d s u p p orti n g
t h e cr ossi n g-o v er pr o c ess, Mr. P ur k e y m a y f ail t o a c hi e v e t h e f ull li b er ati o n a n d p e a c ef ul tr a nsiti o n
t h at d e at h r e pr es e nts.

A c o m p ar a bl e p ar all el i n C hristi a n tr a diti o ns mi g ht b e t h e “l ast rit es ” t h at

ass ur e a pr o p er a n d p e a c ef ul d e at h i n t h e t hr o es of t h e tr a nsiti o n b et w e e n lif e a n d d e at h.
1 4.

S p e cifi c all y , for B u d d hists, t h e st at e of mi n d of a p ers o n at t h e m o m e nt of p assi n g a w a y is

v er y si g nifi c a nt f or t h at p ers o n f or k ar mi c r e as o ns, s o t h at h a vi n g o n e’s pri est i n att e n d a n c e t o

4

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

G- 5
D o c u m e nt 6- 2 Fil e d 0 7/ 0 2/ 2 0

P a g e 6 of 1 0 P a g eI D #: 7 2

s er v e as a s pirit u al g ui d e is tr ul y ess e nti al. As Mr. P ur k e y’s pri est, I w o ul d d eli v er a s utr a ( a c h a nt
wit h c o nt e nt a n d m e a ni n g) a n d a d h ar a ni ( a m a ntr a -li k e c h a nt ) as h e p ass es a w a y t o f a cilit at e t h e
d yi n g pr o c ess a n d c o n v e y e q u a ni mit y t o hi m. D uri n g t his pr o c ess , it is i m p ort a nt t h at I a m visi bl e
t o hi m s o h e c a n s e e m y f a c e t o r e mi n d hi m of t h e m a n y h o urs w e s p e nt t o g et h er a n d t h e t e a c hi n gs
I s h ar e d wit h hi m d uri n g t h at ti m e. In a c c or d a n c e wit h t h e s e pri n ci pl es a n d t h e M a h a y a n a B u d d hist
pr e c e pts dis c uss e d a b o v e, m y pr es e n c e w o ul d pr o vi d e s pirit u al c o ns ol ati o n a n d c o m p assi o n t o hi m
d uri n g t his ti m e, h el pi n g hi m att ai n p e a c e of mi n d as h e l e a v es t his lif e.
1 5.

T h us, i n or d er t o h el p pr o vi d e f or a p e a c ef ul st at e of mi n d a n d a pr o p er tr a nsiti o n a n d

li b er ati o n, it is m y s a cr e d r eli gi o us d ut y t o b e at Mr. P ur k e y’s e x e c uti o n. M y f ail ur e t o b e t h er e
w o ul d, f or m e, c o nstit ut e a tr o u bli n g vi ol ati o n of m y r eli gi o us t e n ets a n d pri estl y o bli g ati o ns.
Gi v e n m y r el ati o ns hi p wit h Mr. P ur k e y, w hi c h h as d e v el o p e d o v er t h e c o urs e of el e v e n y e ars, it is
i n c o n c ei v a bl e t h at I s h o ul d b e a bs e nt a n d f ail t o s h ar e i n his fi n al tri b ul ati o n.
1 6.

T o t h at e n d, w h e n Mr. P ur k e y w as i niti all y s c h e d ul e d f or e x e c uti o n o n D e c e m b er 1 3, 2 0 1 9 ,

I pl a n n e d t o att e n d t h e e x e c uti o n. I n a c c or d a n c e wit h B O P r e g ul ati o ns, Mr. P ur k e y d esi g n at e d m e
as t h e s pirit u al a d vis o r w h o s h all b e pr es e nt w h e n his e x e c uti o n is c arri e d o ut . O n N o v e m b er 2 1,
2 0 1 9 , I r e c ei v e d a l ett er fr o m t h e B O P n oti n g t h at Mr. P ur k e y h a d s el e ct e d m e t o b e a wit n ess a n d
r e q uiri n g m e t o r e p ort t o t h e Vi g o C o u nt y S h eriff’s Offi c e p ar ki n g l ot o n t h e d a y of t h e e x e c uti o n,
w h er e I w o ul d b e pi c k e d u p b y pris o n st aff a n d tr a ns p ort e d t o t h e pris o n f or pr o c essi n g.
1 7.

D es pit e t h e o n er o us pr o c e d ur es ass o ci at e d wit h att e n di n g t h e e x e c uti o n t h at w as pl a n n e d

f or D e c e m b er 2 0 1 9, t h er e is n o d o u bt i n m y mi n d t h at I w o ul d h a v e att e n d e d t o f ulfill m y r eli gi o us
d uti es. H o w e v er, t h e e x e c uti o n d at e w as p ost p o n e d.
1 8.

It is m y u n d erst a n di n g t h at a n e w e x e c uti o n d at e f or Mr. P ur k e y h as b e e n s et f or J ul y 1 5,

2 0 2 0. I w as s h o c k e d t o l e ar n t h at t h e B O P w o ul d b e pr o c e e di n g wit h t h e e x e c uti o n d uri n g t h e

5

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

G- 6
D o c u m e nt 6- 2 Fil e d 0 7/ 0 2/ 2 0

P a g e 7 of 1 0 P a g eI D #: 7 3

p a n d e mi c , es p e ci all y gi v e n t h e f a ct t h at t h e pris o n h a d n ot e v e n b e e n all o wi n g visits t o t h e pris o n
si n c e t h e mi d dl e of M ar c h . I i m m e di at el y b e c a m e w orri e d t h at I w o ul d n ot b e a bl e t o att e n d wit h o ut
si g nifi c a nt ris k t o m y h e alt h a n d lif e.
1 9.

H a vi n g visit e d Mr. P ur k e y at U S P T err e H a ut e m a n y ti m es b ef or e, I k n o w t h at t h e s e c urit y

pr o c e d ur es , e v e n a bs e nt a n e x e c uti o n, d o n ot all o w f or t h e ki n d of s o ci al dist a n ci n g t h at is r e q uir e d
b y C D C g ui d eli n es d uri n g t h e C O VI D -1 9 crisis . I n m y e x p eri e n c e as a visit or at T err e H a ut e, I
m ust first c h e c k -i n at t h e e ntr a n c e of t h e m ai n b uil di n g a n d h a n d m y i d e ntifi c ati o n a n d k e ys t o t h e
g u ar ds at t h e fr o nt d es k. T h e n, if t h er e ar e ot h er visit ors w h o als o n e e d t o b e pr o c ess e d, I h a v e t o
w ait i n t h e w aiti n g r o o m f or u p t o t hirt y mi n ut es wit h t h e m. T h er e ar e a b o ut t hirt y c h airs i n t h e
w aiti n g r o o m , or g a ni z e d i n s ets of t w o or t hr e e a n d i n r o ws n o m or e t h a n a f e w f e et a p art fr o m
e a c h ot h er.
2 0.

O n c e m y n a m e is c all e d, a g u ar d t a k es m y p h ot o a n d as ks m e t o p ut m y s h o es , b elt, a n d

ot h er pr o p ert y i n a pl asti c bi n t o p ass t hr o u g h a m et al d et e ct or o n a c o n v e y or b elt w hil e I w al k
t hr o u g h a s e p ar at e m et al d et e ct or. Aft er w ar d, a g u ar d m a n u all y i ns p e cts m y pr o p ert y . I t h e n c oll e ct
m y t hi n gs a n d t h e g u ar d st a m ps m y h a n d .
2 1.

At t his p oi nt, I a m c o nfi n e d t o a n ot h er p art of t h e w aiti n g r o o m, w h er e I w ait wit h ot h er

visit ors a n a d diti o n al p eri o d of ti m e — v ar yi n g fr o m 3 0 mi n ut es u p t o, o n o c c asi o n, 9 0 mi n ut es.
T his w aiti n g ar e a is str u ct ur e d si mil arl y t o t h e w aiti n g ar e a at t h e e ntr a n c e: It h as r o ws of pl asti c
c h airs cr a m p e d t o g et h er a n d littl e a bilit y t o s o ci all y dist a n c e fr o m ot h ers.
2 2.

O n c e a g u ar d c oll e cts c o pi es of m y p h ot o gr a p h fr o m t h e fr o nt d es k, I a n d a n y ot h er visit ors

ar e es c ort e d o n e -b y -o n e t o a t hir d ar e a , a s m all, c o nfi n e d s p a c e w h er e visit ors p ut t h eir st a m p e d
h a n d u n d er a bl a c k li g ht . Aft er s h o wi n g t h eir h a n ds i n t h e bl a c k li g ht ar e a, e a c h visit or m ust r e m ai n

6

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

G- 7
D o c u m e nt 6- 2 Fil e d 0 7/ 0 2/ 2 0

P a g e 8 of 1 0 P a g eI D #: 7 4

t h er e w aiti n g f or ot h ers t o d o t h e s a m e. B y t h e e n d of t h e bl a c k li g ht pr o c ess, t h e s p a c e c a n b e c o m e
q uit e cr o w d e d.
2 3.

T h e g u ar d t h e n es c orts t h e gr o u p of us o utsi d e a n d i nt o a s e c o n d b uil di n g . At t his p oi nt,

m ost of t h e gr o u p br e a ks off t o g o i n t h e dir e cti o n of g e n er al p o p ul ati o n. A g u ar d t h e n es c orts m e
a n d ot h er S p e ci al C o nfi n e m e nt U nit ( S C U ) visit ors , if t h er e ar e a n y, t hr o u g h s e v er al l o n g n arr o w
h all w a ys. O n t his r o ut e, w e p ass s e v er al pris o n ers a n d st aff i n cl os e pr o xi mit y o n o ur w a y t o a n
el e v at or t h at c a n h ol d u p t o t e n p e o pl e. I a m t h e n t a k e n t o a n ot h er c h e c k-i n d es k f or t h e S C U ,
w h er e I si g n a l o g b o o k a n d w ait i m m e di at el y o utsi d e of t h e visiti n g r o o m .
2 4.

A diff er e nt g u ar d u nl o c k s t h e d o or t o t h e visiti n g r o o m w h er e I h a v e a n o n -c o nt a ct visit

wit h Mr. P ur k e y t hr o u g h a pl e xi gl ass b arri er. W h e n t h e visit is o v er, I h a v e t o w ait f or pris o n st aff
t o es c ort m e al o n g t h e s a m e p at h, b a c k t o t h e m ai n e ntr a n c e , w h er e I c oll e ct m y i d e ntifi c ati o n a n d
k e ys o n m y w a y o ut of t h e f a cilit y . D uri n g t his e ntir e pr o c ess , fr o m i nt a k e u ntil m y e xit , it is
i m p ossi bl e t o a v oi d b ei n g i n cl os e pr o xi mit y t o m a n y of t h e i n di vi d u als I e n c o u nt er. O n a n y o n e
visit, i t is n ot u n c o m m o n f or m e t o e n c o u nter a t l e ast a d o z e n diff er e nt p e o pl e , if n ot m or e, i n cl os e
pr o xi mit y.
2 5.

I a m c ert ai n t h at t h e s e c urit y pr o c e d ur es a n d pr ot o c ol will b e e v e n m or e stri n g e nt o n t h e

d a y of e x e c uti o n t h a n t h e y ar e u n d er n or m al visit ati o n c o n diti o ns. I b eli e v e t h at t h es e pr o c e d u r es
will li k el y r e q uir e e v e n m or e c o nt a ct wit h g u ar ds, as w ell as e xt e n d e d p eri o ds of w aiti n g i n cl os e
pr o xi mit y wit h ot h er att e n d e es a n d i n di vi d u als.
2 6.

I a m 68 y e ars ol d a n d t h us , b e c a us e of m y a g e, at a hi g h ris k f or b e c o mi n g i nf e ct e d wit h

C O VI D -1 9 a n d b e c o mi n g s eri o usl y ill or d yi n g s h o ul d I b e c o m e i nf e ct e d.
2 7.

B e y o n d m y a g e, I als o h a v e s uff er e d s e v er al l u n g -r el at e d ill n ess es t h at m a k e m e m e di c all y

v ul n er a bl e t o C O VI D -1 9 . I n J a n u ar y of 2 0 1 9 , I h a d a s e v er e c as e of br o n c hitis , w hi c h l ast e d f o ur

7

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

G- 8
D o c u m e nt 6- 2 Fil e d 0 7/ 0 2/ 2 0

P a g e 9 of 1 0 P a g eI D #: 7 5

t o fiv e w e e ks a n d t h e n r e c urr e d i n M ar c h of t h e s a m e y e ar . I als o h a v e a hist or y of pl e uris y, a n
ill n ess t h at c a us es s e v er e l u n g i nfl a m m ati o n a n d h a m p ers br e at hi n g.
2 8.

B e c a us e of m y m e di c al v ul n er a bilit y, I h a v e s e v er el y c urt ail e d m y c o nt a ct wit h ot h ers

d uri n g t h e p a n d e mi c. B ef or e t h e p a n d e mi c, I w e nt t o m y l o c al li br ar y o n a n e ar -d ail y b asis. T o
d at e, t h e li br ar y is cl os e d , b ut I d o n ot pl a n t o visit e v e n if it d o es r e o p e n . I als o us e d t o fr e q u e nt
c off e e s h o ps r e g ul arl y. I n o l o n g er d o s o e v e n t h o u g h m a n y c off e e s h o ps h a v e st art e d t o r e o p e n at
r e d u c e d c a p a cit y. I als o d o n ot c urr e ntl y att e n d s er vi c es at m y t e m pl e . I a cti v el y a v oi d s o ci ali zi n g
i n p ers o n a n d g at h eri n g i n gr o u ps a n d, i nst e a d, I r e m ai n s h elt er e d at h o m e . T h e o nl y ti m e I l e a v e
m y h o m e is t o g o gr o c er y s h o p pi n g, d uri n g w hi c h I m ai nt ai n a stri ct dist a n c e fr o m ot h ers a n d w e ar
a m as k , or t o w al k f or e x er cis e.
2 9.

I w a nt n ot hi n g m or e t h a n t o f ulfill m y pri estl y d uti es t o w ar d Mr. P ur k e y, b ut b e c a us e of

t h e B O P’s d e cisi o n t o s c h e d ul e t his e x e c uti o n d uri n g a p a n d e mi c, I f e el s u bst a nti al pr ess ur e t o
a b a n d o n m y r eli gi o us c o m mit m e nts t o hi m . It w o ul d b e i m p ossi bl e f or m e t o f ulfill m y r eli gi o us
d uti es d uri n g Mr. P ur k e y’s e x e c uti o n i n a w a y t h at c o m pli es wit h t h e C D C g ui d eli n es f or m e di c all y
v ul n er a bl e p o p ul ati o ns. As s u c h, I h a v e b e e n pl a c e d i n t h e i m p ossi bl e p ositi o n of vi ol ati n g m y
r eli gi o us d uti es or ris ki n g m y h e alt h a n d lif e t o c arr y t h e m o ut.
3 0.

If t h e e x e c uti o n w er e d el a y e d u ntil a ti m e w h e n t h er e is eit h er a n eff e cti v e C O VI D -1 9

tr e at m e nt or a v a c ci n e, I w o ul d b e s af el y a bl e t o att e n d a n d h o n or t h e c or e t e n ets of m y f ait h a n d
m y r eli gi o us c o m mit m e nts as Mr. P ur k e y’s pri est.

I d e cl ar e p urs u a nt u n d er p e n alt y of p erj ur y t h at t h e f or e g oi n g f a cts ar e tr u e a n d c orr e ct.

_________________________
8

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

G- 9
D o c u m e nt 6- 2 Fil e d 0 7/ 0 2/ 2 0

P a g e 1 0 of 1 0 P a g eI D #: 7 6

D al e H art k e m e y er ( a k a S ei g e n)
J u n e 3 0, 2 0 2 0

9

G- 1 0

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

D o c u m e nt 6- 3

Fil e d 0 7/ 0 2/ 2 0

P a g e 1 of 5 P a g eI D #: 7 7

G- 1 1
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

D o c u m e nt 6- 3

Fil e d 0 7/ 0 2/ 2 0

P a g e 2 of 5 P a g eI D #: 7 8

---------- F or w ar d e d m ess a g e --------Fr o m: D al e H a rt k e m e y e r <d al e h art k e m e y er @ g m ail. c o m >
D at e: W e d, F e b 1 3, 2 0 1 3 at 2: 5 3 P M
S u bj e ct: Mi nist er of R e c or d r e q u est
T o: D a vi d C. H olst o n < d h olst o n @ b o p. g o v >
R e v. D a vi d C. H ol st o n
S u p er vi s or y C h a pl ai n
F e d er al C orr e cti o n al C o m pl e x
4 2 0 0 B ur e a u R o a d S o ut h
T err e H a ut e, I N 4 7 8 0 2

D e ar R e v. H ol st o n:

T hi s e m ail i s i n r e pl y t o I n m at e W e sl e y P ur k e y' s r e q u e st t o h a v e m e s er v e a s hi s Mi ni st er of
R e c or d. I w o ul d li k e t hi s e m ail t o s er v e a s m y f or m al a c c e pt a n c e of hi s r e q u e st a n d w o ul d
li k e t o a p pl y t o b e d e si g n at e d a s hi s M O R. A s y o u pr o b a bl y alr e a d y k n o w, I h a v e b e e n
s er vi n g a s a s pirit u al a d vi s er t o Mr. P ur k e y si n c e J a n u ar y of 2 0 0 9, vi siti n g hi m m o nt hl y,
u s u all y o n S at ur d a y s, t o f urt h er hi s st u d y a n d i n str u cti o n i n Z e n B u d d hi s m. W e oft e n s p e n d
t h e vi sit ti m e e x pl ori n g B u d d hi st r e a di n g s a n d di s c u s si n g t h e c o nt e nt s of e s s a y s/ s er m o n s
t h at h e h a s f o u n d i n v ari o u s p u bli c ati o n s, a n d st u d yi n g v ari o u s t h e m e s wit hi n t h e t e a c hi n g s
a n d dr a wi n g c o n n e cti o n s a m o n g t h e m a n y a s p e ct s of t h e t e a c hi n g s. I fi n d t h at Mr.
P ur k e y' s f a mili arit y wit h a n d a w ar e n e s s of t h e br o a d pi ct ur e of t h e B u d d h a W a y h a s gr e atl y
e x p a n d e d o v er t h e s e p a st y e ar s of o ur m ut u al s pirit u al e nt er pri s e. I w o ul d li k e t o s e e t hi s
i n str u cti o n al r el ati o n s hi p c o nti n u e.

G- 1 2

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

D o c u m e nt 6- 3

Fil e d 0 7/ 0 2/ 2 0

P a g e 3 of 5 P a g eI D #: 7 9

Att a c h e d y o u will fi n d t h e N CI C c h e c k d o c u m e nt. I will b e s u b mitti n g ot h er d o c u m e nt s
s h ortl y. T h a n k y o u f or c o n si d eri n g t hi s a p pli c ati o n f or M O R st at u s.

Si n c er el y,
R e v. D al e S ei g e n H art k e m e y er
S a n s hi n Z e n C o m m u nit y
Bl o o mi n gt o n, I n di a n a

G- 1 3
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

D o c u m e nt 6- 3

Fil e d 0 7/ 0 2/ 2 0

P a g e 4 of 5 P a g eI D #: 8 0

---------- F or w ar d e d m ess a g e --------Fr o m: D a vi d C. H olst o n <d h olst o n @ b o p. g o v >
D at e: W e d, M ar 6, 2 0 1 3 at 1 2: 5 5 P M
S u bj e ct: R e: cl er g y cr e d e nti als - P art 2
T o: D al e H art k e m e y er < d al e h art k e m e y er @ g m ail. c o m >
R e v. H art k e m e y er: M o st e v er yt hi n g s h o ul d b e t h e s a m e e x c e pt I a m r e s p o n si bl e f or t h e s c h e d uli n g f or
all M O R vi sit s. I s c h e d ul e all t h e M O R s a m o nt h i n a d v a n c e t hr o u g h C o u n s el or E d w ar d s. I s t hi s t h e
e m ail t h at y o u w a nt t o r e c ei v e t h e m o nt hl y r e q u e st ? If s o, I will a d d t hi s e m ail a d dr e s s t o m y c o nt a ct
li st. T h e d a y s f or M O R s will b e S at ur d a y- S u n d a y- M o n d a y. N or m all y, t h e ti m e sl ot s ar e m or ni n g ar o u n d
8 t o 1 1: 3 0, a n d aft er n o o n sl ot i s 1 2: 3 0- 3 p m. W h at ti m e s w o ul d y o u li k e t o r e q u e st f or M ar c h 3 0 a n d
A pril 2 0. A pril 2 0 aft er n o o n w o ul d b e b ett er, a n d M ar c h 3 0 s h o ul d b e o p e n, at l e a st a s M O R s ar e
c o n c er n e d. L et m e k n o w a n d I will r e q u e st wit h C o u n s el or E d w ar d s.
T h a n k s.
D. H ol st o n
S u p e r vi s o r y C h a pl ai n
F e d e r al C o r r e cti o n al C o m pl e x
4 2 0 0 B u r e a u R d. S o ut h
T e r r e H a ut e, I N 4 7 8 0 2
( 8 1 2) 2 4 4- 4 6 7 7 ( U S P)
( 8 1 2) 2 3 8- 3 4 3 3 ( F C I)
> > > D al e H art k e m e y er < d al e h art k e m e y er @ g m ail. c o m > 3/ 6/ 2 0 1 3 1 2: 1 5 P M > > >
D e ar R e v. H ol st o n,
T h a n k y o u f or t h e n oti c e. C o ul d y o u t ell m e if t h e M O R vi sit s diff er i n a n y w a y fr o m t h e p a st or al vi sit s I
w a s m a ki n g pr e vi o u sl y, i n t er m s of s c h e d uli n g, d ur ati o n of vi sit s, et c. ? I a m a v ail a bl e o n M ar c h 3 0
( S at ur d a y) f or a vi sit wit h Mr. P ur k e y. I n A pril, t h e 2 0t h w o ul d b e t h e b e st d at e f or m e.
T h a n k y o u.
D al e S ei g e n H art k e m e y er
O n W e d, M ar 6, 2 0 1 3 at 1 0: 5 1 A M, D a vi d C. H ol st o n < d h ol st o n @ b o p. g o v > wr ot e:
R e v. H art k e m e y er: Y o u h a v e b e e n a p pr o v e d a s M O R f or I n m at e P ur k e y. If y o u w o ul d li k e t o m a k e
y o ur fir st M O R vi sit i n M ar c h, w e c o ul d tr y a n d s c h e d ul e f or l a st w e e k of M ar c h. Pl e a s e r e s p o n d a s a p
if a v ail a bl e. Al s o, I a m s c h e d uli n g A pril' s vi sit s, s o pl e a s e l et m e k n o w w h e n y o u w o ul d li k e t o vi sit i n
A pril.

G- 1 4

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

D o c u m e nt 6- 3

Fil e d 0 7/ 0 2/ 2 0

P a g e 5 of 5 P a g eI D #: 8 1

T h a n k s.
D. H ol st o n
S u p e r vi s o r y C h a pl ai n
F e d e r al C o r r e cti o n al C o m pl e x
4 2 0 0 B u r e a u R d. S o ut h
T e r r e H a ut e, I N 4 7 8 0 2
( 8 1 2) 2 4 4- 4 6 7 7 ( U S P)
( 8 1 2) 2 3 8- 3 4 3 3 ( F C I)
> > > D al e H art k e m e y er < d al e h art k e m e y er @ g m ail. c o m > 2/ 2 0/ 2 0 1 3 1: 5 6 P M > > >
D e ar R e v, H ol st o n:
Att a c h e d y o u will fi n d s c a n s of Z e n li n e a g e p a p er s r e c ei v e d at t h e ti m e of m y pr e c e pt s-t a ki n g (fil e
k e c hi- s ei g e n) a n d of m y or di n ati o n a s a Z e n B u d d hi st m o n k (fil e k e c hi- s h o g y o ).
Si n c er el y,
D al e S ei g e n H art k e m e y er
T e x t ( b o t t o m ) of k e c hi - s ei g e n:
T o t h e b o d hi s att v a (l a y B u d d hi st) S ei g e n ( n a m e m e a ni n g " S a cr e d S o ur c e ")
L a G e n dr o n ni er e Z e n T e m pl e, A u g. 9, 1 9 8 1
[ C o nf err e d b y Z e n M a st er T ai s e n D e s hi m ar u]
T e x t ( b o t t o m ) of k e c hi - s h o g y o:
L a G e n dr o n ni er e, J ul y 2 9, 1 9 8 3, t o S ei g e n S h o g y o [ D al e H art k e m e y er], b y T ai m y o, Z e n m o n k a n d
di s ci pl e of T ai s e n D e s hi m ar u, f or hi s or di n ati o n a s m o n k.
[ C o nf err e d b y Z e n m o n k T ai m y o L u c B o u s s ar d]

G- 1 5

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

D o c u m e nt 6- 4

Fil e d 0 7/ 0 2/ 2 0

P a g e 1 of 2 P a g eI D #: 8 2

G- 1 6

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

D o c u m e nt 6- 4

Fil e d 0 7/ 0 2/ 2 0

P a g e 2 of 2 P a g eI D #: 8 3

U. S. D e p art m e nt of J u sti c e
F e d er al B ur e a u of Pri s o n s
F e d er al C orr e cti o n al C o m pl e x
T err e H a ut e, I n di a n a

R eli gi o u s S er vi c e s
May 26 , 2020
Gr e et i n g s,
W e h o p e y o u a n d y o ur f a mil y ar e st a yi n g s af e d uri n g t hi s u n pr e c e d e nt e d w orl d - wi d e p u bli c
h e alt h e m er g e n c y.
T h e F e d er al B ur e a u of Pri s o n s h a s i s s u e d a " S h elt er i n Pl a c e" or d er t h at will r e m ai n i n eff e ct
t hr o u g h o ut J u n e 3 0 , 2 0 2 0, at w hi c h ti m e it will b e r e-e v al u at e d.
T h a n k y o u f or y o ur p ati e n c e. A n u p d at e w ill b e pr o vi d e d, o n c e v ol u nt e er s ar e all o w e d t o r et ur n
t o t h e F e d er al C orr e cti o n al C o m pl e x.

Si n c er el y ,

______________________
Mr s. Ki er st e n Orr
R eli g i o u s S er vi c e s A s si st a nt
8 1 2 -2 3 8 -1 5 3 1 e x t. 3 4 3 4
k s h e p h er d @ b o p. g o v

A P P E N DI X H
H- 1
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 6 0- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 1 of 6 P a g eI D #: 7 2 2

H- 2
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 6 0- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 2 of 6 P a g eI D #: 7 2 3

H- 3
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 6 0- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 3 of 6 P a g eI D #: 7 2 4

H- 4
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 6 0- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 4 of 6 P a g eI D #: 7 2 5

H- 5
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 6 0- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 5 of 6 P a g eI D #: 7 2 6

H- 6
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 6 0- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 6 of 6 P a g eI D #: 7 2 7

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

A P P E N DI X I
I- 1
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 2 of 1 9 P a g eI D #: 1 5 7

I N T H E U NI T E D S T A T E S DI S T RI C T C O U R T
F O R T H E S O U T H E R N DI S T RI C T O F I N DI A N A
T E R R E H A U T E DI VI SI O N

D A L E H A R T K E M E Y E R ( A K A S EI G E N)
Pl ai ntiff,
v.

)
)
)
)
)
)
)

C as e N o. _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _

WI L LI A M P. B A R R, i n his offi ci al
)
c a p a cit y as t h e Att or n e y G e n er al of t h e
)
U nit e d St at es; MI C H A E L C A R V AJ A L, i n )
his offi ci al c a p a cit y as t h e Dir e ct or of t h e )
F e d er al B ur e a u of Pris o ns; a n d T.J.
)
W A T S O N, i n his offi ci al c a p a cit y as
)
C o m pl e x W ar d e n f or T err e H a ut e F e d er al )
C orr e cti o n al C o m pl e x,
)
)
D ef e n d a nts.
)
)
D E C L A R A TI O N O F D R. J O E G O L D E N S O N
I, Dr. J o e G ol d e ns o n, d e cl ar e as f oll o ws u n d er p e n alt y of p erj ur y p urs u a nt t o 2 8 U. S. C. § 1 7 4 6:
B ac k gr o u n d
1.
I a m a m e di c al p h ysi ci a n wit h 3 3 y e ars of e x p eri e n c e i n c orr e cti o n al h e alt h c ar e . F or
2 8 y e ars, I w or k e d f or J ail H e alt h S er vi c es of t h e S a n Fr a n cis c o D e p art m e nt of P u bli c
H e alt h. F or 2 2 of t h os e y e ars, I s er v e d as t h e Dir e ct or a n d M e di c al Dir e ct or. I n t h at r ol e, I
pr o vi d e d dir e ct cli ni c al s er vi c es, m a n a g e d p u bli c h e alt h a cti viti es i n t h e S a n Fr a n cis c o
C o u nt y j ail, i n cl u di n g t h e m a n a g e m e nt of HI V, t u b er c ul osis, H e p atitis C, a n d ot h er i nf e cti o us
dis e as es i n t h e f a cilit y, pl a n n e d a n d c o or di n at e d t h e j ail’s r es p o ns e t o H 1 N 1, a n d
a d mi nist er e d t h e c orr e cti o n al h e alt h e nt er pris e, i n cl u di n g its b u d g et, h u m a n r es o ur c es
s er vi c es, a n d m e di c al, m e nt al h e alt h, d e nt al, a n d p h ar m a c y s er vi c es.
2.
I s er v e d as a m e m b er of t h e B o ar d of Dir e ct ors of t h e N ati o n al C o m missi o n o n
C orr e cti o n al H e alt h C ar e f or ei g ht y e ars a n d w as p ast Pr esi d e nt of t h e C alif or ni a c h a pt er of
t h e A m eri c a n C orr e cti o n al H e alt h S er vi c es Ass o ci ati o n. I n 2 0 1 4, I r e c ei v e d t h e Ar m o n d St art
A w ar d of E x c ell e n c e fr o m t h e S o ci et y of C orr e cti o n al P h ysi ci a ns, w hi c h r e c o g ni z es its
r e ci pi e nt as a r e pr es e nt ati v e of t h e hi g h est i d e als i n c orr e cti o n al m e di ci n e.

1

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 2
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 3 of 1 9 P a g eI D #: 1 5 8

3.
F or 3 5 y e ars, I h el d a n a c a d e mi c a p p oi nt m e nt as a n Assist a nt Cli ni c al Pr of ess or at t h e
U ni v ersit y of C alif or ni a, S a n Fr a n cis c o.
4.
I h a v e w or k e d e xt e nsi v el y as a c orr e cti o n al h e alt h m e di c al e x p ert a n d c o urt m o nit or. I
h a v e s er v e d as a m e di c al e x p ert f or t h e U nit e d St at es Distri ct C o urt f or t h e N ort h er n Distri ct
of C alif or ni a f or 2 5 y e ars. I a m c urr e ntl y r et ai n e d b y t h at C o urt as a m e di c al e x p ert i n Pl at a
v. N e ws o m , C as e N o. 3: 0 1-c v - 0 1 3 5 1 ( N. D. C al.), t o e v al u at e m e di c al c ar e pr o vi d e d t o i n m at e
p ati e nts i n t h e C alif or ni a D e p art m e nt of C orr e cti o n al R e h a bilit ati o n. I h a v e als o s er v e d as a
m e di c al e x p ert/ m o nit or at C o o k C o u nt y J ail i n C hi c a g o a n d L os A n g el es C o u nt y J a il, at
ot h er j ails i n W as hi n gt o n, T e x as, a n d Fl ori d a, a n d at pris o ns i n Illi n ois, O hi o, a n d Wis c o nsi n.
5.

M y C V is att a c h e d as E x hi bit A.

6.
I a m n ot b ei n g c o m p e ns at e d f or m y ti m e r e vi e wi n g m at eri als a n d pr e p ari n g t his
r e p ort.
7.
As a r es e ar c h er of pris o n er h e alt h c ar e a n d i nf e cti o us dis e as es, I h a v e st u di e d t h e
s ci e ntifi c lit er at ur e a b o ut C O VI D- 1 9, i n cl u di n g t h e lit er at ur e r e g ar di n g s y m pt o ms, t esti n g,
i nf e cti o n r at es a n d tr a ns missi o n. I n a d diti o n, I h a v e st u di e d a n d a m f a mili ar wit h t h e p u bli c
h e alt h g ui d a n c e r e g ar di n g pr e v e nti o n a n d c o nt ai n m e nt of C O VI D- 1 9, i n cl u di n g U. S. C e nt ers F or
Dis e as e C o ntr ol a n d Pr e v e nti o n’s ( “ C D C ”) G ui d a n c e f or P o p ul ati o n i n J ails a n d t h e C D C’s
I nt eri m I nf e cti o n Pr e v e nti o n a n d C o ntr ol R e c o m m e n d ati o ns f or P ati e nts wit h S us p e ct e d or
C o nfir m e d C or o n a vir us Dis e as e 2 0 1 9 ( C O VI D- 1 9) i n H e alt h c ar e S etti n gs .
8.
I h a v e b e e n as k e d b y c o u ns el f or S ei g e n , t h e s pirit u al a d vis or f or a d e at h r o w pris o n er
d et ai n e d at t h e U nit e d St at es P e nit e nti ar y at T err e H a ut e i n T err e H a ut e, I n di a n a, t o d es cri b e t h e
ris ks t o visit ors, pris o n ers, st aff a n d t h e c o m m u nit y p os e d b y r es u mi n g visit ati o n a n d c arr yi n g
o ut e x e c uti o ns at T err e H a ut e d uri n g t h e C O VI D- 1 9 p a n d e mi c, a n d i n p arti c ul ar, t h e ris ks t o
i n di vi d u als wit h m e di c al v ul n er a biliti es. S ei g e n is t h e s pirit u al a d vis or f or W es P ur k e y, w h os e
e x e c uti o n is s c h e d ul e d f or J ul y 1 5, 2 0 2 0.
C O VI D - 1 9
9.
C O VI D- 1 9 is a s eri o us dis e as e t h at r e a c h e d p a n d e mi c st at us i n M ar c h 2 0 2 0. As of
J u n e 2 8, 2 0 2 0, t h er e ar e at l e ast 1 0, 0 3 9, 2 8 6 c o nfir m e d c as es of C O VI D- 1 9 w orl d wi d e,
i n cl u di n g 2, 5 0 4, 1 7 5 c as es i n t h e U nit e d St at es. 1 At l e ast 4 9 9, 6 3 3 p e o pl e h a v e di e d, i n cl udi n g
1 2 5, 4 8 4 i n t h e U nit e d St at es. 2 As of J u n e 2 8, 2 0 2 0 t h er e w er e 4 4, 5 7 5 c o nfir m e d c as es of
C O VI D i n I n di a n a a n d 2, 6 1 6 r e p ort e d d e at hs. 3 Vi g o C o u nt y, w h er e T erre H a ut e is l o c at e d,

J o h ns H o p ki ns U ni v ersit y C O VI D- 1 9 D at a C e nt er, htt ps:// c or o n a vir us.j h u. e d u/ (l ast visit e d
J u n e 2 8, 2 0 2 0); C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n, C o vi d D at a Tr a c k er,
htt ps:// w w w. c d c. g o v/ c o vi d- d at a -tr a c k er/ # c as es (l ast visit e d J u n e 2 8, 2 0 2 0).
2
I d.
3
I d.
1

2

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 3
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 4 of 1 9 P a g eI D #: 1 5 9

h as h a d 2 1 9 c o nfir m e d c as es a n d 8 d e at hs.4 Be c a us e t h es e n u m b ers i n cl u d e o nl y l a b or at or y
c o nfir m e d c as es, t h e y li k el y u n d erst at e t h e a ct u al n u m b er of c as es a n d d e at hs. E v e n as s o m e
j uris di cti o ns r el a x s o ci al dist a n ci n g r estri cti o ns, n e w h ots p ots of i nf e cti o n c o nti n u e t o e m er g e
a n d c as es c o nti n u e t o ris e i n st at es a cr oss t h e S o ut h, W est a n d Mi d w est. 5 C as es h a v e
i n cr e as e d 1 5 % o v er t h e l ast f e w w e e ks a n d, as of J u n e 2 0, w er e risi n g i n 1 8 st at es a cr oss t h e
S o ut h, W est, a n d Mi d w est. T w el v e st at es hit si n gl e- d a y c as e r e c or ds t h e w e e k of J u n e 2 0.6
1 0.
C O VI D- 1 9 is a hi g hl y c o nt a gi o us r es pir at or y ill n ess. It is tr a ns mitt e d b et w e e n
p ers o ns i n cl os e pr o xi mit y ( wit hi n a b o ut si x f e et) b y air b or n e dr o pl ets r el e as e d b y i nf e ct e d
i n di vi d u als w h e n t h e y c o u g h or s n e e z e. 7 T h e dr o pl ets c a n s ur vi v e i n t h e air f or u p t o t hr e e
h o urs. It m a y als o b e p ossi bl e f or a n i n di vi d u al t o b e c o m e i nf e ct e d b y t o u c hi n g a s urf a c e or
o bj e ct t h at h as t h e vir us o n it a n d t h e n t o u c hi n g his or h er o w n m o ut h, n os e, or p ossi bl y e y es.
I nf e ct e d dr o pl ets c a n s ur vi v e o n s urf a c es f or v ari a bl e l e n gt hs of ti m e, r a n gi n g fr o m u p t o f o ur
h o urs o n c o p p er, t o 2 4 h o urs o n c ar d b o ar d, t o t w o t o t hr e e d a ys o n pl asti c or st ai nl ess st e el.
1 1.
Si g ns a n d s y m pt o ms of C O VI D- 1 9 m a y a p p e ar t w o t o 1 4 d a ys aft er e x p os ur e a n d
m a y i n cl u d e f e v er, c o u g h, s h ort n ess of br e at h or diffi c ult y br e at hi n g , c hills, f ati g u e, m us cl e
p ai n, h e a d a c h e, s or e t hr o at, n e w l oss of t ast e or s m ell, c o n g esti o n or r u n n y n os e, n a us e a or
v o miti n g, or di arr h e a. 8 I n s e v er e c as es, C O VI D- 1 9 c a n r e q uir e h os pit ali z ati o n a n d l e a d t o
r es pir at or y f ail ur e or d e at h. W hil e m or e t h a n 8 0 % of t h e c as es ar e mil d, o v er all s o m e 2 0 % of
c as es will h a v e s e v er e dis e as e r e q uiri n g m e di c al i nt er v e nti o n a n d s u p p ort.
1 2.
P ati e nts w h o s uff er fr o m s eri o us dis e as e m a y pr o gr ess t o A c ut e R es pir at or y Distr ess
S y n dr o m e ( A R D S), w hi c h is a t y p e of r es pir at or y f ail ur e. M a n y p ati e nts s uff eri n g fr o m
A R D S will r e q uir e m e c h a ni c al v e ntil ati o n. A R D S h as a 3 0 p er c e nt m ort alit y r at e o v er all,
a n d a hi g h er m ort alit y r at e i n p e o pl e wit h ot h er m e di c al c o n diti o ns.

4

J o h ns H o p ki ns U ni v ersit y C or o n a vir us R es o ur c e C e nt er, C O VI D- 1 9 U nit e d St at es C as es b y
C o u nt y, htt ps:// c or o n a vir us.j h u. e d u/ us- m a p (l ast visit e d J u n e 2 8, 2 0 2 0).
5
J uli e B os m a n, W. H. O. W ar ns of ‘ D a n g er o us P h as e’ of P a n d e mi c as O ut br e a ks Wi d e n, N e w
Y or k Ti m es (J u n e 1 9, 2 0 2 0), htt ps:// w w w. n yti m es. c o m/ 2 0 2 0/ 0 6/ 1 9/ us/ c or o n a vir us- n e w d a n g er o us- p h as e. ht ml ; N e w Y or k Ti m es, C or o n a vir us Li v e U p d at es: C as es A cr oss U. S. S ur g e
T o w ar d M a y’s Hi g h (J u n e 2 0, 2 0 2 0).
6
N e w Y or k Ti m es, C or o n a vir us Li v e U p d at es, J u n e 2 1, 2 0 2 0,
htt ps:// w w w. n yti m es. c o m/ 2 0 2 0/ 0 6/ 2 1/ w orl d/ c or o n a vir usu p d at es. ht ml ? a cti o n = cli c k & m o d ul e = T o p % 2 0 St ori es & p gt y p e = H o m e p a g e
7
C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n, I nt eri m I nf e cti o n Pr e v e nti o n a n d C o ntr ol
R e c o m m e n d ati o ns f or P ati e nts wit h S us p e ct e d or C o nfir m e d C or o n a vir us Dis e as e 2 0 1 9
( C O VI D- 1 9) i n H e alt h c ar e S etti n gs, htt ps:// w w w. c d c. g o v/ c or o n a vir us/ 2 0 1 9- n c o v/ h c p/i nf e cti o nc o ntr olr e c o m m e n d ati o ns. ht ml ? C D C _ A A _r ef V al = htt ps % 3 A % 2 F % 2 F w w w. c d c. g o v % 2 F c or o n a vir us % 2
F 2 0 1 9- n c o v % 2 Fi nf e cti o n- c o ntr ol % 2 F c o ntr ol-r e c o m m e n d ati o ns. ht ml .
8
C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n, S y m pt o ms of C or o n a vir us ( u p d at e d M a y 1 3,
2 0 2 0), htt ps:// w w w. c d c. g o v/ c or o n a vir us/ 2 0 1 9- n c o v/s y m pt o ms- t esti n g/s y m pt o ms. ht ml
3

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 4
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 5 of 1 9 P a g eI D #: 1 6 0

1 3.
C ert ai n p o p ul ati o ns ar e p arti c ul arl y v ul n er a bl e t o s e v er e c as es of C O VI D- 1 9. T h e
c as e f at alit y r at e a n d n e e d f or a d v a n c e d m e di c al i nt er v e nti o n a n d s u p p ort i n cr e as e
si g nifi c a ntl y wit h a d v a n ci n g a g e i n p e o pl e a g e d o v er 5 0 a n d f or p e o pl e of a n y a g e wit h
c ert ai n u n d erl yi n g m e di c al c o n diti o ns (t h e “ m e di c all y v ul n er a bl e ”). T h e C D C h as i d e ntifi e d
p e o pl e wit h t h e f oll o wi n g m e di c al c o n diti o ns as hi g h ris k f or s e v er e ill n ess ( h os pit ali z ati o n,
i nt e nsi v e c ar e, v e ntil at or y s u p p ort or d e at h) fr o m C O VI D- 1 9:
•
•
•
•
•
•
•

T y p e 2 d i a b et es m ellit us
C hr o ni c o bstr u cti v e p ul m o n ar y dis e as e
S eri o us h e art c o n diti o ns, s u c h as h e art f ail ur e, c or o n ar y art er y dis e as e, or
c ar di o m y o p at hi es
S i c kl e c ell dis e as e
C hr o ni c ki d n e y dis e as e
I m m u n o c o m pr o mis e d st at e ( w e a k e n e d i m m u n e s yst e m) fr o m s oli d or g a n
tr a ns pl a nt
O b esit y ( b o d y m ass i n d e x ( B MI) of 3 0 or hi g h er)

T h e C D C n ot es t h at p e o pl e wit h t h e f oll o wi n g c o n diti o ns mi g ht als o b e at ris k f or s e v er e
ill n ess fr o m C O VI D- 1 9:
•
•
•
•
•

•
•
•
•
•
•
•

Ast h m a ( m o d er at e t o s e v er e)
C er e br o v as c ul ar dis e as e ( aff e cts bl o o d v ess els a n d bl o o d s u p pl y t o t h e
br ai n)
C ysti c fi br osis
H y p ert e nsi o n or hi g h bl o o d pr ess ur e
I m m u n o c o m pr o mis e d st at e ( w e a k e n e d i m m u n e s yst e m) fr o m bl o o d or b o n e
m arr o w tr a ns pl a nt, i m m u n e d efi ci e n ci es, HI V, us e of c orti c ost er oi ds, or us e of
ot h er i m m u n e w e a k e ni n g m e di ci n es
N e ur ol o gi c c o n diti o ns, s u c h as d e m e nti a
Li v er dis e as e
Pr e g n a n c y
P ul m o n ar y fi br osis ( h a vi n g d a m a g e d or s c arr e d l u n g tiss u es)
S m o ki n g
T h al ass e mi a ( a t y p e of bl o o d dis or d er)
T y p e 1 di a b et es m ellit us 9

C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n, P e o pl e of A n y A g e wit h U n d erl yi n g M e di c al
C o n diti o ns ( u p d at e d J u n e 2 5, 2 0 2 0), htt ps:// w w w. c d c. g o v/ c or o n a vir us/ 2 0 1 9-n c o v/ n e e d - e xtr apr e c a uti o ns/ p e o pl e- wit h -m e di c al c o n diti o ns. ht ml ? C D C _ A A _r ef V al = htt ps % 3 A % 2 F % 2 F w w w. c d c. g o v % 2 F c or o n a vir us % 2 F 2 0 1 9n c o v % 2 F n e e d- e xtr a- pr e c a uti o ns % 2 F gr o u ps- at - hi g h er-ris k. ht ml

9

4

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 5
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 6 of 1 9 P a g eI D #: 1 6 1

1 4.
T h e C D C als o n ot es t h e ris k f or s e v er e ill n ess fr o m C O VI D- 1 9 i n cr e as es wit h a g e,
wit h ol d er a d ults at hi g h est ris k. 1 0 F or e x a m pl e, as d e pi ct e d i n C h art 1, a C D C gr a p hi c, 8 4. 6
p er 1 0 0, 0 0 0 p ati e nts a g e 4 0- 4 9 y e ars ar e h os pit ali z e d d u e t o C O VI D- 1 9. T h at r at e i n cr e as es
t o 1 3 6. 1 p er 1 0 0, 0 0 0 f or p ati e nts a g e 5 0- 6 4 y e ars; t o 1 9 8. 7 p er 1 0 0, 0 0 0 f or p ati e nts a g e 6 5- 7 4
y e ars; a n d t o 3 2 9. 3 p er 1 0 0, 0 0 0 f or p ati e nts a g e 7 5- 8 4 y e ars. 1 1
C h art 1

1 5.
T h e ris k of d e at h fr o m C O VI D- 1 9 als o i n cr e as es wit h a g e. As s h o w n i n C h art 2,
a n ot h er C D C gr a p hi c , p ati e nts a g e 4 0- 4 9 a c c o u nt f or 2. 9 % of all C O VI D- 1 9 d e at hs.
B e gi n ni n g at a g e 5 0, t h e ris k of d e at h i n cr e as es dr a m ati c all y. P ati e nts a g e 5 0- 6 4 a c c o u nt f or
1 5 % of C O VI D- 1 9 d e at hs; p ati e nts a g e d 6 5- 7 4 a c c o u nt f or 2 0. 6 % of d e at hs; p ati e nts a g e d
7 5- 8 4 a c c o u nt f or 2 6. 1 % of d e at hs. 1 2 T h e i n cr e asi n g d e at h t oll f or ol d er a d ults d o es n ot
c orr el at e wit h o v er all p er c e nt a g e of t h e p o p ul ati o n. R at h er, t h e d e at h r at e fr o m C O VI D- 1 9
i n cr e as es si g nifi c a ntl y wit h a g e, d es pit e t h e f a ct t h at t h os e a g e gr o u ps c o nstit ut e a n

C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n, Ol d er A d ults ( u p d at e d J u n e 2 5, 2 0 2 0),
htt ps:// w w w. c d c. g o v/ c or o n a vir us/ 2 0 1 9- n c o v/ n e e d -e xtr a - pr e c a uti o ns/ ol d er- a d ults. ht ml
1 1 I d.
12
C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n, D e m o gr a p hi c Tr e n ds of C O VI D- 1 9 c as es a n d
d e at hs i n t h e U S r e p ort e d t o C D C ( u p d at e d J u n e 2 9, 2 0 2 0), htt ps:// w w w. c d c. g o v/ c o vi d- d at a tr a c k er/i n d e x. ht ml # d e m o gr a p hi cs.
10

5

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 6
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 7 of 1 9 P a g eI D #: 1 6 2

i n cr e asi n gl y s m all er p er c e nt a g e of t h e o v er all p o p ul ati o n. T his tr e n d is d e pi ct e d i n C h art 3,
b el o w, c o m pil e d fr o m C D C d at a 1 3 a n d p o p ul ati o n esti m at es fr o m t h e U. S. C e ns us B ur e a u. 1 4
C h art 2

C h art 3

I d.
S e e U nit e d St at es C e ns us B ur e a u, 2 0 1 9 P o p ul ati o n Esti m at es b y A g e, S e x, R a c e a n d His p a ni c
Ori gi n (J u n e 2 5, 2 0 2 0), htt ps:// w w w. c e ns us. g o v/ n e wsr o o m/ pr ess- kits/ 2 0 2 0/ p o p ul ati o nesti m at es -d et ail e d. ht ml .
13
14

6

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 7
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 8 of 1 9 P a g eI D #: 1 6 3

P e r c e nt of U. S. P o p ul ati o n v s C O VI D -1 9 D e at h s
3 0. 0 0 %
2 6. 1 0 %

2 5. 0 0 %
2 0. 0 0 %

1 9. 1 7 %

1 5. 0 0 %
1 0. 0 0 %

1 2. 2 8 %

2 0. 6 0 %
15 %
9. 5 9 %

5. 0 0 %
0. 0 0 %

4. 8 7 %

2. 9 0 %
4 0- 4 9

5 0- 6 4

6 5- 7 4

7 5- 8 4

A g e Gr o u p
P e r c e nt of T ot al U S P o p ul ati o n

P e r c e nt of C O VI D- 1 9 D e at h s

1 6.
A si g nifi c a nt n u m b er of i nf e ct e d i n di vi d u als d o n ot e x hi bit s y m pt o ms, h o w e v er, a n d
as y m pt o m ati c i n di vi d u als — eit h er b ef or e t h e o ns et of s y m pt o ms or b e c a us e n o s y m pt o ms
will e v er m a nif est — c a n n e v ert h el ess tr a ns mit t h e dis e as e t o ot h ers. A c c or di n g t o t h e C D C,
u p t o 2 5 p er c e nt of p e o pl e i nf e ct e d wit h C O VI D- 1 9 will r e m ai n as y m pt o m ati c. 1 5 Si mil arl y,
i nf e ct e d i n di vi d u als m a y e x p eri e n c e o nl y mil d s y m pt o ms. T h es e as y m pt o m ati c a n d mil dl y
s y m pt o m ati c i n di vi d u als c a n, a n d d o, tr a ns mit t h e vir us, c o ntri b uti n g t o its r a pi d s pr e a d.
B e c a us e of t h e hi g h ris k of tr a ns missi o n b y as y m pt o m ati c i n di vi d u als, C D C r e c o m m e n ds
e v er y o n e w e ar a m as k w h e n t h e y l e a v e t h eir h o m es.
1 7.
At t his ti m e t h er e is n o v a c ci n e t o pr e v e nt C O VI D- 1 9 a n d t h er e is n o k n o w n c ur e or
a nti -vir al tr e at m e nt a v ail a bl e. 1 6
1 8.
C urr e nt pr e v e nti v e m e as ur es s e e k t o sl o w t h e tr a ns missi o n of C O VI D- 1 9 t hr o u g h a
n u m b er of m e c h a nis ms. T h e C D C h as i d e ntifi e d s o ci al dist a n ci n g ( k e e pi n g p ers o ns s e p ar at e d
b y at l e ast si x f e et) as a “ c or n erst o n e of r e d u ci n g tr a ns missi o n of r es pir at or y dis e as es s u c h as
C O VI D- 1 9. ” 1 7 I n a d diti o n, fr e q u e nt h a n d w as hi n g, a n d r es pir at or y h y gi e n e ( e. g. , c o v eri n g
m o ut h a n d n os e w h e n c o u g hi n g or s n e e zi n g), a n d fr e q u e nt cl e a nsi n g of s urf a c es , w hil e l ess
15

A p o or v a M a n d a villi, I nf e ct e d b ut F e eli n g Fi n e: T h e U n witti n g C or o n a vir us S pr e a d ers, N. Y.
Ti m es ( M ar. 3 1, 2 0 2 0), htt ps:// w w w. n yti m es. c o m/ 2 0 2 0/ 0 3/ 3 1/ h e alt h/ c or o n a vir us- as y m pt o m ati c tr a ns missi o n. ht ml.
1 6 C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n, Pr e v e nt G etti n g Si c k ( A pr. 8, 2 0 2 0),
c d c. g o v/ c or o n a vir us/ 2 0 1 9- n c o v/ pr e v e nt- g etti n g -si c k.
17
C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n, I nt eri m G ui d a n c e o n M a n a g e m e nt of C or o n a vir us
Dis e as e 2 0 1 9 ( C O VI D- 1 9) i n C orr e cti o n al a n d D et e nti o n F a ciliti es , at 4 ( M ar. 2 3, 2 0 2 0),
htt ps:// w w w. c d c. g o v/ c or o n a vir us/ 2 0 1 9- n c o v/ d o w nl o a ds/ g ui d a n c e- c orr e cti o n al- d et e nti o n. p df
7

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 8
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 9 of 1 9 P a g eI D #: 1 6 4

eff e cti v e t h a n s o ci al dist a n ci n g, ar e r e c o m m e n d e d .1 8 W hil e t h es e ar e i m p ort a nt a n d n e c ess ar y
a cti o ns t o r e d u c e t h e ris k of i nf e cti o n a n d t h e s pr e a d of t h e vir us, t h e y ar e n ot f ull y
pr e v e nti v e.
C O VI D - 1 9 i n D et e nti o n F a ciliti es G e n e r all y
1 9.
F or m ulti pl e r e as o ns, t h e ris k of e x p os ur e t o a n d tr a ns missi o n of i nf e cti o us dis e as es,
as w ell as t h e p ot e nti al h ar m t o t h os e w h o b e c o m e i nf e ct e d, is si g nifi c a ntl y hi g h er i n j ails a n d
pris o ns t h a n i n t h e c o m m u nit y, p utti n g i n m at es, st aff, a n d ot h ers w h o m ust e nt er t h e f a cilit y
at hi g h ris k of b e c o mi n g ill wit h C O VI D- 1 9.
2 0.
Cl os e li vi n g q u art ers a n d oft e n o v er cr o w d e d c o n diti o ns i n j ails, pris o ns, a n d d et e nti o n
c e nt ers f a cilit at e t h e r a pi d tr a ns missi o n of i nf e cti o us dis e as es, p arti c ul arl y t h os e tr a ns mitt e d
b y air b or n e dr o pl ets t hr o u g h s n e e zi n g or c o u g hi n g, li k e C O VI D- 1 9. I n t h es e c o n gr e g at e
s etti n gs, l ar g e n u m b ers of p e o pl e ar e cl os el y c o nfi n e d a n d f or c e d t o s h ar e b u n kr o o ms,
b at hr o o ms, c af et eri as, a n d ot h er e n cl os e d s p a c es. T h e y ar e p h ysi c all y u n a bl e t o pr a cti c e
s o ci al dist a n ci n g, w hi c h , as d es cri b e d a b o v e, is a “ c or n erst o n e ” of r e d u ci n g tr a ns missi o n of
C O VI D- 1 9. 1 9 Wit hi n t h es e f a ciliti es, s p a c e a n d r es o ur c e li mit ati o ns — a n d t h e r es ulti n g
i n a bilit y of i n m at es a n d e m pl o y e es t o pr a cti c e s o ci al dist a n ci n g 2 0 — m a k e it e xtr e m el y
diffi c ult t o eff e cti v el y q u ell t h e e x pl osi v e gr o wt h of a hi g hl y c o nt a gi o us vir us. T h e C D C h as
r e c o g ni z e d t h at c orr e cti o n al a n d d et e nti o n f a ciliti es “ pr es e nt u ni q u e c h all e n g es f or c o ntr ol of
C O VI D- 1 9 tr a ns missi o n a m o n g i n c ar c er at e d / d et ai ne d p ers o ns, st aff, a n d visit ors. ”2 1
2 1.
Fr e q u e nt a n d t h or o u g h h a n d w as hi n g is o n e of t h e k e y r e c o m m e n d ati o ns t o r e d u c e
tr a ns missi o n b ut s uffi ci e nt s o a p a n d/ or h a n d s a niti z er is oft e n n ot a v ail a bl e (f or i n m at es a n d
st aff) t o w as h t h eir h a n ds fr e q u e ntl y e n o u g h t o pr e v e nt t h e ris k of tr a ns missi o n i n
c o ntr a v e nti o n of t h e C D C’s I nt eri m G ui da n c e. 2 2
2 2.
C orr e cti o n al f a ciliti es ar e c o m m o nl y p o orl y v e ntil at e d, w hi c h f a cilit at es t h e
tr a ns missi o n of air b or n e ill n ess es, s u c h as C O VI D- 1 9. T h e C D C r e c o m m e n ds g e n er all y aft er
a n i nf e cti o n i n b uil di n gs t h at b uil di n g o p er at ors o p e n wi n d o ws t o all o w fr es h air t o
cir c ul at e. 2 3 T his r e c o m m e n d ati o n is n ot p ossi bl e i n pris o ns.

18

C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n, H o w t o Pr ot e ct Y o urs elf a n d Ot h ers 1 – 2 ( A pr.
1 8, 2 0 2 0), htt ps:// w w w. c d c. g o v/ c or o n a vir us/ 2 0 1 9- n c o v/ pr e v e nt- g etti n g -si c k/ pr e v e nti o n- H. p df.
19
C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n, I nt eri m G ui d a n c e o n M a n a g e m e nt of C or o n a vir us
Dis e as e 2 0 1 9 ( C O VI D- 1 9) i n C orr e cti o n al a n d D et e nti o n F a ciliti es , at 4 ( M ar. 2 3, 2 0 2 0),
htt ps:// w w w. c d c . g o v/ c or o n a vir us/ 2 0 1 9- n c o v/ d o w nl o a ds/ g ui d a n c e- c orr e cti o n al- d et e nti o n. p df
2 0 S e e i d. at 2, 1 1.
2 1 I d. at 2.
22 See i d .
2 3 C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n , Cl e a ni n g a n d Disi nf e cti n g Y o ur F a cilit y 2 ( A pr.
1, 2 0 2 0), htt ps:// w w w. c d c. g o v/ c or o n a vir us/ 2 0 1 9- n c o v/ c o m m u nit y/ disi nf e cti n g- b uil di n g -f a cilit yH. p df .
8

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 9
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 1 0 of 1 9 P a g eI D #: 1 6 5

2 3.
C urr e nt C D C r e c o m m e n d ati o ns f or r e d u ci n g t h e tr a ns missi o n of C O VI D- 1 9 i n j ails
i n cl u d e s cr e e ni n g of all n e wl y arri vi n g arr est e es, q u ar a nti ni n g all n e wl y arri vi n g arr est e es f or
1 4 d a ys a n d p erf or mi n g d ail y s y m pt o m s cr e e ni n g a n d t e m p er at ur e c h e c ks w hil e t h e y ar e i n
q u ar a nti n e, is ol ati n g a n y d et ai n e e wit h a n y s y m pt o ms c o nsist e nt wit h C O VI D- 1 9 or wit h
f e v er w h o is c urr e ntl y h o us e d i n t h e f a cilit y, a n d pr o vi di n g m as ks t o all i n m at es w h o ar e
" c o nfir m e d or s us p e ct e d C O VI D- 1 9 c as es, or s h o wi n g s y m pt o ms of C O VI D- 1 9. " 2 4 I n
a d diti o n, t h e C D C g e n er all y r e c o m m e n ds pr o vi di n g a n d w e ari n g m as ks i n c o n gr e g at e
s etti n gs. I n di vi d u als s h o ul d n ot b e a d d e d t o a n e xisti n g q u ar a nti n e c o h ort aft er t h e 1 4- d a y
q u ar a nti n e cl o c k h as st art e d.
2 4.
T h es e r e c o m m e n d ati o ns ar e als o diffi c ult, if n ot i mp ossi bl e, t o i m pl e m e nt i n pris o ns
d u e t o s p a c e c o nstr ai nts, l a c k of s uffi ci e nt r es pir at or y is ol ati o n r o o ms, a n d l a c k of n e c ess ar y
e q ui p m e nt a n d ot h er r es o ur c es.
2 5.
T esti n g h as b e e n li mit e d i n m a n y j ails a n d pris o ns. E v e n w h e n a v ail a bl e, it c a n t a k e
d a ys t o o bt ai n r es ults. M or e o v er, s o m e o n e w h o is t est e d s h ortl y aft er b ei n g i nf e ct e d m a y t est
n e g ati v e. As a r es ult of t his li mit e d t esti n g, t h e d at a r e g ar di n g t h e s pr e a d of C O VI D- 1 9 i n
c orr e cti o n al f a ciliti es is e xtr e m el y li mit e d a n d li k el y si g nifi c a ntl y u n d er c o u nts t h e tr u e s pr e a d
of t h e vir us. C D C Dir e ct or R o b ert R e dfi el d esti m at es t h at t h e n u m b er of p e o pl e i nf e ct e d wit h
C O VI D- 1 9 i n t h e c o m m u nit y is li k el y 1 0 ti m es hi g h er t h a n t h e n u m b er of p ati e nts w h o h a v e
b e e n c o nfir m e d p ositi v e t hr o u g h t esti n g. 2 5 It is li k el y t h at t h e r at e of u n di a g n os e d p ati e nts is
e v e n hi g h er i n pris o ns a n d j ails, w h er e t esti n g r at es ar e oft e n m u c h l o w er t h a n i n t h e
c o m m u nit y.
2 6.
N o n- t est b as e d v er b al s cr e e ns—i. e., as ki n g a p ers o n f or a s u bj e cti v e r e p ort of
s y m pt o ms— c a n n ot a d e q u a t el y s cr e e n f or n e w, as y m pt o m ati c or pr e-s y m pt o m ati c i nf e cti o ns.
C O VI D- 1 9 h as a t y pi c al i n c u b ati o n p eri o d of 2 t o 1 4 d a ys, c o m m o nl y fi v e d a ys, a n d
tr a ns missi o n oft e n o c c urs b ef or e pr es e nt ati o n of s y m pt o ms. A c c or di n g t o t h e C e nt ers f or
Dis e as e C o ntr ol a n d Pr e v e nti o n, u p t o 2 5 p er c e nt of p e o pl e i nf e ct e d wit h C O VI D- 1 9 will
r e m ai n as y m pt o m ati c. 2 6 Si mil arl y, i nf e ct e d i n di vi d u als m a y e x p eri e n c e o nl y mil d
s y m pt o ms. T h es e n e wl y i nf e ct e d, as y m pt o m ati c a n d mil dl y s y m pt o m ati c i n di vi d u als c a n,
a n d d o, tr a ns mit t h e vir us, c o ntri b uti n g t o its r a pi d s pr e a d. As a r es ult, s u c h i n a d e q u at e
s cr e e ni n g pr es e nts a criti c al pr o bl e m. T h e p ossi bilit y of as y m pt o m ati c tr a ns missi o n m e a ns
t h at m o nit ori n g st aff a n d i n c ar c er at e d p e o pl e f or s y m pt o ms a n d f e v er is i n a d e q u at e t o
i d e ntif y all w h o m a y b e i nf e ct e d a n d t o pr e v e nt tr a ns missi o n. B e c a us e of t h e pr o bl e ms wit h
s cr e e ni n g pr o c e d ur es, t h e ris k of f als e n e g ati v e t ests, t h e u n a v ail a bilit y of t est kits a n d t h e
d el a ys i n o bt ai ni n g t est r es ults, o n e n e c ess ar y m e a ns t o pr e v e nt t h e i ntr o d u cti o n of C O VI D
i nt o t h e j ails b y s o m e o n e w h o is arr est e d is t o q u ar a nti n e all arr est e es f or 1 4 d a ys a n d m o nit or
S e e C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n, I nt eri m G ui d an c e at 1 0, 1 4, 1 5, 2 0.
L e n a H. S u n & J o el A c h e n b a c h, C D C c hi ef s a ys c or o n a vir us c as es m a y b e 1 0 ti m es hi g h er
t h a n r e p ort e d, W as hi n gt o n P ost (J u n e 2 5, 2 0 2 0),
htt ps:// w w w. w as hi n gt o n p ost. c o m/ h e alt h/ 2 0 2 0/ 0 6/ 2 5/ c or o n a vir us- c as es - 1 0-ti m es-l ar g er/.
26
A p o or v a M a n d a villi, I nf e ct e d b ut F e eli n g Fi n e: T h e U n witti n g C or o n a vir us S pr e a d ers, N. Y.
Ti m es ( M ar. 3 1, 2 0 2 0), htt ps:// w w w. n yti m es. c o m/ 2 0 2 0/ 0 3/ 3 1/ h e alt h/ c or o n a vir us- as y m pt o m ati c tr a ns missi o n. ht ml
24
25

9

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 1 0
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 1 1 of 1 9 P a g eI D #: 1 6 6

t h e m d ail y f or s y m pt o ms a n d f e v er b ef or e t h e y ar e d e e m e d s af e t o i ntr o d u c e i nt o t h e g e n er al
p o p ul ati o n of t h e j ail.
2 7.
I n c orr e cti o n al f a ciliti es, gr o u ps of p ers o ns ar e oft e n m o v e d fr o m s p a c e t o s p a c e, f or
e x a m pl e, fr o m a d or mit or y t o a c af et eri a or visiti n g r o o m. P ers o n s oft e n fr o m m ulti pl e
diff er e nt h o usi n g u nits, c o n gr e g at e a n d c o m e i n cl os e c o nt a ct w hil e st a n di n g i n li n es f or
m e di c ati o n, c o m miss ar y, fr es h l a u n dr y, or t el e p h o n es. T h es e gr o u p m o v e m e nts , w hi c h m a y
cl ust er l ar g e n u m b ers of p e o pl e t o g et h er i n s m all s p a c es, i n cr e as e t h e ris k of tr a ns m issi o n
b et w e e n i n c ar c er at e d p ers o ns a n d t hr o u g h o ut t h e f a cilit y. It is c o m m o n f or i n di vi d u als i n a
gi v e n h o usi n g u nit t o r o uti n el y b e s u bj e ct e d t o s u c h gr o u p m o v e m e nts m ulti pl e ti m es e a c h
d a y . A d diti o n all y, d et e nti o n f a ciliti es oft e n r el y o n i n c ar c er at e d p e o pl e t o p erf or m w or k t h at
s u p p orts t h e o p er ati o n of t h e f a cilit y, s u c h as f o o d s er vi c e, l a u n dr y, a n d cl e a ni n g. T o p erf or m
t h es e w or k assi g n m e nts, t h e y t y pi c all y tr a v el fr o m t h eir h o usi n g u nits t o ot h er p arts of t h e
f a cilit y.
2 8.
C orr e cti o n al offi c ers a n d ot h er f a cilit y st aff r o uti n el y h a v e dir e ct p h ysi c al c o nt a ct
wit h i n c ar c er at e d p e o pl e, es p e ci all y w h e n h a n d c uffi n g or r e m o vi n g h a n d c uffs fr o m pris o n ers
w h o ar e e nt eri n g or e xiti n g t h e f a cilit y, or w h o ar e b ei n g es c ort e d fr o m o n e p art of t h e
f a cilit y t o a n ot h er . St aff m e m b ers als o m o v e ar o u n d wit hi n t h e f a cilit y, w hi c h cr e at es
o p p ort u niti es f or tr a ns missi o n b ot h a m o n g st aff i n diff er e nt p arts of t h e f a cilit y a n d
tr a ns missi o n t o a n d fr o m i n c ar c er at e d p e o pl e i n diff er e nt p arts of t h e f a cilit y. C orr e cti o n al
offi c ers m ust als o c o m e i nt o cl os e c o nt a ct wit h visit ors at f a ciliti es, i n or d er t o pr o c ess t h e m
t hr o u g h s e c urit y, c o n d u ct s e c urit y s e ar c h es, a n d es c ort t h e m t o t h eir d esti n ati o n wit hi n t h e
f a cilit y. T his cr e at es f urt h er o p p ort u niti es f or tr a ns missi o n b et w e e n st aff a n d visit ors.
2 9.
C orr e cti o n al f a ciliti es l ar g el y l a c k t h e r o b ust m e di c al c ar e i nfr astr u ct ur e t h at w o ul d
b e n e c ess ar y t o d e al wit h a C O VI D- 1 9 o ut br e a k. If a si g nifi c a nt n u m b er of p e o pl e b e c o m e
si c k wit h C O VI D- 1 9 t h e i nstit uti o n’s h e alt h c ar e f a ciliti es will b e u n a bl e t o r es p o n d
a p pr o pri at el y t o t h os e p e o pl e a n d t h os e w h o n e e d m e di c al c ar e f or ot h er r e as o ns. A n d, w h e n
a n i n c ar c er at e d p ati e nt’s n e e ds ar e t o o a c ut e f or a c orr e cti o n al f a cilit y t o pr o vi d e a d e q u at e
tr e at m e nt, t h e p ati e nt m ust b e tr a ns p ort e d t o a n d tr e at e d at a c o m m u nit y h os pit al. O n c e
C O VI D- 1 9 s pr e a ds t hr o u g h o ut t h e c orr e cti o n al f a cilit y , t h e b ur d e n of c ari n g f or m a n y of
t h es e si c k i n di vi d u als will s hift t o l o c al c o m m u nit y m e di c al f a ciliti es.
3 0.
W h e n a n o ut br e a k stri k es a c orr e cti o n al f a cilit y, c orr e cti o n a n d m e di c al st aff will
b e c o m e ill. T h e y will n ot s h o w u p t o w or k. T h es e v a c a n ci es c a n r es ult i n f a ciliti es b e c o mi n g
d a n g er o usl y u n d erst aff e d, w hi c h c o m pr o mis es m e di c al c ar e. H e alt h c ar e st aff w h o pr o vi d e
tr e at m e nt ar e u n a v ail a bl e. C orr e cti o n al st aff als o pl a y a vit al r ol e i n d eli v eri n g m e di c al
s er vi c es, b y es c orti n g pris o n ers, r es p o n di n g t o a n d al erti n g m e di c al of m e di c al e m er g e n ci es,
a n d pr o vi di n g s e c urit y t o h e alt h c ar e st aff w hil e t h e y pr o vi d e s er vi c es. T h eir a bs e n c e als o
c o m pr o mis es tr e at m e nt.
3 1.
If i nf e ct e d, i n m at es ar e at gr e at er ris k f or h ar m fr o m C O VI D- 1 9 t h a n t h os e i n t h e
g e n er al c o m m u nit y. T his is d u e t o a n u m b er of f a ct ors i n cl u di n g t h e f a ct t h at p e o pl e i n
pris o ns h a v e hi g h r at es of c hr o ni c ill n ess es, s u c h as di a b et es, h e art dis e as e, c hr o ni c l u n g
dis e a s e, a n d i m m u n os u p pr essi v e ill n ess es s u c h as HI V dis e as e t h at i n cr e as e t h e ris k fr o m

10

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 1 1
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 1 2 of 1 9 P a g eI D #: 1 6 7

C O VI D- 1 9, oft e n h a v e h a d p o or or a bs e nt pri or h e alt h c ar e, a n d oft e n h a v e m a d e u n h e alt h y
lif e-st yl e c h oi c es, i n cl u di n g al c o h ol a n d dr u g us e. F or t h es e r e as o ns, it is w ell a c c e pt e d
wit hi n t h e m e di c al c o m m u nit y t h at pris o n i n m at es ar e p h ysi ol o gi c all y 1 0 y e ars ol d er t h a n
t h eir c hr o n ol o gi c al a g e.
3 2.
B e c a us e of t h e c o n diti o ns t y pi c all y f o u n d i n j ails a n d pris o ns, c ar c er al s etti n gs oft e n h a v e
p arti c ul arl y s eri o us i n ci d e n c e of c o m m u ni c a bl e dis e as e. F or e x a m pl e, d uri n g t h e H 1 N 1- str ai n
fl u o ut br e a k i n 2 0 0 9 ( k n o w n as t h e “s wi n e fl u ”), j ails a n d pris o ns e x p eri e n c e d a
dis pr o p orti o n at el y hi g h n u m b er of c as es. 2 7 U ntil r e c e ntl y t h e C o o k C o u nt y J ail i n C hi c a g o w as
b eli e v e d t o b e t h e l ar g est- k n o w n s o ur c e of U. S. C O VI D vir us i nf e cti o ns. 2 8 As of A pril 1 3, m or e
t h a n 5 0 0 p e o pl e h a d b e e n i nf e ct e d at t h e f a cilit y, a n d t h e n u m b ers c o nti n u e t o cli m b. 2 9 I n o n e
pris o n i n O hi o, 7 8 % of t h e a p pr o xi m at el y 2, 5 0 0 pris o n ers t est e d p ositi v e. 3 0 T h e St at e of O hi o
t est e d its pris o n ers e n m ass e f or C O VI D- 1 9 s o t his n u m b er i n cl u d es l ar g e n u m b ers of i n m at es
w h o w er e as y m pt o m ati c a n d w o ul d ot h er wis e n ot h a v e b e e n t est e d. T his u n d ers c or es t h e ris k of
t h e s pr e a d of C O VI D- 1 9 b y as y m pt o m ati c i n di vi d u als. I n a d diti o n, 1 0 9 st aff h a d t est e d p ositi v e
f or C O VI D- 1 9. 3 1
3 3.
D uri n g a n i nf e cti o us dis e as e o ut br e a k, a c o nt ai n m e nt str at e g y r e q uir es p e o pl e w h o
h a v e k n o w n or s us p e ct e d ill n ess b e is ol at e d a n d t h a t c ar e gi v ers h a v e a c c ess t o p ers o n al
pr ot e cti v e e q ui p m e nt t o pr ot e ct t h e ms el v es a n d t o pr e v e nt t h e f urt h er tr a ns missi o n of t h e
dis e as e. D uri n g a n o ut br e a k, j ails a n d pris o ns ar e u n d er- r es o ur c e d i n b ei n g a bl e t o pr o vi d e
m e di c all y a p pr o pri at e h o usi n g f or p er s o ns wit h k n o w n or s us p e ct e d i nf e cti o us ill n ess, a n d
ar e oft e n u n d er e q ui p p e d t o pr o vi d e s uffi ci e nt p ers o n al pr ot e cti v e e q ui p m e nt, i n cr e asi n g t h e
ris k of a wi d es pr e a d o ut br e a k.
3 4.
I n s u m, c urr e nt C D C r e c o m m e n d ati o ns f or s o ci al dist a n ci n g, fr e q u e nt h a n d w as hi n g,
fr e q u e nt cl e a nsi n g of s urf a c es, s y m pt o m s cr e e ni n g, t e m p er at ur e c h e c ks a n d is ol ati o n t o
pr e v e nt i nf e cti o n a n d t h e s pr e a d of t h e vir us ar e e xtr e m el y diffi c ult, if n ot i m p ossi bl e, t o
i m pl e m e nt i n c ar c er al s etti n gs . As a r es ult, t h e ris k of C O VI D tr ans missi o n is f ar gr e at er
t h a n i n n o n-c ust o di al i nstit uti o ns. Gi v e n t h e r a pi d s pr e a d of C O VI D-1 9, it is li k el y
27

D a vi d M. R e utt er, S wi n e Fl u Wi d es pr e a d i n Pris o ns a n d J ails, b ut D e at hs ar e F e w , Pris o n
L e g al N e ws ( F e b. 1 5, 2 0 1 0), htt ps:// w w w. pris o nl e g al n e ws. or g/ n e ws/ 2 0 1 0/f e b/ 1 5/s wi n e- fl uwi d es pr e a d -i n- pris o ns-a n d -j ails- b ut-d e at hs ar e -f e w/.
28
Ti m ot h y Willi a ms a n d D a ni ell e I v or y, C hi c a g o’s J ail is T o p U. S. H ot S p ot as Cir us S pr e a ds
B e hi n d B ars , N. Y. Ti m es ( A pr. 8, 2 0 2 0), htt ps:// w w w. n yti m es. c o m/ 2 0 2 0/ 0 4/ 0 8/ us/ c or o n a vir usc o o k- c o u nt y- j ail- c hi c a g o. ht ml.
29
C h er yl C orl e y, T h e C O VI D - 1 9 Str u g gl e I n C hi c a g o's C o o k C o u nt y J ail, N P R ( A pr. 1 3,
2 0 2 0) htt ps:// w w w. n pr. or g/ 2 0 2 0/ 0 4/ 1 3/ 8 3 3 4 4 0 0 4 7/t h e- c o vi d - 1 9-str u g gl e-i n-c hi c a g os - c o o kc o u nt y- j ail.)
3 0 O hi o D e p art m e nt of R e h a bilit ati o n & C orr e cti o n, C O VI D- 1 9 I n m at e T esti n g (l ast u p d at e d
A pr. 2 0, 2 0 2 0), htt ps:// dr c. o hi o. g o v/ P ort als/ 0/ D R C % 2 0 C O VI D- 1 9 % 2 0I nf or m ati o n % 2 0 0 4- 2 02 0 2 0 % 2 0 % 2 0 1 3 0 4. p df ,
31
Bill C h a p p ell a n d P ai g e Pfl e g er, 7 3 % Of I n m at es At A n O hi o Pris o n T est P ositi v e F or
C or o n a vir us, N P R ( A pr. 2 0, 2 0 2 0), htt ps:// w w w. n pr. or g/s e cti o ns/ c or o n a vir us- li v eu p d at es/ 2 0 2 0/ 0 4/ 2 0/ 8 3 8 9 4 3 2 1 1/ 7 3- of- i n m at es-at - a n- o hi o- pris o n-t est-p ositi v e -f or- c or o n a vir us
11

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 1 2
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 1 3 of 1 9 P a g eI D #: 1 6 8

i m p ossi bl e t o a c hi e v e a n d s ust ai n t h es e m e as ur es s uffi ci e ntl y t o miti g at e t h e ris k of
tr a ns missi o n f or m e di c all y v ul n er a bl e i n m at es, st aff, or visit ors.
C o n diti o ns i n P ris o ns P os e Si g nifi c a nt Ris k of T r a ns missi o n of C O VI D- 1 9 T o a n d F r o m
t h e C o m m u nit y O utsi d e t h e P ris o ns
3 5.
T h e c o n diti o ns i n pris o ns p os e v er y si g nifi c a nt ris k of tr a ns missi o n of c o m m u ni c a bl e
dis e as es li k e C O VI D - 1 9 n ot o nl y t o i n m at es, e m pl o y e es a n d v ol u nt e ers i n t h e pris o ns, b ut
als o t o t h e c o m m u nit y as a w h ol e. It h as l o n g b e e n k n o w n t h at j ails, pris o ns, a n d d et e nti o n
c e nt ers c a n b e h ot b e ds of dis e as e tr a ns missi o n, a n d t h at d u e t o t h e fr e q u e nt i n gr ess a n d
e gr ess of e m pl o y e es at t h es e f a ciliti es, a n o ut br e a k wit hi n a j ail, pris o n, or d et e nti o n c e nt er
c a n q ui c kl y s pr e a d t o s urr o u n di n g c o m m u niti es. I n a d diti o n, st aff m a y c o ntr a ct
c o m m u ni c a bl e dis e as es i n t h e c o m m u nit y a n d t h e n i ntr o d u c e t h os e dis e as es i nt o t h e f a cilit y.
W hil e pris o ns ar e oft e n t h o u g ht of as cl os e d e n vir o n m e nts, t his is n ot t h e c as e. A l ar g e
n u m b er of c ust o d y, m e di c al, a n d ot h er s u p p ort st aff a n d c o ntr a ct ors w h o h a v e dir e ct c o nt a ct
wit h pris o n ers e nt er a n d l e a v e t h e f a cilit y t hr o u g h o ut t h e d a y. Pris o ns a d mit a n d r el e as e
pris o n ers o n a r e g ul ar b asis. Si n c e t h er e is n o eff e cti v e w a y t o s cr e e n f or n e wl y i nf e ct e d or
as y m pt o m ati c i n di vi d u als, t h e y c a n u n k n o wi n gl y tr a ns mit C O VI D- 1 9 t o t h e i n m at e
p o p ul ati o n.
3 6.
W h e n t h er e is a n o ut br e a k i n a pris o n, st aff c a n b e c o m e i nf e ct e d a n d bri n g t h e vir us
h o m e t o t h eir f a mili es a n d c o m m u nit y. F or e x a m pl e, t h e t u b er c ul osis e pi d e mi c t h at br o k e
o ut i n N e w Y or k Cit y i n t h e e arl y 1 9 9 0s b e g a n i n j ails a n d w as s pr e a d t o t h e c o m m u nit y b y
j ail e m pl o y e es w h o b e c a m e i nf e ct e d a n d t h e n r et ur n e d h o m e.
3 7.
It is diffi c ult t o o v erst at e t h e d e v ast ati o n t h at a C O VI D- 1 9 o ut br e a k c o ul d i nfli ct o n
c orr e cti o n al f a ciliti es a n d its s urr o u n di n g c o m m u niti es . At Ri k ers Isl a n d i n N e w Y or k,
b et w e e n t h e m or ni n gs of W e d n es d a y, A pril 1 a n d T h urs d a y, A pril 2, t h e n u m b er of C O VI D1 9 p ositi v e i n c ar c er at e d i n di vi d u als a n d st aff m e m b ers gr e w b y 4 7 a n d 5 7 p e o pl e,
r es p e cti v el y, u p pi n g t h e j ail’s t ot al n u m b ers of c o nfir m e d c as es t o 2 3 1 a m o n g t h e
i n c ar c er at e d p o p ul ati o n a n d 2 2 3 a m o n g st aff. 3 2 T h e first k n o w n c as e of C O VI D- 1 9 at Ri k ers
w as c o nfir m e d o n W e d n es d a y, M ar c h 1 8, 3 3 ill ustr ati n g j ust h o w q ui c kl y t his dis e as e c a n a n d
will o v er w h el m d et e nti o n f a ciliti es. A risi n g n u m b er of i n di vi d u als i n pris o ns c o nti n u e t o t est
p ositi v e f or C O VI D- 1 9. 3 4
32

J uli a Cr a v e n, C or o n a vir us C as es Ar e S pr e a di n g R a pi dl y o n Ri k ers Isl a n d , Sl at e ( A pr. 2,
2 0 2 0), htt ps://sl at e. c o m/ n e ws -a n d - p oliti cs/ 2 0 2 0/ 0 4/ri k ers- c or o n a vir us-c as es -i n cr e as e. ht ml.
33
As T esti n g E x p a n ds, C o nfir m e d C as es of C or o n a vir us i n N. Y. C. N e ar 2, 0 0 0 , N. Y. Ti m es
( u p d at e d M ar. 1 9, 2 0 2 0), htt ps:// w w w. n yti m es. c o m/ 2 0 2 0/ 0 3/ 1 8/ n yr e gi o n/ c or o n a vir us-n e w - y or ku p d at e. ht ml.
34
T h e M ars h all Pr oj e ct , A St at e- b y- St at e L o o k at C or o n a vir us i n Pris o ns (J u n e 1 8, 2 0 2 0),
htt ps:// w w w.t h e m ars h all pr oj e ct. or g/ 2 0 2 0/ 0 5/ 0 1/ a- st at e- b y-st at e-l o o k-at - c or o n a vir us-i npris o ns ? ut m _ m e di u m = e m ail & ut m _ c a m p ai g n = n e wsl ett er & ut m _s o ur c e = o p e ni n gst at e m e nt & ut m _t er m = n e wsl ett er - 2 0 2 0 0 6 1 22 0 2 2 & ut m _s o ur c e = T h e + M ars h all + Pr oj e ct + N e wsl ett er & ut m _ c a m p ai g n = 0 6 b 2 d 8 b 8 bf12

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 1 3
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 1 4 of 1 9 P a g eI D #: 1 6 9

C o n diti o ns at U S P T e r r e H a ut e a n d Ris ks f o r Visit ati o n
3 8.
T h e B ur e a u of Pris o ns ( B O P) d es cri b es t h e T err e H a ut e F e d er al C orr e cti o n al
C o m pl e x ( F C C) as c o m pris e d of t w o f a ciliti es, U S P T err e H a ut e, a Hi g h S e c urit y D et e nti o n
F a cilit y wit h 1, 3 0 6 m al e pris o n ers a n d F CI T err e H a ut e, a M e di u m S e c urit y F e d er al
C orr e cti o n al I nstit uti o n ( 9 7 8 pris o n ers ) wit h a n a dj a c e nt Mi ni m u m S e c urit y S at ellit e C a m p
( 2 5 6 pris o n ers). 3 5 D e at h r o w pris o n ers ar e h o us e d i n U S P T erre H a ut e, i n t h e M a xi m u m
S e c urit y F a cilit y.
3 9.
I n A pril, T erre H a ut e F C C b e c a m e t h e B O P’s r e gi o n al i nt a k e c e nt er, r es ulti n g i n t h e
tr a nsf er of i n m at es w h o w er e i n t h e c ust o d y of t h e U S M ars h als fr o m f a ciliti es ar o u n d t h e
r e gi o n. 3 6
4 0.
T h e first c as e of C O VI D- 1 9 i n T err e H a ut e w as p u bli cl y r e p ort e d o n M a y 1 6, 2 0 2 0. 3 7
Si n c e t h e n, at l e ast o n e pris o n er h as di e d fr o m t h e vir us. 3 8 T h e B O P r e p orts t h at as of J u n e
2 7, ei g ht pris o n ers h a v e t est e d p ositi v e f or C O VI D- 1 9. 3 9 H o w e v er, t h e B O P als o r e p orts t h at
it h as o nl y c o n d u ct e d t ests o n 2 2 9 pris o n ers, or l ess t h a n 1 9 % of t h e t ot al p o p ul ati o n at U S P
T err e H a ut e. 4 0 T h e r es ults f or 2 0 a d diti o n al t ests ar e still p e n di n g. 4 1
4 1.
T h e B O P h as n ot r e p ort e d i nf or m ati o n a b o ut t h e n u m b er of st aff m e m b ers w h o h a v e
b e e n t est e d at t h e f a cilit y , or w h et h er B O P is off eri n g t esti n g t o st aff m e m b ers at U S P T err e
E M AI L _ C A M P AI G N _ 2 0 2 0 _ 0 6 _ 1 2 _ 1 1 _ 4 7 & ut m _ m e di u m = e m ail & ut m _t er m = 0 _ 5 e 0 2 c d a d 9 d0 6 b 2 d 8 b 8 bf- 1 6 0 8 5 2 5 0 1 ( d es cri bi n g r e c e nt “r e m ar k a bl e gr o wt h i n c or o n a vir us c as es a n d n oti n g
t h at r e c e nt wi d es pr e a d t esti n g r es ults “s u g g est t h at c or o n a vir us h a d b e e n cir c ul ati n g i n pris o ns i n
m u c h gr e at er n u m b ers t h a n k n o w i n t h e e arl y w e e ks of t h e p a n d e mi c ”).
35
F e d er al B ur e a u of Pris o ns, F CI T err e H a ut e, htt ps:// w w w. b o p. g o v/l o c ati o ns/i nstit uti o ns/t h a/ .
36
W H TI - T V 1 0, T err e H a ut e’s F e d er al Pris o n S et t o B e c o m e I nt a k e C e nt er f or t h e R e gi o n,
Bri n gi n g i n O v er 1 0 0 I n m at es , ( A pril 1 5, 2 0 2 0), htt ps:// w w w. wt hit v. c o m/ c o nt e nt/ n e ws/ T err e H a ut es -f e d er al- pris o n-s et-t o-b e c o m e -i nt a k e-c e nt er -f or-t h e-r e gi o n- bri n gi n g-i n- o v er- 1 0 0-i n m at es- 5 6 9 6 4 2 7 4 1. ht ml; W H TI- T V 1 0, N e w I n m at es Arri v e d at T err e H a ut e’s F e d er al P e nit e nti ar y As
P art of Pl a n t o M a k e it I nt a k e C e nt er f or t h e R e gi o n ( A pril 2 2, 2 0 2 0),
htt ps:// w w w. wt hit v. c o m/ c o nt e nt/ n e ws/ N e w -i n m at es-arri v e d -at -T err e -H a ut es -f e d er alp e nit e nti ar y -as -p art - of-pl a n -t o-m a k e -it-i nt a k e-c e nt er -f or-t h e-r e gi o n- 5 6 9 8 3 7 0 7 1. ht ml.
37
Lis a Tri g g, C as e of C O VI D- 1 9 I nf e cti o n R e p ort e d at F e d er al Pris o n i n T err e H a ut e , Tri b ut eSt ar ( M a y 1 8, 2 0 2 0), htt ps:// w w w.tri bst ar. c o m/ n e ws/ c as e - of-c o vi d - 1 9-i nf e cti o n-r e p ort e d-at f e d er al- pris o n-i n-t err e- h a ut e/ arti cl e _ 8 5 a 0 7 5 e e- 9 9 4 0- 1 1 e a- 8 7f e-f b 3 a 2 3 9 8 7 3 4 d. ht ml
38
T err e H a ut e Pris o n I n m at e Wit h C O VI D- 1 9 Di es; 3 M or e H a v e It , U. S. N e ws ( M a y 2 6, 2 0 2 0),
htt ps:// w w w. us n e ws. c o m/ n e ws/ b est -st at es/i n di a n a/ arti cl es/ 2 0 2 0 - 0 5- 2 6/ 3-t err e-h a ut e -f e d er alpris o n- i n m at es- p ositi v e-f or- c o vi d- 1 9
3 9 F e d er a l B ur e a u of Pris o ns, C O VI D- 1 9 C as es, w w w. b o p. g o v/ c or o n a vir us/ (l ast visit e d J u n e 2 7,
2 0 2 0).
40
I d.
41
I d.
13

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 1 4
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 1 5 of 1 9 P a g eI D #: 1 7 0

H a ut e . P u bli c all y a v ail a bl e i nf or m ati o n s u g g ests t h at B O P is s cr e e ni n g st aff f or C O VI D- 1 9,
h o w e v er t h e i nf or m ati o n a v ail a bl e i n di c at es t h at t h e s cr e e ni n g is hi g hl y i ns uffi ci e nt.
A c c or di n g t o B O P’s I m pl e m e nti n g M o difi e d O p er ati o ns, i nt e n d e d t o miti g at e t h e s pr e a d of
C O VI D- 1 9, h e at h s cr e e ni n g of st aff is b ei n g p erf or m e d at all B O P l o c ati o ns. 4 2 T h at
s cr e e ni n g i n cl u d es o nl y “s elf-r e p orti n g a n d t e m p er at ur e c h e c ks. ” 4 3 T h e s cr e e ni n g, at a
mi ni m u m, s h o ul d i n q uir e a b o ut t h e br o a d r a n g e of C O VI D- 1 9 s y m pt o ms t h at p ati e nts m a y
e x p eri e n c e. F urt h er, t e m p er at ur e c h e c ks a n d n o n- t est b as e d v er b al s cr e e ns s u c h as t his c a n n ot
a d e q u at el y s cr e e n f or n e w, as y m pt o m ati c or pr e -s y m pt o m ati c i nf e cti o ns. I nf e ct e d st aff ar e a
k e y v e ct or f or i ntr o d u ci n g C O VI D- 1 9 i nt o a c orr e cti o n al f a cilit y. S u c h i ns uffi ci e nt
s cr e e ni n g d o es littl e t o miti g at e t his ris k.
4 2.
C o u ns el h as pr o vi d e d a d e cl ar ati o n of Mr. P ur k e y’s s pirit u al a d vis or, S ei g e n,
d es cri bi n g his e x p eri e n c e wit h t h e pr o c ess of a d missi o n a n d visit ati o n f or d e at h r o w
pris o n ers at T err e H a ut e. T his pr o c ess is si mil ar t o ot h er pris o ns I h a v e visit e d, a n d i n v ol v es
cl os e a n d r e p e at e d c o nt a ct b et w e e n t h e visit o r a n d c ust o di al st aff, ot h er visit ors, a n d
pris o n ers.
4 3.
A c c or di n g t o t h e B O P w e bsit e f or U S P T err e H u at e, “ all visiti n g at t his f a cilit y h as
b e e n s us p e n d e d u ntil f urt h er n oti c e. ” 4 4 A c c or di n g t o t h e B O P w e bsit e’s m o difi e d o p er ati o ns,
all i n p ers o n s o ci al a n d l e g al visits ar e s us p e n d e d a cr oss all B O P f a ciliti es “i n or d er t o
miti g at e t h e s pr e a d of C O VI D- 1 9[.] ” 4 5
4 4.
C o u ns el h as pr o vi d e d a d e cl ar ati o n of R e b e c c a W o o d m a n , c o u ns el f or Mr. P ur k e y,
r e g ar di n g p ossi bl e visits b y m e m b ers of Mr. P ur k e y’s d ef e nse t e a m, e x p ert wit n ess es,
s pirit u al a d vis or, a n d f a mil y. Aft er Mr. P ur k e y’s e x e c uti o n w as s c h e d ul e d, e x c e pti o ns w er e
a p p ar e ntl y m a d e t o all o w f or l e g al a n d s o ci al visits wit h Mr. P ur k e y. A c c or di n g t o U S P T err e
H a ut e C o u ns el, t h e o nl y pr e c a uti o ns t h e pris o n c a n off er ar e t o pr o vi d e visit ors a m as k, t y p e
u n k n o w n, t a k e t h e t e m p er at ur e of visit ors, pr o vi d e h a n d s a niti z er at t h e fr o nt e ntr a n c e, a n d t o
i nst all Pl e xi gl ass i n t h e visit ati o n r o o m. T h es e m e as ur es ar e i ns uffi ci e nt t o pr ot e ct visit ors
fr o m t h e ris k of C O VI D- 1 9. Pr o visi o n of m as ks t o visit ors m a y miti g at e t h e ris k t h at t h e
visit or bri n gs C O VI D- 1 9 i nt o t h e f a cilit y. It d o es n ot, h o w e v er, pr ot e ct visit ors t h e ms el v es
fr o m t h e ris k of c o ntr a cti n g t h e vir us. F urt h er, m e as ur es t o dist a n c e or s e p ar at e i n di vi d u als
c a n n ot f ull y miti g at e t h e ris k of C O VI D- 1 9 tr a ns missi o n w h e n c o n d u ct e d i n a n ot h er wis e
c o nfi n e d s p a c e wit h p o or v e ntil ati o n.
4 5.
I n a d diti o n, t h e B O P a p p e ars t o i nt e n d t o utili z e a s cr e e ni n g f or m t h at h as n ot b e e n
u p d at e d si n c e M ar c h 1 3, 2 0 2 0 a n d i n cl u d es o nl y t hr e e q u esti o ns r e g ar di n g i nt er n ati o n al
tr a v el, c o nt a ct wit h a C O VI D- 1 9 p ositi v e i n di vi d u al, a n d a s u bj e cti v e r e p ort of s y m pt o ms. As
F e d er al B ur e a u of Pris o ns, B O P I m pl e m e nti n g M o difi e d O p er ati o ns,
htt ps:// w w w. b o p. g o v/ c or o n a vir us/ c o vi d 1 9 _st at us.js p (l ast visit e d J u n e 2 9, 2 0 2 0).
4 3 I d.
4 4 F e d er al B ur e a u of Pris o ns, U S P T err e H a ut e, htt ps:// w w w. b o p. g o v/l o c ati o ns/i nstit uti o ns/t h p/
(l ast visit e d J u n e 2 9, 2 0 2 0).
45
F e d er al B ur e a u of Pris o ns, B O P I m pl e m e nti n g M o difi e d O p er ati o ns,
htt ps:// w w w. b o p. g o v/ c or o n a vir us/ c o vi d 1 9 _st at us.js p (l ast visit e d J u n e 2 9, 2 0 2 0).
42

14

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 1 5
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 1 6 of 1 9 P a g eI D #: 1 7 1

n ot e d a b o v e, t e m p er at ur e c h e c ks a n d n o n- t est b as e d v er b al s cr e e ns s u c h as t his c a n n ot
a d e q u at el y s cr e e n f or n e w, as y m pt o m ati c or pr e -s y m pt o m ati c i nf e cti o ns. I n a d diti o n, t his
s cr e e ni n g f or m a p p e ars t o r el y o n o ut d at e d i nf or m ati o n. It o nl y as ks a b o ut t hr e e s y m pt o ms:
f e v er or c hills, c o u g h, a n d s h ort n ess of br e at h. B ut as n ot e d a b o v e, t h e C D C e x p a n d e d its list
of t y pi c al C O VI D- 1 9 s y m pt o ms t o i n cl u d e n ot o nl y f e v er, c o u g h, a n d s h ort n ess of br e at h, b ut
als o f ati g u e, m us cl e p ai n, h e a d a c h e, s or e t hr o at, n e w l oss of t ast e or s m ell, c o n g esti o n or
r u n n y n os e, n a us e a or v o miti n g, or di arr h e a. 4 6 T h e C D C u p d at e d t his i nf or m ati o n i n M a y;
a n y s cr e e ni n g f or ms i n us e s h o ul d h a v e b e e n s u bs e q u e ntl y u p d at e d. Gi v e n o ur q ui c kl y
e v ol vi n g u n d erst a n di n g of C O VI D- 1 9, it is i m p er ati v e t o u p d at e s af et y m e as ur es a c c or di n g
t o u p d at e d k n o wl e d g e a b o ut t h e vir us. B O P d o es n ot a p p e ar t o h a v e d o n e t his.
4 6.
T h es e i nt e n d e d m e as ur es al o n e ar e n ot a d e q u at e. As n ot e d a b o v e, n e c ess ar y
pr e c a uti o ns i n cl u d e e ns uri n g t h e a bilit y t o s o ci al dist a n c e, fr e q u e nt cl e a ni n g a n d disi nf e cti n g
of o bj e cts a n d s urf a c es, r e q uiri n g st aff a n d i n m at es t o w e ar m as ks if wit hi n si x f e et of ot h ers,
a n d a d e q u at e v e ntil ati o n.
4 7.
C o u ns el h as f urt h er i nf or m e d m e t h at s o m e of Mr. P ur k e y’s t e a m m e m b ers a n d
wit n ess es ar e m e di c all y v ul n er a bl e.
4 8.
Gi v e n t h e c urr e nt h e alt h crisis r el at e d t o t h e C O VI D- 1 9 p a n d e mi c, a n d t h e f a ct t h at
C O VI D- 1 9 h as alr e a d y b e e n i d e ntifi e d i n t h e pris o n , wit h at l e ast o n e i n m at e d e at h, it is m y
m e di c al o pi ni o n t h at it is n ot s af e f o r m e di c all y v ul n er a bl e i n di vi d u als ( as d efi n e d a b o v e) t o
visit U S P T err e H a ut e .
4 9.
I h a v e p ers o n all y b e e n r e q u est e d t o visit a n u m b er of c orr e cti o n al f a ciliti es t o
d et er mi n e if a p pr o pri at e s af et y pr e c a uti o ns w er e b ei n g i m pl e m e nt e d a n d f oll o w e d. Gi v e n
m y a g e ( 7 0 y e ars ol d) a n d t h e f a ct t h at I s uff er fr o m m e di c al c o n diti o ns t h at m a k e m e
m e di c all y v ul n er a bl e, I h a v e t ur n e d d o w n t h es e r e q u ests.
S p e ci al Ris ks P os e d b y E x e c uti o ns
5 0.
T h e B O P e x e c uti o n r e g ul ati o ns s p e cif y t h e att e n d a n c e of a l ar g e n u m b er of wit n ess es
f or e x e c uti o ns. T h e y d eli n e at e 2 4 wit n ess es, e x cl usi v e of t h e c ust o di al st aff, W ar d e n,
M ars h all, a n d D e p art m e nt of J usti c e Att or n e ys. T h e e x e c uti o n pr ot o c ol pr o vi d e d t o m e b y
c o u ns el, alt h o u g h r e d a ct e d i n m a n y ar e as, cl e arl y a nti ci p at es i n v ol v e m e nt of a l ar g e n u m b er
of B O P a n d M ars h all p ers o n n el.
5 1.
A c c or di n g t o Ms. W o o d m a n, Mr. P ur k e y’s att or n e y, a p art fr o m t h e i n a d e q u at e
m e as ur es p ut i n pl a c e r e g ar di n g g e n er al visit ati o n, B O P c o u ns el h as n ot pr o vi d e d a n y
i nf or m ati o n p ert ai ni n g t o pl a n n e d C O VI D- 1 9 s af et y m e as ur es f or t h e e x e c uti o n its elf.

C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n, S y m pt o ms of C or o n a vir us ( u p d at e d M a y 1 3,
2 0 2 0) , htt ps:// w w w. c d c.g o v/ c or o n a vir us/ 2 0 1 9- n c o v/s y m pt o ms- t esti n g/s y m pt o ms. ht ml.

46

15

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 1 6
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 1 7 of 1 9 P a g eI D #: 1 7 2

5 2.
P u bli c r e p orts of t h e e x e c uti o n f a cilit y s h o w it as a si n gl e l o w b uil di n g.4 7 O n e
r e p ort er d es cri b e d t h e r o o m w h er e m e di a wit n ess es w er e dir e ct e d t o wit n ess t h e e x e c uti o n as
a “s m all, u n a d or n e d r o o m. ” 4 8 I m a g es fr o m n e ws r e p orts s h o w a s m all e x e c uti o n c h a m b er
wit h wi n d o ws i nt o w h at a p p e ar t o b e s m all o bs er v ati o n ar e as. 4 9
5 3.
C o u ns el h as pr o vi d e d a d e cl ar ati o n of Ti m ot h y Fl o y d, a n att or n e y w h o h as p ers o n all y
att e n d e d a n e x e c uti o n c o n d u ct e d as U S P T err e H a ut e. Mr. Fl o y d d es cri b es r e p e at e dl y sitti n g
s h o ul d er-t o-s h o ul d er i n a cr a m p e d r o o m wit h s e v er al ot h er p e o pl e, i n cl u di n g his cli e nt’s
s pirit u al a d vis ors, i n or d er t o visit wit h his cli e nt pri or t o t h e e x e c uti o n. Mr. Fl o y d f urt h er
d es cri b e d t h at h e a n d his cli e nt’s s pirit u al a d vis ors w er e all s h uttl e d t o t h e “ D e at h H o us e ” i n
a cr a m p e d v a n al o n g wit h pris o n st aff, w er e es c ort e d t o g et h er t o t h e e x e c uti o n c h a m b er , a n d
s h ar e d a s m all vi e wi n g r o o m f or t h e e x e c uti o n. I n t h e vi e wi n g r o o m, Mr. Fl o y d a n d his
cli e nt’s s pirit u al a d vis ors st o o d s h o ul d er- t o-s h o ul d er i n or d er t o s e e a n d be s e e n b y Mr.
Fl o y d’s cli e nt. T h e e n vir o n m e nt d es cri b e d b y Mr. Fl o y d d o es n ot all o w f or t h e s o ci al
dist a n ci n g r e c o m m e n d e d b y t h e C D C t o pr e v e nt t h e tr a ns missi o n of C O VI D- 1 9.
5 4.
D uri n g t h e 2 0 0 1 Ti m ot h y M c V ei g h e x e c uti o n, a r e p ort er d es cri b e d a “ m e di a ar e a, o n
t h e pris o n gr o u n ds, b ut a w a y fr o m t he a ct u al b uil di n gs ” t h at “l o o ks a n d f e els li k e a
f air gr o u n d or cir c us, ” wit h a t e m p or ar y vill a g e of m e di a t e nts a n d m e di a st aff m o vi n g ar o u n d
o n g olf c arts a n d f o ot. 5 0
5 5.
I a m i nf or m e d t h at S ei g e n, Mr. P ur k e y’s s pirit u al a d vis or, as w ell as all of Mr.
P ur k e y’s d ef e ns e att or n e ys, d ef e ns e i n v esti g at ors, a n d f a mil y m e m b ers li v e o ut of t o w n a n d
will n e e d t o tr a v el b y pl a n e or l o n g c ar ri d es t o t h e pris o n t o att e n d t h e e x e c uti o n.
5 6.
W hil e airli n es h a v e i m pl e m e nt e d m a n y s af et y m e as ur es ai m e d at r e d u ci n g t h e ris k of
C O VI D- 1 9 i nf e cti o n, air tr a v el (i n cl u di n g tr a ns p ort ati o n t o a n d fr o m t h e air p ort, g oi n g
t hr o u g h s e c urit y c h e c k p oi nts, usi n g p u bli c b at hr o o ms, a n d b o ar di n g t h e air pl a n e) still p os es
a si g nifi c a nt ris k of C O VI D- 1 9 i nf e cti o n. Dr. B o b W a c ht er, t h e c h air m a n of t h e U ni v ersit y
of C alif or ni a, S a n Fr a n cis c o’s D e p art m e nt of M e di ci n e st at e d, “ Fl yi n g is a n a c c u m ul ati o n of
a b u n c h of t hi n gs t h at i n g e n er al i m pl y hi g h er ris k. It is st a yi n g i n f airl y cl os e c o nt a ct wit h a

47

A n dr e w C o h e n, S a m e Pl a n et, Diff er e nt W ol ds , C B S N e ws. C o m (J u n e 1 0, 2 0 0 1),
htt ps:// w w w. c bs n e ws. c o m/ n e ws/s a m e -pl a n et - diff er e nt- w orl ds/.
48
P et er Sl e vi n , Wit n essi n g A F e d er al E x e c uti o n ( S e pt. 4, 2 0 1 9),
htt ps:// w w w. n e w y or k er. c o m/ n e ws/ n e ws- d es k/ wit n essi n g - a-f e d er al- e x e c uti o n
4 9 A n ni e J o h nst o n, W HI-T V 1 -, J u d g e H alts F e d er al E x e c uti o ns S c h e d ul e d t o T a k e Pl a c e i n
T err e H a ut e ( N o v. 2 1, 2 0 1 9); J uli a D el c o urt, Ti m ot h y M c V ei g h’s L ast D a y, T uls a W orl d (J u n e
1 0, 2 0 0 1), htt ps:// w w w.t uls a w orl d. c o m/ ar c hi v e/ti m ot h y -m c v ei g hs -l ast- d a y/ arti cl e _ 3 e e 6 5 b af5 0 b 9- 5 2 5 3- 9 a 9 8- 1 4 0f af 0 c c 1 2 5. ht ml .
50
A n dr e w C o h e n, S a m e Pl a n et, Diff er e nt W or l ds, C B S N e ws. C o m (J u n e 1 0, 2 0 0 1),
htt ps:// w w w. c bs n e ws. c o m/ n e ws/s a m e -pl a n et - diff er e nt- w orl ds/.
16

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

I- 1 7
D o c u m e nt 6- 2 5 Fil e d 0 7/ 0 2/ 2 0

P a g e 1 8 of 1 9 P a g eI D #: 1 7 3

w h ol e l ot of p e o pl e y o u d o n’t k n o w, it is d oi n g t h at i n d o ors, it is d oi n g t h at f or l o n g p eri o ds
of ti m e. ” 5 1
5 7.
C o u ns el pr o vi d e d m e wit h a d e cl ar ati o n b y B O P R e gi o n al C o u ns el Ri c k Wi nt er, w h o
d es cri b es t h e B O P p ers o n n el w h o will b e tr a v eli n g t o U S P T err e H a ut e t o p arti ci p at e i n a n y
e x e c uti o n. T h e “ e x e c uti o n t e a m ” is c o m pris e d of m or e t h a n 4 0 B O P st aff m e m b ers; it
a p p e ars t h at m a n y, if n ot all, of t h es e i n di vi d u als will b e tr a v eli n g t o T err e H a ut e fr o m
u n k n o w n p arts of t h e c o u ntr y. I n a d diti o n, a p pr o xi m at el y 5 0 B O P st aff o n s p e ci ali z e d
s e c urit y t e a ms will tr a v el t o F C C T err e H a ut e fr o m ot h er B O P i nstit uti o ns f or t h e p ur p os e of
t h e e x e c uti o n, a c c or di n g t o t h e Wi nt er d e cl ar ati o n. Fi n all y , a p pr o xi m at el y 2 0 0 F C C T err e
H a ut e st aff will pr o vi d e s p e ci ali z e d s e c urit y a n d s u p p ort f or a n e x e c uti o n, a c c or di n g t o t h e
Wi nt er d e cl ar ati o n. T h es e st aff m e m b ers ar e p ull e d a w a y fr o m t h eir n or m al d uti es at F C C
T err e H a ut e.
5 8.
As a r es ult, a l ar g e n u m b er of i n di vi d u als, i n cl u di n g B O P st aff, m e di a, att or n e ys,
s pirit u al a d vis ors, f a mil y m e m b ers, a n d ot h er wit n ess es will b e c o n gr e g at e d i n cl os e q u art ers
i n a n d ar o u n d t h e e x e c uti o n b uil di n g. A n y of t h e B O P st aff m e m b ers m a y pr e vi o usl y h a v e
b e e n i n c o nt a ct wit h i n m at es or ot h er st aff w h o ar e C O VI D- 1 9 p ositi v e i n t h e c o urs e of t h eir
n or m al d uti es. I n a d diti o n, a l ar g e n u m b er of t h es e i n di vi d u als will h a v e tr a v el e d fr o m
diff er e nt p arts of t h e c o u ntr y, w h er e t h e y m a y h a v e b e e n e x p os e d t o o n e of m a n y C O VI D- 1 9
“ h ot s p ots ” or m a y h a v e b e e n e x p os e d t o C O VI D- 1 9 t hr o u g h air tr a v el.
5 9.
E v e nts, s u c h as t h e e x e c uti o n d es cri b e d a b o v e, t h er ef or e p os e a d d e d ris k of C O VI D1 9 i nf e cti o n a n d s pr e a d of t h e vir us. T h e y ar e r ef err e d t o as “s u p er-s pr e a d er e v e nts ” a n d
i n v ol v e i n d o or g at h eri n gs wit h m a n y p e o pl e, li k e a r eli gi o us s er vi c e or birt h d a y p art y. O n
A pril 8, 2 0 2 0, C D C r e p ort e d o n a cl ust er of 1 6 c o nfir m e d or pr o b a bl e c as es of C O VI D- 1 9,
i n cl u di n g t hr e e d e at hs, li k el y r es ulti n g fr o m o n e i ntr o d u cti o n. C D C n ot e d t h at f a mil y
g at h eri n gs i n cl u di n g a f u n er al a n d a birt h d a y p art y li k el y f a cilit at e d tr a ns missi o n of S A R SC o V- 2 i n t his cl ust er. C D C c o n cl u d e d, “ T o g et h er wit h e vi d e n c e e m er gi n g fr o m ar o u n d t h e
w orl d t h es e d at a s h e d li g ht o n tr a ns missi o n b e y o n d h o us e h ol d c o nt a cts, i n cl u di n g t h e
p ot e nti al f or s u p er-s pr e a di n g e v e nts. ” 5 2
6 0.
T h e e x p eri e n c e of o n e pris o n i n Miss o uri, w h er e t h e o nl y e x e c uti o n t o h a v e t a k e n
pl a c e d uri n g t h e p a n d e mi c w as c o n d u ct e d, is c o n c er ni n g. Miss o uri c o n d u ct e d a n e x e c uti o n at

S ar a h F el d b er g, Is it s af e t o fl y ? F ar-fl u n g B a y Ar e a f a mili es w ei g h c or o n a vir us ris k, S a n
Fr a n cis c o C hr o ni cl e, J u n e 2 0, 2 0 2 0, htt ps:// w w w.sf c hr o ni cl e. c o m/tr a v el/ arti cl e/Is -it-s af e-t o-fl yF ar -fl u n g-B a y -Ar e a -f a mili es- 1 5 3 5 1 3 7 4. p h p
5 2 C o m m u nit y Tr a ns missi o n of S A R S- C o V- 2 at T w o F a mil y G at h eri n gs — C hi c a g o, Illi n ois,
F e br u ar y – M ar c h 2 0 2 0 , M or bi dit y a n d M ort alit y W e e kl y R e p ort ( M M W R), A pril 1 7, 2 0 2 0,
6 9( 1 5); 4 4 6 – 4 5 0,
htt ps:// w w w. c d c. g o v/ m m wr/ v ol u m es/ 6 9/ wr/ m m 6 9 1 5 e 1. ht m ?s _ ci d = m m 6 9 1 5 e 1 _ w
51

17

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

D o c u m e nt 6- 2 5

Fil e d 0 7/ 0 2/ 2 0

P a g e 1 9 of 1 9 P a g eI D #: 1 7 4

a st at e pris o n i n B o n n e T err e o n M a y 1 9. 5 3 J ust o n e m o nt h l at er, t h at s a m e f a cilit y r e p ort e d a
l ar g e C O VI D- 1 9 o ut br e a k, wit h at l e ast 2 1 c o nfir m e d c as es at t h e f a cilit y. 5 4
6 1.
Gi v e n t h e c urr e nt h e alt h crisis r el at e d t o t h e C O VI D- 1 9 p a n d e mi c, a n d t h e f a ct t h at
C O VI D- 1 9 h as alr e a d y b e e n i d e ntifi e d i n t h e pris o n, wit h at l e ast o n e i n m at e d e at h, a n d t h e
n u m b er of p e o pl e r e q uir e d t o tr a v el t o a n d att e n d t h e e x e c uti o n, it is m y m e di c al o pi ni o n t h at
it is n ot s af e f or m e di c all y v ul n er a bl e i n di vi d u als ( as d efi n e d a b o v e) t o att e n d a n e x e c uti o n at
U S P T err e H a ut e .
C o n cl usi o n
6 2.
F or t h e r e as o ns a b o v e, it is m y pr of essi o n al o pi ni o n t h at a n y i n di vi d u al e nt eri n g t h e
pris o n f or l e g al or ot h er t y p es of visits or t o wit n ess a n e x e c uti o n is at i n cr e as e d ris k of
C O VI D- 1 9 i nf e cti o n. T h os e w h o ar e m e di c all y v ul n er a bl e , as a r es ult of a g e, m e di c al
c o n diti o n, or b ot h, ar e at e v e n gr e at er ris k if t h e y w er e t o b e c o m e i nf e ct e d .
I d e cl ar e u n d er p e n alt y of p erj ur y t h at t h e f or e g oi n g is tr u e a n d c orr e ct. E x e c ut e d o n
J ul y 1, 2 0 2 0 i n Al a m e d a C o u nt y, C alif or ni a.
______________________________
Dr. J o e G ol d e ns o n

Eri k Orti z, Miss o uri h ol ds n ati o n’s first e x e c uti o n d uri n g c or o n a vir us p a n d e mi c, N B C N e ws
M a y 2 0, 2 0 2 0, htt ps:// w w w. n b c n e ws. c o m/ n e ws/ us- n e ws/ miss o uri- h ol ds- n ati o n -s-first-e x e c uti o n d uri n g- c or o n a vir us- p a n d e mi c - n 1 2 1 0 6 4 6.
5 4 B o b b y R a df or d, C O VI D- 1 0 O ut br e a k C o nfir m e d at Pris o n I n B o n n e T err e, D ail y J o ur n al
O nli n e , J u n e 1 9, 2 0 2 0, htt ps:// d ail yj o ur n al o nli n e. c o m/ n e ws/l o c al/ g o vt -a n d -p oliti cs/ c o vi d - 1 9o ut br e a k- c o nfir m e d- at - pris o n-i n- b o n n e-t err e/ arti cl e _ c 7 2 2 2 0 7 2- e 2 4 2- 5 1 3 d- 8 7 1 ac 6 3 a 9 c 3 0 cf b c. ht ml .
53

18

I- 1 9

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

D o c u m e nt 6- 2 6

Fil e d 0 7/ 0 2/ 2 0

E X HI BI T 1

P a g e 1 of 7 P a g eI D #: 1 7 5

I- 2 0
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

D o c u m e nt 6- 2 6

Fil e d 0 7/ 0 2/ 2 0

P a g e 2 of 7 P a g eI D #: 1 7 6

C U R RI C U L U M VI T A E
J O E G O L D E N SO N, M D
1406 C Y P R E S S S T R E E T
B E R K E L E Y, C A 9 4 7 0 3
( 5 1 0) 5 5 7- 1 0 8 6
j g ol d e n s o n @ gm ail. c o m
E D U C A TI O N
P o st Gr a d u at e Tr ai ni n g
F e br u ar y 1 9 9 2
U ni v er sit y of C alif or ni a, S a n Fr a n ci s c o, C P A T / A P E X
Mi ni -R e si d e n c y i n HI V C ar e
1 9 7 9 -1 9 8 0
R o b ert W o o d J o h n s o n F ell o w s hi p i n F a mil y Pr a cti c e
1 9 7 6 -1 9 7 9
U ni v er sit y of C alif or ni a, S a n Fr a n ci s c o
R e si d e n c y i n F a mil y Pr a cti c e
M e di c al S c h o ol
1 9 7 3 -1 9 7 5
1 9 7 1 -1 9 7 3

Mt. Si n ai S c h o ol of M e di ci n e, N e w Y or k
M. D. D e gr e e
U ni v er sit y of Mi c hi g a n, A n n Ar b or

U n d er gr a d u at e E d u c ati o n
1 9 6 7 -1 9 7 1
U ni v er sit y of Mi c hi g a n, A n n Ar b or
B. A. i n P s y c h ol o g y
P R O F E S SI O N A L E X P E RI E N C E
Pr a cti c e E x p eri e n c e
1 9 9 3 -2 0 1 5
1 9 9 1 -1 9 9 3
1 9 9 0 -1 9 9 1
1 9 8 7 -1 9 9 0
1 9 8 0 -1 9 8 7
1 9 7 5 -1 9 7 6

Dir e ct or / M e di c al Dir e ct or
J ail H e alt h S er vi c e s
S a n Fr a n ci s c o D e p art m e n t of P u bli c H e alt h
M e di c al Dir e ct or
J ail H e alt h S er vi c e s
S a n Fr a n ci s c o D e p art m e nt of P u bli c H e alt h
C hi ef of M e di c al S er vi c e s, H all of J u sti c e
J ail H e alt h S er vi c e s
S a n Fr a n ci s c o D e p art m e nt of P u bli c H e alt h
St aff P h y si ci a n
J ail H e alt h S er vi c e s
S a n Fr a n ci s c o D e p art m e nt of P u bli c H e alt h
S a b b ati c al
St aff P h y si ci a n
U nit e d F ar m W or k er s H e alt h C e nt er, S ali n a s, C A

I- 2 1
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D
C o n s ulti n g
3 / 2 0 -Pr e s et

6 / 1 6- 8 / 1 9
4 / 0 2- Pr e s e n t
6 / 1 4- 9 / 1 4
6 / 1 0- 1 2 / 1 3

6 / 0 8 -6 / 1 2
5 / 0 8 -9 / 0 9
1 /08
9 / 0 7 -1 / 1 0
8 / 0 6 -8 / 1 2
6 /05
1 1 / 0 2 -4 / 0 3
4 / 0 2 -8 / 0 6
1 / 0 2 -3 / 0 2
8 / 0 1 -4 / 0 2
7 / 0 1 -4 / 0 2
1 / 9 6 -1 / 1 4
5 / 9 5 -6 / 0 8

D o c u m e nt 6- 2 6

Fil e d 0 7/ 0 2/ 2 0

P a g e 3 of 7 P a g eI D #: 1 7 7

F e d er al C o urt a p p oi nt e d M e di c al M o nit or , C h a v ez, et al., v.
C o u nt y of S a nt a Cl ar a, C as e N o. 1 5 -c v -0 5 2 7 7 -R MI , C o ns e nt D e cr e e,
U nit e d St at es Distri ct C o urt, N ort h er n Distri ct of C alif or ni a, E ur e k a
Di visi o n, r e: M e di c al c ar e i n S a nt a Cl ar a C o u nt y J ail
C o n s ult a nt t o L o s A n g el e s D e p art m e n t of H e alt h S er vi c e s r e:
pr o vi si o n of h e alt h c ar e s er vi c e s i n t h e L A C o u nt y J ail
F e d er al C o urt M e di c al E x p ert, Pl at a v. Ne ws o me , Cl a s s A cti o n
L a w s uit r e: pri s o n er m e di c al c ar e i n C alif or ni a St at e Pri s o n
S y st e m
M e di c al e x p ert f or t h e Illi n oi s D e p art m e nt of C o rr e cti o n s a n d
t h e A C L U of Illi n oi s
F e d er al C o urt a p p oi nt e d M e di c al M o nit or, U. S. A. v. C o o k
C o u nt y, et al., U nit e d St at e s Di stri ct C o urt f or t h e N ort h er n
Di stri ct of Illi n oi s, N o. 1 0 C 2 9 4 6, r e: m e di c al c ar e i n t h e C o o k
C o u nt y J ail
M e m b er , Pl at a v. S c h w ar ze ne g ger A d vi s or y B o ar d t o t h e
H o n or a bl e T h elt o n E. H e n d er s o n, U. S. Di stri ct C o urt J u d g e
M e di c al E x p ert f or A C L U r e M ari c o p a C o u nt y J ail, P h o e ni x, A Z
M e m b er of t h e N ati o n al C o m mi s si o n o n C orr e cti o n al H e alt h
C ar e’ s T e c h ni c al A s si s t a n c e R e vi e w T e a m f or t h e Mi a mi D a d e
D e p art m e nt of C orr e cti o n s
F e d er al C o urt a p p oi nt e d M e di c al E x p ert, Herrer a v. Pier ce
C o u nt y, et al., r e: m e di c al c ar e at t h e Pi er c e C o u nt y J ail, T a c o m a,
W A
St at e C o urt A p p oi nt e d M e di c al E x p e rt, F ar rell v. Alle n, S u p eri or
C o urt of C alif or ni a C o ns e nt D e cr e e r e m e di c al c ar e i n t h e C alif or ni a
D e p art m e nt of J u v e nil e J usti c e
M e m b er of T e c h ni c al A s si st a n c e R e vi e w T e a m f or t h e D all a s
C o u nt y J ail
M e di c al E x p ert f or A C L U r e J eff er s o n C o u nt y J ail, P ort
T o w n s e n d, W a s hi n gt o n
F e d er al C o urt M e di c al E x p ert, A usti n, et. al vs Wil ki ns o n, et al ,
Cl a s s A cti o n L a w S uit r e: Pri s o n er m e di c al c ar e at t h e O hi o
St at e P e nit e nti ar y S u p er m a x F a cilit y
C o n s ult a nt t o t h e Fr a n ci s J. C urr y, N a ti o n al T u b er c ul o si s C e nt er
r e: T u ber c ul osis C o ntr ol Pl a n f or t he J ail Setti n g: A Te m pl ate (J ail
Te m pl ate) ,
M e di c al E x p ert f or A C L U r e Wi s c o n si n S u p er m a x C orr e cti o n al
F a cilit y, B o s c o b el, WI
M e di c al E x p ert f or O hi o Att or n e y G e n er al ’s O ffi c e r e O hi o St at e
Pri s o n, Y o u n g st o w n, O H
M e m b er a n d S ur v e y or, C alif or ni a M e di c al A s s o ci ati o n
C orr e cti o n s a n d D et e nti o n s H e alt h C ar e C o m mitt e e
M e di c al E x p ert f or t h e Offi c e of t h e S p e ci al M a st er, M a dri d vs

I- 2 2
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

3 / 9 8 -1 2 / 9 8
2 /98
6 /94

D o c u m e nt 6- 2 6

Fil e d 0 7/ 0 2/ 2 0

P a g e 4 of 7 P a g eI D #: 1 7 8

Al a mei d a , F e d er al Cl a s s A cti o n L a w S uit r e: Pri s o n er m e di c al
c ar e at t h e P eli c a n B a y St at e Pri s o n S u p er m a x F a cilit y
M e m b er, L o s A n g el e s C o u nt y D e p art m e nt of P u bli c H e alt h J ail
H e alt h S er vi c e s T a s k F or c e
M e di c al E x p ert, D e p art m e nt of J u sti c e I n v e sti g ati o n of Cl ar k
C o u nt y D et e nti o n C e nt er, L a s V e g a s, N e v a d a
S ur v e y or, N ati o n al C o m mi s si o n o n C orr e cti o n al H e alt h C ar e,
I N S D et e nti o n C e nt er, El C e ntr o, C A

W or k R el at e d C o m mitt e e s
1 / 1 4 t o pr e s e nt
M e m b er, E dit ori al A d vi s or y B o ar d, C orre cti o n al H e alth C a re
Re p ort
M e m b er, B o ar d of Dir e ct or s of t h e N ati o n al C o m mi s si o n o n
10 /11 to 5 /19
C orr e cti o n al H e alt h C ar e
5 / 0 7 -1 0 / 1 2
Li ai s o n t o t h e C D C A d vi s or y C o u n cil f or t h e Eli mi n ati o n of
T u b er c ul o si s ( A C E T) f r o m t h e N ati o n al C o m mi s si o n o n
C orr e cti o n al H e alt h C ar e
1 2 / 0 4 -3 / 0 6
M e m b er of t h e C D C A d vi s or y C o u n cil f or t h e Eli mi n ati o n of
T u b er c ul o si s ( A C E T) A d H o c W or ki n g Gr o u p o n t h e Pre ve nti o n
a n d C o ntr ol of T u ber c ul osis i n C orre cti o n al a n d Dete nti o n F a cilities:
Re c o m me n d ati o ns fr o m C D C (M M W R 2 0 0 6; 5 5( N o. R R -9) )
6 / 0 3 -8 / 0 3
M e m b er of t h e A d vi s or y P a n el f or t h e Fr a n ci s J. C urr y N ati o n al
T u b er c ul o si s C e nt er a n d N ati o n al C o m mi s si o n o n C orr e cti o n al
H e alt h C ar e, 2 0 0 3: C orre cti o ns T u ber c ul osis Tr ai ni n g a n d
E d u c ati o n Res o ur ce G ui de
3 / 0 2 -1 / 0 3
M e m b er of t h e A d vi s or y C o m mitt e e t o D e v el o p t h e T u ber c ul osis
C o ntr ol Pl a n f or t he J ail Setti n g: A Te m pl ate (J ail Te m pl ate) , Fr a n ci s
J. C urr y, N ati o n al T u b er c ul o si s C e nt er
6 / 0 1 -1 / 1 5
Dir e ct or’ s C a bi n et
S a n Fr a n ci s c o D e p art m e nt of P u bli c H e alt h
3 /01
C o n s ult a nt t o C e nt er s f or Di s e a s e C o ntr ol o n th e P r e v enti o n
a n d C o ntr ol of I nf e cti o n s wit h H e p atiti s Vir u s e s i n C orr e cti o n al
S etti n g s (M M W R 2 0 0 3; 5 2( N o. R R -1) )
9 / 9 7 -6 / 0 2
M e m b er, E x e c uti v e C o m mitt e e of M e di c al Pr a cti c e Gr o u p, S a n
Fr a n ci s c o D e p art m e nt of P u bli c H e alt h
3 / 9 7 -3 / 0 2
A m eri c a n C orr e cti o n al H e al t h Ser vi c e s A s s o ci ati o n Li ai s o n
wit h A m eri c a n P u bli c H e alt h A s s o ci ati o n
3 / 9 6 -6 / 1 2
C h air p er s o n, B a y Ar e a C orr e cti o n s C o m mitt e e ( o n t u b er c ul o si s)
2 / 0 0 -1 2 / 0 0
M e di c al Pr o vi d er s ’ S u b c o m mitt e e of t h e Offi c e -b a s e d O pi at e
Tr e at m e nt Pr o gr a m, S a n Fr a n ci s c o D e p art m e nt of p u bli c H e alt h
1 2 / 9 8 -1 2 / 0 0
A s s o ci at e C h air p er s o n, C orr e cti o n s S u b -C o m mitt e e, C alif or ni a
T u b er c ul o si s Eli mi n ati o n A d vi s or y C o m mitt e e
7 / 9 4 -7 / 9 6
A d vi s or y C o m mitt e e f or t h e C o ntr ol A n d Eli mi n ati o n of
T u b er c ul o si s, S a n Fr a n ci s c o D e p art m e nt of P u bli c H e a lt h
6 / 9 3 -6 / 9 5
M a n a g e d C ar e Cli ni c al I m pl e m e nt ati o n C o m mitt e e, S a n
Fr a n ci s c o D e p art m e nt of P u bli c H e alt h

I- 2 3
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D
2 / 9 2 -2 / 9 6
3 / 9 0 -7 / 9 7
1 / 9 3 -7 / 9 3

D o c u m e nt 6- 2 6

Fil e d 0 7/ 0 2/ 2 0

P a g e 5 of 7 P a g eI D #: 1 7 9

T u b er c ul o si s C o ntr ol T a s k F or c e, S a n Fr a n ci s c o D e p art m e nt of
P u bli c H e alt h
S a n Fr a n ci s c o G e n er al H o s pit al Bl o o d B or n e P at h o g e n
C o m mit t e e
M e di c al St aff B yl a w s C o m mitt e e, S a n Fr a n ci s c o D e p art m e nt of
P u bli c H e alt h

A C A D E MI C A P P OI N T M E N T
1 9 8 0- 2 0 1 5
A s si st a nt Cli ni c al Pr of e s s or
U ni v er sit y of C alif or ni a, S a n Fr a n ci s c o
P R O F E S SI O N A L A F FI LI A TI O N S
S o ci et y of C orr e cti o n al P h y si ci a n s, M e m b er of Pr e si d e nt’ s C o u n cil, P a st -Tr e a s ur er a n d
S e cr et ar y
A m eri c a n C orr e cti o n al H e alt h S er vi c e s A s s o ci ati o n, P a st -Pr e si d e nt of C alif or ni a
C h a pt er
A m eri c a n P u bli c H e alt h A s s o ci ati o n, J ail s a n d Pri s o n’ s S u b c o m mitt e e
A c a d e m y of C orr e cti o n al H e alt h Pr of e s si o n al s
P R O F E S SI O N A L P R E S E N T A TI O N S
C ari n g f or t he I n m ate He alt h P o p ul ati o n : A P u bli c He alt h I m per ati ve, C orr e cti o n al H e alt h
C ar e L e a d er s hi p I n stit ut e s , J ul y 2 0 1 5
C orre cti o n al Me di ci ne a n d C o m m u nit y He alt h, S o ci et y of C orr e cti o n al P h y si ci a n s A n n u al
M e eti n g, O ct o b er, 2 0 1 4
I de ntif yi n g P ul m o n ar y T B i n J ails: A R o u n dt a ble Dis c ussi o n, N ati o n al C o m mi s si o n o n
C orr e cti o n al H e alt h C ar e A n n u al C o nf er e n c e, O ct o b er 3 1, 2 0 0 6
A C o m m u nit y He alt h A p pr o a c h t o C orre cti o n al He alt h C are , S o ci et y of C orr e cti o n al
P h y si ci a n s, O ct o b er 2 9, 2 0 0 6
Pris o ners t he U n w a nte d a n d U n derser ve d P o p ul ati o n , W h y P u bli c He alt h S h o ul d Be i n J ail ,
S a n Fr a n ci s c o G e n er al H o s pit al M e di c al C e nt er, M e di c al Gr a n d R o u n d s, 1 0 / 1 2 / 0 4
T B i n J ail: A C o nt a ct I n vesti g ati o n C o urse, Le g al a n d A d mi nistr ati ve R es p o nsi bilities, Fr a n ci s
J. C urr y N ati o n al T u b er c ul o si s C e nt er, 1 0 / 7 / 0 4
P u bli c He alt h a n d C orrecti o n al Me di ci ne, A m eri c a n P u bli c H e alt h A s s o ci ati o n A n n u al
C o nf er e n c e, 1 1 / 1 9 / 2 0 0 3
He p atitis i n C orre cti o ns, C A / N V C h a pt er, A m eri c a n C orr e cti o n al H e alt h S er vi c e s
A s s o ci a ti o n A n n u al M e eti n g, 1 / 1 7 / 0 2
C orre cti o n al Me di ci ne , S a n Fr a n ci s c o G e n er al H o s pit al M e di c al C e nt er, M e di c al Gr a n d
R o u n d s, 1 2 / 1 6 / 0 2
S u per M a x Pris o ns , A m eri c a n P u bli c H e alt h A s s o ci ati o n A n n u al C o nf er e n c e, 1 1 / 8 / 0 1
C hr o ni c C are Pr o gr a ms i n C orre cti o ns, C A / N V C h a pt er, A m eri c a n C orr e cti o n al H e alt h
S er vi c e s A s s o ci ati o n A n n u al M e eti n g, 9 / 1 9 / 0 2
T u ber c ul osis i n C orre cti o ns - C o nti n uit y of C are , C alif or ni a T u b er c ul o si s C o ntr oll er s
A s s o ci ati o n S pri n g C o nf er e n c e, 5 / 1 2 / 9 8

I- 2 4
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

D o c u m e nt 6- 2 6

Fil e d 0 7/ 0 2/ 2 0

P a g e 6 of 7 P a g eI D #: 1 8 0

HI V C are I n c ar cer ate d i n I n c ar cer ate d P o p ul a ti o ns, U C S F Cli ni c al C ar e of t h e AI D S P ati e nt
C o nf er e n c e, 1 2 / 5 / 9 7
T u ber c ul osis i n C orre cti o n al F a cilities , P e n n s yl v a ni a AI D S E d u c ati o n a n d Tr ai ni n g C e nt er,
3 /25 /93
T u ber c ul osis C o ntr ol i n J ails , AI D S a n d Pri s o n C o nf er e n c e, 1 0 / 1 5 / 9 3
T he I nterf a ce of P u bli c He a lt h a n d C orre cti o n al He alt h C are, A m eri c a n P u bli c H e alt h
A s s o ci ati o n A n n u al M e eti n g, 1 0 / 2 6 / 9 3
HI V E d u c ati o n f or C orre cti o n al He alt h C are W or kers , A m eri c a n P u bli c H e alt h A s s o ci ati o n
A n n u al M e eti n g, 1 0 / 2 6 / 9 3
P U B LI C A TI O N S
Str u ct ur e a n d A d mi nistr ati o n of a J a il M e di c al Pr o gr a m. C orr e cti o n al H e alt h C ar e:
Pr a cti c e, A d mi nistr ati o n, a n d L a w . Ki n gst o n, NJ: Ci vi c R es e ar c h I nstit ut e. 2 0 1 7.
Str u ct ur e a n d A d mi nistr ati o n of a J ail M e di c al Pr o gr a m – P art I I. C orr e cti o n al H e alt h
C ar e R e p ort. V ol u m e 1 6, N o. 2, J a n u ar y- F e br u ar y 2 0 1 5.
Str u ct ur e a n d A d mi nistr ati o n of a J ail M e di c al Pr o gr a m – P art I. C orr e cti o n al H e alt h C ar e
R e p ort. V ol u m e 1 6, N o. 1, N o v e m b er- D e c e m b er 2 0 1 4.
P ai n B e hi n d B ars: T h e E pi d e mi ol o g y of P ai n i n Ol d er J ail I n m at es i n a C o u nt y J ail.
J o ur n al of P alli ati v e M e di ci n e. 0 9/ 2 0 1 4; D OI: 1 0. 1 0 8 9/j p m. 2 0 1 4. 0 1 6 0
Ol d er j ail i n m at es a n d c o m m u nit y a c ut e c ar e us e . A m J P u bli c H e alt h. 2 0 1 4 S e p;
1 0 4( 9): 1 7 2 8- 3 3.
C orre cti o n al He alt h C are M ust be Re c o g ni ze d as a n I nte gr al P art of t he P u bli c He alt h
Se ct or , S e x u all y Tr a n s mitt e d Di s e a s e s , F e br u ar y S u p pl e m e nt 2 0 0 9, V ol. 3 6, N o. 2,
p. S 3 – S 4
Us e of s e nti n el s ur v eill a n c e a n d g e o gr a p hi c i nf or m ati o n s yst e ms t o m o nit or tr e n ds i n HI V
pr e v al e n c e, i n ci d e n c e, a n d r elat e d ris k b e h a vi or a m o n g w o m e n u n d er g oi n g s y p hilis
s cr e e ni n g i n a j ail s etti n g. J o ur n al of Ur b a n H e alt h 1 0/ 2 0 0 8; 8 6( 1): 7 9- 9 2.
Dis c h ar g e Pl a n ni n g a n d C o nti n uit y of H e alt h C ar e: Fi n di n gs Fr o m t h e S a n Fr a n cis c o
C o u nt y J ail, A m eri c a n J o ur n al of P u b li c H e alt h, 9 8: 2 1 8 2 – 2 1 8 4, 2 0 0 8
P u bli c He alt h Be hi n d B ars, D e p ut y E dit or, S pri n g er, 2 0 0 7
Di a betes C are i n t he S a n Fr a n cis c o C o u nt y J ail, A m eri c a n J o ur n al of P u bli c H e alt h,
9 6: 1 5 7 1- 7 3, 2 0 0 6
Cli nic al Pr a cti ce i n C orre cti o n al Me di ci ne, 2 n d E diti o n , A s s oci at e E d it or, M o s b y, 2 0 0 6 .
T u ber c ul osis i n t he C orrecti o n al F a cili t y, M ar k L o b at o, M D a n d J o e G ol d e n s o n, M D ,
Cli nic al Pr a cti ce i n C orre cti o n al Me di ci ne, 2 n d E diti o n, M o s b y, 2 0 0 6.
I n ci d e n c e of T B i n i n m at es wit h l at e nt T B i nf e cti o n: 5- y e ar f oll o w- u p. A m er i c a n J o ur n al of
Pr e v e nti v e M e di ci n e . 1 1/ 2 0 0 5; 2 9( 4): 2 9 5- 3 0 1.
C a n cer S cree ni n g A m o n g J ail I n m ates: Fre q ue n c y, K n o wle d ge, a n d Willi n g ness
A m J P u bli c H e alt h. 2 0 0 5 O ct o b er; 9 5( 1 0): 1 7 8 1 – 1 7 8 7
I m pr o vi n g t u b er c ul osis t h er a p y c o m pl eti o n aft er j ail: tr a nsl ati on of r ese ar c h t o pr a cti c e.
H e alt h E d u c ati o n R es e ar c h . 0 5/ 2 0 0 5; 2 0( 2): 1 6 3- 7 4.
I n ci de n ce of T B i n I n m ates wit h L ate nt T B I nfe cti o n, 5-Ye ar F oll o w - u p, A m eri c a n
J o ur n al of Pr e v e nti v e M e di ci n e, 2 9( 4), 2 0 0 5

I- 2 5

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- M J D

D o c u m e nt 6- 2 6

Fil e d 0 7/ 0 2/ 2 0

P a g e 7 of 7 P a g eI D #: 1 8 1

Pre ve nti o n a n d C o ntr ol of I nfe cti o ns wit h He p atitis Vir u ses i n C orre cti o n al Setti n gs,
M or bi dit y a n d M ort alit y R e p ort s, ( E xt er n al C o n s ult a nt t o C e nt er s f or Di s e a s e
C o ntr ol), V ol. 5 2 / N o. R R - 1 J a n u ar y 2 4, 2 0 0 3
R a n d o mi ze d C o ntr olle d Tri al of I nter ve nti o ns t o I m pr o ve F oll o w -u p f or L ate nt
T u ber c ul osis I nfecti o n Aft er Rele ase fr o m J ail, Ar c hi v e s of I nt er n al M e di ci n e, 1 6 2: 1 0 4 41 0 5 0, 2 0 0 2
J ail I n m ates a n d HI V c are: pr o visi o n of a ntiretr o vir al t her a p y a n d P ne u m o c ystis c ari nii
p ne u m o ni a pr o p h yl a xis , I nt er n ati o n al J o ur n al of S T D & AI D S; 1 2: 3 8 0- 3 8 5, 2 0 0 1
T u ber c ul o sis Pre v ale nce i n a n ur b a n j ail: 1 9 9 4 a n d 1 9 9 8 , I nt er n ati o n al J o ur n al of
T u b er c ul o si s L u n g Di s e a s e, 5( 5): 4 0 0 - 4 0 4, 2 0 0 1
S cree ni n g f or T u ber c ul osis i n J ail a n d Cli ni c F oll o w -u p after Rele ase , A m eri c a n J o ur n al
of P u bli c H e alt h, 8 8( 2): 2 2 3- 2 2 6, 1 9 9 8
A Cli ni c al Tri a l of a Fi n a n ci al I n ce nti ve t o G o t o t he T u ber c ul osis Cli nic f or Is o ni a zi d after
Rele ase fr o m J ail , I nt er n ati o n al J o ur n al of T u b er c ul o si s L u n g Di s e a s e, 2( 6): 5 0 65 1 2, 1 9 9 8
A W A R DS
Ar m o n d St art A w ar d of E x c ell e n c e, S o ci et y of C orr e cti o n al P h y si ci a n s , 2 0 1 4
A w ar d of H o n or, S a n Fr a n ci s c o B o ar d of S u p er vi s or s, 2 0 1 4
A w ar d of H o n or, S a n Fr a n ci s c o H e alt h C o m mi s si o n, 2 0 1 4
C ertifi c at e of A p pr e ci ati o n, S a n Fr a n ci s c o P u bli c D ef e n d er’ s Offi c e, 2 0 1 4
C ertifi c at e f or E x c ell e n c e i n T e a c hi n g, C alif or ni a D e p art m e nt of H e alt h S er vi c e s, 2 0 0 2
E m pl o y e e R e c o g niti o n A w ar d, S a n Fr a n ci s c o H e alt h C o m mi s si o n, J ul y 2 0 0 0
P u bli c M a n a g eri al E x c ell e n c e A w ar d, C ertifi c at e of M erit, S a n Fr a n ci s c o, 1 9 9 7
LI C E N S U R E A N D C E R TI FI C A TI O N
M e di c al B o ar d of C alif or ni a, C ertifi c at e # A 3 2 4 8 8
F ell o w , S oci et y of C orr e cti o n al P h ysi ci a ns
B o ar d C ertifi e d i n F a mil y Pr a cti c e, 1 9 7 9 - 1 9 8 6 ( C urr e ntl y B o ar d Eli gi bl e)

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

A P P E N DI X J
J- 1
D o c u m e nt 5 7 Fil e d 0 7/ 0 8/ 2 0

P a g e 1 of 7 P a g eI D #: 6 6 9

I N T H E U NI T E D S T A T E S DI S T RI C T C O U R T
F O R T H E S O U T H E R N DI S T RI C T O F I N DI A N A
T E R R E H A U T E DI VI SI O N

D A L E H A R T K E M E Y E R ( A K A S EI G E N)
Pl ai ntiff,
v.

)
)
)
)
)
)
)

C as e N o. 2: 2 0-c v - 0 0 3 3 6-J M S-D L P

WI L LI A M P. B A R R, i n his offi ci al
)
c a p a cit y as t h e Att or n e y G e n er al of t h e
)
U nit e d St at es; MI C H A E L C A R V AJ A L, i n )
his offi ci al c a p a cit y as t h e Dir e ct or of t h e )
F e d er al B ur e a u of Pris o ns; a n d T.J.
)
W A T S O N, i n his offi ci al c a p a cit y as
)
C o m pl e x W ar d e n f or T err e H a ut e F e d er al )
C orr e cti o n al C o m pl e x,
)
)
D ef e n d a nts.
)
)
S U P P L E M E N T A L D E C L A R A TI O N O F D R. J O E G O L D E N S O N
I, Dr. J o e G ol d e ns o n, d e cl ar e as f oll o ws u n d er p e n alt y of p erj ur y p urs u a nt t o 2 8 U. S. C. § 1 7 4 6:
1.
I a m a m e di c al p h ysi ci a n wit h 3 3 y e ars of e x p eri e n c e i n c orr e cti o n al h e alt h c ar e. F or
2 8 y e ars, I w or k e d f or J ail H e alt h S er vi c es of t h e S a n Fr a n cis c o D e p art m e nt of P u bli c
H e alt h. F or 2 2 of t h os e y e ars, I s er v e d as t h e Dir e ct or a n d M e di c al Dir e ct or. I n t h at r ol e, I
pr o vi d e d dir e ct cli ni c al s er vi c es, m a n a g e d p u bli c h e alt h a cti viti es i n t h e S a n Fr a n cis c o
C o u nt y j ail, i n cl u di n g t h e m a n a g e m e nt of HI V, t u b er c ul osis, H e p atitis C, a n d ot h er i nf e cti o us
dis e as es i n t h e f a cilit y, pl a n n e d a n d c o or di n at e d t h e j ail’s r es p o ns e t o H 1 N 1, a n d
a d mi nist er e d t h e c orr e cti o n al h e alt h e nt er pris e, i n cl u di n g its b u d g et, h u m a n r es o ur c es
s er vi c es, a n d m e di c al, m e nt al h e alt h, d e nt al, a n d p h ar m a c y s er vi c es.
2.
I s er v e d as a m e m b er of t h e B o ar d of Dir e ct ors of t h e N ati o n al C o m missi o n o n
C orr e cti o n al H e alt h C ar e f or ei g ht y e ars a n d w as p ast Pr esi d e nt of t h e C alif or ni a c h a pt er of
t h e A m eri c a n C orr e cti o n al H e alt h S er vi c es Ass o ci ati o n. I n 2 0 1 4, I r e c ei v e d t h e Ar m o n d St art
A w ar d of E x c ell e n c e fr o m t h e S o ci et y of C orr e cti o n al P h ysi ci a ns, w hi c h r e c o g ni z es its
r e ci pi e nt as a r e pr es e nt ati v e of t h e hi g h est i d e als i n c orr e cti o n al m e di ci n e.
3.
F or 3 5 y e ars, I h el d a n a c a d e mi c a p p oi nt m e nt as a n Assist a nt Cli ni c al Pr of ess or at t h e
U ni v ersit y of C alif or ni a, S a n Fr a n cis c o.

1

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

J- 2
D o c u m e nt 5 7 Fil e d 0 7/ 0 8/ 2 0

P a g e 2 of 7 P a g eI D #: 6 7 0

4.
I h a v e w or k e d e xt e nsi v el y as a c orr e cti o n al h e alt h m e di c al e x p ert a n d c o urt m o nit or. I
h a v e s er v e d as a m e di c al e x p ert f or t h e U nit e d St at es Distri ct C o urt f or t h e N ort h er n Distri ct
of C alif or ni a f or 2 5 y e ars. I a m c urr e ntl y r et ai n e d b y t h at C o urt as a m e di c al e x p ert i n Pl at a
v. N e ws o m , C as e N o. 3: 0 1-c v - 0 1 3 5 1 ( N. D. C al.), t o e v al u at e m e di c al c ar e pr o vi d e d t o i n m at e
p ati e nts i n t h e C alif or ni a D e p art m e nt of C orr e cti o n al R e h a bilit ati o n. I h a v e als o s er v e d as a
m e di c al e x p ert/ m o nit or at C o o k C o u nt y J ail i n C hi c a g o a n d L os A n g el es C o u nt y J ail , at
ot h er j ails i n W as hi n gt o n, T e x as, a n d Fl ori d a, a n d at pris o ns i n Illi n ois, O hi o, a n d Wis c o nsi n.
5.

O n J ul y 1, 2 0 2 0, I si g n e d a d e cl ar ati o n t h at w as s u b mitt e d i n t his c as e.

6.
Si n c e t h e ti m e of m y J ul y 1 d e cl ar ati o n, t h e C O VI D- 1 9 p a n d e mi c h as c o nti n u e d t o
es c al at e ar o u n d t h e c o u ntr y. As of J ul y 6, 2 0 2 0, t h e s e v e n-d a y a v er a g e of c as es i n 1 2 st at es
r e a c h e d n e w hi g hs. 1 I n I n di a n a, t h e g o v er n or h as p a us e d t h e st at e’s r e o p e ni n g pl a ns as a
r es ult of a n i n cr e as e i n C O VI D-1 9 c as es. 2
7.
I n a d diti o n, 2 3 9 s ci e ntists r el e as e d a j o ur n al arti cl e t o e m p h asi z e t h e ris ks of air b or n e
tr a ns missi o n of C O VI D- 1 9. 3 T h e a ut h ors c o n cl u d e t h at st u di es h a v e “ d e m o nstr at e d b e y o n d
a n y r e as o n a bl e d o u bt t h at vir us es ar e r el e as e d d uri n g e x h al ati o n, t al ki n g, a n d c o u g hi n g i n
mi cr o dr o pl ets s m all e n o u g h t o r e m ai n al oft i n t h e air a n d p os e a ris k of e x p os ur e at dist a n c es
b e y o n d 1 t o 2 m fr o m a n i nf e ct e d i n di vi d u al. . . . T h er e is e v er y r e as o n t o e x p e ct t h at
[ C O VI D- 1 9] b e h a v es si mil arl y, a n d t h at tr a ns missi o n vi a air b or n e mi cr o dr o pl ets is a n
i m p ort a nt p at h w a y. ” 4 As s u c h, w hil e h a n d w as hi n g a n d s o ci al dist a n ci n g ar e “ a p pr o pri at e, ”
t h es e m e as ur es ar e “i ns uffi ci e nt t o pr o vi d e pr ot e cti o n fr o m vir us- c arr yi n g r es pir at or y
mi cr o dr o pl ets r el e as e d i nt o t h e air b y i nf e ct e d p e o pl e ” 5 T h e a ut h ors n ot e t h at c o n c er ns
ar o u n d air b or n e tr a ns missi o n ar e “ es p e ci all y a c ut e i n i n d o or or e n cl os e d e n vir o n m e nts,
p arti c ul arl y t h os e t h at ar e cr o w d e d a n d h a v e i n a d e q u at e v e ntil ati o n. ” 6 T o r es p o n d t o t h es e
ris ks, t h e f oll o wi n g m e as ur es s h o ul d b e t a k e n: ( 1) e ns ur e s uffi ci e nt a n d eff e cti v e v e ntil ati o n;
( 2) s u p pl e m e nt t h at v e ntil ati o n wit h air b or n e i nf e cti o n c o ntr ols; a n d ( 3) a v oi d o v er cr o w di n g. 7
8.
As n ot e d i n m y pri or d e cl ar ati o n, pris o n e n vir o n m e nts ar e e n cl os e d, cr o w d e d
e n vir o n m e nts wit h p o or v e ntil ati o n, w hi c h f a cilit at es t h e tr a ns missi o n of air b or n e ill n ess es,
s u c h as C O VI D- 1 9. Si m pl e s ol uti o ns s u c h as o p e ni n g wi n d o ws a n d d o ors, as r e c o m m e n d e d
b y t h e C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n ( C D C) 8 ar e n ot p ossi bl e i n pris o ns.

J os h u a P artl o w & Ni c k Mir off, St at es m a n d at e m as ks, b e gi n t o s h ut d o w n a g ai n as c or o n a vir us c as es s o ar a n d
h os pit aliz ati o ns ris e , W as h. P ost (J ul y 6, 2 0 2 0), htt ps:// w w w. w as hi n gt o n p ost. c o m/ n ati o n al/ c or o n a vir us- ris es-st at es s h ut d o w n/ 2 0 2 0/ 0 7/ 0 6/ d 8 8 0 5 d 1 8- bf 9 e- 1 1 e a -9f d d - b 7 a c 6 b 0 5 1 d c 8 _st or y. ht ml.
2
Li z N a g y, C or o n a vir us I n di a n a: I N r e p orts 3 3 0 n e w C O VI D- 1 9 c as es, 5 d e at hs as P h as e 4. 5 b e gi ns , A B C 7 (J ul y
6, 2 0 2 0), htt ps:// a b c 7 c hi c a g o. c o m/ h e alt h/i n di a n a- c o vi d- 1 9- c as es -i n cr e as e-b y - 3 3 0- 5- d e at hs/ 6 3 0 2 4 6 6/.
3
Li di a M or a ws k a & D o n al d K. Milt o n, It is Ti m e t o A d dr ess Air b or n e Tr a ns missi o n of C O VI D- 1 9, Cli ni c al
I nf e cti o us Dis e as es, ci a a 9 3 9, htt ps:// d oi. or g/ 1 0. 1 0 9 3/ ci d/ ci a a 9 3 9.
4
I d. at 2 (i nt er n al cit ati o ns o mitt e d).
5
I d. at 3.
6
I d.
7
I d. at 4.
8
C e nt ers f or Dis e as e C o ntr ol a n d Pr e v e nti o n, Cl e a ni n g a n d Disi nf e cti n g Y o ur F a cilit y 2 ( A pr. 1, 2 0 2 0),
htt ps:// w w w. c d c. g o v/ c or o n a vir us/ 2 0 1 9- n c o v/ c o m m u nit y/ disi nf e cti n g- b uil di n g- f a cilit y- H. p df.
1

2

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

J- 3
D o c u m e nt 5 7 Fil e d 0 7/ 0 8/ 2 0

P a g e 3 of 7 P a g eI D #: 6 7 1

9.
I h a v e r e vi e w e d t h e d e cl ar ati o n of Ri c k Wi nt er, s u b mitt e d i n t his c as e o n J ul y 6,
2 0 2 0. Mr. Wi nt er d es cri b es t h e m e as ur es t h at t h e B ur e a u of Pris o ns ( B O P) is t a ki n g, or will
b e t a ki n g, s u c h as t e m p er at ur e c h e c ks a n d s y m pt o m s cr e e ni n g f or st aff; pr o vi di n g p ers o n al
pr ot e cti v e e q ui p m e nt ( P P E), i n cl u di n g a s ur gi c al f a c e m as k, gl o v es, g o w n a n d f a c e s hi el d, t o
R e v. H art k e m e y er; pr o vi di n g h a n d s a niti z er a n d s o a p t o R e v. H art k e m e y er; pr o vi di n g a n N9 5 m as k t o R e v. H art k e m e y er’s s e c urit y es c ort; a n d att e m pts t o li mit t h e n u m b er of p e o pl e i n
c o nt a ct wit h R e v. H art k e m e y er. A c c or di n g t o Mr. Wi nt er, t h e B O P will n ot b e c o n d u cti n g
t esti n g of st aff or ot h ers p arti ci p ati n g i n t h e e x e c uti o n pr o c e d ur es. Mr. Wi nt er’s d e cl ar ati o n
als o i n di c at es t h at t h e g o v er n m e nt is n ot t a ki n g a n y pr ot e cti v e m e as ur es t o i n cr e as e
v e ntil ati o n or a v oi d o v er cr o w di n g i n t h e s m all r o o ms of t h e D e at h H o us e.
1 0.
T h es e m e as ur es ar e i n a d e q u at e. As s o m e o n e w h o is m e di c all y v ul n er a bl e t o C O VI D1 9 d u e t o m y a g e a n d m e di c al hist or y, I p ers o n all y w o ul d n ot e nt er a n y of t h e b uil di n gs at
iss u e, e v e n wit h t h e miti g ati o n eff orts d es cri b e d b y Mr. Wi nt er.
1 1.
T esti n g. T h e B O P will n ot b e c o n d u cti n g t esti n g o n a n y of t h e h u n dr e ds of
i n di vi d u als i n v ol v e d i n t h e e x e c uti o n. T ests ar e n ot f o ol pr o of. F or e x a m pl e, i n di vi d u als wit h
r e c e nt i nf e cti o ns c a n still t est n e g ati v e. H o w e v er, t esti n g is a h el pf ul w a y t o s cr e e n o ut
p e o pl e w h o ar e p ot e nti all y i nf e cti o us a n d w h o c o ul d s pr e a d t h e dis e as e t o t h os e ar o u n d t h e m.
I nst e a d, B O P r e q uir es st aff t o p ass d ail y t e m p er at ur e c h e c ks a n d s y m pt o m s cr e e ni n g. As I
n ot e d i n m y pri or d e cl ar ati o n, t e m p er at ur e c h e c ks a n d n o n- t est b as e d v er b al s cr e e ns s u c h as
t his c a n n ot a d e q u at el y s cr e e n f or n e w, as y m pt o m ati c or pr e -s y m pt o m ati c i nf e cti o ns.
I nf e ct e d st aff ar e a k e y v e ct or f or i ntr o d u ci n g C O VI D-1 9 i nt o a c orr e cti o n al f a cilit y.
S cr e e ni n g, as d es cri b e d a b o v e, is i ns uffi ci e nt t o eli mi n at e t his ris k.
1 2.
V e ntil ati o n. T h e B O P is n ot t a ki n g a n y m e as ur es t o i m pr o v e t h e v e ntil ati o n i n t h e
f a cilit y or t h e ar e as w h er e R e v. H art k e m e y er will b e visiti n g. As d es cri b e d a b o v e, t h er e is
str o n g a n d m o u nti n g e vi d e n c e t h at C O VI D- 1 9 is s pr e a d t hr o u g h air b or n e dr o pl ets.
A p pr o pri at e v e ntil ati o n t h at e ns ur es t h e air is n ot r e cir c ul at e d, a n d t h at air is all o w e d t o fl o w
o utsi d e of t h e b uil di n g, is criti c al t o r e d u ci n g t h e ris k of C O VI D- 1 9 tr a ns missi o n. Wit h o ut
a d e q u at e v e ntil ati o n, t h e ris k of tr a ns missi o n r e m ai ns hi g h. C o n c er ns a b o ut i n a d e q u at e
v e ntil ati o n ar e p arti c ul arl y a c ut e i n t h e D e at h H o us e w h er e t h e e x e c uti o n will t a k e pl a c e.
P u bli c all y a v ail a bl e i m a g es d e pi ct a s m all, wi n d o wl ess b uil di n g. S e e Fi g ur e 1. S e p ar ati n g
R e v. H art k e m e y er fr o m ot h er wit n ess es a n d m e di a w h o will b e i n diff er e nt o bs er v ati o n
r o o ms d o es n ot pr e v e nt t h e s pr e a d of a n air b or n e vir us w h e n p o or v e ntil ati o n cir c ul at es t h e
s a m e air b et w e e n t h e r o o ms.

3

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

J- 4
D o c u m e nt 5 7 Fil e d 0 7/ 0 8/ 2 0

P a g e 4 of 7 P a g eI D #: 6 7 2

Fi g ur e 1:

S o ur c e: htt ps:// w w w. b urli n gt o nfr e e pr ess. c o m/st or y/ n e ws/l o c al/ v er m o nt/ 2 0 1 5/ 0 6/ 2 5/ d o n al d- f elld e at h -r o w-l a ws uit/ 2 9 2 4 3 1 9 5/
1 3.
M as ks a n d P P E . Mr . Wi nt er’s d e cl ar ati o n st at es t h at R e v. H art k e m e y er will b e
pr o vi d e d wit h a s ur gi c al m as k a n d R e v. H art k e m e y er’s s e c urit y es c ort will b e w e ari n g a n N9 5 m as k. T h e t y p e of m as k pr o vi d e d f or R e v. H art k e m e y er will n ot eli mi n at e t h e ris k of
p ossi bl e i nf e cti o n. S ur gi c al m as ks pri m aril y pr ot e ct t h os e ar o u n d t h e w e ar er; t h e y d o n ot
eli mi n at e t h e ris k of i nf e cti o n t o t h e w e ar er hi ms elf. Mr. Wi nt er’s d e cl ar ati o n i n di c at es t h at
R e v. H art k e m e y er m a y c o m e i n c o nt a ct wit h m e m b ers of Mr. P ur k e y’s l e g al t e a m, w h o li k e
t h e ot h er wit n ess es, ar e gi v e n t h e o pti o n, b ut n ot r e q uir e d, t o w e ar P P E. I n a d diti o n, t h e
s e c urit y es c ort’s us e of a n N- 9 5 m as k pr o vi d es li mit e d, if a n y, a d diti o n al pr ot e cti o n t o Mr.
H art k e m e y er b e y o n d t h at of a t y pi c al m as k. N- 9 5 m as ks ar e d esi g n e d t o pr ot ect t h e w e ar er .
U nli k e s ur gi c al m as ks, t h e y filt er t h e air d uri n g i ns pir ati o n. F urt h er m or e, i n di vi d u al s c a n
c at c h t h e vir us t hr o u g h t h e m e m br a n es i n t h eir e y es, a ris k t h at m as ki n g d o es n ot
eli mi n at e. R e v. H art k e m e y er will als o b e off er e d a d diti o n al P P E , i n cl u di n g gl o v es, g o w n a n d
f a c e s hi el d. H o w e v er, wit h o ut a g u ar a nt e e of s o ci al dist a n ci n g a n d v e ntil ati o n i n t h e
b uil di n gs w h er e R e v. H art k e m e y er will b e visiti n g, t h e ris k of C O VI D- 1 9 tr a ns missi o n
r e m ai ns.
1 4.
Visit ati o n i n t h e S C U. Mr. Wi nt er’s d e cl ar ati o n st at es t h at R e v. H art k e m e y er will b e
visiti n g his s pirit u al a d vis e e i n t h e S p e ci al C o nfi n e m e nt U nit ( S C U). T his is t h e s a m e
4

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

J- 5
D o c u m e nt 5 7 Fil e d 0 7/ 0 8/ 2 0

P a g e 5 of 7 P a g eI D #: 6 7 3

visit ati o n l o c ati o n d es cri b e d i n R e v. H art k e m e y er’s d e cl ar ati o n, w hi c h I r e vi e w e d pr e vi o usl y.
T h e visit ati o n pr o c ess is si mil ar t o ot h er pris o ns I h a v e visit e d, a n d i n e vit a bl y i n v ol v es cl os e
a n d r e p e at e d c o nt a ct b et w e e n t h e visit or a n d c ust o di al st aff, ot h er visit ors, a n d pris o n ers.
U p o n r e vi e w of Mr. Wi nt er’s d e cl ar ati o n, t h e visit ati o n pr o c ess, a n d t h e att e n d a nt ris ks,
r e m ai ns t h e s a m e as d es cri b e d i n m y pri or d e cl ar ati o n, wit h p er h a ps t h e e x c e pti o n of
e x p os ur e t o ot h er visit ors. E v e n if B O P m a k es eff orts t o li mit t h e n u m b er of i n di vi d u als wit h
w h o m R e v. H art k e m e y er c o m es i nt o dir e ct c o nt a ct, t h os e i n di vi d u als t h e ms el v es ar e still i n
c o nt a ct wit h a n y n u m b er of ot h er p e o pl e t hr o u g h o ut t h e d a y a n d i n t h e d a ys l e a di n g u p t o
R e v. H art k e m e y er’s visits. T h os e i n di vi d u als m a y b e u n a bl e t o s o ci all y dist a n c e, will li k el y
b e i n p o orl y v e ntil at e d, e n cl os e d s p a c es, a n d m a y n ot b e w e ari n g f ull P P E at all ti m es.
F urt h er, t h e p ot e nti al f or a er os oli z ati o n of C O VI D- 1 9 cr e at es a ris k of tr a ns missi o n fr o m
i n di vi d u als wit h w h o m t h at R e v. H art k e m e y er d o es n ot h a v e dir e ct c o nt a ct. As s u c h, t h e ris k
of C O VI D- 1 9 s pr e a d r e m ai ns s u bst a nti al.
1 5.
Mr. Wi nt er st at es t h at t h e visit ati o n r o o m will b e s a niti z e d b et w e e n visits, b ut h e
pr o vi d es n o i nf or m ati o n a b o ut t h e cl e a ni n g pr o d u cts t h at will b e us e d. O nl y c ert ai n cl e a ni n g
pr o d u cts, us e d at f ull str e n gt h, ar e eff e cti v e a g ai nst C O VI D- 1 9. I n m y e x p eri e n c e, pris o ns
t y pi c all y utili z e w at er e d- d o w n cl e a ni n g pr o d u cts. If s u c h pr o d u cts w er e us e d t o “s a niti z e ” t h e
visit ati o n r o o m, t h e y w o ul d b e i n eff e cti v e at killi n g a n y vir us t h at r e m ai n e d o n s urf a c es.
1 6.
Mr. Wi nt er’s ass erti o n t h at t h er e ar e n o c o nfir m e d C O VI D- 1 9 c as es i n t h e S C U is
irr el e v a nt. M y u n d erst a n di n g is t h e S C U is o n e h o usi n g u nit wit hi n t h e l ar g er U S P T err e
H a ut e b uil di n g, a n d t h er e h a v e b e e n a n u m b er of c o nfir m e d C O VI D- 1 9 c as es i n U S P T err e
H a ut e. I n a n y t y pi c al pris o n e n vir o n m e nt, st aff g o b a c k a n d f ort h b et w e e n v ari o us p arts of
t h e f a cilit y. St aff ar e t h e pri m ar y v e ct or f or tr a ns missi o n i n pris o ns, a n d t h eir m o v e m e nt
all o ws C O VI D - 1 9 t o s pr e a d b et w e e n u nits. F or e x a m pl e, S a n Q u e nti n St at e Pris o n i n S a n
Q u e nti n , C alif or ni a, is e x p eri e n ci n g a wi d es pr e a d C O VI D-1 9 o ut br e a k .9 I h a v e b e e n t o S a n
Q u e nti n a n d a m f a mili ar wit h t h e l a y o ut. T h e f a cilit y’s d e at h r o w is h o us e d i n a s e p ar at e
b uil di n g a n d c o nt ai n e d t o its o w n fl o or. T h e o ut br e a k b e g a n i n t h e m ai n h o usi n g u nits.
N e v ert h el ess, t h e o ut br e a k h as s pr e a d fr o m t h e m ai n h o usi n g u nits t o t h e d e at h r o w u nit at
t h at f a cilit y; t hr e e m e n o n d e at h r o w h a v e n o w di e d of C O VI D- 1 9. 1 0
1 7.
I n a d diti o n, as a r es ult of t h e l o w r at es of t esti n g at U S P T err e H a ut e, t h er e m a y b e
u n di a g n os e d i n di vi d u als i n t h e S C U wit h C O VI D- 1 9. F urt h er, a s y m pt o m ati c a n d mil dl y
s y m pt o m ati c i n di vi d u als c a n, a n d d o, tr a ns mit t h e vir us, c o ntri b uti n g t o its r a pi d s pr e a d.
1 8.
Visit ati o n at t h e D e at h H o us e . Mr. Wi nt er i n di c at es R e v. H at k e m e y er will h a v e t h e
o p p ort u nit y t o visit wit h Mr. P ur k e y i n t h e D e at h H o us e as w ell. T his visit ati o n n e c ess aril y
i n cl u d es t h e s a m e t y p e of cl os e c o nt a ct wit h c ust o di al st aff as visit ati o n at t h e S C U, a n d
c arri es t h e s a m e att e n d a nt ris ks. I n a d diti o n, I pr e vi o usl y r e vi e w e d t h e d e cl ar ati o n of Mr.
9
Ri c h ar d Wi nt o n & T ar y n L u n a, S a n Q u e nti n c or o n a vir us o ut br e a k s pr e a ds: 1, 1 1 3 pris o n ers i nf e ct e d, d e at h r o w
i n m at e di es, L. A. Ti m es (J u n e 3 0, 2 0 2 0), htt ps:// w w w.l ati m es. c o m/ c alif or ni a/st or y/ 2 0 2 0 - 0 6- 3 0/s a n- q u e nti nc or o n a vir us- o ut br e a k- pris o n ers- i nf e ct e d-d e at h -r o w-i n m at e-di es - c o vi d- 1 9.
10
L e o n ar d o C ast a ñ e d a, T hr e e d e at h r o w i n m at es i n S a n Q u e nti n di e of C O VI D- 1 9 a mi d gr o wi n g pris o n o ut br e a k ,
T h e M er c u r y N e ws ( u p d at e d J ul y 6, 2 0 2 0), htt ps:// w w w. m er c ur y n e ws. c o m/ 2 0 2 0/ 0 7/ 0 3/t w o- d e at h -r o w-i n m at es-i ns a n- q u e nti n- di e-of -c o v i d- 1 9-a mi d - gr o wi n g-pris o n - o ut br e a k/.

5

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

J- 6
D o c u m e nt 5 7 Fil e d 0 7/ 0 8/ 2 0

P a g e 6 of 7 P a g eI D #: 6 7 4

Fl o y d. I n Mr. Fl o y d’s e x p eri e n c e, t h es e D e at h H o us e visits w er e att e n d e d n ot j ust b y t h e
s pirit u al a d vis or, b ut als o b y m e m b ers of t h e l e g al t e a m, a n d t o o k pl a c e i n a s m all, cr a m p e d
r o o m. Mr. Wi nt er d o es n ot a d dr ess w h et h er t h er e will b e a n y m e as ur es t a k e n t o all o w f or
s o ci al dist a n ci n g d uri n g t h es e visits, a n d d o es n ot a d dr ess a n y m e as ur es t a k e n t o i m pr o v e t h e
v e ntil ati o n i n t h es e visit ati o n r o o ms.
1 9.
E x e c uti o n P r o c e d u r es. Mr . Wi nt er’s d e cl ar ati o n i n di c at es t h at R e v. H art k e m e y er
will b e i n a w aiti n g r o o m a dj a c e nt t o t h e e x e c uti o n c h a m b er, a n d t h e e x e c uti o n c h a m b er
its elf. I n t h e c h a m b er its elf, t h er e will b e at l e ast fi v e i n di vi d u als: Mr. P ur k e y, R e v.
H art k e m e y er, R e v. H ar k e m e y er’s s e c urit y es c ort, a U. S. M ars h als’ r e pr es e nt ati v e a n d a B O P
offi ci al. It is u n cl e ar if t h e U. S. M ars h als’ r e pr es e nt ati v e a n d B O P offi ci al will b e w e ari n g
f ull P P E. P u bli c all y a v ail a bl e i m a g es d e pi ct a s m all, n arr o w r o o m t h at is n ot l ar g e e n o u g h t o
all o w fi v e i n di vi d u als t o r e m ai n si x f e et a p art at all ti m es. S e e Fi g ur e 2. R e v. H art k e m e y er
will b e i n t h es e s m all, e n cl os e d s p a c es, wit h n o a bilit y t o s o ci all y dist a n c e, a n d n o m e as ur es
t a k e n t o i m pr o v e v e ntil ati o n.
Fi g ur e 2:

S o ur c e: htt ps:// w w w. wt hit v. c o m/ c o nt e nt/ n e ws/J u d g e -h alts -f e d er al-e x e c uti o ns -s c h e d ul e d-t o-t a k epl a c e -i n-T err e -H a ut e - 5 6 5 2 7 4 5 1 1. ht ml
2 0.
T h e m e as ur es d es cri b e d b y Mr. Wi nt er ar e i n a d e q u at e t o pr ot e ct a n i n di vi d u al w h o is
v ul n er a bl e t o C O VI D- 1 9. E v e n wit h s u c h m e as ur es i n pl a c e, a v ul n er a bl e i n di vi d u al is still at
ris k of c o ntr a cti n g C O VI D- 1 9 a n d s uff eri n g s eri o us ill n ess as a r es ult. R e v. H art k e m e y er will
r e p e at e dl y b e i n s m all, e n cl os e d s p a c es wit h n o a bilit y t o s o ci all y dist a n c e fr o m ot h er
6

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

J- 7
D o c u m e nt 5 7 Fil e d 0 7/ 0 8/ 2 0

P a g e 7 of 7 P a g eI D #: 6 7 5

i n di vi d u als w h o m a y b e C O VI D- 1 9 p ositi v e, a n d i n s p a c es w hi c h m a y b e fill e d wit h
a er os oli z e d dr o pl ets c o nt ai ni n g C O VI D- 1 9. T h es e s p a c es will als o b e p o orl y v e ntil at e d, wit h
air r e cir c ul ati n g wit hi n t h e b uil di n g. T h e ris k of C O VI D- 1 9 tr a ns missi o n r e m ai ns hi g h.

I d e cl ar e u n d er p e n alt y of p erj ur y t h at t h e f or e g oi n g is tr u e a n d c orr e ct. E x e c ut e d o n
J ul y 8, 2 0 2 0 i n Al a m e d a C o u nt y, C alif or ni a.
______________________________
Dr. J o e G ol d e ns o n

7

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

A P P E N DI X K
K- 1
D o c u m e nt 8 0- 1 Fil e d 0 7/ 1 2/ 2 0

P a g e 1 of 4 P a g eI D #: 8 5 6

I N T H E U NI T E D S T A T E S DI S T RI C T C O U R T
F O R T H E S O U T H E R N DI S T RI C T O F I N DI A N A
T E R R E H A U T E DI VI SI O N

D A L E H A R T K E M E Y E R ( A K A S EI G E N)
Pl ai ntiff,
v.

)
)
)
)
)
)
)

C as e N o. 2: 2 0-c v - 0 0 3 3 6-J M S-D L P

WI L LI A M P. B A R R, i n his offi ci al
)
c a p a cit y as t h e Att or n e y G e n er al of t h e
)
U nit e d St at es; MI C H A E L C A R V AJ A L, i n )
his offi ci al c a p a cit y as t h e Dir e ct or of t h e )
F e d er al B ur e a u of Pris o ns; a n d T.J.
)
W A T S O N, i n his offi ci al c a p a cit y as
)
C o m pl e x W ar d e n f or T err e H a ut e F e d er al )
C orr e cti o n al C o m pl e x,
)
)
D ef e n d a nts.
)
)
S E C O N D S U P P L E M E N T A L D E C L A R A TI O N O F D R. J O E G O L D E N S O N
I, Dr. J o e G ol d e ns o n, d e cl ar e as f oll o ws u n d er p e n alt y of p erj ur y p urs u a nt t o 2 8 U. S. C. § 1 7 4 6:
1.
I a m a m e di c al p h ysi ci a n wit h 3 3 y e ars of e x p eri e n c e i n c orr e cti o n al h e alt h c ar e. F or
2 8 y e ars, I w or k e d f or J ail H e alt h S er vi c es of t h e S a n Fr a n cis c o D e p art m e nt of P u bli c
H e alt h. F or 2 2 of t h os e y e ars, I s er v e d as t h e Dir e ct or a n d M e di c al Dir e ct or. I n t h at r ol e, I
pr o vi d e d dir e ct cli ni c al s er vi c es, m a n a g e d p u bli c h e alt h a cti viti es i n t h e S a n Fr a n cis c o
C o u nt y j ail, i n cl u di n g t h e m a n a g e m e nt of HI V, t u b er c ul osis, H e p atitis C, a n d ot h er i nf e cti o us
dis e as es i n t h e f a cilit y, pl a n n e d a n d c o or di n at e d t h e j ail’s r es p o ns e t o H 1 N 1, a n d
a d mi nist er e d t h e c orr e cti o n al h e alt h e nt er pris e, i n cl u di n g its b u d g et, h u m a n r es o ur c es
s er vi c es, a n d m e di c al, m e nt al h e alt h, d e nt al, a n d p h ar m a c y s er vi c es.
2.
I s er v e d as a m e m b er of t h e B o ar d of Dir e ct ors of t h e N ati o n al C o m missi o n o n
C orr e cti o n al H e alt h C ar e f or ei g ht y e ars a n d w as p ast Pr esi d e nt of t h e C alif or ni a c h a pt er of
t h e A m eri c a n C orr e cti o n al H e alt h S er vi c es Ass o ci ati o n. I n 2 0 1 4, I r e c ei v e d t h e Ar m o n d St art
A w ar d of E x c ell e n c e fr o m t h e S o ci et y of C orr e cti o n al P h ysi ci a ns, w hi c h r e c o g ni z es its
r e ci pi e nt as a r e pr es e nt ati v e of t h e hi g h est i d e als i n c orr e cti o n al m e di ci n e.
3.
F or 3 5 y e ars, I h el d a n a c a d e mi c a p p oi nt m e nt as a n Assist a nt Cli ni c al Pr of ess or at t h e
U ni v ersit y of C alif or ni a, S a n Fr a n cis c o.

1

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

K- 2
D o c u m e nt 8 0- 1 Fil e d 0 7/ 1 2/ 2 0

P a g e 2 of 4 P a g eI D #: 8 5 7

4.
I h a v e w or k e d e xt e nsi v el y as a c orr e cti o n al h e alt h m e di c al e x p ert a n d c o urt m o nit or. I
h a v e s er v e d as a m e di c al e x p ert f or t h e U nit e d St at es Distri ct C o urt f or t h e N ort h er n Distri ct
of C alif or ni a f or 2 5 y e ars. I a m c urr e ntl y r et ai n e d b y t h at C o urt as a m e di c al e x p ert i n Pl at a
v. N e ws o m , C as e N o. 3: 0 1-c v - 0 1 3 5 1 ( N. D. C al.), t o e v al u at e m e di c al c ar e pr o vi d e d t o i n m at e
p ati e nts i n t h e C alif or ni a D e p art m e nt of C orr e cti o n al R e h a bilit ati o n. I h a v e als o s er v e d as a
m e di c al e x p ert/ m o nit or at C o o k C o u nt y J ail i n C hi c a g o a n d L os A n g el es C o u nt y J ail, at
ot h er j ails i n W as hi n gt o n, T e x as, a n d Fl ori d a, a n d at pris o ns i n Illi n ois, O hi o, a n d Wis c o nsi n.
5.
O n J ul y 1, 2 0 2 0, I si g n e d a n i niti al d e cl ar ati o n t h at w as s u b mitt e d i n t his c as e , a n d o n
J ul y 8, 2 0 2 0 I s u b mitt e d a s u p pl e m e nt al d e cl ar ati o n.
6.
Si n c e t h e ti m e of m y J ul y 8 d e cl ar ati o n, t h e C O VI D- 1 9 p a n d e mi c h as c o nti n u e d t o
es c al at e ar o u n d t h e c o u ntr y a n d i n I n di a n a.1 T h e I n di a n a st at e wi d e v e ntil at or us a g e is at 8 4 %
of c a p a cit y as of t o d a y, J ul y 1 2, 2 0 2 0. 2
7.
C o u ns el f or R e v. H art k e m e y er pr o vi d e d m e wit h a n e w d e cl ar ati o n, d at e d t o d a y, J ul y
1 2, 2 0 2 0 fr o m Ri c k Wi nt er. T h e n e w d e cl ar ati o n is of si g nifi c a nt c o n c er n wit h r es p e ct t o t h e
ris k t o R e v. H art k e m e y er i n e nt eri n g t h e pris o n a n d att e n di n g t h e e x e c uti o n o n J ul y 1 5, 2 0 2 0.
8.
I n m y pri or d e cl ar ati o ns I d es cri b e d t h e ris k t h at st aff c o ul d bri n g C O VI D- 1 9 i nt o t h e
f a cilit y a n d e x p os e ot h er st aff, pris o n ers, or wit n ess es i n v ol v e d i n t h e e x e c uti o n. T h e n e w
Wi nt er d e cl ar ati o n c o nfir ms t h e w orst c as e s c e n ari o: a k n o w n e x p os ur e fr o m a n i nf e ct e d st aff
p ers o n w h o h as b e e n i n c o nt a ct wit h ot h er st aff i n v ol v e d i n c arr yi n g o ut t h e e x e c uti o ns a n d
w h o h as b e e n i n t h e h o usi n g u nit wit h t h e i n di vi d u als s c h e d ul e d f or e x e c uti o n. T his i nf e ct e d
i n di vi d u al c o ul d h a v e i nf e ct e d ot h er st aff m e m b ers w h o w er e i n m e eti n gs or e n cl os e d, i n d o or
s p a c es wit h hi m a n d w h o ar e n o w pr e- s y m pt o m ati c or as y m pt o m ati c. T h es e i n di vi d u als m a y
r e m ai n pr e-s y m pt o m ati c f or b et w e e n 2 a n d 1 4 d a ys, or c o ul d r e m ai n as y m pt o m ati c, b ut
c o nt a gi o us, f or t h e d ur ati o n of t h e i nf e cti o n.
9.
I n or d er t o a d dr ess t his k n o w n e x p os ur e, t h e G o v er n m e nt n e e ds t o i d e ntif y all
i n di vi d u als w h o w er e e x p os e d – t hr o u g h m e eti n gs or i n d o or s etti n gs – t o t he i nf e ct e d p ers o n
a n d pl a c e all of t h os e i n di vi d u als o n a 1 4- d a y q u ar a nti n e. T his w o ul d i n cl u d e at l e ast all of
t h os e B O P st aff a n d l a w e nf or c e m e nt w h o att e n d e d t h e “l a w e nf or c e m e nt m e eti n g ” t o
pr e p ar e f or t h e e x e c uti o ns, all B O P st aff a n d l a w e nf or c e m e nt w h o att e n d e d “t h e m e eti n g
r e g ar di n g t h e h a n dli n g of d e m o nstr at ors ”, a n d all B O P st aff a n d all pris o n ers i n t h e S C U w h o
h a d c o nt a ct wit h or s h ar e d airs p a c e wit h t h e i nf e ct e d st aff m e m b er w h e n h e “ att e n d e d t o a n
iss u e at t h e S C U. ” D e cl. Wi nt er J ul y 1 2, 2 0 2 0, ¶ 6. T h er e m a y b e ot h ers w h o n e e d t o be
q u ar a nti n e d as w ell. F or e x a m pl e, if t h e i n di vi d u al p ass es t hr o u g h s e c urit y as p art of his
w or k d a y, t h e s e c urit y st aff ar e a n ot h er gr o u p w h o m a y n e e d t o b e q u ar a nti n e d. As I
e x pl ai n e d i n m y pr e vi o us d e cl ar ati o ns, t h e p o or v e ntil ati o n a n d li k eli h o o d of air b or n e s pr e a d
1
S e e N B C C hi c a g o, C or o n a vir us i n I n di a n a: St at e R e p orts Hi g h est I n cr e as e i n C O VI D- 1 9 C as es i n M or e T h a n 2
M o nt hs, J ul y 1 1, 2 0 2 0, htt ps:// w w w. n b c c hi c a g o. c o m/ n e ws/l o c al/ c or o n a vir us- i n-i n di a n a-st at e-r e p orts- hi g h esti n cr e as e-i n- c o vi d- 1 9-c as es -i n-m or e -t h a n- 2- m o nt hs/ 2 3 0 3 5 1 1/; N e w Y or k Ti m es, N e w C or o n a vir us C as es i n U. S.
S o ar P ast 6 8, 0 0 0, S h att eri n g R e c or d, J ul y 1 0, 2 0 2 0, htt ps:// w w w. n yti m es. c o m/ 2 0 2 0/ 0 7/ 1 0/ w orl d/ c or o n a vir usu p d at es. ht ml .
2
S e e I n di a n a, I n di a n a C O VI D - 1 9 D as h b o ar d, J ul y 1 2, 2 0 2 0, htt ps:// w w w. c or o n a vir us.i n. g o v/ 2 3 9 3. ht m .

2

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

K- 3
D o c u m e nt 8 0- 1 Fil e d 0 7/ 1 2/ 2 0

P a g e 3 of 4 P a g eI D #: 8 5 8

m e a ns t h at all of t h os e i n di vi d u als i n t h os e e n c o u nt ers m ust b e c o nsi d er e d at ris k of h a vi n g
c o ntr a ct e d C O VI D- 1 9, a n d p ot e nti all y n o w i nf e ct e d wit h C O VI D- 1 9 t h e ms el v es.
1 0.
T h e G o v er n m e nt will t h e n n e e d t o tr a c k t hr o u g h t esti n g t h os e e x p ose d i n di vi d u als. If
a n y of t h e q u ar a nti n e d i n di vi d u als ar e si c k, t h e y will t h e n n e e d t o tr a c e t h e c o nt a cts of t h os e
i nf e ct e d i n di vi d u als a n d pl a c e t h e m o n q u ar a nti n e, wit h t h e 1 4 -d a y cl o c k r u n ni n g fr o m t h e
l ast d at e of c o nt a ct. It m a y t a k e s e v er al w e e ks t o d et er mi n e w h o is c arr yi n g t h e vir us as a
r es ult of t his e x p os ur e. T h e b est c as e s c e n ari o will r e q uir e a 1 4 - d a y q u ar a nti n e fr o m J ul y 8,
t h e l ast d a y t h e i nf e ct e d p ers o n w as i n t h e pris o n a n d p ot e nti all y e x p os e d ot h ers t o t h e vir us
1 1.
T h e B O P’s s u g g esti o n t h at i n di vi d u als e x p os e d t o t h e i nf e ct e d p ers o n will n ot b e
all o w e d t o c o m e i nt o c o nt a ct wit h wit n ess es “[f] or t h e d ur ati o n of t h e e x e c uti o n or u ntil a
n e g ati v e t est is o bt ai n e d, ” is a n i n a d e q u at e m e as ur e t o d et er mi n e w hi c h st aff ar e a t ris k of
s pr e a di n g t h e dis e as e t o wit n ess es. Wi nt er D e cl. ¶ 9. A n e x p os e d i n di vi d u al c o ul d t est
n e g ati v e t o d a y a n d b e c o m e ill l at er wit hi n t h e q u ar a nti n e p eri o d. Of c o urs e, t his j ust
a d dr ess es t h e cir cl es of p ot e nti al i nf e cti o n fr o m wit h t his o n e p ers o n's i nf e cti o n; e v e n aft er
t his ti m e p eri o d h as e x pir e d, t h er e still r e m ai ns a s u bst a nti al ris k t h at ot h er i n di vi d u als
i n v ol v e d i n t h e e x e c uti o n ar e i nf e ct e d a n d will s pr e a d t h e dis e as e. I n d e e d, B O P o nl y l e ar n e d
a b o ut t his p ers o n’s ill n ess b e c a us e of his s elf - dis cl os ur e.
1 2.
A n ot h er si g nifi c a nt pr o bl e m r e v e al e d b y t h e n e w Wi nt er d e cl ar ati o n is t h at t h e st aff
i n di vi d u al w h o h as t est e d p ositi v e di d n ot al w a ys w e ar a m as k w hil e at t h e pris o n. ( Wi nt er
D e cl. ¶). B y n ot w e ari n g a m as k, t h e i nf e ct e d i n di vi d u al si g nifi c a ntl y i n cr e a s e d t h e
li k eli h o o d t h at ot h ers will b e c o m e si c k. T h e f a ct t h at h e w as p er mitt e d t o e n g a g e wit h ot h ers
wit h o ut a m as k s u g g ests t h e l a c k of a d e q u at e c o m pli a n c e a n d e nf or c e m e nt of e v e n t h e
li mit e d C O VI D- 1 9 p oli ci es t h e G o v er n m e nt d es cri b e d a d o pti n g i n a d v a n c e of t h e e x e c uti o n .
T h e J ul y 6, 2 0 2 0 D e cl ar ati o n si g n e d b y Mr. Wi nt er pr e vi o usl y r e p ort e d t h at t h e B O P p oli c y
is t h at “ all B O P st aff ar e r e q uir e d t o w e ar f a c e m as ks. ” Wi nt er J ul y 6, 2 0 2 0 D e cl. ¶ 7. T h e
f a ct t h at a n i n di vi d u al i n v ol v e d i n t h e pl a n ni n g of t his e x e c uti o n w as n ot w e ari n g a m as k
i n di c at es a criti c al br e a k d o w n i n B O P p oli c y. T h e B O P n e e ds t o c o n d u ct a n ass ess m e nt of
its p oli ci es e nf or c e m e nt t o d et er mi n e h o w a n d w h y s u c h a b asi c r e q uir e m e nt w as n ot
f oll o w e d a n d a d dr ess t his br e a k d o w n.
1 3.
I pr e vi o usl y i d e ntifi e d t h e B O P m e as ur es as i n a d e q u at e t o pr ot e ct t h e h e alt h of a
m e di c all y v ul n er a bl e i n di vi d u al t o C O VI D- 1 9, i n cl u di n g t h e l a c k of t esti n g, v e ntil ati o n
c o n c er ns, i n a d e q u at e P P E, a n d visit ati o n ris ks ass o ci at e d wit h t h e c o n diti o ns i n t h e S p e ci al
C o nfi n e m e nt U nit a n d i n t h e e x e c uti o n c h a m b er its elf. All of t h os e c o n c er ns ar e n o w
si g nifi c a ntl y es c al at e d b y t h e k n o w n r e c e nt e x p os ur e t o a c o u ntl ess n u m b er of i n di vi d u als at
t h e pris o n, i n cl u di n g si g nifi c a nt n u m b ers of st aff a n d p ot e nti all y e v e n t h e i n di vi d u als
s c h e d ul e d f or e x e c uti o n.
1 4.
R e v. H art k e m e y er c a n n ot att e n d t h e e x e c uti o n o n J ul y 1 5, 2 0 2 0 wit h o ut b ei n g at
gr a v e ris k f or s eri o us ill n ess a n d d e at h.

3

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

K- 4
D o c u m e nt 8 0- 1 Fil e d 0 7/ 1 2/ 2 0

P a g e 4 of 4 P a g eI D #: 8 5 9

I d e cl ar e u n d er p e n alt y of p erj ur y t h at t h e f or e g oi n g is tr u e a n d c orr e ct. E x e c ut e d o n
J ul y 1 2, 2 0 2 0 i n Al a m e d a C o u nt y, C alif or ni a.
______________________________
Dr. J o e G ol d e ns o n

4

A P P E N DI X L
L- 1
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8

Fil e d 0 7/ 0 8/ 2 0

P a g e 1 of 9 P a g eI D #: 6 7 6

I N T H E U NI T E D S T A T E S DI S T RI C T C O U R T
F O R T H E S O U T H E R N DI S T RI C T O F I N DI A N A
T E R R E H A U T E DI VI SI O N

D A L E H A R T K E M E Y E R ( A K A S EI G E N)
Pl ai ntiff,
v.

)
)
)
)
)
)
)

C as e N o. 2: 2 0-c v - 0 0 3 3 6-J S M-D L P

WI L LI A M P. B A R R, i n his offi ci al
)
c a p a cit y as t h e Att or n e y G e n er al of t h e
)
U nit e d St at es; MI C H A E L C A R V AJ A L, i n )
his offi ci al c a p a cit y as t h e Dir e ct or of t h e
)
F e d er al B ur e a u of Pris o ns; a n d T.J.
)
W A T S O N, i n his offi ci al c a p a cit y as
)
C o m pl e x W ar d e n f or T err e H a ut e F e d er al
)
C orr e cti o n al C o m pl e x,
)
)
D ef e n d a nts.
)
)
D E C L A R A TI O N O F D R. NI N A H. F E F F E R M A N
I, Ni n a F eff er m a n, c ertif y u n d er p e n alt y of p erj ur y t h at t h e f oll o wi n g st at e m e nt is tr u e
a n d c orr e ct p urs u a nt t o 2 8 U. S. C. § 1 7 4 6:
1.

I a m a f ull Pr of ess or at t h e U ni v ersit y

of T e n n ess e e, K n o x vill e

i n b ot h t h e

D e p art me nt of E c ol o g y a n d E v o l utio n ar y Bi olo g y a n d t h e D e p art me nt of M at h e matic s. I a m als o
t h e Dir e ct or of t h e M at h e m ati c al
M at h e m ati c al

M o d eli n g

C o ns ulti n g C e nt er at t h e N ati o n al

a n d Bi ol o gi c al S y nt h esis, a n d t h e Ass o ci at e

Dir e ct or

I nstit ut e f or

of t h e U ni v ersit y

of

T e n n ess e e O n e H e alt h I niti ati v e. M y r es e ar c h f o c us es o n c o m pl e x a d a pti v e s yst e ms, wit h a f o c us
o n t h e i nt er pl a y b et w e e n i n di vi d u al b e h a vi or a n d i nf e cti o us dis e as e

e pi d e mi ol o g y. C o m pl e x

a d a pti v e s yst e ms ar e s yst e ms t h at h a v e a l ar g e n u m b er of c o m p o n e nts t h at i nt er a ct a n d a d a pt
s u c h t h at t h e s yst e m is m or e c o m pli c at e d t h a n its v ari o us p arts — f or e x a m pl e, li vi n g or g a nis ms,

L- 2
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8

Fil e d 0 7/ 0 8/ 2 0

P a g e 2 of 9 P a g eI D #: 6 7 7

e c o n o mi es, or citi es.
2.

I h a v e w or k e d f or t h e p ast 1 6 y e ars as a r es e ar c h er of t h e e pi d e mi ol o g y , e c ol o g y,

a n d e v ol uti o n of i nf e cti o us dis e as e, p a n d e mi c pr e p ar e d n ess, n ati o n al bi os e c urit y, a n d i nfr astr u ct ur e
pr ot e cti o n. I h ol d a M ast er’s

d e gr e e i n m at h e m ati cs fr o m R ut g ers

U ni v ersit y a n d a P h D i n

Bi ol o g y fr o m T ufts U ni v ersit y.
3.

F or o v er a d e c a d e, I w as o n e of t h e pri m ar y r es e ar c h ers of t h e C o m m a n d, C o ntr ol,

a n d I nt er o p er a bilit y C e nt er f or

A d v a n c e d D at a A n al yti cs,

a U. S. D e p art m e nt

of H o m el a n d

S e c urit y ( “ D H S ”) C e nt er of E x c ell e n c e, w h er e I r a n a r es e ar c h gr o u p f o c usi n g o n t h e m at h e m ati cs
of b ot h bi os e c urit y a n d c y b ers e c urit y. As p art of m y r ol e i n t h at c e nt er, I a cti v el y c o ntri b ut e d
m o d els a n d p oli c y r e c o m m e n d ati o ns t o D H S a n d its affili at e a g e n ci es f or h o w t o m a n a g e a n d
miti g at e p a n d e mi c t hr e ats fr o m H 1 N 1 2 0 0 9 fl u, E b ol a i n W est
als o c o ns ult e d f or v ari o us a d diti o n al

Afri c a, a n d Zi k a vir us.

st at e a n d f e d er al a g e n ci es

a n d pri v at e

I ha ve

c o m p a ni es,

d o m esti c all y a n d a br o a d, i n t h e ar e a of o ut br e a k m a n a g e m e nt si n c e 2 0 0 4.
4.

My

C. V., att a c h e d as E x hi bit

A, i n cl u d es a f ull list of m y

h o n ors, e x p eri e n c e,

a n d p u bli c ati o ns.
5.

I a m d o n ati n g m y ti m e r e vi e wi n g m at eri als

a n d pr e p ari n g t his r e p ort. A n y li ve

t esti m o n y I pr o vi d e will als o b e pr o vi d e d pr o b o n o .
B A S E S F O R O PI NI O N S
6.

T his d e cl ar ati o n is b as e d u p o n m y e x p eri e n c e m o d eli n g C O VI D -1 9, m y r e vi e w of

t h e s ci e ntifi c lit er at ur e r e g ar di n g C O VI D -1 9, a n d m y r e vi e w of f o ur d e cl ar ati o ns pr o vi d e d t o m e
b y c o u ns el f or R e v. H art k e m e y er: ( 1) a D e c e m b er, 2 0 1 9 d e cl ar ati o n fr o m Ri c k

Wi nt er, a n

att or n e y wit h t h e B ur e a u of Pris o ns ( B O P); ( 2) a J ul y 6, 2 0 2 0 s u p pl e m e nt al d e cl ar ati o n fr o m Ri c k
Wi nt er; ( 3)

a J u n e 3 0, 2 0 2 0 d e cl ar ati o n fr o m R e v. D al e H art e k e m e y er; ( 4) a J u n e 3 0, 2 0 2 0

L- 3
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8

Fil e d 0 7/ 0 8/ 2 0

P a g e 3 of 9 P a g eI D #: 6 7 8

d e cl ar ati o n fr o m Ti m Fl o y d; a n d ( 5 ) a J ul y 1, 2 0 2 0 d e cl ar ati o n fr o m Dr. J o e G ol d e ns o n. I q u ot e
h er e r el e v a nt e x c er pts fr o m e a c h of t h e first f o ur d e cl ar ati o ns:
7.

Fr o m Ri c k Wi nt er’ s N o v e m b er 2 1, 2 0 1 9 D e cl ar ati o n ( p ar a gr a p hs 4- 1 0):

I n a d v a n c e of t h e ( e x e c uti o n) d at es, t h e B O P h as, a n d i nt e n ds t o c o nti n u e, m a ki n g
n e c ess ar y arr a n g e m e nts.
S u c h arr a n g e m e nts i n cl u d e t h e a cti v ati o n of t h e e x e c uti o n t e a m, w hi c h c o nsists of o v er
4 0 B O P st aff m e m b e rs . T h es e st aff m e m b ers will, b y n e c essit y, b e r e m o v e d fr o m t h eir
n or m al d uti es, w hi c h i n cl u d e a wi d e r a n g e of c o r r e cti o n al a n d a d mi nist r ati v e
p ositi o n s wit hi n t h e B O P. P urs u a nt t o t h e c urr e nt o p er ati o n al pl a n, t h es e st aff m e m b ers
ar e s c h e d ul e d t o c e as e t h ei r n o r m al d uti es s e v e r al d a ys i n a d v a n c e of a s c h e d ul e d
e x e c uti o n, i n or d er t o gi v e t h e t e a m ti m e t o pr a cti c e a n d pr e p ar e f or t h eir r ol e i n a n
e x e c uti o n. I n a d diti o n t o t h e t e a m m e m b ers, a n u m b e r of B O P a d mi nist r at o rs will b e
p r es e nt as w ell, als o c e asi n g t h ei r n o r m al d uti es i n t h e d a ys i n a d v a n c e of a n
e x e c uti o n . L o gisti c al it e ms s u c h as tr a v el, l o d gi n g a n d p ers o n al arr a n g e m e nts h a v e
alr e a d y b e g u n f or t h e t w o e x e c uti o n d at es i n D e c e m b er.
A d diti o n all y, t h e B O P pl a ns t o us e c o nt r a ct o rs w h o h a v e m a d e t h e ms el v es a v ail a bl e a n d
pr es u m a bl y h a v e m a d e a n y n e c ess ar y arr a n g e m e nts f or p ers o n al a n d w or k r el at e d m att ers
b as e d o n t h e e x e c uti o ns s c h e d ul e d i n D e c e m b er.
E x e c uti o ns ar e s c h e d ul e d t o t a k e pl a c e at t h e F e d er al C orr e cti o n al C o m pl e x at T err e
H a ut e, I n di a n a ( F C C T err e H a ut e). A c c or di n gl y, F C C T err e H a ut e is als o m o bili zi n g
p ers o n n el i n pr e p ar ati o n of t h e c urr e ntl y s c h e d ul e d e x e c uti o ns. I n pr e p ar ati o n, F C C T err e
H a ut e h as als o b e e n c o or di n ati n g wit h f e d e r al, st at e, a n d l o c al l a w e nf o r c e m e nt
a g e n ci es , s o m e of w h o m h a v e i n di c at e d t h eir pl a ns t o s e n d p e rs o n n el t o F C C T e r r e
H a ut e t o h el p m ai nt ai n s e c urit y f or t h e c urr e ntl y s c h e d ul e d e x e c uti o ns.
A p pr o xi m at el y 2 0 0 F C C T e r r e H a ut e st aff will s er v e as i nstit uti o n s e c urit y a n d s u p p ort
d uri n g a n e x e c uti o n. Wit h its st aff p ull e d a w a y f r o m t h ei r n o r m al d uti es , F C C T err e
H a ut e will n ot b e a bl e t o o p e r at e u n d e r n o r m al c o n diti o ns . F or e x a m pl e, d u e t o
e x p e ct e d st affi n g iss u es a n d c h a n g es i n s e c urit y pr o c e d ur es, F C C T err e H a ut e will n ot b e
a bl e t o p r e p a r e i n m at e m e als i n t h e or di n ar y f as hi o n. I nst e a d, t h e i nstit uti o n pl a ns t o
pr e p ar e f o o d i n a d v a n c e f or its a p pr o xi m at el y 2, 6 0 0 i n m at es. T his alt er ati o n i n m e al
pr e p ar ati o n c o m es at a gr e atl y i n cr e as e d c ost t o t h e B O P.
A d diti o n all y, F C C T err e H a ut e h as m a d e arr a n g e m e nts f or s p e cifi c n e e ds r el at e d s ol el y
t o a n e x e c uti o n, f or e x a m pl e c o nt r a cti n g f o r b us es w hi c h will b e us e d t o t r a ns p o rt
p u bli c d e m o nst r at o rs w h o wis h t o ass e m bl e.
S c h e d ul es f or F C C T err e H a ut e st aff m e m b ers ar e c urr e ntl y b ei n g cr e at e d, all o c ati n g
st aff b as e d o n c urr e nt e x e c uti o n d at es. F or a d diti o n al s e c urit y a n d s u p p ort, s p e ci ali z e d
B O P t e a ms s u c h as S p e ci al O p er ati o ns R es p o ns e T e a ms ( S O R T) a n d Dist ur b a n c e

L- 4
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8

Fil e d 0 7/ 0 8/ 2 0

P a g e 4 of 9 P a g eI D #: 6 7 9

C o ntr ol T e a ms ( D C T) will t r a v el t o F C C T e r r e H a ut e f r o m ot h e r B O P i nstit uti o ns .
T h es e t e a ms c o nsists of a p p r o xi m at el y 5 0 i n di vi d u als . A g ai n, l o gisti c al arr a n g e m e nts
s u c h as t r a v el a n d l o d gi n g h a v e alr e a d y b e g u n f or t h e c urr e nt e x e c uti o n d at es.
8.

Fr o m Ri c k Wi nt er’s J ul y 6, 2 0 2 0 D e cl ar ati o n ( p ar a gr a p hs 7 - 1 4):

T h e T err e H a ut e F e d er al C orr e cti o n C o m pl e x ( F C C T err e H a ut e) c o nsists of U S P T err e
H a ut e, as w ell as a F e d er al C orr e cti o n al I nstit uti o n ( F CI T err e H a ut e) a n d a pris o n c a m p.
Mr. P ur k e y is h o us e d at U S P T err e H a ut e’s S p e ci al C o nfi n e m e nt U nit ( S C U). T h er e h a v e
b e e n z er o c as es of C O VI D -1 9 i n t h e S C U, wit h t w o i n m at es h a vi n g b e e n t est e d. St aff at
F C C T err e H a ut e ar e r e q uir e d t o p ass a t e m p er at ur e c h e c k a n d s y m pt o m s cr e e ni n g d ail y
b ef or e b ei n g all o w e d o n t h e gr o u n ds of F C C T err e H a ut e. As of J ul y 2, 2 0 2 0 , ni n et y t wo
st aff m e m b ers at F C C T err e H a ut e h a v e b e e n t est e d f or C O VI D -1 9. Of t h os e, o n e st aff
m e m b er at t h e F CI pr e vi o usl y t est e d p ositi v e b ut h as r e c o v er e d. At t h e U S P, n o st aff
m e m b ers h a v e t est e d p ositi v e f or C O VI D -1 9. N o F C C st aff m e m b ers ar e c urr e ntl y
p osit i v e. f or C O VI D-1 9. As f or t h e i n m at e p o p ul ati o n, 2 6 4 U S P i n m at es h a v e c o m pl et e d
t ests. F o u r U S P i n m at es a r e c u r r e ntl y p ositi v e f o r C O VI D - 1 9. T ests h a v e b e e n
c o n d u ct e d o n 1 4 1 F CI i n m at es; o n e F CI i n m at e is c u r r e ntl y p ositi v e . S e e
htt ps:// w w w. b o p. g o v/ c or o n a vir us/. All B O P st aff ar e r e q uir e d t o w e ar f a c e m as ks . B O P
h as n o pl a ns t o c o n d u ct C O VI D t esti n g o n i n di vi d u als i n v ol v e d i n t h e e x e c uti o n i n
a d v a n c e of t h e e x e c uti o n. F C C T err e H a ut e will c o nti n u e its s cr e e ni n g pr o c e d ur es.
If R e v. H art k e m e y er c h o os es t o visit Mr. P ur k e y i n t h e d a ys pri or t o t h e e x e c uti o n, t h at
visit ati o n will o c c ur i n t h e S C U. I u n d erst a n d t h at R e v. H art k e m e y er will n e e d t o dri v e
a p pr o xi m at el y 6 0 mil es fr o m his h o m e t o F C C T err e H a ut e. U p o n his a r ri v al at F C C
T e r r e H a ut e, h e will b e gi v e n t h e o p p o rt u nit y t o utili z e P e rs o n al P r ot e cti v e
E q ui p m e nt ( “ P P E ”), i n t h e f o r m of a s u r gi c al f a c e m as k, gl o v es, a g o w n, a n d a pl asti c
f a c e s hi el d. H e will b e es c o rt e d t h r o u g h s e c u rit y b y B O P st aff w e ari n g f a c e m as ks t o
a S C U visiti n g r o o m o nl y utili z e d b y v isit ors of S C U i n m at es. T h e visiti n g r o o m all o ws
n o n- c o nt a ct visit ati o n — i. e., t h e i n m at e is s e p ar at e d fr o m his visit or b y a p artiti o n— a n d
is s a niti z e d aft er e a c h us e. O n c e i nsi d e t h e U S P, R e v. H art k e m e y er will als o b e gi v e n
a c c ess t o h a n d s a niti z er a n d a r estr o o m wit h a si n k a n d h a n d s o a p.
D uri n g a n y s u c h visit, R e v. H art k e m e y er will h a v e n o i nt er a cti o n wit h a n y ot h er i n m at es
h o us e d at S C U or els e w h er e. A d diti o n all y, R e v. H art k e m e y er will h a v e n o i nt er a cti o n
wit h ot h er visit ors or m e m b ers of t h e p u bli c at t h e S C U b e c a us e r e g ul ar visit ati o n r e m ai ns
s us p e n d e d d u e t o C O VI D -1 9. If t h e ot h er i n m at es s c h e d ul e d f or e x e c uti o n als o h a v e
visit ors, s u c h visits will t a k e pl a c e i n s e p ar at e ar e a.
If R e v. H a rt k e m e y e r c h o os es t o att e n d t h e e x e c uti o n, his i nt e r a cti o n wit h B O P st aff
a n d ot h e r i n di vi d u als will b e li mit e d . H e will n ot h a v e dir e ct i nt er a cti o n wit h, n or b e
n e ar, t h e v ast m aj orit y of i n di vi d u als e x p e ct e d t o b e pr es e nt f or Mr. P ur k e y’s e x e c uti o n.
His o nl y p ossi bl e i nt er a cti o n wit h m e m b ers of t h e p u bli c m a y b e wit h Mr. P ur k e y’s l e g al
t e a m, w h o, li k e ot h er wit n ess es, will b e pr o vi d e d P P E if t h e y d esir e.
As t o Pl ai ntiff’s i nt er a cti o n wit h B O P e m pl o y e es, w hil e t h e e x e c uti o n t e a m c o nsists of

L- 5
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8

Fil e d 0 7/ 0 8/ 2 0

P a g e 5 of 9 P a g eI D #: 6 8 0

a p p r o xi m at el y 4 0 B O P st aff m e m b e rs , t h e v ast m aj orit y of t h e m h a v e assi g n m e nts i n
ar e as ot h er t h a n t h e r o o ms i n w hi c h R e v. H art k e m e y er will b e l o c at e d . Si mil arl y, w hil e
a p pr o xi m at el y 1 0 0 B O P st aff m e m b ers a n d a p pr o xi m at el y 5 0 m e m b e rs of s p e ci ali z e d
t e a ms will h a v e v ari o us r ol es i n t h e o v er all s e c urit y of F C C T err e H a ut e, t h eir d uti es will
n ot c a us e t h e m t o h a v e a n y i nt er a cti o n wit h R e v . H art k e m e y er. R e v. H art k e m e y er will
o nl y h a v e i nt er a cti o ns wit h t h os e s e c urit y offi c ers i n t h e s p e cifi c ar e as i n w hi c h h e n e e ds
t o b e. F urt h er m or e, R e v. H art k e y m e y er s h o ul d h a v e n o i nt er a cti o n wit h t h e vi cti m’s
wit n ess es, m e di a, or d e m o nstr at ors, as t h os e gr o u ps ar e s e p ar at e d fr o m e a c h ot h er b y
d esi g n. S e e E x. A- 1 at 2 3, 2 6- 2 7.
O n t h e d a y of his e x e c uti o n, Mr. P ur k e y will b e t a k e n fr o m t h e S C U t o t h e e x e c uti o n
f a cilit y, w hi c h is a s e p ar at e f a cilit y fr o m U S P T err e H a ut e. R e v. H art k e m e y er will b e
gi v e n t h e o p p ort u nit y t o visit Mr. P ur k e y at t h e e x e c uti o n f a cilit y. I n or d er t o d o s o , h e
will a g ai n b e m et at a d esi g n at e d ar e a a n d will b e gi v e n t h e o p p ort u nit y t o utili z e P P E i n
t h e f or m of a s ur gi c al f a c e m as k, gl o v es, a g o w n, a n d a pl asti c f a c e s hi el d. H e will t h e n
b e s u bj e ct t o a bri ef es c o rt t o t h e e x e c uti o n f a cilit y w h e r e h e will b e m et b y a B O P
e m pl o y e e w h o will t h e n es c o rt hi m t hr o u g h o ut t h e e x e c uti o n f a cilit y gr o u n ds. T h at B O P
s e c urit y es c ort will w e ar a n N -9 5 f a c e m as k, a f a c e s hi el d, a n d gl o v es w hil e i n cl os e
pr o xi mit y wit h R e v. H art k e m e y er.
At t h e e x e c uti o n f a cilit y, R e v. H a rt k e m e y er’s visit will a g ai n b e n o n-c o nt a ct. T h e
e q ui p m e nt a n d s urf a c es i n t h e ar e a of t h e visit will b e disi nf e ct e d pri or t o us e. At t h e
c o n cl usi o n of t h e visit, R e v. H art k e m e y er will b e es c o rt e d a w a y fr o m t h e visiti n g ar e a
of t h e e x e c uti o n f a cilit y.
F or t h e a ct u al e x e c uti o n, R e v. H art k e m e y er’s B O P s e c u rit y es c o rt will t a k e t o a r o o m
a dj a c e nt t o t h e e x e c uti o n r o o m. S h ortl y pri or t o c urt ai ns o p e ni n g, his B O P s e c urit y es c ort
will l e a d hi m i nt o t h e e x e c uti o n r o o m its elf f or a bri ef n o n -c o nt a ct visit wit h Mr. P ur k e y.
R e v. H art k e m e y er will t h e n b e p er mitt e d t o r e m ai n t h e e x e c uti o n r o o m wit h t h e
assi g n e d B O P s e c u rit y es c o rt d uri n g t h e e x e c uti o n pr o c e d ur e. S e e E x. A - 2. I n a d diti o n
t o M r. P u r k e y, R e v. H a rt k e m y e r, a n d his s e c u rit y es c o rt, t h e o nl y ot h e r i n di v i d u als
w h o will b e p r es e nt i n t h e e x e c uti o n r o o m a r e a U nit e d St at es M a rs h als’
r e p r es e nt ati v e a n d a B O P offi ci al – b ot h of w h o m will b e at a s o ci al dist a n c e fr o m R e v.
H art k e m e y er.
9.

Fr o m R e v. H ar kt e m e y er’s D e cl ar ati o n ( p ar a gr a p hs 1 9- 2 7):

H a vi n g visit e d Mr. P ur k e y at U S P T err e H a ut e m a n y ti m es b ef or e, I k n o w t h at t h e
s e c u rit y p r o c e d u r es , e v e n a bs e nt a n e x e c uti o n, d o n ot all o w f o r t h e ki n d of s o ci al
dist a n ci n g t h at is r e q uir e d b y C D C g ui d eli n es d uri n g t h e C O VI D -1 9 crisis. I n m y
e x p eri e n c e as a visit or at T er r e H a ut e, I m ust first c h e c k -i n at t h e e ntr a n c e of t h e m ai n
b uil di n g a n d h a n d m y i d e ntifi c ati o n a n d k e ys t o t h e g u ar ds at t h e fr o nt d es k. T h e n, if t h er e
ar e ot h er visit ors w h o als o n e e d t o b e pr o c ess e d, I h a v e t o w ait i n t h e w aiti n g r o o m f or u p
t o t hirt y mi n ut es wit h t h e m. T h er e ar e a b o ut t hirt y c h airs i n t h e w aiti n g r o o m, or g a ni z e d
i n s ets of t w o or t hr e e a n d i n r o ws n o m or e t h a n a f e w f e et a p art fr o m e a c h ot h er.

L- 6
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8

Fil e d 0 7/ 0 8/ 2 0

P a g e 6 of 9 P a g eI D #: 6 8 1

O n c e m y n a m e is c all e d, a g u ar d t a k es m y p h ot o a n d as ks m e t o p ut m y s h o es, b elt, a n d
ot h er pr o p ert y i n a pl asti c bi n t o p ass t hr o u g h a m et al d et e ct or o n a c o n v e y or b elt w hil e I
w al k t hr o u g h a s e p ar at e m et al d et e ct or. Aft er w ar d, a g u ar d m a n u all y i ns p e cts m y
pr o p ert y. I t h e n c oll e ct m y t hi n gs a n d t h e g u a r d st a m ps m y h a n d .
At t his p oi nt, I a m c o nfi n e d t o a n ot h er p art of t h e w aiti n g r o o m, w h er e I w ait wit h ot h er
visit ors a n a d diti o n al p eri o d of ti m e — v ar yi n g fr o m 3 0 mi n ut es u p t o, o n o c c asi o n, 9 0
mi n ut es. T his w aiti n g ar e a is str u ct ur e d si mil arl y t o t h e w aiti n g ar e a at t h e e ntr a n c e: It
h as r o ws of pl asti c c h airs cr a m p e d t o g et h er a n d littl e a bilit y t o s o ci all y dist a n c e fr o m
ot h ers.
O n c e a g u ar d c oll e cts c o pi es of m y p h ot o gr a p h fr o m t h e fr o nt d es k, I a n d a n y ot h e r
visit o r a r e es c o rt e d o n e -b y -o n e t o a t hi r d a r e a, a s m all, c o nfi n e d s p a c e w h e r e
visi t o rs p ut t h ei r st a m p e d h a n d u n d e r a bl a c k li g ht. Aft er s h o wi n g t h eir h a n ds i n t h e
bl a c k li g ht ar e a, e a c h visit or m ust r e m ai n t h er e w aiti n g f or ot h ers t o d o t h e s a m e. B y t h e
e n d of t h e bl a c k li g ht pr o c ess, t h e s p a c e c a n b e c o m e q uit e cr o w d e d.
T h e g u ar d t h e n es c orts t h e gr o u p of us o utsi d e a n d i nt o a s e c o n d b uil di n g. At t his p oi nt,
m ost of t h e gr o u p br e a ks off t o g o i n t h e dir e cti o n of g e n er al p o p ul ati o n. A g u a r d t h e n
es c o rts m e a n d ot h er S p e ci al C o nfi n e m e nt U nit ( S C U) visit ors, if t h er e ar e a n y, t hr o u g h
s e v er al l o n g n arr o w h all w a ys. O n t his r o ut e, w e p ass s e v e r al p ris o n e rs a n d st aff i n
cl os e p r o xi mit y o n o u r w a y t o a n el e v at o r t h at c a n h ol d u p t o t e n p e o pl e . I a m t h e n
t a k e n t o a n ot h er c h e c k-i n d es k f or t h e S C U, w h e r e I si g n a l o g b o o k a n d w ait
i m m e di at el y o utsi d e of t h e visiti n g r o o m.
A diff e r e nt g u a r d u nl o c ks t h e d o or t o t h e visiti n g r o o m w h er e I h a v e a n o n-c o nt a ct visit
wit h Mr. P ur k e y t hr o u g h a pl e xi gl ass b arri er. W h e n t h e visit is o v er, I h a v e t o w ait f or
p ris o n st aff t o es c o rt m e al o n g t h e s a m e p at h, b a c k t o t h e m ai n e ntr a n c e, w h er e I c oll e ct
m y i d e ntifi c ati o n a n d k e ys o n m y w a y o ut of t h e f a cilit y. D uri n g t his e ntir e pr o c ess, fr o m
i nt a k e u ntil m y e xit, it is i m p ossi bl e t o a v oi d b ei n g i n cl os e p r o xi mit y t o m a n y of t h e
i n di vi d u als I e n c o u nt er. O n a n y o n e visit, it is n ot u n c o m m o n f or m e t o e n c o u nt er at l e ast
a d o z e n diff er e nt p e o pl e, if n ot m or e, i n cl os e pr o xi mit y.
I am c ert ai n t h at t h e s e c urit y pr o c e d ur es a n d pr ot o c ol will b e e v e n m or e stri n g e nt o n t h e
d a y of e x e c uti o n t h a n t h e y ar e u n d er n or m al visit ati o n c o n diti o ns. I b eli e v e t h at t h es e
pr o c e d ur es will li k el y r e q uir e e v e n m or e c o nt a ct wit h g u ar ds, as w ell as e xt e n d e d p eri o ds
of w aiti n g i n cl os e pr o xi mit y wit h ot h er att e n d e es a n d i n di vi d u als.
I a m 6 8 y e a rs ol d a n d t h us, b e c a us e of m y a g e, at a hi g h ris k f or b e c o mi n g i nf e ct e d wit h
C O VI D - 1 9 a n d b e c o mi n g s eri o usl y ill or d yi n g s h o ul d I b e c o m e i nf e ct e d.
B e y o n d m y a g e, I als o h a v e s uff er e d s e v er al l u n g- r el at e d ill n ess es t h at m a k e m e
m e di c all y v ul n er a bl e t o C O VI D- 1 9.
1 0.

Ti m ot h y Fl o y d J u n e 3 0, 2 0 2 0 d e cl ar ati o n , p ar a gr a p hs 4 t o 6:

T h o u g h t h e D e at h H o us e is s e p ar at e d fr o m t h e m ai n pris o n b uil di n g, D e at h H o us e

L- 7
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8

Fil e d 0 7/ 0 8/ 2 0

P a g e 7 of 9 P a g eI D #: 6 8 2

visit ors ar e r e q uir e d t o cl e ar a s e c urit y c h e c k p oi nt at t h e m ai n b uil di n g b ef or e t h e y ar e
cl e ar e d t o visit t h e D e at h H o us e. E a c h d a y, I m a d e s e v er al tri ps off t h e pris o n gr o u n ds f or
m e als a n d t o w or k o n o bt ai ni n g a st a y of e x e c uti o n. E a c h ti m e I r et ur n e d I f oll o w e d t h e
s a m e pr o c ess.
T h e D e at h H o us e w as a v er y s m all b uil di n g, wit h s e v er al r o o ms. W hil e t h er e, Mr. J o n es
w as h el d i n a v er y s m all c ell wit h a t wi n -si z e d c ot. W h e n I visit e d Mr. J o n es, I w as br o u g ht
b y pris o n st aff t o a s m all e n cl os e d a r e a c o n n e ct e d t o Mr. J o nes’s c ell w h er e I c o ul d s p e a k
t o hi m t hr o u g h a pl e xi gl ass wi n d o w. T h e pl e xi gl ass h a d h ol es t h at all o w e d us t o h e ar o n e
a n ot h er m or e cl e arl y, a n d a c o m p art m e nt t h at w e us e d t o p ass d o c u m e nts b a c k a n d f ort h.
Mr. J o n es us e d t his c o m p art m e nt t o p ass m e a m ess a g e t h at h e as k e d m e t o r e a d t o t h e
m e di a o n t h e m or ni n g of his e x e c uti o n.
I n t h e d a ys l e a di n g u p t o Mr. J o n es’s e x e c uti o n, I s h a r e d t his c r a m p e d visit ati o n s p a c e
wit h t h r e e s pi rit u al a d vis o rs a n d wit h M r. J o n es’s d a u g ht e r , w h o fl e w fr o m C ol u m b us,
G e or gi a t o b e wit h h er f at h er o n his l ast d a ys. R e g ar dl ess of w h et h er w e w er e sitti n g or
st a n di n g, w e w e r e s h o ul d e r -t o-s h o ul d e r s o t h at w e c o ul d all fit i n t h e r o o m at o n c e.
O PI NI O N S
1 1.

T h e B O P pl a ns f or h ol di n g t h e f e d er al e x e c uti o n of W es P ur k e y o n J ul y 1 5, 2 0 2 0

as d es cri b e d i n t h e Ri c k Wi nt er d e cl ar ati o ns ar e a s eri o us c a us e f or c o n c er n f or t h e s pr e a d of
C O VI D - 1 9. S p e cifi c all y, I h a v e i d e ntifi e d f o ur ar e as of ris k fr o m t his pl a n:
1 2.

First, t h e pl a n i n v ol v es ris ks t o all of t h e i n di vi d u als w h o will b e tr a v eli n g t o t h e

T err e H a ut e f a cilit y.

Air pl a n e tr a v el, st a yi n g i n h ot els, a n d e ati n g at r est a ur a nts all c arr y ris ks

a n d a n y o n e att e n di n g t h e e x e c uti o n as eit h er a wit n ess or st aff m a y b e c o m e e x p os e d t hr o u g h t his
tr a v el.
1 3.

S e c o n d, t h e e x e c uti o n pl a n i n v ol v es s u bst a nti al ris ks t h at i n c o mi n g B O P st aff,

c o ntr a ct ors, or wit n ess es will bri n g i nf e cti o n t o t h e pris o n c o m pl e x, a n d s pr e a d i nf e cti o n t o st aff
wit hi n t h e pris o n f a cilit y a n d t o pris o n ers.

T h e Wi nt er d e cl ar ati o n s d es cri b e a l ar g e n u m b e r of

i n di vi d u als w h o will b e tr a v eli n g t o a n d wit hi n t h e f a cilit y. T h e B O P’s p oli c y si n c e M ar c h of
2 0 2 0 of pr o hi biti n g visit ati o n is t o st e m t his t y p e of s pr e a d, fr o m o utsi d ers c arr yi n g i nf e cti o ns
i nt o f e d er al pris o n f a ciliti es. T h e i nt r o d u cti o n of p ot e nti al n e w s o ur c es of i nf e cti o n i n pris o ns is
p arti c ul arl y c o n c er ni n g b e c a us e of t h e m ai nt e n a n c e of hi g h er r at es of c o nt a ct a m o n gst s us c e pti bl e

L- 8
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8

Fil e d 0 7/ 0 8/ 2 0

P a g e 8 of 9 P a g eI D #: 6 8 3

i n c ar c er at e d p e o pl e, d u e t o t h e d e nsit y a n d str u ct ur e of pris o n h o usi n g arr a n g e m e nts (i n cl u di n g
li mit e d a bilit y t o is ol at e p ot e nti all y e x p os e d i n di vi d u als), t h e l a c k of s o ci al dist a n ci n g, i n a d e q u at e
f a ciliti es f or p ers o n al h y gi e n e, diffi c ult y i n m ai nt ai ni n g a d e q u at e disi nf e cti o n of hi g h-t o u c h
s urf a c es, a n d p o or v e ntil ati o n wit hi n pris o ns . T h es e d y n a mi cs dri v e t h e r es ulti n g effi c a c y of a n y
pr o p os e d i nt er v e nti o ns.
1 4.

T he

Wi nt er I d e cl ar ati o n r ef ers t o

m ulti pl e d a ys of tr ai ni n g a n d pr a cti c e,

s u g g esti n g t h at t h e o utsi d e B O P st aff will b e mi xi n g wit h B O P T err e H a ut e st aff f or m ulti pl e
d a ys, i n cr e asi n g t h e li k eli h o o d of s pr e a d wit hi n t h e pris o n . It d es cri b es p ulli n g i n di vi d u als fr o m
a cr oss t h e f a cilit y, i n cr e asi n g t h e ris k of n e w i nt er a cti o ns a n d e x p os ur e a m o n g T err e H a ut e st aff,
as w ell as i n cr e asi n g t h e e x p os ur es fr o m t h e o ut of t o w n i n di vi d u als. T h e Wi nt er II d e cl ar ati o n
d es cri b es m ulti pl e d a ys of visit ati o n, i n m ulti pl e l o c ati o ns f or R e v. H art k e m e y er, a g ai n i n cr e asi n g
t h e e x p os ur e a n d ris k.

M ulti pl e d a ys of r esi d e nt a n d st aff mi xi n g i n t h e ti g ht e n cl os ur es of t h e

pris o n f a ciliti es i n cr e as e ris k of s pr e a d of t h e dis e as e t hr o u g h o ut t h e f a cilit y.
1 5.

T h e c o n c er n f or s pr e a d wit hi n t h e pris o n b y t h e d a ys of tr ai ni n g a n d pr e p ar ati o n

is f urt h er h ei g ht e n e d b e c a us e t h e pl a n t o p ull si g nifi c a nt n u m b ers of st affi n g its elf a d ds pr ess ur e
t o t h e s yst e m f or li k eli h o o d of s pr e a d wit hi n t h e pris o n.

R e d u c e d st affi n g ris ks t h at st aff will

h a v e a sl o w er r es p o ns e ti m e t o r es p o n d t o i n di vi d u als w h o b e c o m e si c k a n d n e e d m e di c al
att e nti o n , t h er e b y als o i n cr e asi n g t h e e x p os ur e ti m es f or c ell-m at es of t h os e d e v el o pi n g
s y m pt o ms.

T h er e ar e ot h er ar e as of c o n c er n. F or e x a m pl e, wit h o ut a d e q u at e st affi n g, t h e

distri b uti o n pl a n f or m e als or m e di c ati o ns c o ul d r e q uir e a d diti o n al m o v e m e nt or g at h eri n g of
l ar g e gr o u ps a n d s pr e a d a cr oss t h e f a cilit y, i n cr e asi n g e x p os ur es.
1 6.

E v e n if t h e B O P f oll o ws t hr o u g h wit h its pl a n t o pr o vi d e s o m e of visit ors a n d st aff

wit h c ert ai n P P E ( N -9 5 m as ks will n ot b e pr o vi d e d t o visit ors), t h e ris k of e x p os ur e a n d
tr a ns missi o n of C O VI D-1 9 will r e m ai n si g nifi c a nt . T h e l a c k of t esti n g is a m aj or c o n c er n,

L- 9

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8

Fil e d 0 7/ 0 8/ 2 0

P a g e 9 of 9 P a g eI D #: 6 8 4

c o m p o u n d e d b y t h e f a ct t h at s o m e B O P st aff m a y b e c o mi n g fr o m pris o ns wit h d o c u m e nt e d
l ar g e-s c al e o ut br e a ks.
1 7.

T hir d, t h e pl a n f or h ol di n g t h e e x e c uti o ns its elf ris ks tr a ns missi o n b e c a us e of t h e

n u m b er of p e o pl e c o mi n g i nsi d e, i nt er a cti n g i n ti g ht q u art ers, i n a hi g h- ris k i nt er a cti o n wit h a
s h ar e d v e ntil ati o n s yst e m.
1 8.

F o urt h, t h e fi n al ar e a of c o n c er n is t h e v er y r e al pr o b a bilit y t h at s o m e of t h e

i n di vi d u als att e n di n g t h e tr ai ni n g, visit ati o n, a n d/ or e x e c uti o n will b e c o m e e x p os e d a n d t a k e t h e
vir us h o m e wit h t h e m, i n cr e asi n g t h e o v er all n ati o n al l e v el of ris k.

Wit h o ut c o ntr a ct tr a ci n g,

e x p os ur es i n t his ki n d of l ar g e-s c al e e v e nt will b e h ar d t o c o ntr ol a n d pr e v e nt fr o m s pr e a di n g
i nf e cti o n, i n cl u di n g t o s o m e c o m m u niti es w h er e l e v els m a y b e s uffi ci e ntl y l o w s u c h t h at t h e
i ntr o d u cti o n of a n e w i nf e cti o n si g nifi c a ntl y i n cr e as e t h e diffi c ult y i n c o ntr olli n g s pr e a d i n t he
c o m m u nit y.
1 9.

T h e ris ks t o R e v. H art k e m e y er p os e d b y t his pl a n ar e si g nifi c a nt. T h er e ar e r e p e at e d

p oi nts of cl os e p ers o n t o p ers o n c o nt a ct b et w e e n hi m a n d B O P st aff, i n cl u di n g t h os e w h o will h a v e
b e e n e x p os e d d uri n g t h e m ulti pl e d a ys of tr ai ni n g a n d pr e p ar ati o n . T h e e x e c uti o n its elf is a hi g hl y
ris k y s etti n g wit h o ut a n o p p ort u nit y t o s o ci all y dist a n c e fr o m m ulti pl e ot h er i n di vi d u als.

H e ris ks

b e c o mi n g e x p os e d t o C O VI D -1 9 , e v e n if h e w e ars t h e P P E t h at t h e B O P h as s ai d it will pr o vi d e. As a
m e di c all y v ul n er a bl e i n di vi d u al, t his e x p os ur e is of gr a v e c o n c er n.
I d e cl ar e u n d er p e n alt y of p erj ur y t h at t h e f or e g oi n g d e cl ar ati o n is tr u e a n d c orr e ct.

Ni n a H. F eff er m a n, P h D

J ul y 8, 2 0 2 0

L- 1 0
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 1 of 2 3 P a g eI D #: 6 8 5

E x hi bit A

L- 1 1
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 2 of 2 3 P a g eI D #: 6 8 6

Ni n a H. F eff e r m a n
htt p://f eff er m a nl a b. or g

N ati o n alit y: U nit e d St at es of A m er i c a
T el e p h o n e : 7 8 1 7 1 0 5 0 2 5
e -m ail: ni n a. h.f eff er m a n @ g m ail. c o m

D e p a rt m e nts : E c ol o g y a n d E v ol uti o n ar y Bi ol o g y &
M at h e m ati cs
A d d r ess : 4 4 7 H esl er Bi ol o g y B uil di n g
U ni v ersit y of T e n n ess e e
K n o x vill e, T N 3 7 9 9 6

E d u c ati o n
2005

P h D i n M at h e m ati c al Bi ol o g y fr o m t h e D e p art m e nt of Bi ol o g y, T ufts U ni v ersit y.
A d vis or: J. Mi c h a el R e e d
M S i n M at h e m ati cs fr o m t h e D e p art m e nt of M at h e m ati cs, R ut g ers U ni v ersit y.
A d vis or: J. B e c k
A B i n M at h e m ati cs fr o m Pri n c et o n U ni v ersit y

2001
1999

P ositi o ns
202020182018 2016 - 2018
2015 - 2016
2012 - 2016
2011 - 2016
2008 - 2012
2007 - 2016
2 0 0 5 - pr es e nt
2005 - 2007
2005

Ass o ci at e Dir e ct or, U T O n e H e alt h I niti ati v e, U ni v ersit y of T e n n ess e e, K n o x vill e
Dir e ct or, M at h e m ati c al M o d eli n g C o ns ulti n g C e nt er, U ni v ersit y of T e n n ess e e,
K n o x vill e
Pr of ess or, D e pts. of M at h e m ati cs & E c ol o g y a n d E v ol uti o n ar y Bi ol o g y, U ni v ersit y
of T e n n ess e e, K n o x vill e
Ass o ci at e Pr of ess or, D e pts. of M at h e m ati cs & E c ol o g y a n d E v ol uti o n ar y Bi ol o g y,
U ni v ersit y of T e n n ess e e, K n o x vill e
Pr o gr a m Dir e ct or, Gr a d u at e Pr o gr a m i n E c ol o g y a n d E v ol uti o n, R ut g ers U ni v ersit y
Ass o ci at e Pr of ess or, D e pt. of E c ol o g y, E v ol uti o n, a n d N at ur al R es o ur c es, R ut g ers
U ni v ersit y
Assist a nt/ Ass o ci at e Pr of ess or, S c h o ol of P u bli c H e alt h, U ni v ersit y of M e di ci n e a n d
D e ntistr y of N e w J ers e y
Assist a nt Pr of ess or, D e pt. of E c ol o g y, E v ol uti o n, a n d N at ur al R es o ur c es, R ut g ers
U ni v ersit y
R es e ar c h Assist a nt/ Ass o ci at e Pr of ess or, T h e C e nt er f or Dis cr et e M at h e m ati cs a n d
T h e or eti c al C o m p ut er S ci e n c e, R ut g ers U ni v ersit y
C o -Dir e ct or, T ufts U ni v ersit y I niti ati v e f or t h e F or e c asti n g a n d M o d eli n g of
I nf e cti o us Dis e as e (I n F or MI D), T ufts U ni v ersit y S c h o ol of M e di ci n e
Visiti n g R es e ar c h Ass o ci at e, C e nt er f or Dis cr et e M at h a n d T h e or eti c al C o m p ut er
S ci e n c e ( DI M A C S) , R ut g ers U ni v ersit y
S h ort T er m Visit or, S c h o ol of N at ur al S ci e n c es, I nstit ut e f or A d v a n c e d St u d y

H o n o rs/ A w a r ds
2019
2019
2017
2016
2015
2012

I n vit e d P arti ci p a nt of t h e 1 1t h. Tri e n ni al I n vit ati o n al C h oi c e S y m p osi u m
I n vit e d P erf or m er/ P arti ci p a nt, St a n d U p S ci e n c e – a p u bli c p erf or m a n c e f e at uri n g st a n d-u p
c o mi cs a n d s ci e ntists dis c ussi n g t h eir w or k
I n vit e d R es e ar c h T e a m L e a d er: A W M W o m e n i n M at h e m ati c al Bi ol o g y W or ks h o p
I n vit e d S p e a k er at t h e N ati o n al A c a d e m y of S ci e n c es S a c kl er C oll o q ui u m
C o a ut h or e d a n arti cl e c h os e n f or t h e c o v er of P hil Tr a ns R o y S o c B (iss u e 3 7 0. 1 6 6 5)
I n vit e d t o H e alt h F o o 2 0 1 2
1

L- 1 2
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P
2011
2010
2009
2007
-

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 3 of 2 3 P a g eI D #: 6 8 7

S h ar e d t h e Vir gi ni a G o v er n or's T e c h n ol o g y A w ar d i n t h e c at e g or y of ‘ Cr oss-B o u n d ar y
C oll a b or ati o n i n M o d eli n g & Si m ul ati o n’ f or o ur st u d y ‘ Str at e gi c D ef a ult i n t h e C o nt e xt of a
S o ci al N et w or k: A n E pi d e mi ol o gi c al A p pr o a c h’.
S p e a k er at T E D x Mi d atl a nti c
R ut g ers U ni v ersit y P a c k ar d F ell o w N o mi n e e
C o a ut h or e d a n arti cl e c h os e n f or t h e c o v er of T h e L a n c et I nf e cti o us Dis e as es ( v ol. 7)
I n vit e d t o gi v e 2 2 K e y n ot e, Pl e n ar y, or P u bli c L e ct ur es (s e e I n vit e d T al ks f or d et ails), o v er
t hr e e c o nti n e nts

M e di a C o v e r a g e (i nt er vi e ws a n d c o v er a g e) :
T el e visi o n/ O nli n e Vi d e o B r o a d c asts:
T h e W as hi n gt o n P ost, 2 0 2 0
B B C I nt er n ati o n al, 2 0 2 0
W BI R N e ws, 2 0 1 9
NJ T V N e ws, 2 0 1 5
Dis c o v er y C h a n n el “ H o w St uff W or ks ” ( S e as o n 2: “ G a m es U n b o x e d ”), 2 0 1 1
B B C W orl d N e ws A u g 2 1, 2 0 0 7
C B S N e ws A u g 2 2, 2 0 0 7
C a n a d a T el e visi o n ( C T V) A u g 2 1, 2 0 0 7
A T & T T e c h C h a n n el S e pt, 2 0 0 7
R a di o B r o a d c asts:
N P R M ar k et pl a c e, M ar 2 0 2 0
N P R W U O T K n o x vill e, M ar 2 0 1 7
P RI St u di o 3 6 0, S e pt 2 0 1 6
N e w T e c h Cit y, W N Y C, O ct 2 0 1 4
P RI St u di o 3 6 0, S e pt 2 0 1 4
P RI St u di o 3 6 0, J a n 2 0 1 3
B B C U K N e ws, A u g 2 0 0 7
N ati o n al P u bli c R a di o P o d c ast “ S ci e n c e Fri d a y ”, S e pt 2 0 0 7
A M 9 0 0 C H M L, S e pt 2 0 0 7
N ati o n al P u bli c R a di o “ All T hi n gs C o nsi d er e d ”, O ct 2 0 0 5
P ri nt/ O nli n e M e di a ( 2 0 0 5-pr es e nt) :
A B C N e ws, A B S C B N N e ws, A R S T e c h ni c al, C a n a di a n Pr ess ( vi a C B C), C ell, T h e D ail y M ail
( U K), T h e D ail y T el e gr a p h ( A ustr ali a), T h e E c o n o mist, F or b es, F o x N e ws, G 1. c o m. br ( Br a zil),
T h e Gist ( Sl at e. c o m), O Gl o b o ( Br a zil), G a z et V a n A nt w er p e n ( B el gi u m), L a J or n a d a ( M e xi c o),
K e vi n M D, K n o x N e ws, M e di c al N e ws T o d a y, N e w S ci e ntist, N U. nl ( N et h erl a n ds), P C G a m er,
R e ut ers, TI M E, T h e W as hi n gt o n P ost, S ci e n c e N e ws, Sl at e. c o m, t h e S o ut h Afri c a n St ar, T e c h
N e ws W orl d, Wir e d, Y a h o o! E nt ert ai n m e nt, Y o u M a d e I a n d m a n y m or e …

R es e a r c h S u p p o rt
A cti v e
2 0 2 0 -2 0 2 1

$ 1 9 8, 9 3 2

2 0 2 0 -2 0 2 2

$ 3 5 9, 8 4 9

2 0 1 7 -2 0 2 2

$ 1 3 8, 9 6 4

N S F R A PI D – D E B C o u pl e d S o ci al a n d E pi d e mi ol o gi c al
N et w or ks a n d C O VI D -1 9
D o D Mi n er v a D E C U R - T h e T o p ol o g y of I nt er d e p e n de nt
M ulti -D o m ai n B e h a vi or al S yst e ms
N S F I O S - M el di n g M at h e m ati c al a n d T h e or eti c al

PI
PI
U T -PI
2

L- 1 3
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P
2 0 1 7 -2 0 2 1

$ 2, 4 9 8, 8 7 6

C o m pl et e d
2 0 1 8 -2 0 2 0

$ 1 9 6, 6 2 8

2 0 1 6 -2 0 1 9
2 0 1 8 -2 0 1 9
2 0 1 6 -2 0 1 8
2 0 1 6 -2 0 1 8
2 0 1 5 -2 0 1 8
2 0 1 5 -2 0 1 7

$ 9 9, 9 3 8
$ 2, 0 0 0
$ 5 0, 0 0 0
$ 1 9 0, 0 0 0
$ 2 9 2, 8 0 4
$ 2 1, 0 0 3

2 0 1 6 -2 0 1 7
2017
2 0 1 6 -2 0 1 7
2 0 1 5 -2 0 1 7

$ 7 5, 0 0 0
$ 3 0, 0 0 0
$ 1 0 0, 0 0 0
$ 1 3 0, 0 0 0

2 0 1 2 -2 0 1 6
2 0 1 4 -2 0 1 6

$ 1, 2 2 8, 0 5 3
$ 1 0 0, 0 0 0

2 0 0 9 -2 0 1 6
2 0 1 1 -2 0 1 4

$ 2 7 5, 0 0 0
$ 3, 8 5 3, 3 3 2

2 0 1 1 -2 0 1 2
2 0 1 0 -2 0 1 2

$ 2 2, 5 0 0
$ 3 8 4, 0 0 0

2 0 1 0 -2 0 1 1

$ 9 9, 9 4 4

2010
2 0 0 9 -2 0 1 2
2 0 0 9 -2 0 1 1
2 0 0 9 -2 0 1 0

$ 2 2, 5 0 0
$ 2 9 9, 8 8 6
$ 8 9, 3 1 8
$ 1 0, 0 0 0

2008
2008
2008

$ 9 9, 9 9 0
$ 5, 0 0 0
$ 7 5, 0 0 0

2007
2007
2006
2 0 0 3 -2 0 0 4
2 0 0 3 -2 0 0 4
2003
2003

$ 2 2, 5 0 0
$ 2 2, 5 0 0
$ 5, 0 0 0
$ 4 2, 0 0 0
$ 1, 5 0 0
$500
$ 1, 5 0 0

D o c u m e nt 5 8- 1 Fil e d 0 7/ 0 8/ 2 0 P a g e 4 of 2 3 P a g eI D #: 6 8 8
M o d els of Str ess
U T -PI
N S F E EI D – C o -e v ol uti o n ar y E pi d e mi ol o g y of A vi a n
M al ari a
S E S Y N C/ NI M Bi o S M o d eli n g Ris k P er c e pti o n, V e ct or b or n e Dis e as es, a n d E n vir o n m e nt al
I nt e grit y
N S F E A G E R – CI S E – Distri b ut e d A n o m al y D et e cti o n
H ai n es M orris Gr a nt – I nt er n al U T K C o m p etiti o n
U S - Isr a el Bi n ati o n al S ci e n c e F o u n d ati o n ( B S F)
N S F R A PI D – D E B – M o d eli n g Zi k a Vir us C o ntr ol
U S F W S – W hit e -N os e S y n dr o m e O p e n Gr a nt
N S F R A PI D – I nf or m ati o n & I nt elli g e nt S yst e ms –
Virt u al W orl ds a n d E x p eri e nti al L e ar ni n g
U S S T A R T C e nt er – L e a d ers hi p i n S o ci al N et w or ks
S y n g e nt a – W or ks h o p Gr a nt – M at h of A gri b usi n ess
N ati o n al A c a d e mi es K e c k F ut ur es I niti ati v e
N S F E A G E R – D E B – M a c hi n e L e ar ni n g f or C o E v ol uti o n ar y S yst e ms
D e pt. of H o m el a n d S e c urit y – C y b er S e c urit y
D e pt. of H o m el a n d S e c urit y – N e xt G e n er ati o n
C o m m u ni c ati o ns a n d I nt er o p er a bilit y
D e pt. of H o m el a n d S e c urit y – Bi o S e c urit y
N S F E A S M – O c e a n S ci e n c es – S o ci o E c o n o mi c S yst e ms
a n d Cli m at e C h a n g e
U C D P E R – E m er g e n c y Pr e p ar e d n ess
D e pt. of H o m el a n d S e c urit y – Virt u al W orl ds a n d
E x p eri e nti al E d u c ati o n
D e pt. of H o m el a n d S e c urit y – S elf -Or g a ni zi n g
S ur v eill a n c e S yst e ms
D e pt. of H o m el a n d S e c urit y – Bi o S e c urit y
N S F – D E B – U L T R A -E x
U C D P E R – E m er g e n c y Pr e p ar e d n ess
U S D A C S R E E S M ulti -St at e R es e ar c h F u n d – V e ct or b or n e Dis e as e C o ntr ol
NI H N AI D S BI R – E pi d e mi ol o gi c al S ur v eill a n c e
R ut g ers Cli m at e a n d E n vir o n m e nt al C h a n g e I niti ati v e
R ut g ers A c a d e mi c E x c ell e n c e F ell o ws hi p, Cli m at e a n d
H e alt h R es e ar c h I niti ati v e
D e pt. of H o m el a n d S e c urit y – Bi o S e c urit y
D e pt. of H o m el a n d S e c urit y – Bi o S e c urit y
T ufts S u m m er S c h ol ars A w ar d – E pi d e mi ol o g y
NI H R 0 1 S u p pl e m e nt - E pi d e mi ol o g y
T ufts I nstit ut e of t h e E n vir o n m e nt
M A SI St u d e nt Tr a v el A w ar d
TI E S St u d e nt Tr a v el A w ar d

PI
PI
C o -PI
C o -PI
PI
C o -PI
PI
PI
C o -I
C o -PI
C o -PI
PI
Pr oj e ct PI
Pr oj e ct PI
C o -PI
C o -PI
Pr oj e ct PI
Pr oj e ct PI
C o -PI
C o -PI
PI
C o -I
PI
PI
C o -I
PI
PI
PI
C o -PI
C o -I
PI
PI

C o ns ult a n ci es
2020

A m eri c a n Ci vil Li b erti es U ni o n ( A C L U)

3

L- 1 4
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P
2020
2018
2 0 1 7 -pr es e nt
2 0 0 9 -pr es e nt
2 0 1 1 -2 0 1 2
2 0 0 6 -2 0 0 7
2 0 0 4 -2 0 0 9
2004
2004

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 5 of 2 3 P a g eI D #: 6 8 9

T h e St at e of V er m o nt, D e p art m e nt of E d u c ati o n
O gil v y
H u m a n e S o ci et y I nt er n ati o n al
U S C e nt ers f or Dis e as e C o ntr ol
R es e ar c h I nstit ut e f or H o usi n g A m eri c a Tr ust F u n d
N e w J ers e y, D e p art m e nt of C orr e cti o ns
NI H U 1 9 ( C e nt er PI: G ors ki) T -c e ll M e di at e d I m m u nit y
N ati o n al D ef e ns e U ni v ersit y
D A RP A

P a rti ci p ati o n i n R es e a r c h C e nt e rs
C e nt e r
NI M Bi o S
( N ati o n al I nstit ut e f or
M at h e m ati c al a n d
Bi ol o gi c al S y nt h esis)

P ositi o n
L e a d ers hi p
Tea m

D es c ri pti o n of R ol e
A cti v e p arti ci p a nt i n w or ki n g gr o u p, or g a ni z er of
m ulti pl e t ut ori als, m e nt or f or s u m m er r es e ar c h
e x p eri e n c e f or u n d er gr a d u at es, a n d f o u n di n g dir e ct or
of t h e M at h e m ati c al M o d eli n g C o ns ulti n g C e nt er

I n F or MI D
( T ufts U ni v ersit y I niti ati v e
f or t h e F or e c asti n g a n d
M o d eli n g of I nf e cti o us
Dis e a s es)

C e nt er
C o -Dir e ct or

R es e ar c h er a n d A d mi nistr ati v e l e a d i n t h e ar e a of
m at h e m ati c al m o d eli n g of i nf e cti o us dis e as e
e pi d e mi ol o g y

C CI C A D A
( U S D e pt of H o m el a n d
S e c urit y C o m m a n d,
C o ntr ol, a n d
I nt er o p er a bilit y C e nt er f or
A d v a n c e d D at a A n al ysis)

Pr oj e ct PI

P ri n ci pl e I n v esti g at or i nt o d at a a n al ysis r el ati n g t o
s o ci al b e h a vi or i n virt u al/t e c h n ol o gi c all y e n a bl e
e n vir o n m e nts, bi o -s e c urit y, a n d bi o -i ns pir e d al g orit h ms
i n c y b er -s e c urit y

DI M A C S
( T h e C e nt er f or Dis cr et e
M at h e m ati cs a n d
T h e or eti c al C o m p ut er
S ci e n c e)

M e m b er

A cti v e p arti ci p a nt i n w or ki n g gr o u ps, c oll a b or ati o ns,
a n d c o nf er e n c es (i n cl u di n g a cti n g as or g a ni z er f or
m ulti pl e w or ks h o ps/ c o nf er e n c es/t ut ori als) i n all ar e as
of m at h e m ati c al m a cr o bi ol o g y

ST ART
( U S D e pt of H o m el a n d
S e c urit y C e nt er f or t h e
St u d y of T err oris m a n d
R es p o ns es t o T err oris m)

Pr oj e ct PI

Pri n ci pl e I n v esti g at or w or ki n g o n u n d erst a n di n g s o ci al
b e h a vi or a n d al g orit h ms dri vi n g t h e e m er g e n c e of
e xtr e mis m a n d l e a d ers hi p i n

P u bli c ati o ns ( p e er r e vi e w e d):
* = a st u d e nt or p ost -d o ct or al r es e ar c h er a d vis e d b y F eff er m a n d uri n g t h e r es e ar c h eff ort r e p ort e d

J o u r n al A rti cl es:
P u blis h e d or I n Pr ess

4

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

L- 1 5
D o c u m e nt 5 8- 1 Fil e d 0 7/ 0 8/ 2 0

P a g e 6 of 2 3 P a g eI D #: 6 9 0

6 8. L e m a ns ki *, N., S. S c h w a b, D. F o ns e c a, a n d N. H. F eff e r m a n . (I n pr ess) C o or di n at i o n A m o n g
N ei g h b ors I m pr o v es t h e Effi c a c y of t h e Zi k a C o ntr ol D es pit e E c o n o mi c C osts. P L o S N e gl e ct e d
Tr o pi c al Dis e as es.
6 7. Wils o n, S., S. Si n di, H. Br o o ks, M. H o h n, C. Pri c e, A. R a d u ns k a y a, N. Willi a ms, a n d N. H.
F eff e r m a n . 2 0 2 0. H o w E m er g e nt S o ci al P att er ns i n All o gr o o mi n g C o m b at P ar asiti c I nf e cti o ns.
Fr o nti ers i n E c ol o g y a n d E v ol uti o n . 8: 5 4.
6 6. D e N e gr e *, A., M y ers *, K., a n d N. H. F eff e r m a n . 2 0 2 0. I m p a ct of Str ai n C o m p etiti o n o n B a ct eri al
R esist a n c e i n I m m u n o c o m pr o mis e d P o p ul ati o ns. A nti bi oti cs . 9( 3): 1 1 4
6 5. M y ers *, K., A. R e d er e *, a n d N. H. F eff e r m a n . 2 0 2 0. H o w R es o ur c e Li mit ati o ns a n d H o us e h ol d
E c o n o mi cs M a y C o m pr o mis e Eff orts t o S af e g u ar d C hil dr e n D uri n g O ut br e a ks. B M C P u bli c
H e alt h. 2 0( 1): 1 -1 4.
6 4. S u ar e z *, G., O. U di a ni *, B. All a n, C. Pri c e, S. R y a n, E . L of gr e n, A. C o m a n, C. St o n e *, L.
G all os *, a n d N. H. F eff e r m a n . 2 0 2 0. A G e n eri c Ar b o vir al M o d el Fr a m e w or k f or E x pl ori n g Tr a d e offs B et w e e n V e ct or C o ntr ol a n d E n vir o n m e nt al C o n c er n. J o ur n al of T h e or eti c al Bi ol o g y. 4 9 0
( 2 0 2 0) 1 1 0 1 6 1.
6 3. D e N e gr e *, A., M y ers *, K., a n d N. H. F eff e r m a n . 2 0 2 0. I m p a ct of C h e m o pr o p h yl a xis P oli c y f or
AI D S -i m m u n o c o m pr o mis e d P ati e nts o n E m er g e n c e of B a ct eri al R esist a n c e. P L o S O n e . 1 5( 1):
e 0 2 2 5 8 6 1.
6 2. G all os *, L., S. H a vli n, G. St a nl e y, a n d N. H. F eff e r m a n . 2 0 1 9. Pr o pi n q uit y dri v es t h e e m er g e n c e
of n et w or k str u ct ur e a n d d e nsit y. Pr o c e e di n gs of t h e N ati o n al A c a d e m y of S ci e n c es .
1 1 6( 4 1): 2 0 3 6 0 -2 0 3 6 5.
6 1. St o n e *, C., S. S c h w a b *, D. F o ns e c a, a n d N. H. F eff e r m a n . 2 0 1 9. C o ntr asti n g t h e V al u e of
T ar g et e d vs. Ar e a -Wi d e M os q uit o C o ntr ol S c e n ari os t o Li mit Ar b o vir us Tr a ns missi o n f or
Diff er e nt Tr o pi c al Ur b a n P o p ul ati o n C e nt ers. P L o S N e gl e ct e d Tr o pi c al Dis e as es. 1 3. 7: e 0 0 0 7 4 7 9 .
6 0. M y ers *, K, A. D e N e gr e *, L. K. G all os *, N. L e m a ns ki *, A. M a y b err y, A. R e d er e *, S. S c h w a b *, O.
Stri n g h a m, & N. H. F eff e r m a n . 2 0 1 9. D y n a mi c A d H o c S o ci al N et w or ks i n I m pr o vis e d
I nt elli g e n c e / C o u nt er -I nt elli g e n c e E x er cis es: A D e p art m e nt of H o m el a n d S e c urit y R e d -T e a m
Bl u e -T e a m Li v e -A cti o n R ol e pl a y. J o ur n al of H o m el a n d S e c urit y a n d E m er g e n c y M a n a g e m e nt.
htt ps:// d oi. or g/ 1 0. 1 5 1 5/j hs e m -2 0 1 8 -0 0 2 7.
5 9. S u ar e z *, G. P., L. K. G all os, a n d N. H. F eff e r m a n . 2 0 1 9. A C as e St u d y i n T ail ori n g a Bi o -I ns pir e d
C y b er -S e c urit y Al g orit h m: d esi g ni n g a n o m al y d et e cti o n f or m ultil a y er n et w or ks. J o ur n al of C y b er
S e c urit y a n d M o bilit y . 8( 1): 1 1 3 -1 3 2.
5 8. D e N e gr e *, A., K. M y ers *, M. N d eff o, a n d N. H. F eff er m a n. 2 0 1 9. E m er g e n c e of A nti bi oti c
R esist a n c e i n I m m u n o c o m pr o mis e d H ost P o p ul ati o ns. P L o S O n e 1 4 ( 2), e 0 2 1 2 9 6 9 .
5 7. S c h w a b *, S., C. St o n e *, D. F o ns e c a, a n d N. H. F eff e r m a n . 2 0 1 9. ( M et a) p o p ul ati o n D y n a mi cs
D et er mi n e Eff e cti v e S p ati al Distri b uti o ns of M os q uit o -B or n e Dis e as e C o ntr ol. E c ol o gi c al
A p pli c ati o ns 2 9( 3): e 0 1 8 5 6.
5 6. K e bir *, A., N. H. F eff e r m a n , a n d S. B. Mil e d. 2 0 1 8. A g e n er al str u ct ur e d m o d el of a
h er m a p hr o dit e p o p ul ati o n. J o ur n al of T h e or eti c al Bi ol o g y. 4 4 9: 5 3 -5 9.
5 5. L e m a ns ki *, N.J. a n d N. H. F eff e r m a n . 2 0 1 8. E x p a n di n g t h e e v ol uti o n ar y t h e or y of a gi n g:
h o n e y b e es as a t est c as e f or a n o pti m al d e cisi o n m a ki n g m o d el of s e n es c e n c e. A m eri c a n
N at ur alist . 1 9 1( 6): 7 5 6 -7 6 6.
5 4. S c h w a b *, S., C. St o n e *, D. F o ns e c a, a n d N . H. F eff e r m a n . 2 0 1 8. T h e i m p ort a n c e of b ei n g ur g e nt:
t h e i m p a ct of s ur v eill a n c e t ar g et a n d s c al e o n m os q uit o -b or n e dis e as e c o ntr ol. E pi d e mi cs . 2 3: 5 5 6 3.

5

L- 1 6
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 7 of 2 3 P a g eI D #: 6 9 1

5 3. B e c k a g e, B., L. Gr oss , S. M et c alf, E. C arr, K. L a c ass e, J. Wi nt er, P. H o w e, N. F eff e r m a n , A. Zi a,
a n d T. Fr a n c k. 2 0 1 8. I nt e gr ati n g h u m a n b e h a vi or a n d ris k p er c e pti o n i nt o a cli m at e m o d el. N at ur e
Cli m at e C h a n g e. 8: 7 9 – 8 4.
5 2. M asl o, B., O. Stri n g h a m, A. B e v a n, A. Br u m b a u g h, C. S a n d ers, M. H all, a n d N. H. F eff e r m a n .
2 0 1 7. Hi g h S ur vi v al of S o m e I nf e ct e d B at P o p ul ati o ns V eils a P ersist e nt E xti n cti o n Ris k fr o m
W hit e -n os e S y n dr o m e. E c os p h er e . 8( 1 2): e 0 2 0 0 1. 1 0. 1 0 0 2/ e cs 2. 2 0 0 1.
5 1. St o n e *, C. M., S. R. S c h w a b *, D. M. F o ns e c a, N. H. F eff e r m a n . 2 0 1 7. H u m a n m o v e m e nt,
c o o p er ati o n, a n d t h e eff e cti v e n ess of c o or di n at e d v e ct or c o ntr ol str at e gi es. J o ur n al of t h e R o y al
S o ci et y I nt erf a c e. 1 4( 1 3 3): 2 0 1 7 0 3 3 6.
5 0. L e m a ns ki *, N.J. a n d N. H. F eff e r m a n . 2 0 1 7. C o or di n ati o n B et w e e n t h e S e x es C o nstr ai ns t h e
O pti mi z ati o n of R e pr o d u cti v e Ti mi n g i n H o n e y B e e C ol o ni es N at ur e S ci e ntifi c R e p orts. 7: 2 7 4 0.
4 9. E gi zi, A., N. H. F eff e r m a n , a n d R. J or d a n. 2 0 1 7. R el ati v e Ris k of I nf e cti o n wit h E hrli c hi osis
A g e nts a n d L y m e Dis e as e i n a n Ar e a W h er e B ot h V e ct ors ar e S y m p atri c. E m er gi n g I nf e cti o us
Dis e as es. 2 3( 6): 9 3 9 -9 4 5.
4 8. Gr e e n b a u m *, G. a n d N. H. F eff e r m a n . 2 0 1 7. A p pli c ati o n of n et w or k m et h o ds f or u n d erst a n di n g
e v ol uti o n ar y d y n a mi cs i n dis cr et e h a bit at. M ol e c ul ar E c ol o g y . D OI: 1 0. 1 1 1 1/ m e c. 1 4 0 5 9
4 7. M asl o, B., R. V al e nti n, K L e u, K K er wi n, A B e v a n, G. C. H a milt o n, N. H. F eff e r m a n , a n d D. M.
F o ns e c a. 2 0 1 7. C hir o S ur v eill a n c e: T h e Us e of N ati v e B ats t o D et e ct I n v asi v e A gri c ult ur al P ests.
P L o S O n e. 1 2( 3), e 0 1 7 3 3 2 1 .
4 6. R o bi ns o n *, O.J., O. P. J e ns e n, M. M. Pr o v ost, S. H u a n g, N. H. F eff e r m a n , A . K e bir a n d J. L.
L o c k w o o d. 2 0 1 7. E v al u ati n g t h e v ul n er a bilit y of s e x-c h a n gi n g fis h t o h ar v est: A g a m e -t h e or eti c
a p pr o a c h. I C E S J o ur n al of M ari n e S ci e n c e. 7 4( 3): 6 5 2 -6 5 9.
4 5. G all os *, L., M. K or c z y ns ki *, a n d N. H. F eff e r m a n. 2 0 1 7. A n o m al y D et e cti o n T hr o u g h
I nf or m ati o n S h ari n g U n d er Diff er e nt T o p ol o gi es. E U R A SI P J o ur n al o n I nf or m ati o n S e c urit y.
2 0 1 7: 5. D OI: 1 0. 1 1 8 6/s 1 3 6 3 5 -0 1 7 -0 0 5 6 -5.
4 4. M asl o, B., S. Gi g n o u x -W olfs o h n, a n d N. H. F eff e r m a n . 2 0 1 7. S u c c ess of Wil dlif e Dis e as e
Tr e at m e nt D e p e n ds o n H ost I m m u n e R es p o nse. Fr o nti ers i n E c ol o g y a n d E v ol uti o n . 5( 2 8).
4 3. L of gr e n *, E., A. E gi zi, a n d N. H. F eff e r m a n . 2 0 1 6. P ati e nts as P at c h es: E c ol o g y a n d
E pi d e mi ol o g y i n H e alt h c ar e E n vir o n m e nts. I nf e cti o n C o ntr ol a n d H os pit al E pi d e mi ol o g y.
3 7( 1 2): 1 5 0 7 -1 5 1 2.
4 2. K or c z y ns ki *, M. , A. H a mi e h *, J. H. H u h, H. H ol m, S. R. R aj a g o p al a n, a n d N. H. F eff e r m a n .
2 0 1 6. Hi v e O v ersi g ht f or N et w or k I ntr usi o n E arl y W ar ni n g Usi n g DI A M o N D: A B e e -I ns pir e d
M et h o d f or F ull y Distri b ut e d C y b er D ef e ns e. I E E E C o m m u ni c ati o ns M a g azi n e 5 4( 6): 6 0 -6 7.
4 1. G all o s *, L. a n d N. H. F eff e r m a n. 2 0 1 5. Si m pl e a n d effi ci e nt s elf-h e ali n g str at e g y f or d a m a g e d
c o m pl e x n et w or ks. P h ysi c al R e vi e ws E . 9 2( 5): 0 5 2 8 0 6.
4 0. K e bir *, A., N. H. F eff e r m a n , S. B e n Mil e d. 2 0 1 5. U n d erst a n di n g h er m a p hr o dit e s p e ci es t hr o u g h
g a m e t h e or y. J o ur n al of M at h e m ati c al Bi ol o g y . 7 1( 6 -7): 1 5 0 5 -1 5 2 4.
3 9. G all os *, L., a n d N. H. F eff e r m a n . 2 0 1 5. T h e Eff e ct of Dis e as e -I n d u c e d M ort alit y o n Str u ct ur al
N et w or k Pr o p erti es. P L o S O n e. D OI: 1 0. 1 3 7 1/j o ur n al. p o n e. 0 1 3 6 7 0 4
3 7. B ur k h alt er *, J. C., N. H. F eff e r m a n , a n d J. L. L o c k w o o d. 2 0 1 5. T h e i m p a ct of p ers o n alit y o n t h e
s u c c ess of pr os p e cti n g b e h a vi or i n c h a n gi n g l a n ds c a p es. C urr e nt Z o ol o g y . 6 1: 5 5 7 -5 6 8.
3 6. R o bi ns o n *, O., J. L o c k w o o d, O. Stri n g h a m *, a n d N. H. F eff e r m a n . 2 0 1 5. A N o v el T o ol f or
M a ki n g P oli c y R e c o m m e n d ati o ns B as e d o n P V A: H el pi n g T h e or y B e c o m e Pr a cti c e. C o ns er v ati o n
L ett ers . 8( 3): 1 9 0 -1 9 8.
6

L- 1 7
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 8 of 2 3 P a g eI D #: 6 9 2

3 5. F eff e r m a n , N. H. a n d E. N. N a u m o v a. 2 0 1 5. D a n g ers of v a c ci n e r ef us al n e ar t h e h er d i m m u nit y
t hr es h old: a m o d elli n g st u d y. L a n c et I nf e cti o us Dis e as es . S 1 4 7 3 -3 0 9 9( 1 5) 7 0 1 3 0 -1
3 4. M asl o, B. a n d N. H. F eff e r m a n. 2 0 1 5. A C as e St u d y of B ats a n d W hit e -N os e S y n dr o m e
D e m o nstr ati n g H o w t o M o d el P o p ul ati o n Vi a bilit y wit h E v ol uti o n ar y Eff e cts. C o ns er v ati o n
Bi ol o g y. 2 9 ( 4): 1 1 7 6-1 1 8 5. D OI: 1 0. 1 1 1 1/ c o bi. 1 2 4 8 5.
3 3. P ar h a m, P E. J. W al d o c k, G. K. C hrist o p hi d es, D. H e m mi n g, F. A g ust o, K. J. E v a ns, N. H.
F eff e r m a n , H. G aff, A. G u m el, S. L a D e a u, S. L e n h art, R. E. Mi c k e ns, E. N a u m o v a, R. Ostf el d, P.
R e a d y, M. T h o m as, J. V el as c o -H er n a n d e z, E. Mi c h a el. 2 0 1 5. Cli m at e, E n vir o n m e nt al, a n d
S o ci o e c o n o mi c C h a n g e – W ei g hi n g u p t h e B al a n c e i n V e ct or -B or n e Dis e as e Tr a ns missi o n.
P hil os o p hi c al Tr a ns a cti o ns of t h e R o y al S o ci et y B . 3 7 0. 1 6 6 5 ( 2 0 1 5): 2 0 1 3 0 5 5 1.
3 2. E gi zi, A., N. H. F eff e r m a n , a n d D. M . F o ns e c a. 2 0 1 5. E vi d e n c e t h at i m pli cit ass u m pti o ns of “ n o
e v ol uti o n ” of dis e as e v e ct ors i n c h a n gi n g e n vir o n m e nts c a n b e vi ol at e d o n a r a pi d ti m es c al e.
P hil os o p hi c al Tr a ns a cti o ns of t h e R o y al S o ci et y B. 3 7 0. 1 6 6 5 ( 2 0 1 5): 2 0 1 4 0 1 3 6.
3 1. Gr e e ni n g *, B., N. Pi nt er -W oll m a n, a n d N. H. F eff e r m a n . 2 0 1 5. Hi g h er -Or d er A n al ysis of
I nf or m ati o n S h ari n g a n d K n o wl e d g e C a p a cit y i n A ni m al S o ci al Gr o u ps C urr e nt Z o ol o g y . 6 1( 1):
1 1 4 – 1 2 7.
3 0. G all os *, L. a n d N. H. F eff e r m a n. 2 0 1 4. R e v e ali n g eff e cti v e cl assifi ers t hr o u g h n et w or k
c o m p aris o n. E ur o p h ysi cs L ett ers . 1 0 8( 3): 3 8 0 0 1.
2 9. L of gr e n *, E. T., R. W. M o e hri n g, D.J. A n d ers o n, D.J. W e b er, a n d N. H. F eff e r m a n . 2 0 1 4. A
M at h e m ati c al M o d el t o E v al u at e t h e R o uti n e Us e of F e c al Mi cr o bi ot a Tr a ns pl a nt ati o n t o Pr e v e nt
I n ci d e nt a n d R e c urr e nt Cl os tri di u m diffi cil e I nf e cti o n. I nf e cti o n C o ntr ol a n d H os pit al
E pi d e mi ol o g y . 3 5( 1): 1 8 -2 7.
2 8. Gr e e ni n g *, B. a n d N. H. F eff e r m a n . 2 0 1 4. E v ol uti o n ar y Si g nifi c a n c e of t h e R ol e of F a mil y U nits
i n a Br o a d er S o ci al S yst e m. N at ur e S ci e ntifi c R e p orts . 4: 3 6 0 8
2 7. S eil er, M.J., C olli ns, A.J., a n d N. H. F eff e r m a n . 2 0 1 3. Str at e gi c M ort g a g e D ef a ult i n t h e C o nt e xt
of a S o ci al N et w or k: A n E pi d e mi ol o gi c al A p pr o a c h. J o ur n al of R e al Est at e R es e ar c h 3 5( 4).
2 6. R o bi ns o n *, O.J., N. H. F eff e r m a n , a n d J. L. L o c k w o o d. 2 0 1 3. H o w t o eff e c ti v el y m a n a g e i n v asi v e
pr e d at ors t o pr ot e ct t h eir n ati v e pr e y. Bi ol o gi c al C o ns er v ati o n 1 6 5: 1 4 6 -1 5 3.
2 5. F eff e r m a n, N. H., a n d L. M. R o m er o. 2 0 1 3. C a n p h ysi ol o gi c al str ess alt er p o p ul ati o n p ersist e n c e ?
A m o d el wit h c o ns er v ati o n i m pli c ati o ns. C o ns er v ati o n P h y si ol o g y. 1( 1): c ot 0 1 2. d oi:
1 0. 1 0 9 3/ c o n p h ys/ c ot 0 1 2
2 4. M o ort h y, M., D. C astr o n o v o, A. A br a h a m, S. B h att a c h ar y y a, S. Gr a d us, J. G ors ki, Y. N. N a u m o v,
N. H. F eff e r m a n , a n d E. N. N a u m o v a. 2 0 1 2. D e vi ati o ns i n i nfl u e n z a s e as o n alit y: o d d c oi n ci d e n c e
or o bs c ur e c o ns e q u e n c e ? Cli ni c al Mi cr o bi ol o g y a n d I nf e cti o n. 1 8( 1 0): 9 5 5 -9 6 2.
2 3. H o c k *, K. a n d N. H. F eff e r m a n . 2 0 1 2. S o ci al or g a ni z ati o n p att er ns c a n l o w er dis e as e ris k wit h o ut
ass o ci at e d dis e as e a v oi d a n c e or i m m u nit y. E c ol o gi c al C o m pl e xit y . 1 2: 3 4 – 4 2.
2 2. H o c k *, K. a n d N . H. F eff e r m a n . 2 0 1 1. Vi ol ati n g S o ci al N or ms w h e n C h o osi n g Fri e n ds: H o w
R ul e -Br e a k ers Aff e ct S o ci al N et w or ks. P L o S O n e. 2 0 1 1; 6( 1 0): e 2 6 6 5 2
2 1. H o c k *, K. a n d N. H. F eff e r m a n . 2 0 1 1. E xt e n di n g t h e r ol e of s o ci al n et w or ks t o st u d y s o ci al
or g a ni z ati o n a n d i nt er acti o n str u ct ur e of a ni m al gr o u ps. A n n al es Z o ol o gi ci F e n ni ci . 4 8( 6): 3 6 5 -3 7 0.
2 0. K af ai, Y. B. a n d N. H. F eff e r m a n . 2 0 1 0. Virt u al E pi d e mi cs as L e ar ni n g L a b or at ori es i n Virt u al
W orl ds. J o ur n al of Virt u al W orl ds R es e ar c h. 3( 2): 2 -1 5.

7

L- 1 8
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 9 of 2 3 P a g eI D #: 6 9 3

1 9. H o c k *, K., K. L. N g, a n d N. H. F eff e r m a n . 2 0 1 0. S yst e ms a p pr o a c h t o st u d yi n g a ni m al s o ci alit y:
i n di vi d u al p ositi o n v ers us gr o u p or g a ni z ati o n i n d y n a mi c s o ci al n et w or k m o d els. P L o S O n e. 5( 1 2):
e 1 5 7 8 9.
1 8. F e ff e r m a n, N. H. a n d E. N. N a u m o v a. 2 0 1 0. I n n o v ati o n i n O bs er v ati o n: A Visi o n f or E arl y
O ut br e a k D et e cti o n. E m er gi n g H e alt h T hr e ats. 3: e 6. d oi: 1 0. 3 1 3 4/ e htj. 1 0. 0 0 6
1 7. L of gr e n *, E. T., J. B. W e n g er, N. H. F eff e r m a n , D. Bi n a, S Gr a d us, S. B h att a c h ar y y a, Y. N.
N a u m o v, J. G ors ki, E. N. N a u m o v a. 2 0 1 0. Dis pr o p orti o n al Eff e cts i n P o p ul ati o ns of C o n c er n f or
P a n d e mi c I nfl u e n z a: I nsi g hts fr o m S e as o n al E pi d e mi cs i n Wis c o nsi n, 1 9 6 7 -2 0 0 4. I nfl u e nz a a n d
Ot h er R es pir at or y Dis e as es. 4: 2 0 5 -2 1 2.
1 6. P h a n, L., N. H. F eff e r m a n, D. H ui, a n d D. Br u g g e. 2 0 1 0. I m p a ct of Str e et Cri m e o n B ost o n
C hi n at o w n. L o c al E n vir o n m e nt . 1 5( 5): 4 8 1 -4 9 1.
1 5. R e e d, J. M., N. H. F eff e r m a n , a n d R. C. A v eril -M urr a y. 2 0 0 9. Vit al R at e S e nsiti vit y A n al ysis a n d
M a n a g e m e nt I m pli c ati o ns f or D es ert T ort ois e. Bi ol o gi c al C o ns er v ati o n . 1 4( 1 2): 2 8 1 3 -3 2 2 2.
1 4. Wils o n -Ri c h, N., S pi v a k, M., F eff e r m a n , N. H., St ar ks, P. T. 2 0 0 9. G e n eti c, I n di vi d u al, a n d Gr o u p
F a cilit ati o n of Dis e as e R esist a n c e i n I ns e ct S o ci eti es. A n n u al R e vi e ws of E nt o m ol o g y. 5 4: 4 0 5 -2 3.
1 3. F eff e r m a n . N. H. 2 0 0 8. Bi ol o gi c al E x p eri m e nt ati o n i n sili c o. A n n al es Z o ol o gi ci F e n ni ci, 4 5: 3 6 7 3 6 8.
1 2. L of gr e n *, E., M. S e n es e *, J. R o g ers * a n d N. H. F eff e r m a n . 2 0 0 8. P a n d e mi c Pr e p ar e d n ess
Str at e gi es f or S c h o ol S yst e ms: Is Cl os ur e R e all y t h e O nl y W a y ? A n n al es Z o ol o gi ci F e n ni ci, 4 5:
4 4 9 -4 5 8.
1 1. F eff e r m a n , N. H. a n d K. L. N g *. 2 0 0 7. H o w Dis e as e M o d els o n St ati c Gr a p hs F ail t o A p pr o xi m at e
E pi d e mi cs i n S hifti n g S o ci al N et w or ks. P h ysi c al R e vi e w E . 7 6: 0 3 1 9 1 9. ( T his arti cl e w as s el e ct e d
f or r e pri nti n g b y t h e Virt u al J o ur n al of Bi ol o gi c al P h ysi cs R es e ar c h 2 0 0 7)
1 0. L of gr e n *, E. a n d N. H. F eff e r m a n . 2 0 0 7. T h e U nt a p p e d P ot e nti al of Virt u al G a m e W orl ds t o S h e d
Li g ht o n R e al W orl d E pi d e mi cs. T h e L a n c et I nf e cti o us Dis e as es. 7: 6 2 5 – 6 2 9. ( arti cl e c o nt e nt w as
t h e c o v er of t h e j o ur n al)
9. L of gr e n *, E ., N. H. F eff e r m a n , Y. N. N a u m o v, J. G ors ki a n d E. N. N a u m o v a. 2 0 0 7. I nfl u e n z a
S e as o n alit y: U n d erl yi n g C a us es a n d M o d eli n g T h e ori es. J o ur n al of Vir ol o g y , 8 1( 1 1): 5 4 2 9 -5 4 3 6.
8. L of gr e n *, E., N. H. F eff e r m a n , M. D os hi a n d E. N. N a u m o v a. 2 0 0 7. Ass essi n g S e as o n al V a ri ati o n
i n M ultis o ur c e S ur v eill a n c e D at a: A n n u al H ar m o ni c R e gr essi o n. L e ct ur e N ot es i n C o m p ut er
S ci e n c e. Bi o S ur v eill a n c e 2 0 0 7 . e ds D. Z e n g et al. 4 5 0 6: 1 1 4 -1 2 3.
7. F eff e r m a n , N. H. a n d K. L N g *. 2 0 0 7. T h e r ol e of i n di vi d u al c h oi c e i n t h e e v ol uti o n of s o ci al
c o m pl e xit y. A n n al es Z o ol o gi ci F e n ni ci , 4 4: 5 8 -6 9.
6. F eff e r m a n , N. H., J. F. A. Tr a ni ell o, R. B. R os e n g a us a n d D. V. C all eri. 2 0 0 7. Dis e as e Pr e v e nti o n a n d
R esist a n c e i n S o ci al I ns e cts: M o d eli n g t h e S ur vi v al C o ns e q u e n c es of I m m u nit y, H y gi e ni c
B e h a vi or a n d C ol o n y O r g a ni z ati o n. B e h a vi or al E c ol o g y a n d S o ci o bi ol o g y , 6 1: 5 6 5 -5 7 7.
5. St ar ks, P. T. B. a n d N. H. F eff e r m a n . 2 0 0 6. P olist es N est F o u n di n g B e h a vi or: a M o d el f or t h e
S el e cti v e M ai nt e n a n c e of Alt er n ati v e B e h a vi or al P h e n ot y p es. A n n al es Z o ol o gi ci F e n ni ci , 4 3: 4 5 6 4 6 7.
4 . F eff e r m a n , N. H., a n d E. N. N a u m o v a. 2 0 0 6. C o m bi n at ori al D e c o m p ositi o n of a n O ut br e a k
Si g n at ur e. M at h e m ati c al Bi os ci e n c es , 2 0 2( 2): 2 6 9 -2 8 7.
3. F eff e r m a n , N. H. a n d J. M. R e e d. 2 0 0 6. A Vit al R at e S e nsiti vit y A n al ysis t h at is V ali d f or N o nSt a bl e A g e Distri b ut i o ns a n d f or S h ort-T er m Pl a n ni n g. T h e J o ur n al of Wil dlif e M a n a g e m e nt ,
7 0( 3): 6 4 9 -6 5 6.
8

L- 1 9
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 1 0 of 2 3 P a g eI D #: 6 9 4

2. F eff e r m a n , N. H., a n d P. T. B. St ar ks. 2 0 0 6. A M o d eli n g A p pr o a c h t o S w ar mi n g i n H o n e y B e es.
I ns e ct es S o ci a u x , 5 3( 1): 3 7 -4 5.
1. F eff e r m a n , N. H., E. A. O′ N eil, a n d E. N. N a u m o v a. 2 0 0 5. C o nfi d e nti alit y vs C o nfi d e n c e: T h e
a g gr a v ati o n of a g gr e g ati o n as a r e m e d y i n p u bli c h e alt h. J o ur n al of P u bli c H e alt h P oli c y,
2 6( 4): 4 3 0 -4 4 9.
U n d er R e vi e w:
1 0. F eff e r m a n , N. H., E. T. L of gr e n, N. Li, P. Bl u e, D.J. W e b er, a n d A. A . Y a k u b u. F e ar, A c c ess, a n d
t h e R e al -Ti m e Esti m ati o n of Eti ol o gi c al P ar a m et ers f or O ut br e a ks of N o v el P at h o g e ns. ( U n d er
R e vi e w)
9. F eff e r m a n, N. H. a n d O. U di a ni. W or kf or c e Tr ai ni n g, D e pl o y m e nt, Pr ot e cti o n, a n d M a n a g e m e nt i n
t h e W a k e of a P a n d e mi c. ( U n d er Re vi e w).
8. L of gr e n, E. K. L u m, A. H or o wit z, B. M a d u b u o n w u, K. M y ers, a n d N. H. F eff e r m a n . T h e
E pi d e mi ol o gi c al I m pli c ati o ns of J ails f or C o m m u nit y, C orr e cti o ns Offi c er, a n d I n c ar c er at e d
P o p ul ati o n Ris ks fr o m C O VI D -1 9. ( U n d er R e vi e w).
7. F ei n b er g, F., A. P at a ni a, B. M c S h a n e, B. F al k, D. L arr e m or e, E. F eit, J. H el v est o n, M. S m all, M.
Br a u n, N. F eff e r m a n , a n d E. Br u c h. A Fr a m e w or k f or St u d yi n g C h oi c es i n N et w or ks. ( U n d er
R e vi e w)
6. B e c k a g e, B., K. L a c ass e, J. M. Wi nt er, N. H. F eff e r m a n , F. M. H off m a n, L.J. Gr oss, S. S. M et c alf,
T. Fr a n c k, E. C arr, A. Zi a, a n d A. Ki n zi g. T h e E art h h as h u m a ns, s o w h y d o n’t o ur cli m at e
m o d els ? ( U n d er R e vi e w)
5. U di a ni *, O., K. L a c ass e, A. Zi a, L. G all os *, P. Z h o n g *, B. B e c k a g e, E. C arr, T. Fr a n c k, L. Gr oss,
F. H off m a n, P. H o w e, A. Ki n z i g, S. M et c alf, J. Wi nt er, a n d N. H. F eff e r m a n . R e cr uit m e nt a n d
M o bili z ati o n f or S o ci al M o v e m e nts: i m pli c ati o ns fr o m n et w or k m o d eli n g. ( U n d er R e vi e w)
4. U di a ni *, O., a n d N. H. F eff e r m a n . C o ul d t h e N e e d f or R est Pr o vi d e a P at h w a y f or t h e E v ol uti o n
of Di visi o n of L a b or i n S o ci al S p e ci es ? ( U n d er R e vi e w)
3. Gi g n o u x -W olfs o h n, S. A., Pi ns k y, M. L., K er wi n, K., H er z o g, C., H all, M., B e n n ett, A. B.,
F eff e r m a n , N. H. a n d M asl o, B., G e n o mi c si g n at ur es of e v ol uti o n ar y r es c u e i n b ats s ur vi vi n g
w hit e -n os e s y n dr o m e. ( U n d er R e vi e w)
2. U di a ni *, O. a n d N. H. F eff e r m a n . H as dis e as e ris k s h a p e d t h e e v ol uti o n of s o ci al c o m pl e xit y i n
i ns e ct s o ci eti es ? ( U n d er R e vi e w)
1. Si e w e *, N., B. Gr e e ni n g *, a n d N. H. F eff e r m a n . T h e P ot e nti al R ol e of As y m pt o m ati c I nf e cti o n i n
O ut br e a ks of E m er gi n g P a t h o g e ns ( U n d er R e vi e w)
B o o k C h a pt e rs:
P u blis h e d or I n Pr ess
1 0. F eff e r m a n , N. H. W h e n t o T ur n t o N at ur e -I ns pir e d S ol uti o ns f or C y b er S yst e ms. 2 0 1 9. i n N at ur e I ns pir e d S e c urit y a n d R esili e n c e . e ds. Elt o w eiss y, El alf y, F ul p, a n d M a z ur c z y k. p p 2 9 -5 0. T h e
I nstit uti o n of E n gi n e eri n g a n d T e c h n ol o g y, L o n d o n, U K.
9. Pri c e, C. R. a n d N. H. F eff e r m a n . 2 0 1 9. A Pr eli mi n ar y E x pl or ati o n of t h e Pr of essi o n al S u p p ort
N et w or ks t h e E D G E Pr o gr a m Cr e at es. i n A C el e br ati o n of t h e E D G E Pr o gr a m’s I m p a ct o n t h e
M at h e m ati cs C o m m u nit y a n d B e y o n d ( p p. 3 1 7 -3 2 5). S pri n g er, C h a m.
8. Br o o ks. H. Z., M. E. H o h n, C. Pri c e, A. E. R a d u ns k a y a, S. S. Si n di, N. D. Willi a ms, S. N. Wils o n, N. H.
F eff e r m a n . 2 0 1 8. M at h e m ati c al A n al ysis of t h e I m p a ct of S o ci al Str u ct ur e o n E ct o p ar asit e L o a d
i n All o gr o o mi n g P o p u l ati o ns. i n U n d erst a n di n g C o m pl e x Bi ol o gi c al S yst e ms wit h M at h e m ati cs
e ds. A. R a d u ns k a y a, R. S e g al, B. S ht yll a. Ass o ci ati o n f or W o m e n i n M at h e m ati cs S eri es, v ol 1 4.
p p 4 7 -6 1. S pri n g er
9

L- 2 0
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 1 1 of 2 3 P a g eI D #: 6 9 5

7. Willi a ms, N. D., H. Z. Br o o ks, M. E. H o h n, C. R. Pri c e, A. E. R a d u ns k a y a, S. S. Si n di, S. N. Wils o n,
a n d N. H. F eff e r m a n . 2 0 1 8. H o w Dis e as e Ris ks C a n I m p a ct t h e E v ol uti o n of S o ci al B e h a vi ors
a n d E m er g e nt P o p ul ati o n Or g a ni z ati o n. i n U n d erst a n di n g C o m pl e x Bi ol o gi c al S yst e ms wit h
M at h e m ati cs e ds. A. R a d u ns k a y a, R. S e g al, B. S ht yll a. Ass o ci ati o n f or W o m e n i n M at h e m ati cs
S eri es, v ol 1 4. p p 3 1 -4 6. S pri n g er
6. K or c z y ns ki *, M., A. H a mi e h *, J. H. H u h, H. H ol m, S. R. R aj a g o p al a n, a n d N. H. F eff e r m a n . 2 0 1 7.
DI A M o N D: D istri b ut e d I ntr usi o n/ A n o m al y M o nit ori n g f or N o n p ar a m etri c D et e cti o n (i n vit e d
e xt e n d e d v ersi o n). i n S e c urit y, Pri v a c y a n d R eli a bilit y i n C o m p ut er C o m m u ni c ati o ns a n d
N et w or ks . e ds. K. S h a, A Stri e g el, a n d M S o n g. Ri v er P u blis h ers S eri es i n C o m m u ni c ati o ns. Ri v er
P u blis h ers.
5. F eff e r m a n , N. H. a n d L. M. F eff er m a n. 2 0 1 1. M at h e m ati c al M a cr o bi ol o g y: A n U n e x pl oit e d
O p p ort u nit y i n Hi g h S c h o ol E d u c ati o n. i n Bi o m at h i n t h e S c h o ols . e ds. M. B. C o z z e ns, a n d F. S.
R o b erts. DI M A C S S eri es i n Dis cr et e M at h e m ati cs a n d T h e or eti c al C o m p ut er S ci e n c e. V ol 7 6.
A m eri c a n M at h e m ati c al S o ci et y.
4. J a g ai, J., N. H. F eff e r m a n a n d E. N. N a u m o v a. 2 0 1 1. W at er b or n e Dis e as e S ur v eill a n c e. i n
E n c y cl o p e di a of E n vir o n m e nt al H e alt h . e ds. J. Nri a g u, S. K c e w, T. K a w a m ot o, J. P at z, a n d D.
R e n ni e. Els e vi er S ci e n c e. 1 st e diti o n
3. Ji, S., W. A. C h a o v alit w o n gs e, N. H. F eff e r m a n , W. Y o o, a n d J. E. P er e z -Orti n. 2 0 0 9. M e c h a nis m b as e d Cl ust eri n g of G e n o m e -wi d e R N A L e v els: R ol es of Tr a ns cri pti o n a n d Tr a ns cri pt D e gr a d ati o n R at es. i n Cl ust eri n g C h all e n g es i n Bi ol o g i c al N et w or ks . e ds. S. B ut e n k o, P. M.
P ar d al os, a n d W. A. C h a o v alit w o n gs e. W orl d S ci e ntifi c P u blis hi n g C o m p a n y.
2. F eff e r m a n , N. H. a n d J. F. A. Tr a ni ell o. 2 0 0 8. S o ci al I ns e cts as M o d els i n E pi d e mi ol o g y:
Est a blis hi n g t h e F o u n d ati o n f or a n I nt er dis ci pli n ar y A p pr o a c h t o Dis e as e a n d S o ci alit y. i n
Or g a ni z ati o n of I ns e ct S o ci eti es: Fr o m G e n o m e t o S o ci o c o m pl e xit y e ds J. G a d a u a n d J. F e w ell.
H ar v ar d U ni v ersit y Pr ess
1. M a c L e o d, N., N. Orti z, N. H. F eff e r m a n , W. Cl y d e, C. S c h ult er, a n d J. M a c L e a n. 2 0 0 0. P h e n ot y pi c
R es p o ns e of F or a mi nif er a t o e pis o d es of gl o b al e n vir o n m e nt al c h a n g e. i n Bi oti c R es p o ns e t o
Gl o b al C h a n g e . e ds S.J. C ul v er a n d P. R a ws o n. C a m bri d g e U ni v ersit y Pr ess
E dit e d V ol u m es:
1. F eff e r m a n , N. H. ( E d.) ( 2 0 0 8) A n n al es Z o ol o gi ci F e n ni ci 4 5( 5)
P e e r R e vi e w e d C o nt ri b ut e d C o nf e r e n c e P a p e rs:
8. S u ar e z *, G. P., L. K. G all os, a n d N. H. F eff e r m a n . 2 0 1 8. A C as e St u d y i n T ail ori n g a Bi o -I ns pir e d
C y b er -S e c urit y Al g orit h m: d esi g ni n g a n o m al y d et e cti o n f or m ultil a y er n et w or ks. 2 0 1 8 I E E E
S e c urit y a n d Pri v a c y W or ks h o ps ( S P W). I E E E, 2 0 1 8.
7. Fi el ds, D. A., K af ai, Y. B., Gi a n g, M. T., F eff e r m a n , N., & W o n g, J. 2 0 1 7. Pl a g u es a n d p e o pl e:
M ass c o m m u nit y p arti ci p ati o n i n a virt u al e pi d e mi c wit hi n a t w e e n o nli n e w orl d. Pr o c e e di n gs of
t h e 1 2t h I nt er n ati o n al C o nf er e n c e o n t h e F o u n d ati o n s of Di git al G a m es. D OI:
1 0. 1 1 4 5/ 3 1 0 2 0 7 1. 3 1 0 2 1 0 8
6. K af ai, Y. B., Fi el ds, D. A., Gi a n g, M. T., F eff e r m a n , N., S u n, J., K u n k a, D., & W o n g, J. 2 0 1 7.
D esi g ni n g f or m assi v e e n g a g e m e nt i n a t w e e n c o m m u nit y: P arti ci p ati o n, pr e v e nti o n, a n d
p hil a nt hr o p y i n a virt u al e pi d e mi c. I n I nt er a cti o n D esi g n & C hil dr e n C o nf er e n c e . N e w Y or k:
A C M, 3 6 5 -3 7 0. I S B N: 9 7 8 -1 -4 5 0 3 -4 9 2 1 -5
5. Fi el ds, D. A., K af ai, Y. B., Gi a n g, M. T., F eff e r m a n , N., & W o n g, J. 2 0 1 7. T h e Dr a g o n S w o o pi n g
C o u g h: M ass c o m m u nit y p arti ci p ati o n i n a virt u al e pi d e mi c wit hi n a t w e e n o nli n e w orl d. I n B.
S mit h, M. B or g e, E. M er ci er & K. Y. Li m (E ds .) Pr o c e e di n gs of t h e 1 2t h I nt er n ati o n al C o nf er e n c e

10

L- 2 1
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 1 2 of 2 3 P a g eI D #: 6 9 6

o n C o m p ut er S u p p ort e d C oll a b or ati v e L e ar ni n g, V ol u m e 2 ( p p. 8 6 5 -8 6 6). P hil a d el p hi a, P A:
I nt er n ati o n al S o ci et y of t h e L e ar ni n g S ci e n c es.
4. Fi el ds, D. A., K af ai, Y. B., S u n, J., F eff e r m a n , N., Ellis, E., D e V a n e, B., Gi a n g, M. T., & W o n g, J.
2 0 1 6. T h e gr e at dr a g o n s w o o pi n g c o u g h: St ori es a b o ut l e ar ni n g d esi g ns i n pr o m oti n g p arti ci p ati o n
a n d e n g a g e m e nt wit h a virt u al e pi d e mi c. I n B ar a n y, A., Sl at er, S., & C. St ei n k u e hl er ( E ds.),
Pr o c e e di n gs of t h e G a m es + L e ar ni n g + S o ci et y ( G L S) 1 2. 0 C o nf er e n c e ( p p. 4 1 9 -4 2 4). Pitts b ur g h,
P A: E T C Pr ess.
3. V er m a, S., A. H a mi e h *, J. H. H u h, H. H ol m, S. R. R aj a g o p al a n, M. K or c z y ns ki *, a n d N. H.
F eff e r m a n . 2 0 1 6. St o p pi n g A m plifi e d D N S D D o S Att a c ks T hr o u g h Q u er y R at e S h ari n g B et w e e n
D N S R es ol v ers, t o a p p e ar i n t h e I nt er n ati o n al C o nf er e n c e o n A v ail a bilit y, R eli a bilit y a n d S e c urit y
( A R E S). ( N ot e: t his is t h e pr o c e e di n g of a c o nf er e n c e, n ot a j o ur n al, b ut is e q ui v al e nt t o j o ur n al p u bli c ati o n f or t h e
fi el d of c o m p ut er s ci e n c e, h o w e v er i n k e e pi n g wit h t h e c o n v e nti o ns of Bi ol o g y, F eff er m a n is l ast a ut h or as PI o n t h e
s p o ns ori n g g r a nt t h at f u n d e d t h e r es e ar c h.)

2. K or c z y ns ki *, M., A. H a mi e h *, J. H. H u h, H. H ol m, S. R. R aj a g o p al a n, a n d N. H. F eff e r m a n . 2 0 1 5.
DI A M o N D: Distri b ut e d I ntr usi o n/ A n o m al y M o nit ori n g f or N o n p ar a m etri c D et e cti o n. C C C N
2 0 1 5: 2 4t h I nt er n ati o n al C o nf er e n c e o n C o m p u t er C o m m u ni c ati o ns a n d N et w or ks, I E E E, 2 0 1 5 .
( N ot e: t his is t h e pr o c e e di n g of a c o nf er e n c e, n ot a j o ur n al, b ut is e q ui v al e nt t o j o ur n al p u bli c ati o n f or t h e fi el d of
c o m p ut er s ci e n c e, h o w e v er i n k e e pi n g wit h t h e c o n v e nti o ns of Bi ol o g y, F eff er m a n is l ast a ut h or a s PI o n t h e
s p o ns ori n g gr a nt t h at f u n d e d t h e r es e ar c h.)

1. F eff e r m a n , N. H., J. J a g ai, a n d E. N. N a u m o v a. 2 0 0 4. T w o - St a g e W a v el et A n al ysis Ass ess m e nt of
D e p e n d e n ci es i n Ti m e S eri es of Dis e as e I n ci d e n c e. Pr o c e e di n gs of t h e 2 0 0 4 C o nf er e n c e of t h e
I nt er n atio n al E n vir o n m etri cs S o ci et y

R es e a r c h M e nt o ri n g
(b ol d = c u r r e nt)
U n d er gr a d u at e R es e ar c h ers :
S h yr et h a Br o w n, D a ni k a C h ari, K ai g e C h e n, I a n Cl ar k, Li z D a vis, A n n e E at o n, T a yl or
Eis e nst ei n, Br a n d o n Gr a n dis o n, D er e k H a ns e n, D a vi d H a y cr aft, J o h n H uff m a n, A n a K il g or e,
J o h n Ki m, E d w ar d L e e, S o m air M ali k, A n dr e w M c C o n v e y, J effr e y M a n d ell, Z ai n P ar a c h a, L u k e
P ostl e, L a ur e n Pri n c e, As y a Prits k er, C at h y R eis, J er e mi a h R o g ers, B ol a nl e S al a a m, Ni c ol e
S c h olt z, M ar g ar et S e n es e, J os h u a S mit h, A n dr e w S o h n, Ki m St a n e k, J o h an n a T a m, C oll e e n
T hi ers c h, El e n a Ts v et k o v a, B art o n Will a g e, I m m a n u el Willi a ms, N a k e y a Willi a ms, B arr y
W al k er, H a n n a h Yi n, Yi Mi n g Y u, Y o n g qi n g Y u a n, St ef a ni e Y u e n, J a m es X u e, B o b b y Z a n dstr a
Gr a d u at e R es e ar c h ers :
( C o m mitt e e M e m b er, or A d vis or f or w or k o n f un d e d r es e ar c h pr oj e cts – n ot pri m ar y diss ert ati o n
a d vis or; * = s p e ci al c as e)
K e vi n A a g ar d, E m m a B ell, C ariss a Bl e k er, C urtis B ur k h alt er, J or d a n B us h, H uil a n C h a n g, Eri c k
C h ast ai n, F n u Eri c N g a n g C h e, B ritt a n y C o p pi n g e r , As hl e y Cr u m p, K at h yr n F air, Alis o n
G oli ns ki, St e p h e n G r a d y, Gili Gr e e n b a u m, C a n di c e J e a n L o uis, H w a y o u n g J u n g, Ari el Kr u g er,
Di Li, Eri c L of gr e n *, Ni c h ol as L or uss o, A d a m M ars z al e k, B e nj a mi n M c cl e n d o n, A nt h o n y
O g b u k a, P a ul R aff, Ori n R o bi ns o n, M ar g a ur et e R o m er o, R aj at R o y, Lili a n a S al v a d or, S h el b y
S c ott, Ti n e vi m b o S hiri, Britt a n y St e p h e ns o n , Al e x T h or n, R af a el V al e nti n e, Al e x Villi ar d, Ori o n
W el d o n
( pri m ar y r es e ar c h a d vis or t o)

11

L- 2 2
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 1 3 of 2 3 P a g eI D #: 6 9 7

J essi c a B e c k, K ell y B u c h , As hl e y D e N e gr e, J eff D e S al u , Br a d Gr e e ni n g, N at ali e L e m a ns ki,
A g n es a R e d e r e , S a m a nt h a S c h w a b, A n n a Sis k ( c o-a d vis e d), Oli v er Stri n g h a m, K ar e n W yli e
P ost -D o ct or al R es e ar c h ers:
Dr. Eri c k C h ast ai n, Dr. L a z ar os G all os, Dr. M a n u el G ar ci a -Q uisi m o n d o, Dr. Ali H a mi e h, Dr.
K arl o H o c k, Dr. Ci n d y H ui, D r. Ji n g Ji a o , Dr. A mir a K e bir, Dr. M a ci ej K or c z y ns ki, Dr. N at ali e
L e m a ns ki, Dr. K ell e n M y ers, Dr. K a h L o o n N g, Dr. C hris St o n e, Dr. N o urri di n e Si e w e ( c oa d vis e d b y Pr of. S. L e n h art), Dr. G o n z al o S u ar e z, D r. O yit a U di a ni , Dr. P e n g Z h o n g

C o u rs es D e v el o p e d a n d T a u g ht ( all c o urs es d e v el o p e d fr o m s cr at c h)

• A d v a n c e d M at h e m ati c al E c ol o g y II ( M A T/ E E B 6 8 2 – U ni v ersit y of T e n n ess e e, K n o x vill e)
S pri n g 2 0 1 7 a n d 2 0 1 9
• E v ol uti o n, Dis e as e, a n d M e di ci n e ( E N R 1 1 0 – R ut g ers U ni v ersit y / E E B 3 1 0 – U T, K n o x vill e)
F all e a c h y e ar 2 0 0 9 – 2 0 1 4, S pri n g 2 0 1 8 a n d 2 0 2 0
• C o n v ers ati o n al Bi o -M at h e m ati c al M o d eli n g ( E N R 4 2 8 – R ut g ers U ni v ersit y/ E E B 4 7 5 – U T,
K n o x vill e) S pri n g 2 0 1 1 – 2 0 1 4, 2 0 2 0
• Pr o bl e ms i n E c ol o g y: A c a d e mi c P e d a g o g y ( E N R 6 0 1 – R ut g ers U ni v ersit y) F all 2 0 1 5
• ( C o-D e v el o p e d a n d T a u g ht) Et hi cs & Pr of essi o n al D e v el o p m e nt i n E c ol o g y a n d E v ol uti o n ( E N R
6 0 2 0 1 – R ut g ers U ni v ersit y) S pri n g 2 0 1 3 -2 0 1 6 ( e x c e pti o n – s a b b ati c al F all 2 0 1 4 -S pri n g 2 0 1 5)
• I ntr o d u cti o n t o M o d eli n g E c ol o g y, E v ol uti o n, a n d E pi d e mi ol o g y ( E N R 6 0 4 – R ut g ers
U ni v ersit y) S pri n g e a c h y e ar 2 0 1 0 – 2 0 1 6 ( e x c e pti o n – s a b b ati c al F all 2 0 1 4 -S pri n g 2 0 1 5)
• I ntr o d u cti o n t o E pi d e mi ol o gi c al M o d eli n g ( E N R 6 0 3 – R ut g ers U ni v ersit y) F all e a c h y e ar 2 0 0 9
– 2012
• El e m e nts of D at a A n al ysis a n d E pi d e mi ol o g y ( C M P H 3 4 3 – T uft s U ni v ersit y S c h o ol of
M e di ci n e) S pri n g 2 0 0 6

P r of essi o n al M e m b e rs hi ps
Ass o ci ati o n f or W o m e n i n M at h e m ati cs ( A W M)
Ass o ci ati o n f or W o m e n i n S ci e n c e ( A WI S)
C o m pl e x S yst e ms S o ci et y ( C S S)
I nstit ut e of El e ctri c al a n d El e ctr o ni cs E n gi n e ers (I E E E)
I nt er n ati o n al U ni o n f or t h e St u d y of S o ci al I ns e cts (I U S SI)
S o ci et y f or I n d ustri al a n d A p pli e d M at h e m ati cs ( SI A M)
S o ci et y f or M at h e m ati c al Bi ol o g y ( S M B)

I n vit e d P r es e nt ati o ns
* u p c o mi n g
2020
P u bli c I nt e r vi e w : “ Ni n a F eff er m a n, ” Y o u M a d e it W eir d p o d c ast
P u bli c L e ct u r e : “ T h e R ol e of A p pli e d M at h i n R e al -ti m e P a n d e mi c R es p o ns e: H o w B asi c Dis e as e
M o d els W or k, ” NI M Bi o S W e bi n ar S eri es, K n o x vill e, T N
P u bli c I nt e r vi e w : “ M at h + Vir us + Us, ” H er e W e Ar e p o d c ast a n d Y o u T u b e vi d e o.
2019

12

L- 2 3
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 1 4 of 2 3 P a g eI D #: 6 9 8

P u bli c L e ct u r e : “ V a c ci n e A c c e pt a n c e a n d E pi d e mi c Ris ks, ” I nfi nit e F ut ur es E v e nt S eri es, M us e u m of
S ci e n c e a n d I n d ustr y, C hi c a g o, I L.
“ W h e n t o T ur n t o Bi ol o g y f or I ns pir ati o n i n S yst e ms D esi g n, ” DI M A C S 3 0 t h A n ni v ers ar y C o nf er e n c e,
N e w Br u ns wi c k, NJ.
“ P ati e nts as p at c h es: E c ol o gi c al c h all e n g es fr o m t h e e pi d e mi ol o g y of h e alt h c ar e e n vir o n m e nts, ” E S A
2 0 1 9, L o uis vill e, K Y.
“ M at h a n d Dis e as e, ” P ossi biliti es i n P osts e c o n d ar y E d u c ati o n a n d S ci e n c e ( PI P E S), U T K, K n o x vill e,
T N.
K e y n ot e A d d r ess : “ E v ol vi n g Effi ci e nt S ol uti o ns: H o w si m pl e n at ur al s yst e ms s ol v e t h e m ost
c o m pli c at e d pr o bl e ms, ” M BI C a pst o n e C o nf er e n c e 2 0 1 9, C ol u m b us, O H ( virt u al)
Pl e n a r y T al k : “ H o w AI D S pr e v al e n c e i m p a cts t h e e m er g e n c e of a nti bi oti c r esist a n c e i n b a ct eri al
i nf e cti o ns, ” SI A M B A M M 2 0 1 9, Ri c h m o n d, V A.
P u bli c L e ct u r e : “ M at h a n d Dis e as e, ” St a n d U p S ci e n c e, F arr a g ut, T N.
“ Bi os ur v eill a n c e a n d H o m el a n d S e c urit y, ” Pri n c et o n U ni v ersit y, NJ.
“ U n d erst a n di n g S o ci al C o m m u ni c ati o n S yst e ms wit h H o m ol o g y T h e or y, ” C o m pl e x S yst e ms S e mi n ar,
U ni v ersit y of Mi c hi g a n, A n n Ar b or, MI.
“ G oi n g A g ai nst t h e Gr ai n, ” W o m e n E m p o w er e d i n S T E M ( W e S T E M) 2 0 1 9, C h a m p ai g n, I L.
“ Y o u’r e W ort h It: J o b N e g oti ati o ns, ” W o m e n E m p o w er e d i n S T E M ( W e S T E M) 2 0 1 9, C h a m p ai g n, I L.
2018
“ M at h: A Criti c al, Tr e a c h er o us Bri d g e B et w e e n S ci e ntifi c Dis ci pli n es, ” A m eri c a n G e o p h yis c al U ni o n
( A G U 2 0 1 8), W as hi n gt o n D C.
“ T h e E v ol uti o n of S o ci al C o m pl e xit y as M ulti -S c al e F e e d b a c k C o ntr ol o n N et w or ks, ” S yst e ms T h e or y
L u n c h C oll o q ui u m, H ar v ar d M e di c al S c h o ol, B ost o n, M A.
“ S a vi n g B at s fr o m F u n g al Dis e as es wit h Li n e ar Al g e br a, ” Cl ar e m o nt C e nt er f or M at h e m ati c al S ci e n c es
C oll o q ui u m, Cl ar e m o nt, C A.
Pl e n a r y T al k : “ E v ol vi n g Effi ci e nt S ol uti o ns: H o w si m pl e n at ur al s yst e ms s ol v e t h e m ost c o m pli c at e d
pr o bl e ms, ” NI M Bi o S U n d er gr a d u at e R es e ar c h C o nf er e n c e 2 0 1 8, K n o x vill e, T N.
Pl e n a r y T al k : “ Li n ki n g L o c al D e cisi o ns wit h Gl o b al O ut c o m es i n N et w or ks: C as e St u di es i n B e h a vi or
a n d P o p ul ati o n H e alt h ” SI A M Lif e S ci e n c es 2 0 1 8, Mi n n e a p olis, M N.
“ T h e m at h e m ati c al bi ol o g y of n et w or ks: fr o m dis e as e o ut br e a ks t o c y b er -att a c ks, ” T N G o v er n or’s
S c h o ol, U ni v ersit y of T e n n ess e e, K n o x vill e, T N.
“ Tr a ns -dis ci pli n ar y a d v e nt ur es i n t h e m at h e m ati c al bi ol o g y of n et w or ks: fr o m dis e as e o ut br e a ks t o
c y b er att a c ks, ” DI M A C S R E U, R ut g ers U ni v ersit y, Pis c at a w a y, NJ.
P u bli c W e bi n a r : “ S o ci al a n d Bi ol o gi c al N et w or ks: T h e E v ol uti o n of S o ci al S yst e ms, ” U S N ati o n al
A c a d e mi es of S ci e n c es, E n gi n e eri n g, a n d M e di ci n e: M at h Fr o nti ers W e bi n ar S eri es
2017
“ S elf -Di a g n osi n g N et w or ks, ” D at a I nstit ut e S a n Fr a n cis c o C o nf er e n c e ( D S C O 1 7), S a n Fr a n c is c o, C A.
K e y n ot e: “ E v ol vi n g Effi ci e nt S ol uti o ns: H o w si m pl e n at ur al s yst e ms s ol v e t h e m ost c o m pli c at e d
pr o bl e ms, ” W or ks h o p o n Bi o -I ns pir e d S e c urit y, Tr ust Ass ur a n c e, a n d R esili e n c e ( Bi o S T A R 2 0 1 7),
S a n J os e, C A.
“ Wil dlif e Dis e as e M a n a g e m e nt O ut c o m es M a y D e p e n d o n t h e M e c h a nis m of H ost I m m u n e R es p o ns e, ”
Disti n g uis h e d L e ct ur e S eri es i n I m m u n ol o g y a n d I nf e cti o us Dis e as es, C e nt er f or E m er gi n g & R e e m er gi n g I nf e cti o us Dis e as es, S c h o ol of M e di ci n e, U ni v ersit y of W as hi n gt o n, P ull m a n, W A.
2016
13

L- 2 4
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 1 5 of 2 3 P a g eI D #: 6 9 9

“ E v ol vi n g H e alt h y P o p ul ati o ns, ” I nt er n ati o n al S y m p osi u m o n Bi o m at h e m ati cs a n d E c ol o g y E d u c ati o n
a n d R es e ar c h 2 0 1 6, C h arls et o n, S C.
“I n di vi d u als, S o ci eti es, a n d Cli m at e: M o d eli n g m oti v ati o ns t o c h a n g e , ” O a k Ri d g e N ati o n al L a b or at or y
W or ks h o p o n H u m a n A cti vit y at S c al e i n E art h S yst e m M o d els, O a k Ri d g e, T N.
“ N et w or k M o d els i n E pi d e mi ol o g y, ” U S -C a n a di a n I nstit ut es E pi d e mi ol o g y S u m m er S c h o ol:
M at h e m ati c al M o d eli n g of I nf e cti o us Dis e as e S pr e a d, M BI, C ol u m b us, O H.
“ T h e I n v asi o n E c ol o g y of Dis e as es i n a H u m a n E n vir o n m e nt, ” Art h ur M. S a c kl er C oll o q ui a of t h e
N ati o n al A c a d e m y of S ci e n c es, C o u pl e d H u m a n a n d E n vir o n m e nt al S yst e ms, W as hi n gt o n D C.
“ Gl o b al F e e d b a c k C o ntr ol o n C e ntr alit y i n S elf -Or g a ni zi n g S yst e ms ”, M at h e m ati c al Bi os ci e n c es I nstit ut e
W or ks h o p o n t h e C o ntr ol a n d O bs er v a bilit y of N et w or k D y n a mi cs, M BI, C ol u m b us, O H.
“ Zi k a C o ntr ol: M or e C o m pli c at e d t h a n H o p e d ? ” N e xt Ei nst ei n F or u m, D a k ar, S e n e g al.

2015
“ Li n e ar Al g e br ai c T o ols i n C o ns er v ati o n E c ol o g y, ” Si m o n A. L e vi n M at h e m ati c al, C o m p ut ati o n al a n d
M o d eli n g S ci e n c es C e nt er S e mi n ar, T e m p e, A Z.
“ A p pli c ati o ns of H o m ol o g y T h e or y t o A ni m al C o m m u ni c ati o n S yst e ms, ” M at h e m ati cs a n d St atisti cs
C oll o q ui u m, Ari z o n a St at e U ni v., T e m p e, A Z.
“ Tr a d e -offs B et w e e n C oll a b or ati o n a n d I nf e cti o n Ris k: C a n ‘s o ci al dist a n ci n g’ i m pr o v e c ol o n y
f u n cti o n ? ” C o nf er e n c e o n C o m pl e x S yst e ms 2 0 1 5, T e m p e, A Z.
“ T h e B e n efits of O n g oi n g D y n a mi cs i n S elf -Or g a ni zi n g S o ci al S yst e ms, ” C o nf er e n c e o n C oll e cti v e
D y n a mi cs a n d E v ol vi n g N et w or ks, B at h, U K.
Pl e n a r y T al k: E x pl oiti n g t h e C o m pl e xit y of I d e ntit y t o I nfiltr at e Cl a n d esti n e Gr o u ps – L ess o ns fr o m a
L A R P, C y D e ntit y C o nf er e n c e, C CI C A D A, N e w Br u ns wi c k, NJ.
“I n c or p or ati n g E v ol uti o n ar y R es c u e i nt o P o p ul ati o n Vi a bilit y M o d els, ” M at h e m ati cs of Pl a n et E a rt h:
W or ks h o p o n M a n a g e m e nt of N at ur al R es o ur c es, W as hi n gt o n D. C.
“ Distri b ut e d D et e cti o n Al g orit h ms f or R e al-Ti m e M ariti m e C y b er S e c urit y, ” J oi nt C CI C A D A & A M U
C o nf er e n c e o n M ariti m e C y b er S e c urit y, N e w Br u ns wi c k, NJ.
“ T h e D efi niti o n of C o m m u ni c ati o n: O n e w a y bi ol o g y a n d m at h p e o pl e a c ci d e nt all y t al k p ast e a c h ot h er
a n d w h at w e mi g ht b e a bl e t o d o t o fi x it, ” A n n u al M e eti n g, S o ci et y f or I nt e gr ati v e a n d
C o m p ar ati v e Bi ol o g y, W est P al m B e a c h, F L.
2014
“ Bi oI ns pir e d A n o m al y D et e cti o n: S o ci al I ns e cts a n d N et w or k S e c urit y, ” D e pt. of H o m el a n d S e c urit y
S ci e n c e a n d T e c h n ol o g y H S A R P A C y b er S e c urit y Di visi o n R es e ar c h a n d D e v el o p m e nt S h o w c as e
a n d T e c h ni c al W or ks h o p, W as hi n gt o n D. C.
“ n -T A N G L E: a n e w m et h o d f or c o m p ari n g n et w or ks a cr oss s c al es ” W or ks h o p o n A d v a n c es i n Dis cr et e
N et w or ks, D e pt. of M at h e m ati cs, U ni v. of Pitts b ur g h, Pitts b ur g h, P A.
K e y n ot e A d d r ess : “ Virt u al W orl ds H el pi n g P u bli c H e alt h Pr e p ar e d n ess, ” N e w J ers e y H e alt h C ar e
Q u alit y I nstit ut e A n n u al M e eti n g, Tr e nt o n, NJ.
“ A M at h e m ati ci a n’s R ol e i n Fi g hti n g E b ol a, ” S ai nt A n n’s S c h o ol, Br o o kl y n, N Y.
“ Pr o v a bl e B o u n d ari es o n Dis e as e O ut br e a ks i n S elf -Or g a ni zi n g S o ci al N et w or ks, ” T h e D u k e
U ni v ersit y M at h e m ati c al Bi ol o g y C oll o q ui u m, D ur h a m, N C.
K e y n ot e A d d r ess : “ D esi g ni n g y o ur o w n r ol e: W o m e n i n S T E M, ” T ufts U ni v ersit y Gr a d u at e St u d e nt
L u n c h e o n f or W o m e n i n S ci e n c e, M e df or d, M A.
“ Di visi o n of L a b or as a n A d a pt ati o n t o C o m b at Dis e as e Ris ks ? ” T h e S e v e nt h I nt er n ati o n al S y m p osi u m
o n Bi o m at h e m ati cs a n d E c ol o g y: E d u c ati o n a n d R es e ar c h ( B E E R), Cl ar e m o nt, C A.

14

L- 2 5
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 1 6 of 2 3 P a g eI D #: 7 0 0

“ H o w d y n a mi c n et w or ks aff e ct dis e as e tr a ns missi o n, ” T h e Bi o Cir c uits I nstit ut e, U C S D, S a n Di e g o,
C A.
“ T h e E v ol uti o n of S o ci al C o m pl e xit y, ” Pl a nt Bi ol o g y D e pt. S e mi n ar, U ni v. of V er m o nt, B urli n gt o n,
V T.
“ Pr o v a bl e B o u n d ari es o n Dis e as e O ut br e a ks i n S elf -Or g a ni zi n g S o ci al N et w or ks, ” M at h D e pt.
S e mi n ar, U ni v. of T e n n ess e e at K n o x vill e, T N.
“ M at h e m ati cs, O pti mi z ati o n, a n d t h e E v ol uti o n a n d B e h a vi or of S o ci al I ns e cts, ” M at h D e pt. J u ni or
C oll o q ui u m, U ni v. of T e n n ess e e at K n o x vill e, T N.
“ T h e Lif e of a M at h e m ati c al R es e ar c h er, ” S ai nt A n n’s S c h o ol, Br o o kl y n, N Y.
“ M at h e m ati cs, O pti mi z ati o n, a n d t h e E v ol uti o n a n d B e h a vi or of S o ci al I ns e cts, ” S o ci al I ns e ct R es e ar c h
Gr o u p S e mi n ar, S c h o ol of Lif e S ci e n c es, Ari z o n a St at e U ni v., A Z.
“ N -t a n gl e: A N et w or k C o m p aris o n M et h o d, ” W or ks h o p o n A ni m al S o ci al N et w or ks, NI M Bi o S, T N
2013
“ E v ol uti o n ar y pr ess ur es, I nf e cti o us Dis e as es, a n d S elf -Or g a ni zi n g S o ci al S yst e ms, ” E v ol uti o n ar y
St u di es S e mi n ar, C o -S p o ns or e d b y t h e C oll e cti v e D y n a mi c s of C o m pl e x S yst e ms R es e ar c h Gr o u p,
t h e U n d er gr a d u at e M at h Cl u b, U psil o n Pi E psil o n, a n d Pi M u E psil o n, S U N Y Bi n g h a mt o n, N Y.
“ Bi oI ns pir e d A n o m al y D et e cti o n, ” D H S C y b er S e c urit y PI M e eti n g, Arli n gt o n, V A.
“ M at h e m ati cs, E v ol uti o n ar y Bi ol o g y, E pi d e mi ol o g y, a n d N ati o n al S e c urit y ”, S ai nt A n n’s S c h o ol,
Br o o kl y n, N Y.
“ E v ol uti o n of R e pr o d u cti v e Ti mi n g a n d S o ci al Or g a ni z ati o n i n H o n e y B e es, ” S ci e ntifi c L e ar ni n g
F or u m at F M C, E wi n g, NJ.
“ Cr o w d S o ur ci n g W o W: A C as e St u d y i n I m pr o vi n g P a n d e mi c Pr e p ar e d n ess, ” A n n u al G e o r g e M.
Si d eris Bi ol o g y C o nf er e n c e, LI U, Br o o kl y n, N Y.
2012
P u bli c L e ct u r e: “ M at h, C o m pl e xit y, a n d S o ci al Gr o u ps: Usi n g m at h t o u n d erst a n d t h e n at ur e of
s o ci et y, ” C a m p us Lif e E nri c h m e nt C o m mitt e e ( C L E C) L e ct ur e, G e or gi a S o ut h er n U ni v., G A.
“ H o w a n d W h y St at i c A p pr o xi m ati o ns C a n F ail t o Gi v e A d e q u at e I nsi g ht i nt o Pr o c ess es o n D y n a mi c
N et w or ks, ” M at h D e pt. C oll o q ui u m, G e or gi a S o ut h er n U ni v., G A.
“ T h e or eti c al W orl ds: A n E x pl or ati o n of M o d els a n d M o d el S yst e ms, ” T ufts U ni v, D e pt. of Ci vil a n d
E n vir o n m e nt al E n gi n e eri n g S e mi n ar S eri es, M e df or d, M A.
“ H el p, m y a v at ar is si c k! ” P a n el T al k, S X S W, A usti n, T X.
“ WI S E – W o m e n, I g n or e Sill y E x p e ct ati o ns! ” 2 0 1 2 WI S E C o nf er e n c e, T e x as A & M, T X.
2011
“ T h e E v ol uti o n of S o ci al C o m pl e xit y, ” C U N Y I niti ati v e f or t h e T h e or eti c al S ci e n c es W or ks h o p o n A
U nifi e d T h e or y of E v ol uti o n, C U N Y, N Y.
“ B al a n ci n g W or kf or c e Pr o d u cti vit y A g ai nst Dis e as e Ris ks f or E n vir o n m e nt al a n d I nf e cti o us
E pi d e mi cs, ” M at h D e pt. S e mi n ar, U ni v. of G h a n a, L e g o n, G h a n a.
“ S el e cti v e Pr ess ur es fr o m Dis e as e o n S o ci al B e h a vi or i n H osts, ” DI M A C S/ M BI U S - Afri c a n
Bi o M at h e m ati cs I niti ati v e: W or ks h o p o n G e n eti cs a n d Dis e as e C o ntr ol, El mi n a, G h a n a.
Pl e n a r y A d d r ess : “ T h e F ut ur e of T e c h n ol o g y a n d K n o wl e d g e, ” N e xt -G e n er ati o n C o m m u ni c ati o ns
I nt er o p er a bilit y W or ks h o p, C hi c a g o, I L.
“ Virt u al W orl ds a n d R e al E pi d e mi cs - I nsi g hts fr o m W o W's C orr u pt e d Bl o o d Pl a g u e, ” E -Virt u os es
I nt er n ati o n al C o nf er e n c e o n S eri o us G a m es, V al e n ci e n n es, Fr a n c e.

15

L- 2 6
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 1 7 of 2 3 P a g eI D #: 7 0 1

Pl e n a r y A d d r ess : “ Dis e as e R o b ust n ess a n d E v ol uti o n ar y S el e cti v e Pr ess ur es o n S o ci al Or g a ni z ati o n i n
E us o ci al I ns e cts, ” M at h e m ati c al Bi os ci e n c es I nstit ut e W or ks h o p o n I ns e ct S elf -Or g a ni z ati o n a n d
S w ar mi n g, O hi o St at e U ni v., O H.
“ H a k k ar’s C orr u pt e d Bl o o d Pl a g u e: H o w a n O ut br e a k i n W o W is H el pi n g E pi d e mi ol o gists Cr e at e
B ett er Dis e as e M o d els, ” G a m e D e v el o p er’s C o nf er e n c e 2 0 1 1, S a n Fr a n cis c o, C A
“ E x pl ori n g t h e R ol e of B e h a vi or i n I nf e cti o us Dis e as e D y n a mi cs: M at h e m ati c al I nsi g hts fr o m W orl d of
W ar cr aft a n d ot h er Virt u al W orl ds, ” DI M A C S/ C CI C A D A St u d e nt W or ks h o p o n W h er e t h e
M at h e m ati c al a n d C o m p ut ati o n al S ci e n c es M e et S o ci et y, R ut g ers U ni v ersit y, NJ
“ M ulti -Di m e nsi o n al D at a a n d t h e I nfl u e n c e of H u m a n B e h a vi or i n Bi os ur v eill a n c e f or I nf e cti o us
Dis e as e O ut br e a ks, ” Gl o b al Bi os ur v eill a n c e C o nf er e n c e: E n a bli n g S ci e n c e a n d T e c h n ol o g y – 2 n d
M e eti n g i n t h e Bi ol o gi c al T hr e at N o n -Pr olif er ati o n C o nf er e n c e S eri es, S a nt a F e, N M
2010
“ Distri b ut e d Al g orit h ms f or C oll e cti v e Vis u ali z ati o n of D at a, ” Vis u al a n al yti cs W or ks h o p 2 0 1 0,
I m p eri al C oll e g e L o n d o n, U K
“ T h e I m p ort a n c e of B e h a vi or al D y n a mi cs o n Dis e as e B ur d e n, ” S o ut h er n Afri c a n Wil dlif e C oll e g e,
S o ut h Afri c a
“ T h e I m p a ct of Str ess o n P o p ul ati o ns, ” DI M A C S A d v a n c e d St u d y I nstit ut e o n C o ns er v ati o n Bi ol o g y,
Li m p o p o, S o ut h Afri c a
“ S o ci al B e h a vi or i n Virt u al W orl ds, ” P a n el Dis c uss a nt – I n Pl a y 2 0 1 0, T or o nt o, C a n a d a
“ S elf -Or g a ni zi n g N et w or ks, S o ci al C o m pl e xit y, a n d Dis e as e D y n a mi cs, ” R e nss el a er P ol yt e c h ni c
I nstit ut e, N Y
“ Pl a yi n g wit h Pl a g u e: E x pl ori n g Dis e as e D y n a mi cs fr o m Wit hi n, ” 2 0 1 0 A A A S A n n u al M e eti n g, S a n
Di e g o, C A
“ E pi d e mi ol o gi c al Pr ess ur es o n t h e E v ol uti o n of S o ci al C o m pl e xit y, ” M at h e m ati c al M et h o ds i n S yst e ms
Bi ol o g y, T el A vi v, Isr a el
2009
“I nf or m ati o n T h e or eti c T o ol f or Bi os ur v eill a n c e, ” C CI C A D A Ki c k off M e eti n g, R ut g ers U ni v., NJ
“ P ers p e cti v es, C h all e n g es, a n d Cr e ati vit y i n U n d erst a n di n g B e h a vi or al E pi d e mi ol o g y, ” W or ks h o p o n
B e h a vi or al E pi d e mi ol o g y, R ut g ers U ni v., NJ
“ E v ol uti o n ar y I m pli c ati o ns of E pi d e mi cs o n S o ci al B e h a vi or, ” E v ol uti o n ar y G e n eti cs a n d G e n o mi cs at
R ut g ers, R ut g ers U ni v., NJ
P a n el p arti c i p a nt a n d S p e a k er o n P o p ul ar C ult ur e a n d S ci e n c e, S h effi el d D o c u m e nt ar y Fil m F esti v al
' 0 9, S h effi el d, U nit e d Ki n g d o m
K e y n ot e A d d r ess: “ E pi d e mi ol o gi c al I nsi g hts fr o m Virt u al W orl ds, ” Lif e S ci e n c e Di al o g u e
H ei d el b er g, - I n a u g ur al C o nf er e n c e, G er m a n y
“ S o ci al St a bilit y a n d S u c c ess: A n e w c o n c e pt i n s elf-or g a ni zi n g s yst e ms a n d pr ef er e nti al att a c h m e nt, ”
Offi c e of N a v al R es e ar c h W or ks h o p o n C o m pl e x S yst e ms, I nstit ut e f or P ur e a n d A p pli e d
M at h e m ati cs, L os A n g el es, C A
“ T h e I m p a ct of H o us e h ol d C a pit al M o d els o n T ar g e t e d E pi d e mi ol o gi c al C o ntr ol Str at e gi es f or
Dis e as es wit h A g e -B as e d Eti ol o gi es, ” M a k er er e U ni v., K a m p al a, U g a n d a
K e y n ot e A d d r ess : “ H a k k ar's C orr u pt e d Bl o o d Pl a g u e: H o w a n O ut br e a k i n W orl d of W ar cr aft is
H el pi n g E pi d e mi ol o gists Cr e at e B ett er Dis e as e M o d els, ” G a m es f or H e alt h – Virt u al W orl ds,
B ost o n, M A
“ N et w or k R e pr es e nt ati o ns a n d t h e E v ol uti o n of S o ci al C o m pl e xit y, ” Fr o nti ers i n A p pli e d a n d
C o m p ut ati o n al M at h e m ati cs, N e w J ers e y I nstit ut e of T e c h n ol o g y, NJ

16

L- 2 7
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 1 8 of 2 3 P a g eI D #: 7 0 2

“ M at h e m ati c al O pti mi z ati o n, E v ol uti o n ar y S o ci o bi ol o g y, a n d E us o ci al I ns e cts, ” C o nf er e n c e o n T h e
P o w er of A n al ysis, Pri n c et o n U ni v., NJ
“ M at h e m ati c al I nsi g hts i nt o B e h a vi or al E pi d e mi ol o g y, ” U ni v. of T e x as H e alt h S ci e n c e C e nt er,
H o u st o n, T X
“ B asi cs of M at h e m ati c al M o d eli n g, ” M os q uit o M o d eli n g M a d e E as y D a y, C e nt er f or V e ct or Bi ol o g y,
R ut g ers U ni v., NJ
“ M at h e m ati c al a n d C o m p ut ati o n al M et h o ds i n E pi d e mi ol o g y a n d Bi o S ur v eill a n c e, ” J a c ks o n St at e
U ni v ersit y, M S
“ M at h e m ati cs, O pti mi z ati o n, a n d t h e E v ol uti o n a n d B e h a vi or of S o ci al I ns e cts, ” U N C, C h a p el Hill,
A p pli e d M at h, N C
“ N et w or k m o d els i n E pi d e mi ol o g y a n d S o ci o bi ol o g y: I ntr o d u cti o n, O v er vi e w, a n d R e c e nt A d v a n c es, ”
M at h e m ati c al S ci e n c es, R PI, N Y
2008
“ S o ci al B e h a vi or a n d t h e D y n a mi cs of C orr u pt e d Bl o o d, ” Ri c e U ni v ersit y/ G a m es f or H e alt h, H o ust o n,
T X
“ P ossi bl e S el e cti v e M e c h a nis ms f or t h e E v ol uti o n of Dis e as e -d ef e nsi v e S o ci al Or g a ni z ati o ns, ” E c ol o g y
a n d E v ol uti o n S e mi n ar, B ost o n U ni v., M A
“ B e h a vi or al E pi d e mi ol o g y i n Virt u al W orl ds: E x pl oit i n g t h e virt u al e x p eri e n c e, ” A d v a n c e d
T e c h n ol o g y A p pli c ati o ns f or C o m b at C as u alt y C ar e 0 8; T el e m e di ci n e a n d A d v a n c e d T e c h n ol o gi es
R es e ar c h C e nt er M e di c al Si m ul ati o n & Tr ai ni n g T e c h n ol o g y
“ R e c e nt A d v a n c es i n t h e W h at, H o w a n d W h e n of N et w or k M o d els i n I nf e cti o us Dis e as e
E pi d e mi ol o g y, ” SI A M 2 0 0 8, C A
“ W orl d of W ar cr aft C orr u pt e d Bl o o d Dis e as e: E pi d e mi ol o gi c al O bs er v ati o ns a n d Fi n di n gs, ” G a m es f or
H e alt h, B alti m or e, M D
“ C o m p ut ati o n al E c ol o g y: T h e E v ol uti o n of S o ci alit y, ” Fr o nti ers i n A p pli e d a n d C o m p ut ati o n al
M at h e m ati cs, N e w J ers e y I nstit ut e of T e c h n ol o g y, NJ
Pl e n a r y T al k : “ S elf -or g a ni zi n g s o ci al b e h a vi or a n d dis e as e -d ef e nsi v e or g a ni z ati o n al str at e gi es i n
s o ci al s p e ci es, ” C o m pl e xit y 2 0 0 8, U ni v. Illi n ois Ur b a n a, I L
“ Fr o m t h e I n di vi d u al t o t h e P o p ul ati o n: M o d eli n g t h e m a n y l e v els of e v ol uti o n ar y fit n ess i n s o ci al
s p e ci es, ” D e pt. of E c ol o g y a n d E v ol uti o n a n d N at ur al R es o ur c es, R ut g ers U ni v., NJ
“I n di vi d u al D e cisi o ns, Gr o u p Effi ci e n c y, " E x x o n M o bil, Cli nt o n, N.J.
2007
P u bli c L e ct u r e : “ Virt u al G a m es, R e al E pi d e mi cs: C a n W e L e ar n R e al -Lif e L ess o ns i n Bi o D ef e ns e
fr o m O nli n e G a m es ? ” Bi os e c urit y, Bi ot e c h n ol o g y a n d Gl o b al H e alt h S e mi n ar S eri es, Pr o gr a m o n
S ci e n c e a n d Gl o b al S e c urit y, Pri n c et o n U ni v., NJ
“ Dis e as e o n N et w or ks: C a n St ati c R e pr es e nt ati o ns C a pt ur e t h e F ull C o m pl e xit y of a D y n a mi c
Pr o c ess ? ” N D S S L S e mi n ar S eri es, Vir gi ni a Bi oi nf or m ati cs I nstit ut e, Vir gi ni a T e c h, V A
P u bli c L e ct u r e : “ R e al P e o pl e, Virt u al W orl ds: W at c hi n g a Pl a g u e U nf ol d, ” I nstit ut e f or M at h e m ati c al
S ci e n c es, N ati o n al U ni v. of Si n g a p or e
“ T h e C o nti n u e d M yst er y of R e g ul ar, Ol d, A n n u al Fl u, ” W or ks h o p o n M at h e m ati c al m o d els f or t h e
St u d y of t h e I nf e cti o n D y n a mi cs of E m er g e nt a n d R e -e m er g e nt Dis e as es i n H u m a ns, I nstit ut e f or
M at h e m ati c al S ci e n c es, N ati o n al U ni v. of Si n g a p or e
“ E pi d e mi cs a n d t h e E v ol uti o n of S o ci al C o m pl e xit y, ” Pr o gr a m i n E c ol o g y a n d E v ol uti o n S e mi n ar
S eri es, R ut g ers U ni v., NJ
“ Pl a yi n g G a m es at S c h o ol: P ar e nts, P u bli c S c h o ols, a n d C hil dr e n's H e alt h, ” DI M A C S W or ks h o p o n
G a m e T h e or y i n E pi d e mi ol o g y a n d E c ol o g y, R ut g ers U ni v., NJ
17

L- 2 8
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 1 9 of 2 3 P a g eI D #: 7 0 3

“ A n al y zi n g E ntr o p y i n Bi os ur v eill a n c e, ” U. S. D e pt. of H o m el a n d S e c urit y r es e ar c h bri efi n g,
W as hi n gt o n D. C.
“ F a nt asti c Pr o bl e ms i n M at h e m ati c al E c ol o g y, ” DI M A C S Bi o -M at h C o n n e cti o n Fi el d T est ers
W or ks h o p, R ut g ers U ni v., NJ
“ D o es S e c uri n g I nfr astr u ct ur e A g ai nst W or kf or c e -D e pl eti o n D e p e n d o n W h et h er t h e Ris k is
E n vir o n m e nt al or I nf e cti o us ? ” DI M A C S W or ks h o p o n M at h e m ati c al M o d eli n g of I nf e cti o us
Dis e as es i n Afri c a, U ni v. of St ell e n b os c h, S o ut h Afri c a
“ S o ci al i nt er a cti o n a n d dis e as e d y n a mi cs, ” W or ks h o p o n A n al ysis of Ti m e S eri es D at a i n
E pi d e mi ol o g y, T ufts U ni v. S c h o ol of M e di ci n e, B ost o n, M A
“ T h e B e h a vi ors of I n di vi d u als a n d P o p ul ati o ns, ” W or ki n g Gr o u p o n S p ati o -T e m p or al a n d N et w or k
M o d eli n g of Dis e as e s, I C M S, E di n b ur g h, S c otl a n d
“ T h e E v ol uti o n of C o m pl e xit y i n Alr e a d y S o ci al Gr o u ps, ” D e pt. of E c ol o g y a n d E v ol uti o n ar y Bi ol o g y,
Pri n c et o n U ni v., NJ
“ Dis e as e as a S el e cti v e Pr ess ur e a n d t h e E v ol uti o n of S o ci al C o m pl e xit y, ” A p pli e d Bi o m at h e m ati cs,
St o n y Br o o k, N Y
“ Vit al R at e S e nsiti vit y A n al ysis: A n e w m et h o d f or p o p ul ati o n vi a bilit y a n al ysis - T w o e x a m pl es of its
us e, ” A p pli e d Bi o m at h e m ati cs, St o n y Br o o k, N Y
“ Dis e as e as a S el e cti v e Pr ess ur e a n d t h e E v ol uti o n of S o ci al C o m pl e xit y, ” M ori n L a b, D e pt. of
E c ol o g y , E v ol uti o n a n d N at ur al R es o ur c es, R ut g ers U ni v., NJ
2006
“ T h e R ol e of I n di vi d u al C h oi c e i n t h e E v ol uti o n of S o ci al C o m pl e xit y a n d its I m pli c ati o ns T o w ar ds t h e
E m er g e n c e of Z o o n oti c I nf e cti o ns, ” DI M A C S C o m p ut ati o n al a n d M at h e m ati c al E pi d e mi ol o g y
S e mi n ar, R ut g ers U ni v., NJ
“ Pr e p ari n g S o ci et al I nfr astr u ct ur e A g ai nst Dis e as e -R el at e d W or kf or c e D e pl eti o n, ” DI M A C S W or ks h o p
o n F a ci n g t h e C h all e n g e of I nf e cti o us Dis e as es i n Afri c a, U ni v ersit y of t h e Wits w at ersr a n d, S o ut h
Afri c a
“ F a nt asti c Pr o bl e ms i n M at h e m ati c al E c ol o g y, ” DI M A C S Bi o -M at h C o n n e ct I nstit ut e f or Hi g h S c h o ol
T e a c h ers, D e n v er, C O
“ S o ci et al Bi o -d ef e ns e - H o w C a n w e A c c o m plis h S af et y, St a bilit y a n d Effi ci e n c y ? ” SI A M A n n u al
M e eti n g, B ost o n, M A
“ W h e n f e m al es s h o ul d st o p s u p p orti n g l a z y m al es: m at h e m ati cs a n d h o n e y b e es ? ” DI M A C S R E U
S e mi n ar S eri es, R ut g ers U ni v., NJ
“ S el e ct e d Pr o bl e ms i n E pi d e mi ol o g y. ” DI M A C S T ut ori al o n D at a Mi ni n g a n d E pi d e mi ol o g y, NJ
“ H o w W o ul d T er mit es Pr e p ar e f or P a n d e mi c Bir d Fl u a n d W h at S h o ul d W e L e ar n Fr o m T h e m ? ” J oi nt
D e pt. of E nt o m ol o g y a n d C e nt er f or I nf e cti o us Dis e as e D y n a mi cs S e mi n ar, P e n n St at e U ni v., P A
“ Diff er e nt S c al es of Bi o D ef e ns e - C a n s o ci eti es b e b ot h s af e a n d effi ci e nt ? ” DI M A C S C o m p ut ati o n al
a n d M at h e m ati c al E pi d e mi ol o g y S e mi n ar, R ut g ers U ni v., NJ
2005
“ T er mit es i n t h e N a ti o n′s S er v i c e, ” DI M A C S C o m p ut ati o n al a n d M at h e m ati c al E pi d e mi ol o g y S e mi n ar,
R ut g ers U ni v., NJ
“ A p pli c ati o ns of S elf -Or g a ni zi n g S yst e ms t o E pi d e mi ol o g y. ” DI M A C S Mi x er S eri es, R ut g ers U ni v.,
NJ
“ Dis e as e Si g n at ur es: A N e w C o m bi n at ori al M et h o d f or E pi d e mi olo g y, ” DI M A C S C o m p ut ati o n al a n d
M at h e m ati c al E pi d e mi ol o g y S e mi n ar, R ut g ers U ni v., NJ
“ F a nt asti c Pr o bl e ms i n M at h e m ati c al E c ol o g y, ” DI M A C S Bi o -M at h C o n n e ct I nstit ut e f or Hi g h S c h o ol
T e a c h ers, R ut g ers U ni v., NJ
18

L- 2 9
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 2 0 of 2 3 P a g eI D #: 7 0 4

“ H o w C o m pl e x S yst e ms C a n Si m plif y a C o m pl e x Pr o bl e m: W h at E pi d e mi ol o gists C a n L e ar n Fr o m
I ns e cts, ” I nstit ut e f or A d v a n c e d St u d y, C e nt er f or S yst e ms Bi ol o g y S e mi n ar S eri es, NJ
2004
“I n c or p or ati n g B e h a vi or a n d S o ci al Str u ct ur e i nt o P at h o g e n D ef e ns e Str at e gi es. C o nf er e n c e o n I n n at e
I m m u nit y f or Bi o d ef e ns e, ” N ati o n al D ef e ns e U ni v ersit y's C e nt er f or T e c h n ol o g y a n d N ati o n al
S e c urit y P oli c y ( C T N S P) & t h e D e p art m e nt of D ef e ns e, W as hi n gt o n D. C.
K e y n ot e A d d r ess: “ S o ci al I ns e cts, I m m u n o c o mp et e n c e a n d E pi d e mi ol o g y: A M o d el S yst e m f or
S yst e ms M o d el ers, ” V a n d er bilt M e di c al S c h o ol, D e pt. of Mi cr o bi ol o g y a n d I m m u n ol o g y A n n u al
R etr e at, T N
“ Dis e as e a n d I m m u n o c o m p et e n c e i n Gr o u p -Li vi n g A ni m als: I m pli c ati o ns f or H u m a n E pi d e mi ol o g y, ”
D A R P A/ D S O W or ks h o p o n E n d o g e n o us D ef e ns e, V A
C o nt ri b ut e d P r es e nt ati o ns
2 0 0 8. “ A n I nt er dis ci pli n ar y Fr a m e w or k f or D efi ni n g a n d Disti n g uis hi n g S e c urit y D esi d er at a f or
P ers o n all y S e nsiti v e I nf or m ati o n, ” DI M A C S/ D y D A n W or ks h o p o n I nt er n et Pri v a c y: F a cilit ati n g
S e a ml ess D at a M o v e m e nt wit h A p pr o pri at e C o ntr ols
2 0 0 6. “ A Vit al R at e S e nsiti vit y A n al ysis ( V R S A) f or N o n-st a bl e A g e Distri b uti o ns a n d S h ort -t er m
Pl a n ni n g, ” N ort h A m eri c a n Or nit h ol o gi c al C o nf er e n c e
2 0 0 4. “ A M at h e m ati c al A n al ysis of R e pr o d u cti v e Fissi o n, ” N ort h A m eri c a n S e c ti o n of t h e
I nt er n ati o n al U ni o n f or t h e St u d y of S o ci al I ns e cts ( wit h p u blis h e d a bstr a ct)
2 0 0 4. “ T w o -st a g e W a v el et A n al ysis Ass ess m e nt of D e p e n d e n ci es i n Ti m e S eri es of Dis e as e
I n ci d e n c e, ” T h e 2 0 0 4 C o nf er e n c e of t h e I nt er n ati o n al E n vir o n m etri cs S o ci et y ( wit h p u blis h e d
a bstr a ct)
2 0 0 4. “ M at h e m ati c al M o d eli n g of B e h a vi or a n d E c ol o g y i n S o ci al I ns e cts: S o ci al m e c h a nis ms of
p at h o g e n c o ntr ol i n t er mit e c ol o ni es, ” D e p art m e nt al R es e ar c h S e mi n ar, T ufts U ni v.
2 0 0 3. “ M o d eli n g W at er b or n e I nf e cti o us O ut br e a ks: W h e n, w h e r e a n d h o w b a d will t h e y b e ? ” T h e 2 0 0 3
C o nf er e n c e of t h e I nt er n ati o n al E n vir o n m etri cs S o ci et y ( wit h p u blis h e d a bstr a ct)
2 0 0 3. “ M o d eli n g Dis e as e R esist a n c e t hr o u g h S o ci al I nt er a cti o ns i n T er mit es, ” T h e 2 n d C o nf er e n c e o n
t h e M at h e m ati cs a n d Al g orit h ms of S o c i al I ns e cts ( wit h p u blis h e d a bstr a ct)

S e r vi c e ( e xt er n al t o H o m e I nstit uti o n)
O n g oi n g

2020
2 0 1 9 -2 0 2 1
2019
2019
2018

R ef er e e of p a p ers f or A m eri c a n N at ur alist, A n n al es Z o ol o gi ci F e n ni ci, B e h a vi or al
E c ol o g y a n d S o ci o bi ol o g y, Bi ol o gi c al C o ns er v ati o n, B M C E v ol uti o n ar y Bi ol o g y,
B ull eti n for M at h e m ati c al Bi ol o g y , C a n a di a n Bi os yst e ms E n gi n e eri n g, C o ns er v ati o n
L ett ers, I M A J o ur n al of A p pli e d M at h e m ati cs, J o ur n al of Bi ol o gi c al D y n a mi cs,
J o ur n al of I nf e cti o us Dis e as es, J o ur n al of I ns e ct S ci e n c e , J o ur n al of N o nli n e ar
D y n a mi cs, M at h e m ati c al Bi os c i e n c es, J o ur n al of M e di c al I nt er n et R es e ar c h, J o ur n al
of t h e R o y al S o ci et y I nt erf a c e, M al ari a J o ur n al, N at ur e, N at ur e S ci e ntifi c R e p orts,
P ar asit es a n d V e c otrs, P e er J, P h yis c al R e vi e ws X, P L o S C o m p ut ati o n al Bi ol o g y,
P L o S O n e, Pl o S M e di ci n e, P N A S, V a c ci n e, V e ct or -B or n e a n d Z o o n oti c Dis e as es
D e p ut y E dit or P L O S C o m p ut ati o n al Bi ol o g y
Dir e ct or of D e v el o p m e nt, E n h a n ci n g Di v ersit y i n Gr a d u at e E d u c ati o n ( E D G E)
F o u n d ati o n
G u est E dit or P L O S C o m p ut ati o n al Bi ol o g y
C o -Or g a ni z er SI A M N et w or k S ci e n c e A n n u al M e eti n g ( N S 1 9)
N S F a d h o c pr o p os al r e vi e w er
19

L- 3 0
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P
2018
2018
2 0 1 7 -c o nt.
2017
2017
2016
2016
2014
2013- 2016
2013
2 0 1 3 -2 0 1 6
2 0 1 3 -2 0 1 9
2012
2012
2011
2011
2011
2011
2010
2010
2010
2010
2010
2010
2009
2009
2009
2009
2 0 0 8 -2 0 1 0
2 0 0 8 -2 0 1 0

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 2 1 of 2 3 P a g eI D #: 7 0 5

B urr o u g hs W ell c o m e F u n d gr a nt pr o p os al r e vi e w er
C o -Or g a ni z er I E E E S y m p osi u m o n S e c urit y a n d Pri v a c y, e ntitl e d: 3r d W or ks h o p o n
Bi o -i ns pir e d S e c urit y, Tr ust, Ass ur a n c e a n d R esili e n c e ( Bi o S T A R 2 0 1 8)
M e m b er of t h e L e a d ers hi p T e a m of t h e N ati o n al I nstit ut e f or M at h e m ati c al a n d
Bi ol o gi c al S y nt h esis
C o -Or g a ni z er NI M Bi o S W or ks h o p o n A p pl yi n g O pt i mi z ati o n T e c h ni q u es t o
A gri c ult ur al Pr o bl e ms
A R O gr a nt pr o p os al r e vi e w er
C o -Or g a ni z er M BI (t h e M at h e m ati c al Bi os ci e n c es I nstit ut e at O hi o St at e) W or ks h o p o n
G e n er ali z e d N et w or k Str u ct ur es a n d D y n a mi cs
C o -Or g a ni z er M BI (t h e M at h e m ati c al B i os ci e n c es I nstit ut e at O hi o St at e) E m p h asis
S e m est er o n D y n a mi cs of Bi ol o gi c all y I ns pir e d N et w or ks
A R O gr a nt pr o p os al r e vi e w er
M e m b er of S ci e ntifi c A d vis or y B o ar d f or M BI (t h e M at h e m ati c al Bi os ci e n c es I nstit ut e
at O hi o St at e)
NI H g r a nt pr o p os al r e vi e w er
C o -Or g a ni z er NI M Bi o S W or ki n g Gr o u p o n Cli m at e C h a n g e a n d V e ct or -b or n e Dis e as es
I n vit e d P arti ci p a nt J oi nt NI M Bi o S -S E S Y N C W or ki n g Gr o u p o n H u m a n Ris k
P er c e pti o n a n d Cli m at e C h a n g e
I n vit e d Gr a nt Pr o p os al R e vi e w er f or t h e U nit e d St at es – Isr a el Bi n ati o n al S ci e n c e
F o u n d ati o n
U S E n vir o n m e nt al Pr ot e cti o n A g e n c y FI F R A S ci e ntifi c A d vis or y P a n el ( S A P) o n
P olli n at or Ris k Ass ess m e nt Fr a m e w or k
I n vit e d P arti ci p a nt - E xt er n al E x p ert R e vi e w P a n el f or Bi os ci e n c e R es e ar c h a n d
D e v el o p m e nt at L os Al a m os N ati o n al L a b or at or y
Pr o gr a m C o m mitt e e M e m b er, T h e T hir d I nt er n ati o n al U K V A C W or ks h o p o n Vis u al
A n al yti cs ( V A W 2 0 1 1)
N S F gr a nt pr o p os al r e vi e w er
C o -Or g a ni z er DI M A C S/ M BI U S - Afri c a n Bi o M at h e m ati cs I niti ati v e: A d v a n c e d St u d y
I nstit ut e a n d W or ks h o p o n G e n eti cs a n d Dis e as e C o ntr ol
Or g a ni z er of t h e DI M A C S Mi ni -W or ks h o p o n ‘ E m er g e nt Pr o p erti es of D y n a mi c
Bi ol o gi c al N et w or ks’
L e ct ur er at DI M A C S/ M BI U S - Afri c a n Bi o M at h e m ati cs I niti ati v e: W or ks h o p a n d
A d v a n c e d St u d y I nstit ut e o n C o ns er v ati o n Bi ol o g y
Or g a ni z er of t h e DI M A C S Mi ni -W or ks h o p o n ‘ G a m e-t h e or eti c A p pr o a c h es t o M e di c al
Pr o g n osis’
N S F gr a nt r e vi e w er/ p a n el p arti ci p a nt
I n vit e d I nt er n ati o n al R e vi e w er f or C e ntr e of E x c ell e n c e Gr a nts f or t h e A ustr ali a n
R es e ar c h C o u n cil
C o -Or g a ni z er of t h e DI M A C S W or ks h o p o n M o d eli n g a n d Miti g ati o n of t h e I m p a cts of
E xtr e m e W e at h er E v e nts t o H u m a n H e alt h Ris ks
C o -Or g a ni z er DI M A C S W or ks h o p o n E c o n o mi c E pi d e mi ol o g y, M a k er er e U ni v.,
K a m p al a, U g a n d a
N S F gr a nt r e vi e w er/ p a n el p arti ci p a nt
C o -Or g a ni z er/ Pr o gr a m C o -C h air W or ks h o p o n E c o n o mi c E pi d e mi ol o g y, M a k er er e
U ni v., K a m p al a, U g a n d a
C o -Or g a ni z er M os q uit o M o d eli n g M a d e E as y D a y at t h e N.J. C e nt er f or V e ct or Bi ol o g y
M e m b er C hi ef E dit ori al C o m mitt e e f or t h e DI M A C S B o o k S eri es
M e m b er E dit ori al B o ar d of DI M A C S E d u c ati o n al M o d ul es S eri es
20

L- 3 1
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P
2008
2008
2007
2 0 0 6 -2 0 1 6
2004
2004
2003
2 0 0 0 -2 0 0 2
1999

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 2 2 of 2 3 P a g eI D #: 7 0 6

I n vit e d or g a ni z er SI A M mi ni -s y m p osi u m o n N et w or k M o d els of I nf e cti o us Dis e as e
R a n t h e R e c o n n e ct Pr o gr a m o n Bi os ur v eill a n c e at DI M A C S – a w e e k l o n g s h ort c o urs e
f or t e a c hi n g f a c ult y at li b er al arts i nstit uti o ns o n a n a d v a n c e d t o pi c t o e x p a n d t h eir
o w n a n d t h eir st u d e nts r es e ar c h o p p ort u nit i es
M e nt or t o t w o t e a ms of r es e ar c h ers f or D e p art m e nt of H o m el a n d S e c urit y f u n d e d
R es e ar c h E x p eri e n c e f or t h os e at Mi n orit y S er vi n g I nstit uti o ns
A d vis or y/ E dit ori al B o ar d M e m b er f or t h e j o ur n al A n n al es Z o ol o gi ci F e n ni ci
S u bj e ct M att er E x p ert o n I n n at e I m m u nit y a n d Bi o d ef e ns e, N ati o n al D ef e ns e U ni v ersit y
R es e ar c h C o ns ult a nt, D A R P A ( vi a Str at e gi c A n al ysis, I N C.)
D e v el o p e d al g orit h m f or M a n a gi n g E n d a n g er e d S p e ci es H a bit at i n H a w aii - M E S H H
s oft w ar e p a c k a g e ( R e e d, J. M., N. H. F e ff er m a n, C. S. El p hi c k, a n d M. Sil b er n a gl e.
2 0 0 4)
T e c h ni c al E dit or ( Cr y pt o gr a p h y) t o M a c Mill a n Pr ess
I n vit e d R e vi e w er of A E S s u b missi o n t o t h e N ati o n al I nstit ut e of St a n d ar ds a n d
T e c h n ol o g y, l at er p u blis h e d as T h e T w ofis h E n cr y pti o n Al g orit h m , S c h n ei er, et al,
1 9 9 9, J o h n Wil e y & S o ns I n c.

S e r vi c e (i nt er n al t o H o m e I nstit uti o n)
2020
2 0 1 9 -c o nt.
2019
2019
2018
2 0 1 8 -c o nt.
2 0 1 7 -c o nt.
2017
2017
2 0 1 6 -2 0 1 7
2 0 1 6 -2 0 1 7
2 0 1 6 -c o nt.
2 0 1 5 -2 0 1 6
2014
2010
2 0 0 9 -2 0 1 0
2009
2 0 0 9 -2 0 1 0
2 0 0 8 -2 0 1 2
2 0 0 8 -2 0 1 0
2 0 0 8 -2 0 1 0
2 0 0 7 -2 0 0 9

A d vis or t o t h e C O VI D -1 9 R e -I m a gi ni n g F all T as k F or c e
H e a d of Gr a d u at e A d missi o ns, Pr o gr a m i n E c ol o g y a n d E v ol uti o n ar y Bi ol o g y
R es e ar c h M e nt or f or t h e NI M Bi o S S u m m er R es e ar c h E x p eri e n c es ( S R E) f or
U n d er gr a d u at es
C o -Or g a ni z er T ut ori al o n N et w or ks at NI M Bi o S
S er v e o n d e p art m e nt al Pr o m oti o n a n d T e n ur e C o m mitt e e f or Pr of. O’ M e ar a
S er v e o n F a c ult y M e nt ori n g C o m mitt e e f or Pr of. Ki vli n
S er v e d as D e p art m e nt al C o or di n at or f or U ni v ersit y F ut ur e F a c ult y Pr o gr a m
R es e ar c h M e nt or f or t h e NI M Bi o S S u m m er R es e ar c h E x p eri e n c es ( S R E) f or
U n d er gr a d u at es
L e ct ur er f or J oi nt 2 0 1 7 M BI -NI M Bi o S -C A M B A M S u m m er Gr a d u at e Pr o gr a m
U ni v ersit y of T e n n ess e e, K n o x vill e D e p art m e nt of E c ol o g y a n d E v ol uti o n ar y Bi ol o g y
S e ar c h C o m mitt e e M e m b er a n d Di v ersit y A d v o c at e ( E c os yst e m E c ol o g y S e ar c h)
U ni v ersit y of T e n n ess e e, K n o x vill e D e p art m e nt of M at h e m ati cs S e ar c h C o m mitt e e
M e m b er ( M at h e m ati c al Bi ol o g y S e ar c h)
U ni v ersit y of T e n n ess e e, K n o x vill e Pr o gr a m i n E c ol o g y a n d E v ol uti o n ar y Bi ol o g y
Gr a d u at e Aff airs C o m mitt e e M e m b er
R ut g ers U ni v ersit y Bi ol o gi c al S ci e n c es Ar e a C o m mitt e e M e m b er
R ut g ers U ni v ers it y E E N R D e p art m e nt Wil dlif e Bi ol o g y F a c ult y S e ar c h C o m mitt e e
M e m b er
C o -M e nt or t o a t e a m of r es e ar c h ers f or D e p art m e nt of H o m el a n d S e c urit y f u n d e d
R es e ar c h E x p eri e n c e f or t h os e at Mi n orit y S er vi n g I nstit uti o ns
Or g a ni z er of t h e E E N R s e mi n ar s eri es
Or g a ni z er of t h e DI M A C S W or ks h o p o n B e h a vi or al E pi d e mi ol o g y
M e m b er E & E E x e c uti v e C o m mitt e e
M e m b er of E E N R C urri c ul u m C o m mitt e e
M e m b er C hi ef E dit ori al C o m mitt e e f or t h e DI M A C S B o o k S eri es
M e m b er E dit ori al B o ar d of DI M A C S E d u c ati o n al M o d ul es S eri es
M e m b er of t h e R ut g ers U ni v ersit y A d vis or y B o ar d t o t h e Offi c e f or t h e Pr o m oti o n of
W o m e n i n S ci e n c e, E n gi n e eri n g a n d M at h e m ati cs
21

L- 3 2
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P
2 0 0 6 -2 0 1 5
2 0 0 5 -2 0 0 7

D o c u m e nt 5 8- 1

Fil e d 0 7/ 0 8/ 2 0

P a g e 2 3 of 2 3 P a g eI D #: 7 0 7

R es e ar c h A d vis or f or R ut g ers U ni v. DI M A C S R E U
C o -or g a ni z er DI M A C S s e mi n ar s eri es M at h e m ati c al a n d C o m p ut ati o n al E pi d e mi ol o g y

22

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

A P P E N DI X M
M- 1
D o c u m e nt 7 7- 1 Fil e d 0 7/ 1 2/ 2 0

P a g e 1 of 3 P a g eI D #: 8 3 5

U NI T E D S T A T E S DI S T RI C T C O U R T
F O R T H E S O U T H E R N DI S T RI C T O F I N DI A N A
)
D A L E H A R T K E M E Y E R ( A K A S EI G E N) )
)
Pl ai ntiff ,
)
)
v.
)
)
WI L LI A M P. B A R R, E T A L,
)
)
D ef e n d a nts .
)
)

C as e N o. 2: 2 0- c v - 0 0 3 3 6-J M S-MJ D

D E C L A R A TI O N O F RI C K WI N T E R
I, Ri c k Wi nt er , d o h er e b y d e cl ar e a n d st at e as f oll o ws:
1.

I a m e m pl o y e d b y t h e U nit e d St at es D e p art m e nt of J usti c e, F e d er al B ur e a u of Pris o ns
( “B O P ”) , as R e gi o n al C o u ns el f or t h e B O P’s N ort h C e ntr al R e gi o n. I h a v e h el d t his
p ositi o n si n c e O ct o b er 2 0 1 6. I h a v e b e e n e m pl o y e d b y t h e B O P si n c e 1 9 9 4.

2.

T h e st at e m e nts I m a k e h er ei n aft er ar e m a d e o n t h e b asis of m y r e vi e w of t h e offi ci al fil es
a n d r e c or ds of t h e B O P, m y o w n p ers o n al k n o wl e d g e, or o n t h e b asis of i nf or m ati o n
a c q uir e d b y m e t hr o u g h t h e p erf o r m a n c e of m y offi ci al d uti es.

3.

I pr e vi o usl y pr o vi d e d a d e cl ar ati o n i n t his m att er st ati n g t h at “ a s of J ul y 2, 2 0 2 0, ni n et y
t w o st aff m e m b ers at F C C T err e H a ut e h a v e b e e n t est e d f or C O VI D -1 9.

Of t h os e, o n e

st aff m e m b er at t h e F CI pr e vi o usl y t est e d p ositi v e b ut h as r e c o v er e d. At t h e U S P, n o st aff
m e m b ers h a v e t est e d p ositi v e f or C O VI D -1 9. N o F C C st aff m e m b ers ar e c urr e ntl y p ositi v e
f or C O VI D- 1 9. ” S e e E C F N o. 3 3, E x. A ¶ 7.
4.

O n t h e m or ni n g of J ul y 8, a B O P st aff m e m b er at F CI T err e H a ut e l e ar n e d t h at i n di vi d u als
wit h w h o m h e visit e d t h e pri or w e e k e n d t est e d p ositi v e f or C O VI D -1 9. T h e st aff m e m b er

1

C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

M- 2
D o c u m e nt 7 7- 1 Fil e d 0 7/ 1 2/ 2 0

P a g e 2 of 3 P a g eI D #: 8 3 6

i m m e di at el y l eft w or k, w hi c h w as at 1 1: 3 0 a. m ., an d e nt er e d s elf -q u ar a nti n e (i. e., h e h as
n ot r et ur n e d t o F CI T err e H a ut e si n c e d e p arti n g o n J ul y 8).
5.

O n t h e e v e ni n g of J ul y 1 1, t h e st aff m e m b er i nf or m e d B O P t h at h e r e c ei v e d a p ositi v e
C O VI D - 1 9 t est r es ult e arli er t h at d a y.

6.

B et w e e n t h e st aff m e m b er’s p ot e nti al e x p os ur e a n d his d e p art ur e o n J ul y 8 , h e, am o n g
ot h er t hi n gs, att e n d e d t h e l a w e nf or c e m e nt m e eti n g wit h o utsi d e l a w e nf or c e m e nt i n
pr e p ar ati o n f or t h e s c h e d ul e d e x e c uti o ns ; att e n d e d a m e eti n g r e g ar di n g t h e h a n dli n g of
d e m o nstr at ors at t h e s c h e d ul e d e x e c uti o ns; a n d att e n d e d t o a n iss u e at t h e S C U.

7.

Alt h o u g h t h e st aff m e m b er di d n ot w e ar a m as k at all ti m es d uri n g t his p eri o d, h e di d n ot
c o m e i nt o c o nt a ct wit h t h e B O P e x e c uti o n pr ot o c ol t e a m, w hi c h arri v e d t h e aft er n o o n of
J ul y 8 (i. e., aft er t h e st aff m e m b er h a d d e p art e d) , n or d o es h e r e c all c o mi n g i nt o c o nt a ct
wit h a n y m e m b ers o f t h e Crisis S u p p ort T e a m ( C S T), w h o ar e i n v ol v e d i n vi cti m wit n ess
tr a ns p ort ati o n a n d l o gisti cs.

8.

D uri n g t his p eri o d, t h e st aff m e m b er di d n ot visit t h e e x e c uti o n f a cilit y or t h e a dj a c e nt
c o m m a n d c e nt er, n or d o es h e r e c all b ei n g i n t h e wit n ess st a gi n g ar e a or a n y of t h e v e hi cl es
t h at will tr a ns p ort wit n ess es f or t h e e x e c uti o ns.

9.

B O P is t a ki n g st e ps t o d et er mi n e wit h w h o m t h e st aff m e m b er w as i n c o nt a ct, a n d will
f oll o w g ui d eli n es iss u e d b y t h e C e nt er s f or Dis e as e C o ntr ol a n d Pr e v e nti o n .

F or t h e

d ur ati o n of t h e e x e c uti o n or u ntil a n e g ati v e t est is o bt ai n e d, B O P will e ns ur e t h at t h os e
st aff m e m b ers i d e ntifi e d as h a vi n g h a d c o nt a ct wit h t h e i nf e ct e d st aff m e m b er d o n ot h a v e
c o nt a ct wit h t h e i n m at es s c h e d ul e d f or e x e c uti o n, m i nist ers of r e c or d, wit n ess es of t h e
e x e c uti o n, att or n e ys, or p r ess.
1 0.

B O P will c o nti n u e t o p erf or m t h e miti g ati o n m e as ur es i d e ntifi e d i n m y pri or d e cl ar a ti o n
d at e d J ul y 6, i n cl u di n g t e m p er at ur e c h e c k a n d s y m pt o m s cr e e n all i n di vi d u als arri vi n g at
2

M- 3
C a s e 2: 2 0- c v- 0 0 3 3 6- J M S- D L P

D o c u m e nt 7 7- 1

Fil e d 0 7/ 1 2/ 2 0

P a g e 3 of 3 P a g eI D #: 8 3 7

